Semiannual Report to Congress
     U.S. Department of Housing and Urban Development
    Office of Inspector General




    Semiannual Report to Congress
       April 1, 2005 through September 30, 2005

  Office of Inspector General
Profile of Performance
                                                        Profile of Performance
                                    For the Period, April 1, 2005, through September 30, 2005
             Audit and Investigation Results                         Audit         Investigation       Hotline        Combined            FY 2005

 Recommendations That Funds Be Put to Better Use1-2                $232,932,139                                       $232,932,139       $1,173,803,375
 Questioned Costs1-2                                                $76,095,529                                        $76,095,529         $166,084,390
 Indictments/Informations                                                                     768                               768                1,656
 Convictions/Pleas/Pretrial Diversions                                                        567                               567                1,022
 Civil Actions                                                                                  21                               21                   53
 Recoveries/Receivables                                                              $377,223,259        $196,726     $377,419,985         $877,539,815
 Funds Put to Better Use                                                             $145,461,739      $2,021,607     $147,474,143         $188,435,562
 Collections from Audits                                            $12,997,042                                        $12,997,042          $20,758,563
 Administrative Actions                                                        5            1,756                             1,761                2,911
 Personnel Actions                                                                              38                               38                   72
 Arrests3                                                                                   4,096                             4,096                5,882
 Search Warrants                                                                                31                               31                   66
 Weapons Seized                                                                                 23                               23                   28
 Subpoenas Issued                                                             43              769                               812                1,218

  1
    This represents all cost transactions during the period in which dollar amounts were reported with any recommendation.
  2
    Most of the amounts of Recommendations that Funds be Put To Better Use and Recommended Questioned costs were agreed to by HUD management.
    These are considered Management Decisions. For recommendations that Funds Be Put To Better use, $249,184,994 had Management Decisions. Of
    the Recommended Questioned Costs, $53,462,902 had Management Decisions. Recommended and Management Decision amounts differ because not
    all Recommendations had received final determination at the end of the period, and there were some management decisions agreed to on recommendations
    from previous periods.
  3
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
Inspector General
          General’ss Message
                                  It is with pride that I present the U.S. Department of Housing
                              and Urban Development Office of Inspector General Semiannual
                              Report that outlines our activities from April 1, 2005, to September
                              30, 2005.

                            HUD OIG is serving the American taxpayer by our constant
                        oversight of the administration of HUD programs, through our
                        audits of their financial statements, and through our internal
                        control reviews. In addition, we serve the American taxpayer
                        through our criminal and administrative investigations of white-
                        collar crime and program abuse. Employee misconduct is
                        thoroughly checked through our vigorous efforts to investigate
                        and mitigate reported offenses. We continue to aggressively assess
information security, report on departmental compliance and accountability, and identify
management and performance challenges.




                                                                                                     Inspector General’s Message
    During the past 6 months we have seen HUD OIG’s “return on investment” far
exceed our own initial goal. During this period, OIG audits and investigations reported
on or returned over 18 times more than we spent from our appropriations. I am very
pleased by our increases, but we remain highly motivated and committed to achieving
even greater results in 2006.

     The destruction and aftermath of Hurricanes Katrina, Wilma, and Rita challenge
HUD OIG with a task every bit as daunting as the reconstruction of lower Manhattan
following the September 11th attack. HUD OIG’s continuing oversight of the funds
allocated to the Lower Manhattan Redevelopment Corporation has become somewhat
of a template on how to oversee funds allocated to recovery from these natural disasters.
Consequently, the HUD OIG audit, investigative and inspections staff stands ready to
provide a continuing and comprehensive review of the expenditure of funds and will
stand guard against those who would seek to defraud the government. In line with this
added responsibility, HUD OIG has established a semipermanent base of operations in
New Orleans to oversee operations in the Gulf Coast area.

     Our major accomplishments for this period are highlighted in this report. HUD
OIG continues to address problems plaguing single-family housing. Through
comprehensive audits of poorly performing lenders and effective investigations, we are
showing significant results. During the 6-month reporting period, OIG’s
recommendations have sought monetary recoveries through loan indemnifications
exceeding $133 million , loss reimbursements of more than $10 million, and substantial
civil remedies. During this semiannual reporting period, HUD OIG completed 30 external
audits of Federal Housing Administration (FHA)-approved mortgage lenders and three
internal audits of single-family program activities.

     Our investigative workload in FHA’s single-family fraud prevention also continues
to grow dramatically. During this timeframe, OIG opened 140 investigative cases and
closed 106 cases in this program area, resulting in 236 indictments; 222 arrests; and 169
convictions, pleas, or pretrial diversions.



Inspector General’s Message                                                                          iii
                                    One particular area in which we are having success is our collaboration with the
                                Social Security Administration in identifying FHA mortgage insured loans with false
                                Social Security numbers. In one such case, lenders were using false numbers to obtain
                                mortgages for undocumented immigrants. As a result of our investigation, the lender
                                and 11 mortgagors were successfully prosecuted, and a number of undocumented
                                immigrants are facing deportation.

                                      Another area of concern that we have previously reported on dealt with estimate
                                errors. A 2000 HUD study concluded that 60 percent of all rent and subsidy calculations
                                contained overpayment or underpayment errors totaling more than $3.2 billion. In
                                2005, an update to this study estimated a gross error payment of $1.2 billion. Although
                                still a large amount, this represents a 62-percent reduction from the error estimate
                                completed in 2000. The reduction is attributed, in part, to OIG-related activities and to
                                enhanced program guidance, training, oversight, and enforcement, as well as improved
                                income verification efforts, voluntary compliance by tenants due to promotion of the
                                issue, an improved computer matching process, and an improved methodology for
Inspector General’s Message



                                reviewing income discrepancies.

                                     A major highlight contained in the report is the HUD OIG activities in rooting out
                                public corruption. For example, East Cleveland Mayor Emmanuel Onunwor was
                                indicted on 22 counts of Federal Racketeering Influenced Corrupt Organizations Act
                                (RICO) conspiracy, mail fraud, public corruption, witness tampering, and violations of
                                tax laws. Moreover, HUD OIG, along with the Federal Bureau of Investigation and the
                                Internal Revenue Service, recently executed 13 Federal arrest warrants against a
                                Massachusetts executive director, his family, and associates, who stole from the
                                Springfield Housing Authority. The violations included conspiracy to commit RICO
                                crimes, conspiracy to commit bribery, bribery, conspiracy to commit theft, extortion,
                                conspiracy to commit mail fraud, money laundering, and obstruction of justice.

                                     In closing, I want to acknowledge the extraordinary efforts of our auditors,
                                investigators, inspectors and support personnel who form the core of HUD OIG. During
                                the last 6 months, scores of our employees have been selected for awards and
                                commendations by the President, the President’s Council on Integrity and Efficiency,
                                U.S. Attorneys’ Offices, the Department of Justice, elected officials, and editorial boards,
                                providing evidence of the superior work they have performed. I again want to thank
                                them for their dedication and service to the American taxpayers and their commitment
                                to eliminate waste, fraud, and abuse.


                                     Thank you,




                                     Kenneth M. Donohue, Sr.
                                     Inspector General




                       Inspector General’s Message                                                                        iv
Information About the HUD Office of Inspector General

     B       eginning with fiscal year (FY) 2004, the Office of Inspector General (OIG)
               instituted a return-on-investment (ROI) computation as one method to
measure its contribution to the Department’s mission. This measure takes the total dollars
of recommended funds to be put to better use1 and questioned costs,2 together with
receivables and recoveries3 from Investigations and Hotline, and divides that total by
OIG’s operating costs, including salaries, for the period. The resulting ratio represents
the potential amounts that could be realized or better used per dollar of OIG expenditures
either during current or future periods. Many factors affect when and how much is
actually returned so OIG uses recommended amounts in our ROI calculation, rather
than management decisions, to better relate results to the work that was actually done
during the period. Much of this period’s ROI results from the annual financial audit
finding regarding the need to deobligate $708 million in U.S. Department of Housing
and Urban Development (HUD) funds. The majority of contributing factors to the
ROI are the results from reviews of external parties who administer or benefit from
HUD-funded programs. HUD refers many matters such as these to OIG for audit or
investigation, as appropriate.

Our target ROI ratio for FY 2005 was set at 8 to 1. This means that for every dollar
Congress appropriated to OIG, we should uncover $8 that should be returned or put to




                                                                                                                         Information About Us
better use. The budget for FY 2005 is $103,166,236. The ROI in dollars computed on an
8 to 1 ratio would be $825,329,884 million. We are pleased to report that for FY 2005 our
ROI is 23 to 1 – far exceeding a goal of 8 to 1.

                                       October 1, 2004 - April 1, 2005 -                           Fiscal Year
                                       March 31, 2005 September 30, 2005                              2005
Return on Investment                       28 to 1          18 to 1                                  23 to 1

1
  “Funds to be put to better use” is an item required by Congress and is defined in the Inspector General Act as
“a recommendation by the Office that funds could be used more efficiently if management of an
establishment took actions to implement and complete the recommendation, including (1) reductions in outlays;
(2) deobligations of funds from programs or operations; (3) withdrawal of interest subsidy costs on loans or loan
guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements related to the
operations of the establishment, a contractor, or grantee; (5) avoidance of unnecessary expenditures noted in
preaward reviews of contractor grant agreements; or (6) any other savings which are specifically identified.”
2
  “Questioned costs” are “a cost that is questioned by the Office because of (1) an alleged violation or provision of
law, regulation, contract, grant, or cooperative agreement, or other agreement or document governing the
expenditure of funds; (2) a finding that at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose is unnecessary or
unreasonable.”
3
  “Receivables and recoveries” are based on the total dollar value of (1) criminal cases—the amount of restitution,
criminal fines, and/or special assessments based on a criminal judgment or established through a pretrial diversion
agreement; (2) civil cases—the amount of damages, penalties, and/or forfeitures resulting from judgments issued
by any court (Federal, State, local, military, or foreign government) in favor of the U.S. Government or the amount of
funds to be repaid to the U.S. Government based on any negotiated settlements by a prosecuting authority or the
amount of any assessments and/or penalties imposed, based on actions brought under the Program Fraud Civil
Remedies Act, civil money penalties, or other agency-specific civil litigation authority, or settlement agreements
negotiated by the agency while proceeding under any of these authorities; (3) voluntary repayments—the amount of
funds repaid on a voluntary basis or funds repaid based on an agency’s administrative processes by a subject of an
OIG investigation or the value of official property recovered by an OIG during an investigation before prosecutive
action is taken, any of which result from a case in which an OIG has an active investigative role; and (4)
“administrative receivables and recoveries” based on Hotline referrals to HUD program staff.


Information About the HUD Office of Inspector General                                                                     v
                                    OIG Cost of Operations for FY 2005
                                               $103,166,236
                     Centrally Managed/             Administration & Operations
                       Funded Services                   $6,555,822 = 6%
                      $22,488,255 = 22%




                                                                Personnel Services
                                                                $74,122,159 = 72%




                                          OIG Results for FY 2005
                                           $2.4 Billion Captured

                                                        Questioned Costs
                     Receivables/Recoveries             $166,084,390= 7%
                       $877,539,815= 36%




                                                            Funds Put to Better Use
                                                             $1,362,238,937= 57%
OIG Charts




        OIG Charts                                                                    vi
                                  Audit Reports Issued by Program

               Single-Family
                  Housing                                             Public and Indian
                    38%                                                   Housing
                                                                             39%




               Community Planning                                 Multifamily Housing
                                                   Other
                 & Development                                            9%
                                                    5%
                      9%




                            Monetary Benefits Identified by Program

                                                                      Public & Indian
                 Single-Family
                                                                         Housing
                    Housing
                                                                            26%
                      47%




                                                                            Multifamily
                                    Community Planning            Other      Housing
                                      & Development                            16%
                                                                   0%
                                          11%




                                                                                          Audit Charts
                      Monetary Benefits Identified in Millions of Dollars
               160
                                                                               $143
               140

               120
               100
                        $81
                80

                60                      $50
                40                                                  $34
                20
                                                           $0
                 0
                     Public and      Multifamily      Other     Community Single-Family
                       Indian         Housing                    Planning &  Housing
                      Housing                                   Development




Audit Charts                                                                              vii
                                               Investigation Cases Opened by Program (Total: 591)

                                                                                    Public & Indian
                                        Single-Family                                  Housing
                                           Housing                                        66%
                                             19%




                                                   Other/Ginnie Mae                       Multifamily
                                                                      Community
                                                         1%                                Housing
                                                                       Planning &
                                                                                             11%
                                                                      Development
                                                                           3%



                                            Investigation Recoveries by Program (Total: $377,223,259)

                                        Multifamily        Community Planning
                                          Housing            & Development
                                             1%                   11%                 Other/Ginnie Mae
                                        ($3,648,858)          ($42,179,216)                 0%
                                                                                            ($0)


                                     Public &
                                      Indian
                                     Housing
                                        3%
Investigation Charts




                                   ($12,675,659)
                                                                                      Single-Family Housing
                                                                                                85%
                                                                                           ($318,719,526)



                                            Investigation Funds Put to Better Use (Total: $145,461,739)

                                                              Other/Ginnie Mae              Single-Family
                                    Community Planning
                                                                     0%                        Housing
                                      & Development
                                                                  ($118,347)                     18%
                                           29%
                                       ($42,775,121)                                         ($25,535,680)




                                          Multifamily                                       Public & Indian
                                            Housing                                            Housing
                                              13%                                                 40%
                                          ($19,377,603)                                      ($57,654,988)




                 Investigation Charts                                                                         viii
Acronyms List
     AIDS       Acquired Immune Deficiency Syndrome
     ARCATS     Audit Resolution and Corrective Action Tracking System
     ARIGA      Assistant Regional Inspector General in Charge
     ASAC       Assistant Special Agent in Charge
     CDBG       Community Development Block Grant
     CID        Criminal Investigation Division
     CPD        Office of Community Planning and Development
     DEA        Drug Enforcement Administration
     DOJ        U.S. Department of Justice
     FBI        Federal Bureau of Investigation
     FEMA       Federal Emergency Management Agency
     FFMIA      Federal Financial Management Improvement Act of 1996
     FHA        Federal Housing Administration
     FHASL      Federal Housing Administration Subsidiary Ledger
     FHASL      FHA Subsidiary Ledger
     FIRMS      Facilities Integrated Resources Management System
     FY         Fiscal Year
     GAO        Government Accountability Office
     GNMA       Government National Mortgage Association (aka Ginnie Mae)
     HAP        Housing Assistance Payment



                                                                              Acronym List
     HHS        U.S. Department of Health and Human Services
     HIV        Human Immunodeficiency Virus
     HOME       Home Ownership Made Easy
     HOPWA      Housing Opportunities for Persons with AIDS
     HRRC       Hurricane Recovery and Response Center
     HUD        U.S. Department of Housing and Urban Development
     IAFCI      International Association of Financial Crimes Investigators
     IG         Inspector General
     IRS        Internal Revenue Service
     JTTF       Joint Terrorism Task Force


Acronym List                                                                  ix
                         LAS     Loan Accounting System
                         MFIS    Multifamily Insurance System
                         MTW     Moving to Work
                         NAHRO   National Association of Housing and Redevelopment Officials
                         OA      Office of Audit
                         OI      Office of Investigation
                         OIG     Office of Inspector General
                         OMB     Office of Management and Budget
                         OND     Officer Next Door
                         PFCRA   Program Fraud Civil Remedies Act
                         PHA     Public Housing Authorities
                         PIH     Office of Public and Indian Housing
                         PMA     President’s Management Agenda
                         REO     Real Estate Owned
                         RESPA   Real Estate Settlement and Procedures Act
                         RHIIP   Rental Housing Integrity Improvement Project
                         RIGA    Regional Inspector General for Audit
                         SA      Special Agent
                         SAC     Special Agent in Charge
                         SSA     Social Security Administration
                         SSN     Social Security Number
                         TEAM    Total Estimation and Allocation Mechanism
Acronym List




                         TND     Teacher Next Door
                         USDA    U.S. Department of Agriculture
                         USMS    U.S. Marshal’s Service
                         VA      U.S. Department of Veterans Affairs
                         VOE     Verifications of Employment
                         VOR     Verifications of Rent




          Acronym List                                                                         x
Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges                          1
The HUD Office of Inspector General                                              2
Major Issues Facing HUD                                                          2
Chapter 2 - HUD’s Single Family Housing Programs                                11
Audits                                                                          12
Investigations                                                                  24
Chapter 3 - HUD’s Public and Indian Housing Programs                            59
Audits                                                                          60
Investigations                                                                  77
Chapter 4 - HUD’s Multifamily Housing Programs                                 103
Audits                                                                         104
Investigations                                                                 110
Chapter 5 - HUD’s Community Planning and Development Programs                  115
Audits                                                                         116
Investigations                                                                 121
Chapter 6 - Other Significant Audits and Investigations/OIG Hotline            129
Audits                                                                         130
Investigations                                                                 132
OIG Hotline                                                                    135
Chapter 7 - Outreach Efforts                                                   137
Chapter 8 - Review of Policy Directives                                        149




                                                                                     Table of Contents
Proposed Rules                                                                 150
Proposed Notices                                                               152
Mortgagee Letter                                                               154
Chapter 9 - Audit Resolution                                                   157
Delayed Actions                                                                158
Federal Financial Management Improvement Act of 1996                           160
Appendix 1 - Audit Reports Issued                                              161
Appendix 2 - Tables                                                            169
Table A - Audit Reports Issued Prior to Start Period with No Management
Decision as of September 30, 2005                                              170
Table B - Significant Audit Reports Described in Previous Semiannual Reports
in Which Final Action Had Not Been Completed as of September 30, 2005          172
Table C - Inspector General Issued Reports with Questioned and Unsupported
Costs as of September 30, 2005                                                 182
Table D - Inspector General Issued Reports with Recommendations that Funds
Be Put to Better Use as of September 30, 2005                                  183
HUD OIG Operations Telephone Listing                                           185



Table of Contents                                                                    xi
                         Reporting Requirements
                          The specific reporting requirements as prescribed by the Inspector General Act of 1978,
                                    as amended by the Inspector General Act of 1988, are listed below:
                         Source/Requirement                                                                  Pages
                         Section 4(a)(2)-review of existing and proposed legislation and regulations.        149-155
                         Section 5(a)(1)-description of significant problems, abuses, and                 1-147, 157-160
                         deficiencies relating to the administration of programs and operations
                         of the Department.
                         Section 5(a)(2)-description of recommendations for corrective action with           11-147
                         respect to significant problems, abuses, and deficiencies.
                         Section 5(a)(3)-identification of each significant recommendation           Appendix 2, Table B
                         described in previous semiannual report on which corrective action
                         has not been completed.
                         Section 5(a)(4)-summary of matters referred to prosecutive authorities              11-147
                         and the prosecutions and convictions that have resulted.
                         Section 5(a)(5)-summary of reports made on instances where information           No Instances
                         or assistance was unreasonably refused or not provided, as required by
                         Section 6(b)(2) of the Act.
Reporting Requirements




                         Section 5(a)(6)-listing of each audit report completed during the                Appendix 1
                         reporting period, and for each report, where applicable, the total
                         dollar value of questioned and unsupported costs and the dollar value of
                         recommendations that funds be put to better use.
                         Section 5(a)(7)-summary of each particularly significant report                    11-147
                         and the total dollar value of questioned and unsupported costs.
                         Section 5(a)(8)-statistical tables showing the total number of              Appendix 2, Table C
                         audit reports and the total dollar value of questioned and
                         unsupported costs.
                         Section 5(a)(9)-statistical tables showing the total number of audit        Appendix 2, Table D
                         reports and the dollar value of recommendations that funds be put
                         to better use by management.
                         Section 5(a)(10)-summary of each audit report issued before the             Appendix 2, Table A
                         commencement of the reporting period for which no management
                         decision had been made by the end of the period.
                         Section 5(a)(11)-a description and explanation of the reasons for                No Instances
                         any significant revised management decisions made during the
                         reporting period.
                         Section 5(a)(12)-information concerning any significant management               No Instances
                         decision with which the Inspector General is in disagreement.
                         Section 5(a)(13)-the information described under section 05(b) of the               160
                         Federal Financial Management Improvement Act of 1996.



                   Reporting Requirements                                                                              xii
        Chapter 1




    HUD’s Management
and Performance Challenges
                                       The HUD Office of                               Major Issues Facing HUD
                                       Inspector General                                    The Department’s primary mission is


                                            T
                                                                                       to expand housing opportunities for
                                                       he U.S. Department of
                                                                                       American families seeking to better their
                                                       Housing      and      Urban
                                                                                       quality of life. HUD seeks to accomplish
                                                Development (HUD) Inspector
                                                                                       this through a wide variety of housing and
                                       General is one of the original 12 Inspectors
                                                                                       community development grant, subsidy,
                                       General authorized under the Inspector
Management & Performance Challenges


                                                                                       and loan programs. HUD’s budget
                                       General Act of 1978. Over the years, the
                                                                                       approximates $31 billion annually.
                                       Office of Inspector General (OIG) has
                                                                                       Additionally, HUD assists families in
                                       forged a strong alliance with HUD
                                                                                       obtaining housing by providing Federal
                                       personnel in recommending ways to
                                                                                       Housing Administration (FHA) mortgage
                                       improve departmental operations and in
                                                                                       insurance for single-family and multifamily
                                       prosecuting program abuses. OIG strives
                                                                                       properties. At the end of fiscal year (FY)
                                       to make a difference in HUD’s
                                                                                       2005, FHA’s outstanding mortgage
                                       performance and accountability and is
                                                                                       insurance portfolio was about $434 billion.
                                       committed to its statutory mission of
                                                                                       Ginnie Mae, through its mortgage-backed
                                       detecting and preventing fraud, waste,
                                                                                       securities program, gives issuers access to
                                       and abuse as well as promoting the
                                                                                       capital markets through the pooling of
                                       effectiveness and efficiency of government
                                                                                       federally insured loans.
                                       operations. While organizationally OIG is
                                       located within the Department, it operates
                                                                                           With about 8,800 staff nationwide,
                                       independently with separate budgetary
                                                                                       HUD relies upon numerous partners for the
                                       authority. This independence allows for
                                                                                       performance and integrity of a large
                                       clear and objective reporting to the
                                                                                       number of diverse programs. Among these
                                       Secretary and the Congress. HUD OIG’s
                                                                                       partners are hundreds of cities that manage
                                       activities seek to
                                                                                       HUD’s Community Development Block
                                             Promote efficiency and effectiveness in   Grant (CDBG) funds, hundreds of public
                                             programs and operations,                  housing authorities that manage assisted
                                                                                       housing funds, thousands of HUD-
                                             Detect and deter fraud and abuse,         approved lenders that originate and service
                                                                                       FHA-insured loans, and hundreds of
                                             Investigate allegations of misconduct
                                                                                       Ginnie Mae mortgage-backed securities
                                             by HUD employees, and
                                                                                       issuers that provide mortgage capital.
                                             Review and make recommendations
                                             regarding existing and proposed                Achieving HUD’s mission continues to
                                             legislation and regulations affecting     be an ambitious challenge for its limited
                                             HUD.                                      staff, given the agency’s diverse mission,
                                                                                       the thousands of program intermediaries
                                           The Executive Office and the Offices        assisting the Department in this mission,
                                       of Audit, Investigation, Counsel, and           and the millions of beneficiaries in its
                                       Management and Policy are located in            housing programs. HUD’s management
                                       Headquarters. Also, the Offices of Audit        problems have for years kept it on the
                                       and Investigation have staff located in eight   Government Accountability Office’s (GAO)
                                       regions and numerous field offices.             list of agencies with high-risk programs.


                               HUD’s Management and Performance Challenges                                                       2
HUD’s management team, GAO, and OIG            reported challenges are the continued focus
share the view that improvements in            of OIG’s audit and investigative efforts.
human capital, acquisitions, and               HUD is working to address these
information systems are essential in           challenges and in some instances, has
removing HUD from its high-risk                made significant progress in correcting
designation. More specifically, HUD must       them. The Department’s management
focus these improvements on rental             challenges and current efforts to address
housing assistance programs and single-        these challenges are as follows.
family housing mortgage insurance




                                                                                              Management & Performance Challenges
programs, two areas where financial and            Departmentwide Organizational
programmatic exposure is the greatest.         Changes. For more than a decade,
That HUD’s reported management                 the Department has struggled with
challenges are included as part of the         organizational and management changes
President’s Management Agenda (PMA) is         in an effort to streamline its operations.
indicative of HUD’s important role in the      These changes were necessary as HUD tried
Federal sector. HUD’s current                  to manage more programs and larger
Administration places a high priority on       budgets with fewer staff. The former HUD
correcting those weaknesses that put HUD       Administration realigned the Department
on GAO’s high-risk list.                       along functional lines, separating outreach
                                               from program administration. Also, it
      As of the end of FY 2005, HUD’s PMA      placed greater reliance on automated tools,
scoring status showed significant              processing centers, contracted services, and
improvement for six of the eight initiatives   HUD partners to administer its programs.
applicable to HUD with a total of two          As HUD implemented these realignments,
“green,” five “yellow,” and one “red”          many employees were assigned new
baseline goal scores. Based upon a             duties and responsibilities, and many new
comprehensive set of standards, an agency      employees were hired. The disruptions
is “green” if it meets all of the standards    caused by these sweeping changes
for success, “yellow” if it has achieved       compounded problems in effectively
some but not all of the criteria, and “red”    managing HUD operations.
if it has even one of the number of serious
flaws. HUD’s baseline score for improved            Improving the efficiency and
financial performance remains at “red”         effectiveness of HUD’s programs through
because of material weaknesses and a           reorganization efforts requires the
disclaimer of opinion received on HUD’s        Department, in part, to sustain operational
2004 consolidated financial statements. It     consistency in completed reforms. To better
is noteworthy, however, that HUD was the       ensure operational consistency, it is
first agency to receive a “green” baseline     essential that HUD execute its Strategic
goal score on reducing improper payments.      Five-Year Human Capital Management
                                               Plan. The first goal in HUD’s Plan,
     Each year in accordance with the          developed in 2003, is to make HUD a
Reports Consolidated Act of 2000, HUD          mission-focused agency. Getting the right
OIG is required to submit a statement to       number of employees in the right
the Secretary with a summary assessment        location with the right skill mix will
of the most serious challenges facing the      improve the quality of HUD programs
Department. OIG submitted its latest           and services by addressing management
assessment on October 18, 2005. These          challenges, reducing program risks, and


HUD’s Management and Performance Challenges                                                     3
                                       improving program performance. The                  Comply with Federal Financial
                                       relationship between office functions and           Management System requirements,
                                       departmentwide goals is also reinforced             including the need to enhance FHA’s
                                       through the Plan’s implementation. HUD’s            information technology systems to
                                       Plan recognizes that human resources                more effectively support its business
                                       activities must be aligned with agency goals        and budget processes;
                                       to clearly, efficiently, and effectively
                                       support and enable HUD to achieve its               Strengthen controls over HUD’s
                                       mission.                                            computing environment;
Management & Performance Challenges


                                                                                           Improve personnel security practices
                                            Financial Management Systems. Since            for access to the Department’s
                                       FY 1991, OIG has annually reported that             critical financial systems; and
                                       the lack of an integrated financial system
                                       in compliance with all Federal Financial            Improve the systems and processes for
                                       Management System requirements is a                 reviewing obligation balances to
                                       weakness in internal controls. While some           ensure that unneeded amounts are
                                       progress has been made, a number of                 deobligated in a timely manner.
                                       long-standing deficiencies remain. For the
                                       past several years, OIG’s financial audits          HUD’s most significant system
                                       also reported weaknesses in internal           challenges have existed in FHA, which
                                       controls and security over HUD’s general       continues to conduct some day-to-day
                                       data processing operations and specific        business operations with legacy-based
                                       applications. The effect of these weaknesses   systems, limiting its ability to integrate its
                                       is that HUD cannot be reasonably assured       financial processing environment. During
                                       that system information will remain            FY 2003, FHA implemented the FHA
                                       confidential, protected from loss, and         Subsidiary Ledger (FHASL) financial
                                       available to those who need it without         system. This system automated many
                                       interruption.                                  previously manual processes used to
                                                                                      (1) consolidate the accounting data
                                           HUD has completed certification and        received from the various FHA operational
                                       accreditation for 41 of its 44 financial       legacy systems and (2) prepare summary
                                       management systems. However, the               entries for posting to the FHASL. FHA
                                       quality of the underlying documents and        continues to make progress in its overall
                                       the actual certification and accreditation     compliance with Federal Financial
                                       process varied by application. While a         Management System requirements. In FY
                                       number of vulnerabilities were closed,         2004, FHA completed the implementation
                                       additional vulnerabilities, identified         of its core financial system with the
                                       through oversight activities, were not         addition of cash management, funds
                                       corrected before accreditation. In addition,   control, and contract modules. By FY 2007,
                                       certification and accreditation of the         FHA plans to fully integrate program
                                       general support systems on which these         operations with its core financial system,
                                       applications reside has not been completed     eliminating some legacy systems and
                                       and is ongoing.                                reengineering others to implement
                                                                                      budgetary controls at the source, further
                                                                                      reducing the need for manual processing
                                            The weaknesses noted in OIG’s FY
                                       2004 Consolidated Financial Audit relate       and improving financial operations.
                                       to the need to


                               HUD’s Management and Performance Challenges                                                         4
     Human Capital Management. For             annually, and updates or revisions
many years, one of the Department’s            are issued as needed to support
major challenges has been to effectively       implementation activities. In line with its
manage its limited staff resources to          strategic plan, HUD has increased its focus
accomplish its primary mission. In recent      on human capital management through a
years, the Department has contracted out       variety of initiatives.
numerous functions essential to the
accomplishment of its overall mission, in          To address staffing imbalances and
part due to staffing issues. Many of the       other human capital challenges, the




                                                                                              Management & Performance Challenges
weaknesses facing HUD, particularly those      Department uses the Resource Estimation
concerning HUD’s oversight of program          and Allocation Process (REAP) and the
recipients, are exacerbated by HUD’s           Total Estimation and Allocation
resource management shortcomings.              Mechanism (TEAM). REAP and TEAM are
Accordingly, OIG considers it critical for     HUD’s resource management tools by
the Department to address these                which the Department identifies, justifies,
shortcomings through the successful            analyzes, and makes recommendations
completion of ongoing plans. To operate        regarding the optimal level of resources
effectively and hold individuals responsible   necessary for effective and efficient
for performance, HUD needs to know that        program administration and management.
it has the right number of staff with the      REAP obtains crucial time and workload
proper skills in the right positions.          data necessary for viable budget estimation
                                               and execution and to meet the
    To address its human capital needs         Department’s Government Performance
and respond to the PMA, HUD developed          and Results Act requirements.
a comprehensive Five-Year Strategic
Human Capital Management Plan that                  In June 2003, HUD awarded a
identifies three strategic goals for human     contract to conduct a workforce analysis
capital:                                       for the Department. The purposes of the
                                               workforce analysis studies were to
      Mission-focused agency to align          establish future workforce needs, compare
      employees and work to support            them with current capabilities, determine
      HUD’s mission;                           skill gaps, and develop human capital
                                               strategies and actions to close the gaps. In
      High quality workforce which             September 2004, the contractor completed
      recruits, develops, manages, and         the analysis of HUD’s workforce and
      retains a diverse workforce; and         provided HUD a consolidated report with
                                               5-year workforce projections for planning
      Effective succession planning to         purposes. The contractor’s analysis and
      ensure retirees over the next 5          report focused on the Department’s core
      years are succeeded by qualified         business functions, beginning with the
      employees.                               Office of Public and Indian Housing (PIH),
    The human capital management               and then the Office of Community
plan is the Department’s primary tool          Planning and Development (CPD), the
for advancing its human capital                Office of Housing, and the Office of Fair
transformation. The plan is reviewed           Housing and Equal Opportunity.




HUD’s Management and Performance Challenges                                                     5
                                           HUD is currently in the process of             objective evaluations of the credit
                                       integrating REAP and the workforce                 worthiness of borrowers; and
                                       analysis so that they complement one
                                       another and provide strategic workforce            Initiated a process for the electronic
                                       planning direction with the objective of           verification of Social Security
                                       comparing priority needs and making                numbers to further reduce fraud in
                                       workforce management decisions that best           FHA applications.
                                       serve the Department’s mission.
                                                                                          While GAO and OIG have reported
                                                                                     improved monitoring of lender
Management & Performance Challenges


                                           FHA Single-Family Origination.
                                                                                     underwriting and default tracking and
                                       FHA’s single-family insurance programs
                                                                                     expanded loss mitigation to help reduce
                                       enable millions of first-time, minority,
                                                                                     mortgage foreclosures, HUD needs to
                                       low-income elderly, and other underserved
                                                                                     further strengthen lender accountability
                                       households to realize the benefits of
                                                                                     and take strong enforcement actions
                                       homeownership. HUD manages about
                                                                                     against program abusers that victimize
                                       $368 billion in single-family insured
                                                                                     first-time and minority homebuyers.
                                       mortgages. Effective management of this
                                       high-risk portfolio represents a continuing
                                                                                         In support of HUD and the PMA,
                                       challenge for the Department. The PMA
                                                                                     OIG’s Strategic Plan for FY 2005 gave
                                       has committed HUD to tackling
                                                                                     priority to detecting and preventing fraud
                                       long-standing management problems that
                                                                                     in FHA mortgage lending through targeted
                                       expose FHA homebuyers to fraudulent
                                                                                     audits and investigations. The audits
                                       practices.
                                                                                     targeted lenders with high default rates.
                                                                                     OIG’s detailed testing focuses on mortgage
                                            HUD has taken a number of actions
                                                                                     loans that defaulted and resulted in FHA
                                       to reduce risks to homebuyers including the
                                                                                     insurance losses. Results from these audits
                                       following:
                                                                                     have noted significant lender underwriting
                                                                                     deficiencies, prohibited late endorsed
                                             Established an automated systems
                                                                                     loans, inadequate quality controls,
                                             control to preclude the predatory
                                                                                     and other operational irregularities.
                                             lending practice of “property
                                                                                     OIG’s recommendations have sought
                                             flipping” on FHA-insured loans;
                                                                                     monetary recoveries through loan
                                             Established an “appraiser watch”        indemnifications exceeding $133 million,
                                             process, wherein appraisers with        loss reimbursements of more than $10
                                             poor performance records are            million, and appropriate civil remedies.
                                             automatically targeted for monitoring   During the current semiannual reporting
                                             and disqualification from program       period, OIG completed 30 external audits
                                             participation if they violate FHA       of FHA-approved mortgage lenders as well
                                             standards;                              as three internal audits of single-family
                                                                                     program activities. Additionally, OIG’s
                                             Established an automated under-         investigative workload in single-family
                                             writing system, the Technology Open     fraud prevention continues to grow
                                             to Approved Lenders (TOTAL)             dramatically. During the current
                                             Scorecard, to increase lender           semiannual period, OIG opened 140
                                             efficiency through more consistent,     investigative cases and closed 106 cases in




                               HUD’s Management and Performance Challenges                                                     6
the single-family housing program area,        percent reporting of tenant data into the
resulting in 236 indictments, 222 arrests,     system.
and 169 convictions/pleas/pretrial
conversions.                                       Weaknesses in the monitoring of
                                               housing agencies and assisted multifamily
     The OIG’s audit of FHA’s FY 2004          projects continue to present obstacles in
financial statements also reported a need      achieving the intended statutory purposes.
to place more emphasis on monitoring           These weaknesses have been reported for
lender underwriting and continuing to          a number of years in OIG’s annual audits




                                                                                              Management & Performance Challenges
improve single-family early warning and        of HUD’s financial statements.
loss prevention. OIG has tailored its audit
and investigation techniques to                     A 2000 HUD study concluded that 60
complement this need, support HUD              percent of all rent and subsidy calculations
management improvements, and provide           performed by intermediaries contained
an added deterrence to mortgage fraud.         overpayment or underpayment errors
OIG developed a comprehensive training         totaling more than $3.2 billion. In 2005, an
course on auditing single-family lenders       update to this study estimated a gross error
and conducting single-family fraud             payment of $1.2 billion. Although still a
investigations. To date, 154 auditors have     large amount, this represents a 62 percent
completed the single-family lender audit       reduction from the error estimate completed
training course.                               in 2000. The reduction is attributed to
                                               enhanced program guidance, training,
     Public and Assisted Housing Program       oversight, and enforcement, as well as
Administration. HUD provides housing           improved income verification efforts,
assistance funds under various grant and       voluntary compliance by tenants due to
subsidy programs to public housing             promotion of the issue, an improved
agencies and multifamily project owners.       computer matching process, and an
These intermediaries, in turn, provide         improved methodology for reviewing
housing assistance to benefit primarily low-   income discrepancies. HUD is also
income households. PIH and the Office of       validating tenant-reported income against
Housing monitor these intermediaries’          other Federal sources and considering
administration of the assisted housing         program simplification options. In addition
programs.                                      to these efforts, HUD needs to enforce the
                                               requirement that intermediaries report data
    Accurate and timely information            elements in the management information
about households participating in HUD          system. Sanctions need to be applied if
housing programs is necessary to allow         intermediaries do not comply with this
HUD to monitor the effectiveness of the        requirement.
program, assess agency compliance with
regulations, and analyze the impacts of             Paralleling HUD efforts, OIG’s
proposed program changes. The level of         investigative and audit focus concentrates
reporting is a criterion for housing           on fraudulent practices and the lack of
agencies’ performance in both the Public       compliance with the Section 8 program
Housing Assessment System and the              statute and requirements. To comply with
Section 8 Management Assessment                a congressional request, OIG conducted 24
Program. HUD’s goal is to obtain 85            external audits of the Section 8 Housing



HUD’s Management and Performance Challenges                                                     7
                                       Choice Voucher program during the              Establishing a Hurricane Recovery
                                       current semiannual reporting period. OIG       and Response Center (HRRC), an
                                       also hired an additional professional          emergency management division
                                       appraiser to assist in evaluating housing      chaired by the Assistant Secretary
                                       quality requirements as part of our audit      for Housing-Federal Housing
                                       efforts. In total, these external audits       Commissioner that serves as the
                                       addressed whether the housing agencies         HUD Headquarters command post
                                       are correctly calculating subsidy              and reports directly to the Secretary;
                                       amounts, correctly determining family
Management & Performance Challenges


                                       income, complying with housing                 Establishing a field operations
                                       quality standards, fully using authorized      office in Baton Rouge, LA, and
                                       vouchers, and implementing controls            dispatching HUD specialists with
                                       to prevent duplicative and fraudulent          expertise on manufactured housing,
                                       housing assistance payments. OIG’s             reconstruction, and community
                                       recommendations for these audits               planning;
                                       questioned costs of more than $29 million
                                                                                      Working with the United States
                                       and identified more than $29 million
                                                                                      Conference of Mayors and the
                                       that could be put to better use.
                                                                                      National Association of Counties to
                                                                                      coordinate the identification of
                                            Administering Programs Directed
                                                                                      housing opportunities nationwide;
                                       Toward Victims of Hurricanes Katrina and
                                       Rita. The recent hurricanes devastated         Identifying vacant public housing
                                       many gulf coast communities and                units and available vouchers
                                       displaced millions of people. Initially, the   nationwide;
                                       Federal Emergency Management Agency
                                       (FEMA) was to be responsible for the           Temporarily waiving numerous
                                       temporary housing (up to a year) of            program requirements to make
                                       evacuees while HUD was to be responsible       it easier for disaster displaced
                                       for finding permanent housing. To date,        individuals who previously received
                                       HUD has received $79 million to provide        housing assistance to obtain housing
                                       transitional housing (up to 18 months) for     assistance in their new locations;
                                       those individuals who had received HUD
                                       housing assistance prior to being displaced.   Modifying or awarding contracts to
                                       HUD reports that there are more than           provide various contractor services to
                                       700,000 HUD-assisted or insured housing        address the housing assistance needs
                                       units including elderly housing that housed    of the displaced hurricane victims;
                                       approximately 2 million individuals in the     and
                                       affected region. This new mission of
                                       providing transitional and permanent           Identifying about 6,000 HUD-
                                       housing for so many displaced people           owned properties within a 500-mile
                                       poses significant management and               radius of the disaster region and
                                       performance challenges for HUD.                authorizing management and
                                                                                      marketing contractors to rehabilitate
                                            HUD has taken a number of actions         the properties to make them available
                                       to address the more immediate housing          for housing.
                                       assistance issues and challenges, including



                               HUD’s Management and Performance Challenges                                                 8
     Now that HUD has started the                end, OIG established a task force to deal
process of providing housing assistance to       exclusively with audit and investigative
displaced individuals, it is extremely           matters that arise from HUD’s disaster
important that Agency officials work             recovery and reconstruction responsibili-
closely with OIG to ensure that reasonable       ties. It is also important that HUD work
controls over the use of funds are put in        closely with FEMA to coordinate the
place to mitigate, to the extent possible, the   various housing actions undertaken by
risk of fraud, waste, and abuse. To this         both Agencies.




                                                                                             Management & Performance Challenges


HUD’s Management and Performance Challenges                                                    9
    Chapter 2




HUD’s Single-Family
 Housing Programs
                                        T         he Federal Housing
                                               Administration’s (FHA)
                                  single-family programs provide mortgage
                                                                                             Mortgagees, Loan Correspondents,
                                                                                             and Direct Endorsement Lenders
                                  insurance to mortgage lenders that, in turn,
                                  provide financing to enable individuals                         The U.S. Department of Housing and
                                  and families to purchase new or existing                   Urban Development (HUD) OIG audited
                                  homes or to rehabilitate existing homes.                   National City Mortgage Company of
                                                                                             Miamisburg, OH, a lender approved to
                                                                                             originate, underwrite, and submit
                                  Audits                                                     insurance endorsement requests under
                                                                                             HUD’s single-family direct endorsement
                                      During this reporting period, the                      program. OIG selected National City for
                                  Office of Inspector General (OIG) issued                   audit because of its high late endorsement
                                  33 reports: 3 internal audits and 30                       rate. The objective was to determine
Single-Family Housing Programs



                                  external audits in the single-family                       whether National City complied with
                                  housing program area. These reports                        HUD’s regulations, procedures, and
                                  disclosed more than $10 million in                         instructions in the submission of insurance
                                  questioned costs and more than $133                        endorsement requests.
                                  million in recommendations that funds be
                                  put to better use. OIG reviewed 30 home                        National City submitted 2,071 late
                                  and branch offices of FHA single-family                    requests for endorsement out of 68,730
                                  mortgage lenders.                                          loans tested. The loans were either
                                                                                             delinquent or otherwise did not meet
                                         Chart 2.1: Single-Family Housing                    HUD’s requirement of six consecutive
                                                 Reports Issued                              timely payments after delinquency but
                                                                                             before submission to HUD. National City
                                                                   3 Internal Reports
                                                                                             also incorrectly certified that both the
                                                                                             mortgage and escrow accounts for 133
                                                                                             loans and the escrow account for taxes,
                                                                                             hazard insurance premiums, and mortgage
                                                                                             insurance premiums for 497 loans were
                                                30 External Reports                          current.

                                   Chart 2.2: Single-Family Housing Dollars                       OIG recommended that HUD require
                                                                                             National City to (1) indemnify it for any
                                 120,000,000                                                 future losses on 529 loans with a total
                                 100,000,000                                                 mortgage value of more than $63.5 million
                                 80,000,000                                                  and take other appropriate administrative
                                 60,000,000                                                  actions up to and including civil money
                                 40,000,000                                                  penalties and (2) reimburse it more than
                                 20,000,000                                                  $2.3 million for the losses it incurred on 57
                                          0    Internal Reports      External Reports
                                                                                             loans and for any future losses from nearly
                                         Questioned Costs         Funds Put to Better Use
                                                                                             $3.2 million in claims paid on 45 insured
                                                                                             loans with a total mortgage value of nearly

                                  The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during this
                                  semiannual period. The monetary benefits shown in the Profile of Performance represent only those reports with
                                  management decisions reached during this semiannual period. Because there is a time lag between report issuance
                                  and management decisions, the two totals will not agree.

                          HUD’s Single-Family Housing Programs                                                                                       12
$5 million, once the associated properties    and indemnification of more than $18
are sold. OIG also recommended that HUD       million for loans that were not current
take appropriate administrative action        when submitted for endorsement. OIG also
against National City for violating the       recommended that HUD take appropriate
requirements in effect when it submitted      administrative action against Washington
804 loans with a total value of more than     Mutual for violating the requirements in
$99.6 million without the proper 6-month      effect when it submitted loans. (Audit
payment histories.         Further, OIG       Report: 2005-SE-1006)
recommended that HUD determine legal
sufficiency of the certifications made. If       In connection with a review of an
legally sufficient, HUD should pursue         FHA-approved loan correspondent, HUD
remedies under the Program Fraud Civil        OIG identified 10 loans that Washington
Remedies Act (PFCRA) against National         Mutual Bank of Seattle, WA, sponsored,
City and/or its principals for incorrectly    which did not appear to be properly




                                                                                              Single-Family Housing Programs
certifying that the mortgage and/or the       underwritten.
escrow account for taxes, hazard
insurance premiums, and mortgage                  Washington Mutual did not comply
insurance premiums were current for 630       with HUD regulations, procedures, and
loans submitted for FHA insurance             instructions in underwriting six of the
endorsement. (Audit Report: 2005-CH-          mortgages. The deficiencies involved
1015)                                         unverified property repairs required to
                                              support the appraised value, unsupported
    HUD OIG audited late endorsement          income, improper refund of gift funds to
payment histories at Washington Mutual        the borrower, unsupported assets, and
Bank, Seattle, WA, because of its high        questionable ownership of one property.
number of late single-family loan             Washington Mutual also charged
submissions for FHA insurance during          prohibited fees on five loans, three of which
calendar years 2002 and 2003. The objective   were also identified as improperly
was to determine whether Washington           underwritten loans.
Mutual’s late requests for endorsement
complied with HUD’s payment history               OIG recommended that HUD take
requirements.                                 appropriate administrative action against
                                              Washington Mutual for not complying
    From March 2002 to October 2004,          with HUD underwriting requirements.
Washington Mutual improperly submitted        This action, at a minimum, should include
609 loans having delinquent payments          requiring indemnification for three actively
within 6 months of the submission date.       insured loans with original mortgage
This occurred because Washington Mutual       amounts totaling more than $223,000, two
did not have adequate controls to ensure      loans on which HUD has incurred losses
that its employees followed HUD’s             of more than $87,000, and one loan that is
requirements regarding late requests for      overinsured by approximately $1,400.
insurance endorsement.                        (Audit Report: 2005-KC-1009)

   OIG recommended that HUD take                  HUD OIG reviewed FHA loans
appropriate administrative action up to       sponsored by Wells Fargo of Des Moines,
and including recovery of losses on           IA. During an audit of an FHA-approved
approximately $1.1 million in paid claims     loan correspondent, OIG identified 11


HUD’s Single-Family Housing Programs                                                          13
                                  loans sponsored by Wells Fargo that did              HUD OIG audited Security Atlantic
                                  not appear to have been properly originated     Mortgage Company, Inc., a lender located
                                  according to HUD regulations. Because the       in Edison, NJ. The objectives of the audit
                                  sponsor of the loans is ultimately              were to determine whether Security
                                  responsible for loan processing deficiencies,   Atlantic (1) approved loans in accordance
                                  OIG addressed these deficiencies to Wells       with HUD requirements, which include
                                  Fargo to determine whether it complied          following prudent lending practices, and
                                  with HUD regulations, procedures, and           (2) developed and implemented a quality
                                  instructions when processing the                control plan that complied with HUD
                                  mortgages.                                      requirements.

                                       Wells Fargo did not comply with HUD            Security Atlantic (1) did not follow
                                  regulations, procedures, and instructions       HUD requirements in the approval of 16
                                  for processing 10 of the 11 FHA-insured         loans valued at more than $3.2 million,
Single-Family Housing Programs



                                  single-family mortgages OIG reviewed.           resulting in an unnecessary risk to the FHA
                                  Underwriting deficiencies included              insurance fund; (2) charged borrowers
                                  overstated income, income stability not         more than $11,000 in ineligible and/or
                                  verified, understated liabilities,              unsupported fees; (3) did not comply with
                                  creditworthiness not fully considered,          HUD tier pricing regulations, resulting in
                                  unresolved inconsistencies, and insufficient    more than $60,000 in inappropriate
                                  or ineligible compensating factors. For nine    charges on 38 loans; and (4) could not
                                  loans, Wells Fargo did not ensure that the      document that it complied with HUD
                                  appraisal met HUD requirements. In              regulations regarding commitment fees.
                                  addition, Wells Fargo allowed the loan          Further, Security Atlantic did not
                                  correspondent to charge more than $11,000       implement its quality control plan in
                                  in loan discount points without reducing        accordance with HUD’s and its own
                                  the borrowers’ interest rates. As a result,     requirements.
                                  the risk to the insurance fund was
                                  increased, four ineligible borrowers                OIG recommended that HUD require
                                  received financing, and nine borrowers          Security Atlantic to indemnify HUD for
                                  incurred excessive costs for their loans.       potential losses and/or claims on loans with
                                                                                  significant underwriting deficiencies;
                                       OIG recommended that HUD take              reimburse borrowers for ineligible,
                                  appropriate administrative action against       unsupported, and inappropriate charges;
                                  Wells Fargo for not complying with HUD          and implement a quality control process in
                                  requirements. At a minimum, this should         accordance with HUD requirements.
                                  include indemnifying HUD more than              (Audit Report: 2005-NY-1007)
                                  $383,000 for three loans, reimbursing HUD
                                  for the more than $64,000 loss on one loan,          HUD OIG reviewed FHA loans
                                  and reimbursing appropriate parties for the     sponsored by Allied Home Mortgage
                                  more than $11,000 in unearned fees. OIG         Corporation of Houston, TX. During an
                                  further recommended that HUD ensure             audit of an FHA-approved loan
                                  Wells Fargo has implemented sufficient          correspondent, OIG identified four loans
                                  controls to provide reasonable assurance        sponsored by Allied that did not appear to
                                  that its underwriting complies with HUD         have been properly originated according
                                  regulations, procedures, and instructions.      to HUD regulations. Because the sponsor
                                  (Audit Report: 2005-FW-1019)                    of the loans is ultimately responsible for


                          HUD’s Single-Family Housing Programs                                                             14
loan processing deficiencies, OIG addressed     payment of upfront mortgage insurance
these deficiencies to Allied to determine       premiums to HUD.
whether it complied with HUD
requirements.                                       OIG’s audit tests of 662 loans identified
                                                12 that were improperly submitted for
     Allied did not comply with HUD             endorsement. Ten loans that remain FHA-
regulations, procedures, and instructions       insured increase the risk to the FHA
in the processing of the four loans. It         insurance fund by more than $1.1 million.
overstated the borrower’s income for two
loans and understated the borrower’s                 OIG recommended that HUD require
liabilities for one loan. For all four loans,   Union Federal to (1) indemnify HUD for
Allied did not ensure that the appraisal met    any future losses on nine loans with a total
HUD requirements. In addition, Allied           mortgage value of approximately $966,000
allowed the loan correspondent to charge        and (2) reimburse HUD for any future loss




                                                                                                Single-Family Housing Programs
three borrowers more than $1,900 in loan        for a claim on one insured loan once the
discount points without reducing their          property is sold. (Audit Report: 2005-CH-
interest rates. As a result, the risk to the    1009)
insurance fund was increased, and three
borrowers incurred excessive costs for their        HUD OIG audited Fairfield Financial
loans.                                          Mortgage Group, Inc., Danbury, CT, a
                                                lender approved by HUD to originate
    OIG recommended that HUD take               FHA-insured single-family mortgages. The
appropriate administrative action against       objectives were to determine whether
Allied for not complying with HUD               Fairfield Financial complied with HUD
requirements. At a minimum, this should         regulations, procedures, and instructions
include indemnifying HUD more than              in the origination of FHA loans and
$123,000 for one of the loans and               whether Fairfield Financial’s quality
reimbursement of the more than $1,900 in        control plan, as implemented, met HUD
unearned fees. OIG further recommend            requirements.
that Allied be required to take action to
improve the quality of its appraisals. (Audit        Fairfield Financial improperly
Report: 2005-FW-1017)                           originated 4 of the 24 loans reviewed. These
                                                four loans contained deficiencies that
     HUD OIG audited the Union Federal          affected the insurability of the loans,
Bank of Indianapolis (also known as Union       including       unsupported        income,
Federal Savings Bank of Indianapolis) in        underreported liabilities, excessive
Fort Wayne, IN. Union Federal is a              qualifying ratios, and derogatory credit
supervised lender approved to originate         information. As a result, HUD insured
FHA mortgage loans using HUD’s single-          loans that placed the insurance fund at risk
family direct endorsement process. OIG          for more than $1.2 million. In addition,
selected Union Federal for audit because        Fairfield Financial did not properly disclose
of its high late endorsement rate. The          to borrowers more than $11,000 for
review objectives were to determine             commitment fees in 20 of the 24 loans
whether Union Federal complied with             reviewed. Further, Fairfield Financial’s
HUD’s regulations, procedures, and              quality control plan, as implemented, did
instructions in the submission of late          not meet HUD requirements. As a result,
insurance endorsement requests and              HUD lacks assurance that Fairfield


HUD’s Single-Family Housing Programs                                                            15
                                  Financial is able to ensure the accuracy       unacceptable loans with original
                                  and completeness of its loan origination       mortgages totaling more than $1.5 million.
                                  operations.                                    HUD remains at risk or has incurred losses
                                                                                 totaling more than $1.4 million relating to
                                       OIG recommended that HUD require          these 10 loans.
                                  Fairfield Financial to (1) indemnify HUD
                                  against future losses on the four loans for         OIG recommended that HUD take
                                  more than $1.2 million and (2) revise its      appropriate administrative action against
                                  procedures to ensure that each borrower        City Bank, as available under the Mortgage
                                  charged a commitment fee is properly           Review Board and/or other authority. At
                                  informed, in writing, of the fee, the amount   a minimum, this action should include
                                  of the fee, and the purpose of the fee and     seeking appropriate reimbursement and/
                                  that the fee charged coincides with the        or indemnification totaling more than $1.4
                                  amount disclosed to the borrower.              million for the 10 loans that were
Single-Family Housing Programs



                                  Additionally, HUD should require Fairfield     improperly originated and underwritten,
                                  Financial to implement controls to ensure      including more than $600 in loss mitigation
                                  that it follows HUD’s quality control          costs related to one of the loans. (Audit
                                  requirements and verify that it has            Report: 2005-SE-1007)
                                  implemented proper controls. (Audit
                                  Report: 2005- BO-1007)                              HUD OIG audited Broad Street
                                                                                 Mortgage Company’s San Antonio, TX,
                                      HUD OIG audited City Bank’s                branch office because of an unusually high
                                  Puyallup, WA, branch office because it had     loan default rate. The objective was to
                                  one of the highest defaults to claim           determine whether Broad Street followed
                                  percentages for HUD-approved lenders           HUD loan origination requirements for the
                                  located within the State of Washington.        30 loans selected for review.
                                  The objectives were to determine whether
                                  City Bank’s Puyallup branch originated              Broad Street did not follow HUD loan
                                  HUD-insured loans in accordance with           origination requirements for minimum
                                  HUD requirements and prudent lending           investment in approving 24 of the 26 loans
                                  practices.                                     that involved nonprofit gifts. The lender
                                                                                 and sellers used a gift program to
                                      City Bank did not originate 10 of the      circumvent the minimum investment
                                  24 loans reviewed in accordance with           requirements. The sellers marked up the
                                  HUD requirements or prudent lending            sale prices of the homes and increased the
                                  practices. The 10 loans contained              sales contracts to cover their contribution
                                  deficiencies that should have precluded        to nonprofit downpayment assistance
                                  their approval, including loans with           programs. Broad Street then approved the
                                  excessive debt-to-income ratios and no         mortgages based on the marked up prices
                                  valid compensating factors, lack of            and questionable appraised values. This
                                  borrower income stability, improper source     increased the borrowers’ homeownership
                                  of funds verification, unacceptable            costs and risk of default as well as HUD’s
                                  borrower credit histories, and deficient       risk of insurance loss. In addition, Broad
                                  appraisal reviews by the underwriter. As       Street’s quality control plan needed
                                  a result, City Bank placed HUD’s single-       improvement and was not fully
                                  family insurance fund at risk for 10           implemented.



                          HUD’s Single-Family Housing Programs                                                            16
    OIG recommended that HUD require              HUD OIG audited KB Home Mortgage
Broad Street to indemnify HUD for 24          Company of Los Angeles, CA, a lender
loans, reimburse the insurance fund for any   approved to originate, underwrite, and
of the loans reviewed that have been          submit insurance endorsement requests
foreclosed, and amend and fully               under HUD’s single-family direct
implement its quality control plan. (Audit    endorsement program. OIG selected KB for
Report: 2005-FW-1010)                         audit because of its high late endorsement
                                              rate. The primary objective was to
    HUD OIG audited Corinthian                determine whether KB complied with
Mortgage Corporation, a direct                HUD’s regulations, procedures, and
endorsement lender located in Mission,        instructions in the late submission of
KS, because its default rate was              insurance endorsement requests. The
significantly higher than HUD’s Kansas        secondary objective was to determine
City field office’s average over the past 2   whether KB established and implemented




                                                                                             Single-Family Housing Programs
years. The audit objectives were to           a written quality control plan in
determine whether Corinthian properly         accordance with HUD requirements.
developed and implemented a quality
control plan and whether it properly               KB improperly submitted only 13 of
originated FHA loans.                         1,083 loans for late endorsement during the
                                              period August 11, 2002, through April 11,
     Corinthian’s quality control process     2004. By establishing a new process for loan
did not comply with HUD requirements.         submission in 2003, KB substantially
It did not ensure that it conducted           reduced the number of loans submitted for
sufficient and timely quality control         late endorsement. However, of the 13 loans
reviews. It also did not take prompt          totaling more than $1.7 million, two were
corrective action when quality control        conveyed to HUD and resulted in losses,
reports identified material deficiencies.     three were terminated through streamline
Further, it did not follow HUD                refinances, and eight remain active.
requirements when processing and              Because the borrowers were behind on 5
underwriting FHA loans and improperly         of the 13 loans when they were endorsed
originated 3 of the 44 loans OIG reviewed.    and there were late payments on the other
Corinthian submitted one loan with a          eight loans that occurred within 6 months
serious misstatement. As a result, HUD        of being submitted, KB increased HUD’s
insured four loans that placed the            insurance risk. Data entered into KB’s
insurance fund at risk for more than          automated system were often erroneous
$472,000.                                     and may have contributed to the incidence
                                              of late endorsed loans. KB’s current written
    OIG recommended that HUD take             quality control plan, adopted in 2003,
appropriate administrative action against     meets HUD requirements.
Corinthian, including at a minimum,
indemnification for the three actively             OIG recommended that HUD take
insured loans and reimbursement for losses    administrative action up to and including
already incurred on the remaining loan.       the recovery of losses on more than $79,000
Corinthian should also reimburse the          in paid claims and indemnification of loans
appropriate parties for unallowable costs     with a total mortgage value of more than
charged to borrowers. (Audit Report:          $537,000. OIG also recommended that
2005-KC-1006)                                 HUD take appropriate administrative


HUD’s Single-Family Housing Programs                                                         17
                                  action against KB for violating the              approved insured loans in accordance with
                                  requirements in effect when it submitted         HUD requirements, which include
                                  loans without proper 6-month payment             following prudent lending practices, and
                                  histories. In addition, OIG recommended          (2) developed and implemented a quality
                                  that HUD require KB to establish and             control plan that complied with HUD
                                  implement written policies and procedures        requirements.
                                  to ensure loans submitted for late
                                  endorsement meet late submission                      Golden First did not always follow
                                  requirements and to reasonably ensure            prudent lending practices and HUD
                                  that valid and reliable data are obtained,       regulations in its loan origination and
                                  maintained, and accurate. (Audit Report:         underwriting processes. In 5 of the 20
                                  2005-LA-1007)                                    loans reviewed, Golden First did not
                                                                                   adequately verify employment, income,
                                      HUD OIG audited the Cherry Hill,             and/or assets. As a result, the FHA
Single-Family Housing Programs



                                  NJ, branch of Gateway-Funding                    insurance fund incurred a loss associated
                                  Diversified, a direct endorsement lender         with one loan and continues to assume a
                                  approved to originate FHA single-family          risk with the other four loans. Golden First
                                  mortgage loans, because it had a high            also did not ensure that (1) loans defaulting
                                  default rate. The objective was to               within the first 6 months were reviewed,
                                  determine whether Gateway complied               (2) quality control reviews were conducted
                                  with HUD regulations, procedures, and            in a timely manner, and (3) management
                                  instructions in the origination of FHA           responses and planned corrective actions
                                  loans.                                           were adequately documented.

                                       Of the 32 loans we selected for review,         OIG recommended that HUD require
                                  the Cherry Hill branch did not fully comply      Golden First to (1) indemnify HUD more
                                  with FHA requirements for seven of the           than $1.1 million against future losses on
                                  loans valued at more than $690,000.              the four loans currently insured with
                                  Gateway did not exercise due diligence in        material underwriting deficiencies; (2)
                                  the review of assets, liabilities, and income;   reimburse HUD more than $259,000 for the
                                  did not verify rental history; and approved      amount of claims and associated fees paid
                                  loans with excessive debt-to-income ratios.      on one loan with a material underwriting
                                                                                   deficiency; (3) establish and implement
                                      OIG recommended that HUD request             underwriting processing procedures that
                                  indemnification from Gateway on FHA              comply with HUD requirements; and (4)
                                  loans valued at more than $690,000, which        develop and implement quality control,
                                  it issued contrary to HUD’s loan                 loan documentation, and retention
                                  origination procedures, and require              procedures in compliance with HUD
                                  Gateway to develop internal procedures to        requirements. (Audit Report: 2005-NY-
                                  more closely monitor its underwriting            1009)
                                  process. (Audit Report: 2005-PH-1015)
                                                                                        HUD OIG audited KB Home Mortgage
                                     HUD OIG audited Golden First                  Company’s insured loan originations in the
                                  Mortgage Corporation, a lender located in        Phoenix, AZ, metropolitan area due to high
                                  Great Neck, NY. The objectives of the audit      default and claim rates. The objective was
                                  were to determine whether Golden First (1)       to determine whether KB originated HUD-



                          HUD’s Single-Family Housing Programs                                                               18
insured loans in accordance with prudent      responsible for approving the loans;
lending practices and HUD requirements.       therefore, OIG reviewed First Magnus’
                                              underwriting procedures to determine
     KB did not originate the 19 loans        whether First Magnus complied with HUD
reviewed in compliance with HUD               requirements.
requirements or prudent lending practices.
All 19 loans involved origination                 First Magnus did not comply with
deficiencies that should have precluded       HUD requirements because it approved
their approval, including false employment    loans for borrowers who were ineligible for
data, overstated income, understated          FHA-insured mortgages. Loan files
liabilities, unacceptable credit histories,   contained false and otherwise questionable
improper treatment of downpayment gifts       documentation. First Magnus also did not
and/or interest rate buydowns, resulting      perform quality control reviews during the
in overinsured mortgages, inaccurate or       time that four of the five loans OIG




                                                                                              Single-Family Housing Programs
excessive qualifying ratios without           reviewed were closed. As a result, the FHA
compensating factors, and borrower            insurance fund was placed at risk.
overcharges for unsupported or unallowed
fees. As a result, KB Placed HUD’s single-         OIG recommended that HUD take
family insurance fund at risk for 19          appropriate administrative action against
unacceptable loans with original              First Magnus. The action, at a minimum,
mortgages totaling more than $2.5 million,    should include requiring First Magnus to
and borrowers were overcharged $9,400.        repay more than $204,000 in claims and
HUD remains at risk and/or has incurred       losses incurred on four loans and indemnify
losses totaling more than $1.2 million        HUD more than $127,000 for any future
related to 15 of the 19 loans.                losses associated with one loan that is in
                                              foreclosure. (Audit Report: 2005-LA-1010)
     OIG recommended that HUD take
appropriate administrative action against          HUD OIG audited loans that National
KB under the Mortgagee Review Board           City Mortgage Company underwrote at the
and/or other authority. At a minimum,         Altamonte Springs, FL, and Alpharetta,
this should include seeking appropriate       GA, branch offices for seven loan
monetary sanctions for 15 loans totaling      correspondents that originated loans for
more than $1.2 million and requiring KB       properties located in central and northern
to reimburse the borrowers or HUD for         Florida. National City is a direct
$9,400 in unearned, unallowable, or           endorsement lender with headquarters
excessive fees. (Audit Report: 2005-LA-       located in Miamisburg, OH. OIG selected
1011)                                         the two branch offices and the seven loan
                                              correspondents because their default rates
     HUD OIG reviewed five FHA loans          were significantly higher than the Florida
sponsored by First Magnus’ branch office      average.
in Las Vegas, NV. During a prior review
of an FHA-approved loan correspondent,            National City did not follow HUD
OIG identified loans sponsored by First       requirements when underwriting 9 of the
Magnus that did not appear to have been       19 FHA-insured loans reviewed for
originated according to HUD regulations.      compliance. The loans contained
As a loan sponsor, First Magnus is            deficiencies that affected the credit quality



HUD’s Single-Family Housing Programs                                                          19
                                  (insurability) of the loans. National City’s       OIG recommended that First Source (1)
                                  underwriters did not adequately evaluate       pay civil money penalties for originating
                                  information presented by its loan              and processing loans with nonemployees,
                                  correspondents for compliance with             having unapproved branches, cobrokering
                                  requirements before approving the loans.       FHA loans with another mortgage
                                  The underwriters also allowed                  company, allowing loan officers to
                                  questionable information to be entered into    simultaneously work for real estate
                                  the systems used for automated                 companies, and Real Estate Settlement and
                                  underwritten loans. As a result, HUD           Procedures Act (RESPA) violations; (2)
                                  insured nine loans that placed the FHA         repay more than $159,000 in losses HUD
                                  insurance fund at risk for more than           incurred on six loans; and (3) refund
                                  $326,000 in questioned costs and resulted      unearned yield spread premiums. (Audit
                                  in more than $153,000 in funds that could      Report: 2005-LA-1003)
                                  be put to better use.
Single-Family Housing Programs



                                                                                      HUD OIG audited Aspen Home Loans
                                       OIG recommended that HUD take             in American Fork, UT, because of loan
                                  appropriate administrative action              origination and quality control deficiencies
                                  against National City. This action             identified in a prior audit. Our audit
                                  should, at a minimum, include requiring        objectives were to determine whether
                                  indemnification of more than $153,000 for      Aspen complied with HUD regulations,
                                  two defaulted loans, more than $159,000        procedures, and instructions in the
                                  for claims paid on two loans, and              origination of insured loans selected for
                                  reimbursement of approximately $166,000        review and whether Aspen’s quality
                                  for losses incurred for five loans. (Audit     control plan, as implemented, met HUD’s
                                  Report: 2005-AT-1014)                          requirements.

                                       HUD OIG audited First Source                   Aspen did not comply with HUD
                                  Financial USA, a loan correspondent            regulations, procedures, and instructions
                                  headquartered in Henderson, NV. The            in the origination of any of the 11 loans
                                  overall audit objective was to determine       selected for review. Self-employed
                                  whether First Source approved FHA-             independent contractors originated loans,
                                  insured loans in accordance with HUD           and Aspen operated out of unapproved
                                  requirements and to determine whether          branch offices. OIG also identified one loan
                                  First Source implemented an acceptable         that did not have a proper verification of
                                  quality control plan.                          employment.

                                      First Source (1) allowed nonemployees          Aspen’s quality control plan was
                                  and unapproved branches to originate           incomplete and inadequate as
                                  and process FHA-insured loans, (2)             implemented. For example, (1) the required
                                  originated and processed FHA loans             number of quality control reviews was not
                                  with false information and known               performed; (2) the owner, who also
                                  misrepresentations, and (3) allowed            originates insured loans, was the only
                                  questionable lending practices by collecting   quality control reviewer; (3) quality control
                                  unearned fees. As a result, there were         reviews were not performed or reported
                                  excessive defaults and foreclosures, an        accurately; (4) the owner did not know
                                  increased risk to the FHA insurance funds,     about the HUD requirement that all early
                                  and actual losses of more than $159,000.       default loans be reviewed in addition to the


                          HUD’s Single-Family Housing Programs                                                             20
normal random sample selection; and (5)         identified were not documented. Citywide
the owner was the branch manager for            used a contractor to implement its quality
three separate office locations.                control plan. The contractor completed only
                                                42 percent of the required quality control
      OIG recommended that HUD require          reviews of the loan files within the required
Aspen to (1) change its policies and            90-day timeframe.
procedures for the origination and review
of its insured loans to fully comply with all        OIG recommended that HUD require
HUD regulations, (2) obtain the necessary       Citywide to bring its loan origination
branch approval, (3) cease origination of       policies and procedures for insured loans
insured loans at unapproved branches,           into full compliance with HUD regulations
and (4) indemnify one insured loan not          and to fully implement its quality control
originated in accordance with HUD               process. (Audit Report: 2005-DE-1003)
requirements. In addition, OIG




                                                                                                Single-Family Housing Programs
recommended that Aspen be referred to                HUD OIG reviewed Residential
the Mortgagee Review Board for                  Lending Corporation, operating from its
appropriate action since during its Title II    home office in Duluth, GA. Residential was
monitoring review, HUD identified               a direct endorsement lender, approved to
deficiencies similar to those OIG found in      originate and approve FHA-insured single-
the area of quality control. (Audit Report:     family mortgages. OIG selected Residential
2005-DE-1004)                                   due to its high default and claim rates.

    HUD OIG audited Citywide Home                   Residential did not obtain the required
Loans in Salt Lake City, UT, because of         independent audit for the fiscal year
loan origination and quality control            ending December 31, 2004, and planned
deficiencies identified in a prior audit. The   to liquidate company assets without
audit objectives were to determine whether      notifying HUD. Thus, Residential could
Citywide complied with HUD regulations,         not support that it had the $250,000 net
procedures, and instructions in the             worth needed to maintain its HUD
origination of insured loans selected for       approval to originate and approve
review and whether Citywide’s quality           FHA-insured mortgages.
control plan, as implemented, met HUD’s
requirements.                                        OIG made no recommendations
                                                because Residential voluntarily terminated
     Citywide did not comply with HUD           its HUD approval during our review on
regulations, procedures, and instructions       May 9, 2005. (Audit Report: 2005-AT-
in the origination of 20 of the 23 loans        1801)
selected for review. Citywide used
independent loan officers to originate              HUD OIG reviewed AIM Financial,
insured loans. HUD prohibits this practice      Inc., Caledonia, MI, a former loan
because it represents an increased risk to      correspondent approved to originate FHA-
the insurance fund.                             insured loans. OIG initiated the review
                                                based on a citizen’s complaint to its office.
    Citywide’s quality control reviews          The objective was to determine whether
were not performed in a timely manner,          AIM originated FHA-insured loans
and corrective actions taken for deficiencies   according to HUD’s requirements.



HUD’s Single-Family Housing Programs                                                            21
                                       Before its approval as an FHA lender,     disallowed interest occurred because some
                                  AIM originated FHA-insured loans using         lenders did not adjust their claims to
                                  the name and FHA number of another             comply with FHA requirements.
                                  lender. AIM submitted 10 loans for
                                  insurance, falsely certifying that it was           OIG recommended that HUD (1)
                                  Bedford, an FHA-approved lender. In 6 of       establish and implement performance goals
                                  the 10 cases, Charles Gahan, acting on         for the default monitoring requirements
                                  behalf AIM, executed the lender                HUD expects lenders to meet and create a
                                  certification using Bedford’s name, address,   plan to obtain additional information
                                  and lender identification number.              necessary for HUD to establish
                                                                                 performance goals to accurately measure
                                       OIG referred Mr. Gahan to HUD’s           lender performance for the foreclosure
                                  Office of General Counsel for                  completion timeframe or alternative
                                  administrative sanctions under PFCRA.          methods for measuring lender
Single-Family Housing Programs



                                  HUD filed a complaint against Mr. Gahan,       performance, (2) create and implement a
                                  seeking civil penalties. HUD executed a        plan of action that HUD should follow to
                                  settlement agreement with Mr. Gahan            ensure lenders meet performance goals,
                                  without an admission of wrongdoing, for        and (3) finalize disputed monetary findings
                                  $15,000. Mr. Gahan issued a check payable      in a timely manner and collect delinquent
                                  to HUD for the $15,000 settlement amount.      debts in accordance with the Debt
                                  (Audit Report: 2005-CH-1803)                   Collection Act. (Audit Report: 2005-DE-
                                                                                 0001)
                                  Single-Family Insurance Claims
                                                                                 Preforeclosure Sale Program
                                      HUD OIG audited the process HUD
                                  uses to pay FHA single-family insurance             HUD       OIG     audited      HUD’s
                                  claims. OIG scheduled the audit because        preforeclosure sale program. The objectives
                                  the annual FHA dollar disbursement for         of the audit were to (1) determine what
                                  insurance claims is a significant              abuses occurred within the preforeclosure
                                  disbursement activity of the Department.       sale program and how they impacted
                                                                                 losses to the FHA insurance fund and (2)
                                      For most FHA single-family insurance       evaluate HUD’s controls over
                                  claims, HUD management and system              preforeclosure sales and preforeclosure sale
                                  controls are adequate and effective in         claim processing.
                                  ensuring that only eligible and adequately
                                  supported costs are accepted and paid.             Investors abused the HUD
                                  However, these controls are not sufficient     preforeclosure sale program and obtained
                                  to prevent the payment of interest that is     properties through preforeclosure sales
                                  disallowed for lenders’ noncompliance          below fair market value. OIG identified 102
                                  with FHA foreclosure timeframes and            properties that were sold through
                                  reporting rules. HUD paid approximately        preforeclosure for at least $2.4 million less
                                  $28.2 million in disallowed interest           than their fair market value, resulting in
                                  accruals not identified by HUD’s systems       excessive insurance claims to HUD.
                                  on claims paid from October 1, 2000, to        Additionally, HUD’s claims processing
                                  September 30, 2003. Payment of                 system allowed for payment of at least 52




                          HUD’s Single-Family Housing Programs                                                             22
preforeclosure sale claims that were             funds transfer, (2) all incoming mail
excessive by amounts totaling                    containing debt payments is opened at a
approximately $5.1 million.                      single location within the Center and in the
                                                 presence of two individuals, and (3) all
    OIG recommended that HUD                     payments received at the Center are
implement controls to minimize abuse of          properly recorded and reconciled to the
the preforeclosure sale program and to           lock box receipts. (Audit Report: 2005-NY-
ensure excessive preforeclosure sale claims      0001)
are not paid. (Audit Report: 2005-LA-
0001)

Title 1 Loan Claims




                                                                                                Single-Family Housing Programs
     HUD OIG audited Title 1 loan claims
collection activity administered by HUD’s
Financial Operations Center, Asset
Recovery Division, in Albany, NY. The
objectives of the audit were to determine
whether the Center administered its Title
1 debt collection activities (1) in compliance
with applicable laws and regulations and
(2) in an effective manner to provide
optimal benefit to HUD. Our work covered
Title 1 claim collection activity during FY
2003-2004.

    While the Center was generally
complying with applicable laws and
regulations, there were weaknesses in
controls over Title 1 debt collections.
Specifically, (1) significant amounts of
payments were received directly at the
Center instead of at the established lock
box or via electronic funds transfer; (2)
adequate controls had not been established
over the receipt, recording, and processing
of collections at the Center; and (3)
procedures for processing debt payments
had not been updated.

    OIG recommended that the director of
the Center establish and implement
controls and procedures to ensure that (1)
debtor payments are submitted directly to
the lock box or are made via electronic




HUD’s Single-Family Housing Programs                                                            23
                                    Investigations                                           Loan Origination/Property-Flipping

                                        During this reporting period, OIG                        After a lengthy investigation, during
                                    opened 110 investigation cases and closed                which HUD OIG focused investigative
                                    212 cases in the single-family housing                   efforts on fraud that had occurred in the
                                    program area. Judicial action taken on                   origination and issuance of loans insured
                                    these cases during the period included                   through the HUD 203(k) loan program,
                                    $318,719,526 in investigative recoveries,                numerous search, seizure, and arrest
                                    $25,535,680 in funds put to better use,                  warrants were executed; and numerous
                                    236 indictments/informations, 169                        guilty pleas were entered. Defendant
                                    convictions/pleas/pretrial diversions, 80                Beatrice Sukdeho, also known as Ahillia
                                    administrative actions, 7 civil actions,                 Surujballi, of New York, NY, owner of
                                    and 222 arrests.                                         many real estate companies that flipped
Single-Family Housing Programs



                                                                                             properties to various not-for-profits, was
                                         Some of the investigations discussed                sentenced in Federal court to 15 months
                                    in this report were conducted jointly with               incarceration, 5 years probation,
                                    Federal, State, and local law enforcement                $8,913,012 in restitution, and a $300
                                    agencies. The results of OIG’s more                      special assessment. Sukdeho was
                                    significant investigations are described                 sentenced on two separate counts of
                                                                                             making false statements to HUD for
                                    below.
                                                                                             insurance, knowing that the mortgage
                                                                                             applicants’/not-for-profits’ income and
                                 Chart 2.3: Single-Family Investigative Recoveries           sources of money used for downpayments
                                                                                             and closing costs were fraudulent. These
                                                              Bribery                        HUD 203(k) loans were originated from
                                                   Other                   Flipping
                                                                3%
                                     False          1%                        7%             Ryan’s Express Equities and Mortgage
                                  Statements
                                     79%                                                     Lending of America, both now defunct
                                                                                             mortgage companies that were previously
                                                                                  Loan
                                                                                             based out of Long Island, NY.
                                                                               Origination
                                                                                  10%            Three arrests were made in
                                 Total: $318,719,526                                         Springfield, MA, by Federal law
                                                                                             enforcement officers following a Federal
                                                                                             indictment. The 69-count Federal
                                 Chart 2.4: Single-Family Funds Put to Better Use            indictment charges 13 defendants with
                                                         Contract Fraud                      wire fraud and conspiracy to launder
                                      Property
                                     Disposition
                                                              10%
                                                                               Flipping
                                                                                             money in a property-flipping scheme. The
                                        40%                                      21%         remaining 10 defendants surrendered on
                                                                                             October 5, 2005, for an initial appearance
                                                                                             hearing. Ten of the thirteen defendants
                                                                                             were previously indicted on September 2,
                                                                                             2004, in connection with this property-
                                      False Statements
                                                                        Loan Origination     flipping scheme. The scheme, which
                                             6%
                                                                             23%
                                                                                             included more than 70 properties in the
                                 Total: $25,535,680                                          Springfield, MA, area, involved HUD real
                                                                                             estate owned (REO) properties purchased


                          HUD’s Single-Family Housing Programs                                                                       24
                                                                                                           Single-Family Housing Programs
Copyright, 2005. The Republican - Springfield, MA. Reprinted with permission.



with FHA-insured mortgages totaling more                  defendants who previously pled guilty
than $5,900,000. The indictment charges                   are scheduled to be sentenced. The
the defendants with 68 counts of wire                     investigation disclosed that over a 5-year
fraud and one count of conspiracy to                      period, the defendants conspired with a
commit money laundering. Included in                      real estate agent and two loan officers to
the indictment is forfeiture count for up to              sell up to 100 new homes to unqualified
$15 million. The defendants allegedly                     buyers, most of whom were
obtained single-family properties at prices               unsophisticated first-time purchasers. The
upward to 200 percent over the purchase                   defendants provided the funds for the
price from HUD, using FHA mortgages.                      required downpayments and disguised this
                                                          through the use of false letters from friends,
     In Allentown, PA, defendant Philip                   family members, employers, charitable
Garland was sentenced in U.S. District                    organizations, etc. In certain cases, they
Court, Eastern District of Pennsylvania, to               required the buyers to execute a promissory
18 months incarceration, to be followed by                note to cover the amount of funds
3 years supervised release, and ordered to                improperly advanced, which was never
pay restitution to HUD of $1.5 million for                disclosed on official loan documents or at
losses resulting from foreclosed FHA loans.               settlement, as required. Real estate agent
Defendant Richard Myford, a partner of                    David Herb and loan officer James
Garland, was sentenced to 17 months                       Ballantyne have previously pled guilty in
incarceration, to be followed by 3 years                  this case.
supervised release, fined $3,000, and
ordered to repay $850,000 to HUD. Loan                        In Houston, TX, a United States
officer Judy Gemmill of Allentown, PA,                    Attorney indicted Lawrence Benham for
was convicted in U.S. District Court,                     his alleged role in a multi-million-dollar
Eastern District of Pennsylvania, of                      fraud scheme. Benham was arrested on
conspiracy and various false statements                   September 9, 2005. Benham was charged
charges relating to her involvement with                  with multiple criminal counts, including
four other defendants in the making of at                 wire fraud, mail fraud, bank fraud, and
least 50 fraudulent FHA-insured mortgages                 making a monetary transaction with
in and around Lancaster, PA. Additional                   criminally derived property. The


HUD’s Single-Family Housing Programs                                                                       25
                                  indictment charged that Benham conspired       the downpayment to the borrowers and
                                  to obtain five fraudulent loans between July   utilized fraudulent documents in the loan
                                  2003 and April 2005, valued at                 files.
                                  approximately $1.5 million.
                                                                                      Defendant Kenneth Jenkins of
                                      This investigation was initiated on        Camden, NJ, was sentenced in United
                                  information provided to the OIG Houston,       States District Court, District of New Jersey,
                                  TX, office by the Federal Bureau of            to 30 years in prison for his conviction on
                                  Investigation (FBI). The FBI advised that      conspiracy to possess and distribute a
                                  Benham had allegedly conspired with            controlled substance, 30 years for wire
                                  several straw-borrowers to defraud             fraud and conspiracy to commit wire
                                  mortgage companies. Benham portrayed           fraud, 20 years for conspiracy to commit
                                  himself as a successful investor to various    money laundering and money laundering,
                                  women and conspired with the women to          and 5 years for conspiracy to commit mail
Single-Family Housing Programs



                                  secure mortgages based on fictitious           fraud and mail fraud. These sentences are
                                  information. The fictitious information        to run concurrently. In addition, Jenkins
                                  submitted with the loan applications           was sentenced to 10 years of supervised
                                  included overstated income, inflated           release and ordered to pay a $2,400 special
                                  property appraisals, and falsification of      assessment fee. A restitution hearing was
                                  source of downpayments. In return for the      scheduled.
                                  women’s participation in the scheme,
                                  Benham paid each approximately $5,000.              Jenkins, a major Camden, NJ, drug
                                                                                 wholesaler, organized and operated a $1
                                       The subsequent investigation disclosed    million scheme that used crack cocaine
                                  that Benham allegedly perpetrated a            profits to buy abandoned and dilapidated
                                  mortgage fraud scheme in which he located      residential properties in Camden. He
                                  residential properties for sale and enlisted   arranged cosmetic repairs on the properties
                                  straw-borrowers to secure fraudulent loans     by paying his contractor in crack cocaine.
                                  to purchase the properties. Benham used        He then flipped the properties at an
                                  the straw-borrowers’ true identity to repay    inflated price by securing fraudulent HUD-
                                  the loans and inflated the appraised value     insured loans for unsophisticated and
                                  of the properties. Benham then directed        unqualified borrowers. Jenkins, along with
                                  large sums of money from the transaction       defendant Sabena Ingalls, a licensed real
                                  to himself or accounts under his control.      estate agent, targeted naïve and illiterate
                                                                                 individuals to purchase properties. Jenkins
                                       Defendant Cenobio Rojas was               and his coconspirators created false and
                                  sentenced in Federal Court in Los Angeles,     fraudulent paperwork, such as Internal
                                  CA, to 3 years and 1 month in prison and       Revenue Service (IRS) W-2 forms, pay
                                  3 years probation, fined $1,000, and           stubs, IRS tax forms, and credit
                                  directed to pay $1,518,363 in restitution.     verifications.
                                  Rojas had pled guilty on March 24, 2004,
                                  to 10 counts each of wire fraud and aiding         Jenkins and his coconspirators reaped
                                  and abetting. Rojas was the owner of           enormous profits from the sales of 26
                                  Continental Termite & Investments. Rojas       properties, including 18 which involved
                                  was involved in a flipping scheme using        HUD-insured loans. Fifteen of the eighteen
                                  FHA properties that he sold to unqualified     HUD-insured borrowers defaulted on their
                                  buyers at inflated prices. He also supplied    loans.


                          HUD’s Single-Family Housing Programs                                                              26
     As a result of his conviction, Jenkins    participation in an FHA mortgage fraud
was ordered to pay $1.6 million during a       and drug conspiracy. Since Jenkins had
forfeiture hearing. Jenkins and his five       gainful employment, Jenkins’ bank
coconspirators were indicted on October        accounts were used to conceal proceeds of
29, 2003, as part of a 37-count indictment     drug transactions, as well as income earned
and arrested on October 30, 2003. Five of      through the flipping of 26 properties.
Jenkins’ coconspirators previously pled        Jenkins and his coconspirators purchased
guilty and testified against him.              properties, provided faulty repairs, and
                                               then sold them to unqualified borrowers.
     Defendant Ingalls was sentenced in        Jenkins and his coconspirators assisted the
U.S. District Court, District of New Jersey,   borrowers in qualifying for the HUD-
to 5 years in prison, 3 years supervised       insured loans by creating fraudulent
release, and a $100 special assessment fee     documentation.
for her participation in the FHA mortgage




                                                                                               Single-Family Housing Programs
fraud scheme and drug conspiracy                    Defendant Ronald Rogers was
investigation. A restitution hearing has       sentenced in United States District Court,
been scheduled. Ingalls, who was charged       District of New Jersey, to 4 years in prison,
in a 37-count indictment, was indicted on      5 years supervised release, and a $200
October 29, 2003, with five coconspirators.    special assessment. A restitution hearing
Ingalls, who was arrested on October 30,       has been scheduled to determine the
2003, had previously pled guilty to one        amount of restitution. Rogers previously
count of conspiracy to commit money            pled guilty in U.S. District Court, District
laundering. Ingalls and her coconspirators     of New Jersey, to one count of conspiracy
purchased properties, provided faulty          to commit mail fraud and one count of
repairs, and then sold them to unqualified     conspiracy to commit wire fraud for his
borrowers. Ingalls and her coconspirators      participation in an FHA mortgage fraud
assisted the borrowers in qualifying for the   and drug conspiracy. Rogers and his
HUD-insured loans by creating fraudulent       coconspirators purchased properties,
documentation. This documentation              rehabilitated them, and then sold them to
included IRS W-2 forms, pay stubs, gift        unqualified FHA borrowers. Rogers was
letters, verifications of employment (VOE),    paid in crack cocaine by coconspirator
and alternate credit reference letters.        Kenneth Jenkins to provide minor repairs
Ingalls was involved in the fraudulent         on the properties, which were later found
acquisition of 26 properties, 18 of which      to be substandard and of poor quality.
were HUD insured. HUD foreclosed on
15 of the 18 properties.                            Defendant Thomas Harper was
                                               sentenced in U.S. District Court, District
     Defendant Walter Jenkins was              of New Jersey, to 2 years in jail, 5 years of
sentenced in U.S. District Court, District     supervised release, and a special assessment
of New Jersey, to 6 months home                fee of $200. Harper previously pled guilty
confinement, 5 years probation, and a $200     to an information charging him with one
special assessment fee. A restitution          count of conspiracy to commit wire fraud
hearing has been scheduled. Jenkins            and one count of possession with the intent
previously pled guilty in U.S. District        to distribute 50 grams of crack cocaine.
Court, District of New Jersey, to one count    Harper admitted to traveling on a regular
of conspiracy to commit money laundering       basis to New York City from the
and one count of mail fraud for his            Philadelphia area to purchase and deliver


HUD’s Single-Family Housing Programs                                                           27
                                  large amounts of crack cocaine to Kenneth             Former Real Estate Agent Jerry L.
                                  Jenkins. Harper delivered crack cocaine to       Austin of Washington, DC, was sentenced
                                  Ronald Rogers, a handyman, for payment           in U.S. District Court, District of Columbia,
                                  on cosmetic repairs that were performed          for his admitted involvement in a
                                  on properties that were being flipped by         fraudulent scheme to sell homes with FHA-
                                  Jenkins and his coconspirators. Harper           insured mortgages in the Washington, DC,
                                  and his coconspirators assisted the              metropolitan area. He was incarcerated
                                  borrowers in qualifying for the FHA-             for a period of 2 years and 2 months, to be
                                  insured loans by creating fraudulent             followed by 3 years supervised release,
                                  documentation.                                   fined $40,000, and ordered to make
                                                                                   restitution to HUD of $279,425, which
                                       Finally, defendant Rita Jackson-Paulk       represents the losses to date from the FHA
                                  was sentenced in U.S. District Court,            insurance fund on property transactions
                                  District of New Jersey, to 1 day in jail, 5      involving the defendant. The investigation
Single-Family Housing Programs



                                  years of supervised release, and a special       disclosed that between December 1995 and
                                  assessment fee of $100. Jackson-Paulk            August 1999, the defendant participated
                                  earlier pled guilty to one count of wire         as a real estate agent in at least 128
                                  fraud. Jackson-Paulk was arrested on             fraudulent property transactions involving
                                  October 30, 2003. Jackson-Paulk’s bank           FHA mortgages. He facilitated the
                                  accounts were used to hide the proceeds          approval of otherwise unqualified buyers
                                  of mortgage flips and drug proceeds.             by loaning them the money for the required
                                  Jackson-Paulk and her coconspirators             downpayment and concealing it with
                                  purchased properties, performed minimal          fraudulent gift letters. He obtained
                                  repairs, and then sold them to borrowers         reimbursement for these loans from the
                                  who were ineligible for an FHA mortgage.         sellers, and this was concealed on the
                                  Jackson-Paulk and her coconspirators             settlement statements as repairs or loan
                                  assisted the borrowers in qualifying for the     payoff. A codefendant in this case, Larry
                                  FHA-insured loans by creating fraudulent         Kraft, was previously sentenced and
                                  documentation.                                   ordered to make restitution of more than
                                                                                   $300,000.
                                      Defendant Nancy Jacobs of Riverside,
                                  CA, appeared in U.S. District Court for the           Defendant Anthony Cocomello of
                                  Central District of California and was           Lake Success and Hollis, NY, was
                                  sentenced to 6 years and 5 months                sentenced to serve 9 months of home
                                  incarceration and 3 years probation and          detention with electronic monitoring and
                                  was required to pay restitution of $448,313.     5 years probation, along with paying
                                  Jacobs was found guilty after a jury trial       $239,235 in restitution. Cocomello was a
                                  on felony charges that she had flipped           licensed New York real estate appraiser
                                  more than $4 million in FHA-insured              arrested on charges of conspiring to submit
                                  properties by utilizing a scheme in which        false appraisals to HUD. He surrendered
                                  she used six fictitious identities, purchasing   and pled guilty to loan origination fraud
                                  46 properties, and arranged for the escrows      and was sentenced in U.S. District Court
                                  in which she bought and sold the properties      in Central Islip. Cocomello also prepared
                                  to close the same day. Jacobs’ actions           fraudulent appraisals that were included
                                  resulted in an $850,000 loss to HUD.             in mortgage loan applications submitted to
                                                                                   HUD for insurance. There were more than



                          HUD’s Single-Family Housing Programs                                                               28
60 false appraisals submitted to three          fraud. Maggio conspired to enter into a
separate mortgage-banking institutions.         scheme to purchase homes in the
                                                Rochester, NY, area and flip them to each
     Defendant Christopher Williams of St.      other for increased and inflated prices.
Louis, MO, husband of defendant                 Mortgages, to include FHA mortgages,
Kimberly Crowder-Williams, signed a             would be obtained for the increased
pretrial diversion agreement in Federal         amount. To obtain the mortgages, false
Court, U.S. District Court for the Eastern      documentation was provided to the banks
District of Missouri, in which he admitted      and mortgage companies. These false
to aiding and abetting in bank and wire         documents included false employment
fraud and agreed to pay $94,190 in              verifications, false earnings statements,
restitution. Defendants Williams and            false investment statements, and false IRS
Crowder-Williams, owners/operators of           W-2 forms. After receiving the mortgage
KRW Capital Corporation, a St. Louis            loans, these individuals would quickly




                                                                                              Single-Family Housing Programs
mortgage brokerage business, were               default on the loans, and the properties
previously charged with a 17-count              were foreclosed upon. Maggio and others
indictment of wire fraud, bank fraud, and       in the organization defaulted on more than
tax evasion. Defendant Crowder-Williams         $1 million in mortgage loans.
used her business to flip properties by
obtaining inflated appraisals and selling the        Defendant William O’Keefe of
properties to unqualified individuals.          Rochester, NY, an investor, pled guilty to
Defendant Williams, who assisted his wife       one count of filing a false loan and credit
in the illegal property-flipping scheme,        application. Previously, O’Keefe was
agreed to use the proceeds from the sale of     charged by criminal complaint with one
their $750,000 home to pay restitution.         count of filing a false loan and credit
Defendant Kim Crowder-Williams, was             application. O’Keefe, along with others,
sentenced in Federal Court, U.S. District       allegedly conspired to enter into a scheme
Court for the Eastern District of Missouri,     to purchase homes in the Rochester, NY,
to serve 18 months in prison. Defendant         area and flip them to each other for
Crowder-Williams previously pled guilty         increased and inflated prices. FHA and
to tax evasion as a result of her               conventional mortgages were obtained for
participation in a property-flipping/           the increased amount. To obtain the
mortgage fraud scheme. Crowder-                 mortgages, false documentation was
Williams admitted to evading taxes on           provided to the banks and mortgage
$200,000 in income, which caused more           companies. These false documents
than $590,000 in losses due to the property-    included VOEs, earnings statements,
flipping scheme. Defendant Crowder-             investment statements, and IRS W-2
Williams also owes the IRS $63,586 in back      forms. After receiving the mortgage loans,
taxes due to the evasion.                       these individuals would quickly default on
                                                the loans, and the properties were
    Defendant Joseph Maggio of                  foreclosed upon. O’Keefe and others in the
Rochester, NY, was sentenced to 5 years         organization defaulted on more than $1
supervised release and restitution in the       million in mortgage loans. O’Keefe could
amount of $56,899 and ordered to pay a          be imprisoned for up to 30 years and
$100 special fine. Maggio pled guilty to        ordered to pay $1 million in restitution.
one count of conspiracy to commit bank



HUD’s Single-Family Housing Programs                                                          29
                                       In the Circuit Court of Cook County,         they were buying the properties at true
                                  Chicago, IL, Julie Fazy, a loan processor, pled   market value. Further, investors believed
                                  guilty to three counts of identity theft and      they were buying the properties for no
                                  two counts of forgery. On the same day, she       money down and that renters, including
                                  was sentenced to 2 years probation and was        those receiving Section 8 rental assistance,
                                  ordered to pay $45,000 in restitution.            occupied the properties. The properties
                                                                                    were often unrented and uninhabitable
                                        Fazy admitted to her involvement in a       and were purchased based on
                                  mortgage scheme with her husband Tom              downpayments provided by the
                                  Fazy, a loan officer, and Craig Hendricks, a      defendants without the buyers’
                                  loan officer, wherein they used front             knowledge. Additionally, the defendants
                                  companies to purchase properties and then         falsified numerous loan application
                                  flip the properties using the stolen identities   documents, enabling investors to
                                  of deceased individuals as the end buyers.        unknowingly purchase more properties
Single-Family Housing Programs



                                  One of the individual identities they obtained    than they would otherwise be qualified to
                                  was that of Joseph Fay, whose identity was        buy. The scheme resulted in significant
                                  used as a borrower for two houses, one of         property foreclosures and financial losses
                                  which was FHA insured. The other house            to investors and lending institutions.
                                  in Fazy’s name was worth approximately
                                  $400,000 and was occupied by the Fazys for             Defendants Chauncey J. Calvert and
                                  approximately a year while it was going           Avonda L. Nicodemus of Kansas City,
                                  through the foreclosure process.                  MO, former account executives of
                                                                                    Ameriquest Mortgage, Gladstone, MO,
                                      This total scheme on the part of the          pled guilty in U.S. District Court, Western
                                  Fazys involved approximately $1 million in        District of Missouri, to felony charges that
                                  fraudulent loans. Craig Hendricks previously      they conspired with others to commit
                                  pled guilty and was confined. Tom Fazy was        interstate transportation of stolen property
                                  found shot to death in his mortgage office in     related to their role in a property-flipping
                                  December 2004.                                    scheme.       Calvert and Nicodemus
                                                                                    participated in numerous fraudulent
                                      Defendant Phillip D. Thomas of                schemes, causing victim real estate investors
                                  Kansas City, MO, pled guilty in Federal           to purchase 233 properties totaling $15.6
                                  Court, Western District of Missouri, to           million and 66 properties totaling $4
                                  felony charges that he conspired with             million, respectively. Calvert and
                                  others to commit wire fraud, money                Nicodemus’ coconspirators purchased
                                  laundering, and conspiracy related to his         inexpensive single-family properties in
                                  role in a property-flipping scheme.               inner city Kansas City and obtained
                                  Thomas and others caused real estate              property appraisals inflated by tens of
                                  investors to purchase approximately 233           thousands of dollars. The properties were
                                  properties totaling $15 million, based on         then quickly sold to victim investors who
                                  numerous fraudulent schemes. Thomas’              believed they were buying them at true
                                  coconspirators purchased inexpensive              market value. Calvert and Nicodemus
                                  single-family properties in inner city Kansas     created falsified loan application
                                  City for which he created fraudulent              documents, enabling investors to
                                  property appraisals inflated by tens of           unknowingly purchase more properties
                                  thousands of dollars. The properties were         than they would otherwise be able to buy.
                                  then quickly sold to investors who believed       Further, investors believed they were


                          HUD’s Single-Family Housing Programs                                                                30
buying the properties for no money down        investigation found that defendant LaBrie
and that renters, including those receiving    allegedly purchased homes, performed
Section 8 rental assistance, occupied the      rehabilitation, and sold those homes
properties. The properties were often          to borrowers who obtained FHA-insured
unrented and uninhabitable and were            mortgages. LaBrie purportedly provided
purchased based on downpayments                the downpayment funds to the borrowers
provided by the defendants, without the        and instructed the borrowers to obtain false
buyers’ knowledge. The scheme resulted         gift letters to conceal the fact that she was
in significant property foreclosures and       providing the funds for the downpayment.
financial losses to investors and lending      A total of 22 FHA loans, totaling
institutions.                                  $1,150,965, have gone into claim status.
                                               There have also been conventional loans
     Defendants Humberto Maravi and            that went into default.
Aura Guzman of Newark, NJ, loan




                                                                                                Single-Family Housing Programs
officers, surrendered to the U.S. Marshals         Property speculators Earl Ginter,
Service (USMS) and appeared in U.S.            Ronald Fruth, and David Walsh of
District Court, District of New Jersey.        Harrisburg, PA, pled guilty in Federal
Maravi and Guzman pled guilty to a one-        Court, Middle District of Pennsylvania, for
count information charging them with           their involvement in a property-flipping
knowingly and willfully conspiring with        scheme that allegedly involved officials
others to submit and cause to be submitted     of Sunset Mortgage Company. The
fraudulent mortgage applications to HUD.       investigation disclosed that the defendants
A sentencing date was set, and Maravi and      were involved in a scheme to sell at least
Guzman were released on a $100,000             40 homes with FHA-insured mortgages to
personal recognizance bond. The                borrowers whom they made eligible by
investigation, which concerns mortgage         paying off debts and providing funds for
fraud, began with the purchase of              downpayments, which they hid through
foreclosed properties by coconspirators.       the use of false gift letters. To date,
These properties were flipped to               $704,000 in FHA insurance claims has been
unqualified buyers. Maravi and Guzman          paid on the foreclosed mortgages.
recruited the nonqualified buyers to
purchase these homes. Maravi and                    The United States Attorneys Office,
Guzman completed fraudulent mortgage           Northern District of Illinois, Civil Division,
applications and facilitated the submission    filed a civil complaint against Gordon Nelson
of fraudulent bank statements, false           of Chicago, IL. The complaint seeks triple
employment documents, false employment         damages from Nelson for violation of the
verifications, and false gift letters. This    False Claims Act. Nelson was previously
activity resulted in fraudulent loans valued   indicted in 2004 in the Northern District of
at $4,814,936 and which to date have           Illinois by a grand jury, along with Jae Rank,
resulted in a loss to HUD in the amount of     Linda Martz, Alfredo Busano, and Marco
$1,818,510.                                    Reyes, for mail fraud. Nelson’s indictment
                                               stems from his alleged role in selling houses
    Defendant Naomi LaBrie of Topeka,          he owned to unqualified buyers by providing
KS, doing business as Rehabers, Inc., was      false loan documents, specifically gift funds
indicted in U.S. District Court, District      and gift affidavits, to HUD to qualify these
of Kansas, for defrauding HUD,                 buyers for an FHA-insured mortgage.
specifically the FHA loan program. This


HUD’s Single-Family Housing Programs                                                            31
                                        The civil complaint alleges that            homes, especially at the inflated prices. She
                                  beginning as early as 1996 and continuing         steered the settlements to Blackwell-
                                  until at least 1999, Nelson, through one of       Hawkins, who created false settlement
                                  several companies he owned and operated,          statements that incorrectly showed the
                                  recruited buyers to purchase one of his           necessary downpayment funds coming
                                  homes. Nelson would then refer these              from the buyer, when in fact they were
                                  buyers to Anchor Mortgage, knowing that           derived from Jennings as a reduction on
                                  the recruited buyer could not legitimately        sales proceeds due her.
                                  qualify for a mortgage. Nelson, with the
                                  assistance of others, would allegedly                  Defendant Anthony Ocasio of White
                                  provide the buyer with gift funds to make         Plains, NY, was arrested in Orlando, FL,
                                  it appear the buyer was receiving these           and charged with wire fraud and
                                  funds from a friend or relative. Then,            conspiracy to commit wire fraud for his role
                                  according to the complaint, Nelson and            in a property-flipping scheme between
Single-Family Housing Programs



                                  others would also instruct the buyers how         1998 and 2001 in the New York
                                  to fill out the gift affidavit associated with    metropolitan area. The complaint was filed
                                  these gift funds. As a result of these actions,   in the Southern District of New York.
                                  Nelson and others caused Anchor                   Ocasio allegedly bought and sold more
                                  Mortgage to issue loans that were insured         than 10 properties and flipped those
                                  by HUD. Subsequently, several of the              properties by preparing false and
                                  buyers defaulted on their fraudulently            fraudulent documents, including phony
                                  obtained HUD loans, causing a loss to             gift letters, VOEs, downpayment checks,
                                  HUD in excess of $600,000.                        and IRS W-2 forms, to qualify homebuyers
                                                                                    for both FHA and conventional mortgages.
                                        Speculator Mazie Louise Jennings and        In one particular property flip, Ocasio sold
                                  settlement agent Kim Blackwell-Hawkins            a house that he did not legally own by
                                  of Baltimore, MD, were sentenced in               preparing a phony deed and title report.
                                  Federal Court, District of Maryland, for
                                  conspiracy to commit mail fraud in                    Defendant Kelly Klamen of St. Louis,
                                  connection with a fraudulent flipping             MO, officer of K&K Investments, signed a
                                  scheme involving FHA-insured mortgages            Federal civil settlement agreement in the
                                  between 1995 and 2000. Jennings was               Eastern District of Missouri and paid
                                  sentenced to prison for a period of 2 years,      $50,000. Defendant Klamen engaged in a
                                  to be followed by 3 years supervised              property-flipping scheme in which he
                                  release, and ordered to repay $568,668 to         submitted false gift certifications along with
                                  HUD. Blackwell-Hawkins was ordered to             other false documents to qualify purchasers
                                  serve 10 months home detention, to be             for FHA loans in violation of the False
                                  followed by 3 years supervised release, and       Claims Act. Klamen previously paid
                                  ordered to repay HUD $247,493.                    $53,265 in court-ordered restitution as a
                                  Investigation by OIG uncovered a scheme           result of a criminal conviction.
                                  wherein Jennings would purchase
                                  distressed properties in and around                   Defendant Tonya Hill of St. Louis,
                                  Baltimore and resell them at inflated prices      MO, a mortgage broker, Residential
                                  to first-time homebuyers. She created false       Building and Mortgage Resources, was
                                  employment, asset, and credit information         indicted in Federal Court, U.S. District
                                  for most of the buyers, who would not             Court for Eastern Missouri, with five
                                  otherwise have qualified to purchase the          counts of fraud, to include bank fraud,


                          HUD’s Single-Family Housing Programs                                                                 32
misuse of a Social Security number (SSN),            Defendant Barry Fauntleroy, who was
bankruptcy fraud, and false statements to      the president of EON, a real estate
HUD. Defendant Hill allegedly flipped          investment company in Newark, NJ, pled
properties by using false documents to         guilty in Federal Court to count one of a
secure FHA and conventional loans. She         seven-count Federal indictment, charging
also allegedly used a false SSN to purchase    him with conspiracy to falsify documents
the home in which she resides to enable        that were submitted to HUD. Defendants
her to hide her assets from the U.S.           Port, who is the owner of Port Abstract, a
Bankruptcy Court. Defendant Hill               title company located in Garden City, NY,
allegedly caused more than $400,000 in         and Keith Miles, a real estate contractor and
losses, including more than $77,000 in         owner of the Mid-South Atlantic Asset
losses to HUD.                                 Holding Company, each pled guilty in
                                               Federal Court, Newark, NJ, to a one-count
     Defendant Donald Fazio, a resident of     information, charging each of them with




                                                                                               Single-Family Housing Programs
Smithtown, NY, pled guilty in Federal          falsification of documents that were
Court to one count of conspiracy and 11        submitted to HUD. In addition, Port
counts of money laundering of a 61-count       executed a consent judgment for $500,000
indictment. In addition, Fazio agreed to       as restitution for his involvement in this
enter into a consent order of forfeiture and   scheme, and Miles executed a consent
a money judgment in the amount of $2.6         judgement for $26,000 as restitution for his
million.                                       involvement in this scheme.

     Defendant Gary Konstantin, a resident         Previously, Fauntleroy and Devon
of Brookville, NY, was found guilty by jury    Bowie were indicted by a Federal grand
trial in Federal Court on all six-one counts   jury in the District of New Jersey and
of an indictment of conspiracy, wire fraud,    arrested. Bowie and Fauntleroy were
mail fraud, money laundering, and              indicted on one count of conspiracy, three
insurance fraud. A forfeiture hearing is       counts of making false statements, and
scheduled to determine disposition             three counts of wire fraud.
regarding the forfeiture counts of the
indictment seeking monetary judgments in           Faunleroy was a real estate investor
the amounts of $11.6 million.                  who bought and sold real property and
                                               controlled a bank account in the name of
    Previously Fazio and Konstantin were       Neighborhood Holdings, LLC. He was the
indicted on 61 counts of conspiracy, wire      president of Neighborhood Mortgage
fraud, mail fraud, money laundering, and       Bankers Company. In addition, he
insurance fraud, with forfeiture counts        controlled bank account in the name of
seeking monetary judgments in the amount       Urban Renaissance.
of $11.6 million. Fazio and Konstantin
were mortgage brokers and branch                   Fauntleroy, Bowie, and others solicited
managers at a now defunct mortgage             and recruited individuals with relatively
company (Brucha Mortgage Bank) and             low income to buy homes in Essex County,
participated in a massive scheme to            NJ, with the promise that they could buy
defraud HUD regarding its 203(k)               homes with little or no money down. They
program. Losses to HUD from this               located dilapidated properties that were
conspiracy total $11.6 million.                available for sale; showed the borrowers
                                               the properties; represented to the


HUD’s Single-Family Housing Programs                                                           33
                                  borrowers that they owned the properties                      Fauntleroy, Bowie, and others
                                  and that they would significantly renovate               purchased the properties at reduced prices,
                                  and otherwise improve the properties; and                at times using the proceeds from FHA-
                                  then sold the properties to the borrowers                insured loans obtained by the borrower,
                                  at an agreed-upon price, which                           and resold the properties to the borrowers
                                  represented the fair market value of the                 at the contract price. False appraisals on
                                  properties in the significantly improved                 the dilapidated properties were used in the
                                  condition. They arranged for the borrowers               mortgage application package. These
                                  to purchase the properties, assisting them               appraisals were for inflated prices and
                                  in obtaining FHA-insured loans through                   described properties that were habitable
                                  Neighborhood Mortgage in the amount of                   and in pristine condition.
                                  the contract price by submitting a loan
                                  application and supporting documents                         Bowie and others obtained money by
                                  that were false, fictitious, and fraudulent              charging the borrowers high origination
Single-Family Housing Programs



                                  and by approving loan applications,                      and discount fees, as well as high
                                  knowing that they contained false,                       interest rates on the mortgages when
                                  fictitious, and fraudulent documents and                 the borrowers secured loans with
                                  information. These mortgage loan                         Neighborhood Mortgage. These high
                                  packages were then submitted to HUD for                  interest rates made the mortgage loans
                                  FHA-insurance endorsement.                               appealing for resale to financial institutions.




                                          This article has been shortened. Complete version is available at http://www.nj.com/archives.
                                          Copyright, 2005. The Star-Ledger - Neward, NJ. All rights reserved. Reprinted with permission.




                          HUD’s Single-Family Housing Programs                                                                             34
They obtained their illegal proceeds by        home improvement loans. Although they
directing the proceeds from the sale of a      were paid in full by the homeowners from
property to a borrower at the closing, to be   loan proceeds, they failed to complete
transferred to bank accounts controlled by     repairs and/or performed shoddy work in
Fauntleroy and Bowie, including                more than 100 cases, resulting in losses of
Neighborhood Holdings, EON, and Urban          at least $200,000 to the homeowners.
Renaissance, and to individuals with
whom Fauntleroy and Bowier maintained          Conspiracy and False Statements
a personal relationship.

    This illegal activity represented               Defendant Gabriel Pugliese of Los
approximately $14 million dollars in           Angeles, CA, was sentenced in Federal
insured mortgage loans, of which 103 loans     District Court, Central District of
went into default and 54 properties had to     California, to pay $1,984,264 in restitution




                                                                                               Single-Family Housing Programs
be foreclosed on with a potential loss to      and a special assessment fee of $300.
HUD in excess of $3 million.                   Defendant Monica D’Angelo of Los
                                               Angeles, CA, was sentenced in Federal
     On May 26, 2005, Bowie, Fauntleroy,       District Court, Central District of
Stacie Morrero, an underwriter, and Sean       California, to pay $1,984,264 in restitution
Mason, a closing attorney, were indicted       and a special assessment fee of $300.
on State charges of conspiracy and theft       D’Angeleo was also ordered to serve 1 year
by deception involving $1.2 million in         of probation and 6 months of home
fraudulent mortgage loans. The State of        detention. Pugliese will be held jointly
New Jersey unsealed these indictments a        responsible for the restitution amount along
week later in coordination with the Federal    with his coconspirators, Noemi Pugliese
indictment. On July 13, 2005, Norm             and Monica D’Angelo. Gabriel Pugliese
Murphy was arrested and pled guilty to a       was also ordered to serve 1 year of
New Jersey State accusation for knowingly      probation and 4 months of home detention.
engaging in the unauthorized practice of       Gabriel Pugliese pled guilty to a three-count
law. Murphy, the president and chief           information on December 1, 2000, which
operator of Garden State Searches, a           charged him with conspiracy and two
licensed title company, provided title work    counts of mail fraud. Gabriel Pugliese,
and services as a closing agent relating to    along with his coconspirators, Noemi and
                                               Monica D’Angelo, operated April 8 Realty.
properties associated in this scheme.
                                               The investigation, which included a consent
                                               search of April 8 Realty, revealed that 150
    Contractors Brad Marks and Edwin
                                               real estate professionals obtained forged
Rivera of Philadelphia, PA, doing business
                                               employment and income documents from
as Quality Home Remodeling and
                                               April 8 Realty to make ineligible applicants
Millenium Homes, Inc., among other
                                               appear qualified for HUD/FHA-insured
names, were charged in Federal Court,
                                               loans. The real estate professionals then
Eastern District of Pennsylvania, with
                                               caused the false documents to be submitted
defrauding homeowners in both HUD-
                                               to HUD. Many real estate investors used
assisted Title I and conventional home
                                               fraudulent documents to illegally flip
improvement programs. OIG investigation
                                               properties that were insured by FHA.
disclosed that the defendants allegedly
                                               Based upon false information, HUD
solicited homeowners of Latino
                                               insured more than 1,200 FHA loans.
background for Title I and conventional


HUD’s Single-Family Housing Programs                                                           35
                                  Noemi Pugliese was also sentenced in           laundering. Defendants Current, Garcia,
                                  Federal District Court, Central District of    and their coconspirators were involved in
                                  California, and is to pay $1,984,264 in        a scheme in which FHA loans were issued
                                  restitution and a special assessment fee of    to both unqualified and straw-buyers.
                                  $300. Noemi Pugliese will be held jointly      Some of the straw-buyers included
                                  responsible for the restitution amount along   teenagers who played on a junior college
                                  with her coconspirators. She was also          baseball team coached by one of the
                                  ordered to serve 1 year of probation and 4     coconspirators. Frank Acosta, another
                                  months of home detention. Noemi Pugliese       coconspirator, was recently found guilty on
                                  pled guilty to a three-count information on    21 counts. Sentencing for Acosta was
                                  December 1, 2000, which charged her with       scheduled. Acosta’s wife, Elizabeth
                                  conspiracy and mail fraud.                     Madrigal, who was also involved in this
                                                                                 scheme, pled guilty in 2003 to one charge
                                       Defendant Frank P. Acosta of Los          each of wire fraud, conspiracy, and money
Single-Family Housing Programs



                                  Angeles, CA, appeared in Federal Court         laundering, and she is currently serving a
                                  for the Central District of California and     3-year, 4-month Federal sentence. The total
                                  was sentenced to serve 5 years                 estimated loss to HUD in this case is $1.5
                                  incarceration and pay $1.3 million in          million.
                                  restitution. Defendant Acosta and
                                  coconspirators were involved in a scheme            In Federal Court for the District of
                                  in which FHA-insured loans were                Columbia, former real estate appraiser
                                  approved for both unqualified and straw-       Esther Story Harper of Washington, DC,
                                  buyers. Some of the straw-buyers included      was sentenced to 4 months incarceration
                                  teenagers who played on a junior college       and 4 months of home detention, to be
                                  baseball team coached by one of the            followed by 3 years of supervised release.
                                  coconspirators. The jury found Acosta          Additionally, Harper was ordered to pay
                                  guilty on 21 counts. Acosta’s wife             restitution in the amount of $1,042,156 to
                                  Elizabeth Madrigal, who was also involved      HUD and commercial lenders and was
                                  in this scheme, pled guilty in 2003 to one     fined $100. On April 3, 2002, Harper pled
                                  charge each of wire fraud, conspiracy, and     guilty to a two-count criminal information
                                  money laundering, and she is currently         charging conspiracy to commit crimes
                                  serving a 3-year, 4-month Federal sentence.    against the United States and causing an
                                  The total estimated loss to HUD in this case   act to be done. Between 1994 and 1998,
                                  is $1.5 million.                               Harper was a licensed real estate appraiser
                                                                                 in the District of Columbia and the State
                                       Defendant Gerard Current of Los           of Maryland. During that time, Harper
                                  Angeles, CA, appeared in Federal Court         conspired with Oluritimi Padanu and
                                  for the Central District of California and     Sarafa Kareem (loan officers with Allstate
                                  was sentenced to 2 years probation and         Funding and Federal Home Funding),
                                  ordered to pay $510,708 in restitution as a    Wilbert Brodie (an investor), Akin
                                  result of his previous conviction of wire      Akinkoye, Dorothy Quigley, and John
                                  fraud, conspiracy, and money laundering.       Quigley (realtors), and other real estate
                                  Fernando Garcia, also a defendant in this      professionals. Harper’s coconspirators
                                  case, was sentenced to 2 years probation       would request her to appraise properties
                                  and ordered to pay $249,278 in restitution,    located in the District of Columbia and
                                  also for wire fraud, conspiracy, and money     State of Maryland and to greatly inflate the



                          HUD’s Single-Family Housing Programs                                                            36
current value of the property. Harper’s         that seven real estate professionals,
appraisals dramatically inflated the current    including Fierro and Solomon, were
value of the properties. To support the         involved in producing false statements to
inflated valuation figure in the appraisal      HUD by assisting unqualified borrowers to
report, Harper would falsely reflect the true   obtain FHA-insured home loan mortgages.
condition of the property (often indicating     In addition to providing downpayment gift
that the property had been renovated            funds for buyers whom they represented,
when it had not), would falsify the true        Fierro and Solomon contacted forgers to
current owner of the property, and would        prepare false/fabricated income and
use false comparables. A majority of the        credit-related documentation. In some
properties appraised by Harper were part        cases, Fierro and Solomon would
of flip transactions.                           fraudulently notarize the identities of
                                                nonexistent borrowers and then use the
    Defendant Akintunde Akinmurele of           false documents to prepare fraudulent




                                                                                                Single-Family Housing Programs
Washington, DC, a certified public              FHA-insured home loan mortgage
accountant, was sentenced in Federal            applications. Approximately 62 of the 91
Court, District of Columbia, to 5 years         properties sold by the conspirators went
probation and 300 hours of community            into claims, and the loss to HUD is
service and ordered to make restitution to      approximately $4.7 million.
HUD totaling $747,546 for his admitted
role in a scheme to provide false                     Defendant Frank Pepe of Trenton, NJ,
documentation on behalf of purchasers of        was sentenced in U.S. District Court,
homes with FHA-insured mortgages. The           District of New Jersey, to 2 years in prison,
amount of restitution represents the losses     3 years probation, restitution of $130,495,
to date from the FHA insurance fund             a $6,000 fine, and a $300 special assessment
based on transactions involving the             fee. On October 15, 2004, Pepe, a HUD-
defendant. The investigation disclosed that     certified appraiser and owner of the Home
Akinmurele provided false pay statements,       Consultants and SSP Investments, pled
IRS W-2 forms, and Federal tax returns on       guilty to an information charging him
behalf of at least 40 FHA purchasers.           with three counts of conspiracy to
                                                submit false statements. Pepe purchased
    In Federal Court for the Central            approximately 31 properties under the
District of California, defendant Joseph        names of his companies and proceeded to
Fierro of Los Angeles, CA, was sentenced        flip the properties to borrowers. Contrary
to 18 months imprisonment and 3 years           to HUD regulations, he also appraised
supervised release and was ordered to pay       these properties. Pepe conspired with
$415,265 in restitution to HUD.                 defendant Kim Sammartanto, branch
Additionally, Defendant Jarreth Solomon         manager/loan officer, American Home
was sentenced to 3 months imprisonment          Loans, to create and submit fraudulent
and 3 years supervised release and was          documentation, which assisted the
ordered to pay $269,524 in restitution to       borrowers in obtaining the FHA
HUD. Both Fierro and Solomon had                mortgages. Sammartano pled guilty to
previously pled guilty to making false          conspiracy to submit false statements.
statements and aiding and abetting              Sammartano and Pepe admitted to
charges. This investigation began after         knowingly and willingly creating and
HUD OIG and the IRS received allegations        submitting fraudulent IRS W-2 forms, pay



HUD’s Single-Family Housing Programs                                                            37
                                  stubs, false VOEs, false verifications of rent   one count of making false statements to
                                  (VOR), false gift letters, and other             HUD.
                                  qualifying documents in the borrower’s
                                  FHA mortgage application. Pepe and                    Defendant Aleem was one of many
                                  Sammartano were associated with                  subjects who participated in a larger real
                                  approximately 18 fraudulent FHA                  estate scheme involving a group of realtors
                                  mortgages and 13 U.S. Department of              and loan officers who assisted unqualified
                                  Agriculture (USDA) loans with a value            homebuyers in obtaining mortgage
                                  of $2,473,744. Pepe is scheduled to              financing that they were not eligible to
                                  voluntarily surrender.                           receive. To date, this particular real estate
                                                                                   scheme involves approximately 90 homes
                                       Defendant Daryl Collins of Denver,          with an approximate FHA-insured loan
                                  CO, a home buyer who purchased a home            value of $13,500,000. Currently, this real
                                  that was insured through the FHA 203(b)          estate fraud scheme has resulted in a
Single-Family Housing Programs



                                  insurance program, was arrested in               $2,310,030 loss to the FHA insurance fund.
                                  connection to his earlier indictment in
                                  February 2005 for violations of the United            In the Northern District of Illinois,
                                  States Code relating to the misuse of an         defendant Deborah Bankhead, also known
                                  SSN, making false statements, and aiding         as Deborah Thompson of Chicago, IL, was
                                  and abetting. Defendant Collins was one          sentenced to 4 years probation, 300 hours
                                  of many subjects who allegedly utilized          of community service, and $119,000 in
                                  false information on their mortgage              restitution to HUD. Bankhead was
                                  applications when they applied for the           responsible for having fraudulently
                                  loans that were ultimately insured through       provided a false name and a false SSN on
                                  FHA. The indictment and subsequent               her Chapter 13 petition for bankruptcy.
                                  arrest of defendant Collins were related to      She also fraudulently obtained two FHA-
                                  a larger real estate scheme involving a          insured properties by providing a false SSN
                                  group of realtors and loan officers who          and false financial information on the loan
                                  assisted unqualified homebuyers in               applications and then failing to make her
                                  obtaining mortgage financing that they           mortgage payments. Bankhead then
                                  were not eligible to receive. To date, this      repeatedly filed false and fraudulent
                                  real estate scheme involves approximately        bankruptcy petitions from 1997 to 2001,
                                  90 homes with an approximate FHA-                thus obtaining the benefits of the automatic
                                  insured loan value of $13.5 million.             stay of collection proceedings by her
                                  Currently, this real estate fraud scheme has     creditors. Bankhead filed these false
                                  resulted in a $2,310,030 loss to the FHA         bankruptcy petitions, knowing that she
                                  insurance fund.                                  would continue to conceal property from
                                                                                   her creditors and would not complete the
                                      Defendant Watik Aleem of Denver,             requirements for repayment under the
                                  CO, a homebuyer who purchased a                  bankruptcy plan. This was done for the
                                  property insured through the FHA 203(b)          purpose of defrauding and obtaining
                                  insurance program, was sentenced in the          money and property from HUD, financial
                                  U.S. District Court for the District of          institutions, creditors, and the bankruptcy
                                  Colorado, to 5 years probation and ordered       trustee. Bankhead ultimately defaulted on
                                  to pay restitution in the amount of $75,551      these two properties, resulting in a loss to
                                  to HUD and a special assessment fee of $25.      HUD of approximately $119,230.
                                  Defendant Aleem previously pled guilty to


                          HUD’s Single-Family Housing Programs                                                               38
     Defendant Paola Garcia of Dallas, TX,      using unsuspecting clients who were
was sentenced in the northern district of       unaware their names had been used to
Texas to 15 months incarceration, 3 years       purchase these properties. Teelucksingh
supervised release, and $200 in court costs     and Richmond falsified employment and
and ordered to pay restitution of $40,397.      income verifications and originated a total
Garcia was found guilty of making false         of $1.2 million in fraudulent loans.
statements.
                                                    Defendants William Broglan, Billy
     Garcia purchased a residence in the Ft.    Edwards, Larry Gray, Sandra Gray, and
Worth area and received FHA insurance           Steven Swindall of Huntsville, AL, were
by falsifying her SSN. Garcia then              indicted in U.S. District Court, Northern
defaulted on the loan, and HUD sustained        District of Alabama, on conspiracy and
a loss of $40,497.                              making false statements to HUD. The
                                                subjects allegedly coconspired with one




                                                                                              Single-Family Housing Programs
    Real estate agent Joy King of Norfolk,      another in a property-flipping scheme by
VA, pled guilty in Federal Court, Eastern       purchasing nine HUD REO properties,
District of Virginia, to making a false         certifying to HUD that the properties
declaration in a bankruptcy case. The           would be owner occupied, and flipping the
investigation disclosed that King               properties for investments by using straw-
participated in at least seven property         buyers. HUD suffered a “loss on sale”
transactions involving FHA-insured              totaling $771,440 as a result of their
mortgages in which false information            scheme.
pertaining to buyers’ employment, credit,
and SSNs was provided to make                        Defendants Ali Abdul Karim Farhat,
them eligible. Further, she filed for           Amira Ali Farhat, Abdulamir Berro, Abudl
personal bankruptcy and significantly           Karim Akram Berro, Sami Ahmad Berro, and
underreported her assets on official            Lina Reda—also known as Lina Berro were
declarations. As part of her guilty plea,       charged in the Eastern District of Detroit,
she has agreed to make a lump sum               MI, with four counts of making false
restitution of $39,820 to HUD, which            statements. Ali Abdul Karim Farhat,
represents the net loss to the Department       Abdulamir Berro, and Sami Ahmad Berro
on the seven mortgages.                         were the borrowers, who secured FHA
                                                insurance on three single family properties
    Defendant Sean Teelucksingh of              totaling $368,000 by supplying multiple
Tampa, FL, a loan officer with Maxwell          fraudulent employment documents.
Mortgage, pled guilty in U.S. District Court,   Amira Ali Farhat, Abdul Karim Akram
Middle District of Florida, to one count of     Berro, and Lina Berro allegedly provided
conspiracy to commit wire fraud and false       “backstopping” in the form of false income
statements to HUD. Teelucksingh                 verification as bogus employers for the
coconspired with Belinda Richmond and           borrowers, who purchased the properties in
other employees of Maxwell Mortgage, an         the Detroit metropolitan area. One of the
FHA-approved lender, in making false            FHA-insured properties defaulted, resulting
statements to obtain FHA-insured                in a claim paid by HUD.
mortgages. Richmond resided in one of the
FHA-insured properties and profited in the         Defendant Horace Smith of Las
scheme from serving as a straw-purchaser.       Vegas, NV, a former loan officer at
The subjects purchased eight properties,        Mortgage Capital Resources, had his


HUD’s Single-Family Housing Programs                                                          39
                                  supervised release revoked by Judge Hicks       Hendriks also signed a HUD-1 settlement
                                  in the District of Nevada, following            statement, which falsely reflected that
                                  testimony regarding Smith’s current             Hendriks had provided $1,800 in earnest
                                  involvement in fraudulent real estate           money, and a fraudulent gift letter, which
                                  transactions. Smith was sentenced to serve      falsely showed that Hendriks received
                                  an additional 18 months of incarceration,       $3,000 in gift monies from a family member.
                                  followed by 18 months of supervised             After obtaining her FHA-insured property,
                                  release, and ordered not to engage in any       Hendriks failed to make her mortgage
                                  real estate transactions. Smith was             payments and then purportedly filed two
                                  arrested for violating his probation. This      false and fraudulent bankruptcy petitions
                                  investigation revealed that Smith was           in 1998, thus obtaining the benefits of the
                                  obtaining properties in the names of his        automatic stay of collection proceedings by
                                  wife and mother-in-law using fraudulent         her creditors. Hendriks ultimately
                                  pay stubs and tax returns. He was released      defaulted on this property, resulting in a
Single-Family Housing Programs



                                  from jail in February 2005 and within a         loss to HUD of approximately $40,410.
                                  month was engaging once again in
                                  fraudulent transactions. In October 2003,            Hendriks, using different aliases and
                                  Smith was sentenced in the District of          different SSNs, allegedly committed similar
                                  Nevada to 37 months incarceration, 3 years      loan fraud schemes in 1989 and 1991 to
                                  of supervised release, and a $200 special       obtain two other FHA-insured properties.
                                  assessment and ordered to pay restitution
                                  in the amount of $349,103. Smith was                 Defendant Richard Doty of Tampa,
                                  sentenced on conspiracy to commit               FL, pled guilty in U.S. District Court,
                                  mortgage fraud, making false statements         Middle District of Florida, to conspiracy
                                  to HUD, and aiding and abetting. Smith          and accessory after the fact. Doty, a
                                  helped provide false income and                 licensed attorney in Philadelphia, assisted
                                  employment information to borrowers to          coconspirators to elude apprehension/
                                  obtain FHA loans to purchase single-family      punishment for committing offenses
                                  properties. The previous investigation          against HUD and financial lenders. Doty
                                  involved 32 FHA loans and 19 conventional       assisted in the facilitation and execution of
                                  loans valued at more than $6 million.           the subjects’ escape to Mexico and then
                                  Eighteen FHA loans valued at $1.9 million       Belize. The subjects were under
                                  went into default with a loss to HUD of         investigation for defrauding HUD FHA
                                  $533,294.                                       and Government National Mortgage
                                                                                  Association (GNMA) programs of $50
                                      A State of Illinois grand jury in Cook      million and GNMA Financial Warehouse
                                  County indicted defendant De Evelyn             Lenders of $70 million, as well as money
                                  Hendriks of Chicago, IL, also known as          laundering offenses.
                                  Dorothy Evelyn Hendricks, Susan Dina
                                  Hendricks, and Dina H. Pirie, on four                Defendants Thomas Bowman and
                                  counts of forgery. Hendriks is alleged to       Carlos Carranza of Ft. Lauderdale, FL, pled
                                  have fraudulently provided a false name         guilty to one count of conspiracy to commit
                                  and a false SSN on a loan application and       mail fraud in connection with a HUD FHA-
                                  a 1099R (substitute Form W-2 tax                insured loan. Bowman, a licensed
                                  statement) to obtain an FHA-insured             mortgage broker for Blue Chip Mortgage
                                  property in 1996. It is further alleged that,   Lending Services, Inc., an FHA-approved
                                  to obtain this FHA-insured property,            loan correspondent, falsified loan


                          HUD’s Single-Family Housing Programs                                                              40
applications and gift letters to procure        sentenced on two separate counts of
mortgage financing for unqualified              systematically using straw-buyers, not-for-
borrowers. Carranza, a licensed real estate     profits, and several mortgage companies to
broker, conspired with Bowman by                purchase and/or pass through 324
referring the unqualified buyers to             properties that were ultimately insured by
Bowman to obtain mortgage financing.            FHA for $60,619,334. The FHA 203(b)
Bowman and Carranza were indicted. The          program insured 126 of these properties,
indictment charged the conspiracy in            while another 198 properties were insured
connection with two loan files, one FHA-        under the FHA 203(k) program.
insured and one conventional loan. The
FHA-insured property was conveyed to                 Defendant Sandra Ruiz of Los
HUD and resold for a loss to HUD of             Angeles, CA, appeared in Federal District
$6,083.                                         Court in the Central District of California
                                                and was sentenced to 27 months




                                                                                                  Single-Family Housing Programs
     Patricia Cuthrell of Norfolk, VA, was      incarceration and 3 years supervised
charged in Federal Court, Eastern District      release and ordered to pay restitution of
of Virginia, with making false statements       $902,615 for Federal conspiracy and false
to HUD, fraudulent use of an SSN, and           statement violations with regard to an FHA
making false declarations in connection         loan origination scheme. The investigation
with an application for bankruptcy              found that from 1995 to 1999, Ruiz, a loan
protection. The investigation disclosed that    officer at North American Mortgage
the defendant allegedly used an SSN             Corporation, was complicit in forwarding
assigned to another individual to obtain a      fraudulent FHA-insured loans for
driver’s license, bank account, and credit      unqualified borrowers, thus defrauding the
card all under a false identity. She then       HUD single-family program. Ruiz
allegedly used the false identity along with    utilized forgers to fabricate false
false employment and asset information to       income, employment, and credit-related
purchase both an automobile and a home          documents. Ruiz’s involvement in the
with an FHA-insured mortgage. She               scheme led to her unlawfully originating
defaulted after making two payments on          more than 20 FHA-insured loans, which
the mortgage and attempted to forestall         resulted in an approximate loss of $800,000
foreclosure by filing for Federal bankruptcy    to HUD.
protection using the false identity. HUD
eventually paid a claim of $132,000 to the            Defendants Mark Arkenau and Bradley
lender upon adjudication of the                 A. White of Indianapolis, IN, were both
foreclosure.                                    sentenced in U.S. District Court for the
                                                Southern District of Indiana. White was the
     Defendant Ahillia Ramotar, an              president of Regal Mortgage, who also acted
unlicensed real estate broker and owner of      as a loan officer. White previously pled guilty
Tri-Metro Realty, was sentenced to 15           to making false statements to HUD, while
months incarceration and 5 years                Arkenau, a loan officer with Regal, earlier
probation and ordered to pay $9,000,000         pled guilty to making false statements to
in restitution and a $300 special assessment.   HUD.
She previously pled guilty in U.S. District
Court, Eastern District of New York, NY,            White was sentenced to 5 months in
on two violations of making false               Federal custody and 5 months home
statements to HUD. Ramotar was                  confinement, as well as 3 years probation,


HUD’s Single-Family Housing Programs                                                              41
                                  restitution to HUD totaling $84,000, and a          questionable homebuyers located in the
                                  fine of $169,000. Arkenau was sentenced to          New York metropolitan area, including
                                  2 years probation, 6 months home detention,         Nassau and Suffolk Counties, would
                                  $38,000 in restitution to HUD, and a $2,000         qualify for FHA-insured loans. More than
                                  fine. Both Arkenau and White accepted               90 percent of the FHA-insured loans from
                                  responsibility for having falsified borrower        AIMB contained one or a variety of altered
                                  information on FHA-insured loan                     documents, including false pay stubs, bank
                                  applications, such as IRS W-2 forms and             statements, IRS W-2 forms, VORs, VOEs
                                  VOEs, in order for the borrowers to qualify         and deposit slips, credit worthiness letters,
                                  for the loans. In addition, White created           gift letters, and credit reports.
                                  fictitious companies and was able to secretly
                                  obtain portions of sales proceeds from the              In Denver, CO, U.S. District Court for
                                  fraudulent deals, which in turn kicked back         the District of Colorado, defendant Julius
                                  cash to Arkenau. The total amount of loans          Muhammad, a homebuyer who purchased
Single-Family Housing Programs



                                  attributed to Arkenau and White exceeded            numerous properties insured through the
                                  $1.7 million, while HUD’s total loss was            FHA 203(b) insurance program was
                                  $850,000.                                           sentenced to 5 years probation and ordered
                                                                                      to pay restitution in the amount of $74,436
                                       Defendant Arlene Lacey of the U.S.             to HUD and a special assessment fee of
                                  Eastern District Court of NY, Central               $25. Defendant Muhammad previously
                                  Islip, a closing attorney working with              pled guilty to making false statements to
                                  American International Mortgage Bankers             HUD in relation to obtaining three FHA-
                                  (AIMB) in Lake Success, was sentenced to            insured loans with a combined loan value
                                  6 months incarceration and 3 years                  of approximately $450,000 using false
                                  probation and required to pay a court-              SSNs as well as false income documents.
                                  ordered restitution of $256,000. Lacey pled
                                  guilty to conspiracy and making false                    Defendant Gail Henderson of Denver,
                                  statements. Lacey helped American                   CO, a homebuyer who purchased an FHA-
                                  International Mortgage Bankers in ensuring          insured property utilizing fraudulent
                                  that questionable homebuyers located in             documents and a false SSN pled guilty in
                                  the New York metropolitan area, including           U.S. District Court for the District of
                                  Nassau and Suffolk Counties, would                  Colorado to a one-count violation of making
                                  qualify for the purchase of an FHA-insured          a false statement to HUD with intent to
                                  property. More than 90 percent of the FHA-          defraud. Defendant Randal Jones, a
                                  insured loans from AIMB contained one or            homebuyer who also purchased a home
                                  a variety of altered documents, including           that was insured through the FHA 203(b)
                                  false pay stubs, bank statements, IRS W-2           insurance program utilizing a false SSN
                                  forms, VORs, VOEs, verifications of                 and income information, pled guilty in
                                  deposit, credit worthiness letters, gift letters,   Federal Court for the District of Colorado
                                  and credit reports.                                 to making false statements to HUD.
                                                                                      Defendant Jones’s plea, which was the
                                      Defendant Matthew Francis of New                conclusion to an earlier indictment and
                                  York, NY, former loan officer with AIMB             arrest, resulted in the defendant being
                                  in Lake Success, NY, pled guilty in U.S.            sentenced to 5 years probation and ordered
                                  District Court for the Eastern District of          to pay restitution in the amount of $51,533
                                  New York to making false statements.                and a special assessment fee of $25.
                                  Francis helped AIMB in ensuring that


                          HUD’s Single-Family Housing Programs                                                                  42
     Defendant Dwayne Vandyke, a               applied for loans that were ultimately
homebuyer who purchased a home that            insured through the FHA loan program.
was insured through the FHA 203(b)             The indictment and subsequent arrest of
insurance program utilizing a false SSN        defendant Lockett were related to a larger
and income information, pled guilty in         real estate scheme involving a group of
Federal Court for the District of Colorado     realtors and loan officers who assisted
to making false statements to HUD.             unqualified homebuyers in obtaining
Defendant Vandyke’s plea was the               mortgage financing that they were not
conclusion to an earlier indictment and        eligible to receive.
arrest. Defendant Denisha Walker, a
homebuyer who also purchased a home                 Defendants Sebastian Scott, Wendy
that was insured through the FHA 203(b)        Wilkins, and Qunell Jefferson, who also
insurance program utilizing a false SSN        purchased homes that were insured
and income information, also pled guilty       through the FHA 203 (b) insurance




                                                                                              Single-Family Housing Programs
in Federal Court for the District of           program utilizing a false SSN and income
Colorado to making false statements to         information, pled guilty in Federal Court
HUD. Defendant Walker’s plea, which            for the District of Colorado to making false
was the conclusion to an earlier indictment    statements to HUD. Defendants Wilkins,
and arrest, resulted in the defendant being    Scott, and Jefferson were three of many
sentenced to 2 years probation and ordered     subjects who participated in a larger real
to pay a fine of $250 and a special            estate scheme involving a group of realtors
assessment fee of $25. Defendants Jones,       and loan officers who assisted unqualified
Henderson, Vandyke, and Walker were            homebuyers in obtaining mortgage
four of many subjects who participated in      financing that they were not eligible to
a larger real estate scheme involving a        receive. To date, this real estate scheme
group of realtors and loan officers who        involves approximately 90 homes with an
assisted unqualified homebuyers in             approximate FHA-insured loan value of
obtaining mortgage financing that they         $13,500,000. Currently, this real estate
were not eligible to receive. To date, this    scheme has resulted in a $2,310,030 loss to
real estate scheme involves approximately      the FHA insurance fund.
90 homes with an approximate FHA-
insured loan value of $13 million.                  Defendants Christopher Santarsiero
Currently, this real estate fraud scheme has   and Jeff Smith, Green Castle Realty,
resulted in a $2,310,030 loss to the FHA       Newark, NJ, pled guilty to an information
insurance fund.                                in U.S. District Court, District of New
                                               Jersey, charging them each with one count
     Defendant Sheila Lockett and of           of conspiracy to commit false statements.
Denver, CO, homebuyer who purchased            Santarsiero and Smith conspired with
a home that was insured through the FHA        David Cobianchi, loan officer, U.S.
203(b) insurance program, was arrested in      Mortgage, to create and submit fraudulent
connection to her earlier indictment for       documentation, which assisted unqualified
violations of the United States Code           borrowers in obtaining FHA mortgages.
relating to the misuse of an SSN, making       This fraudulent documentation included
false statements, and aiding and abetting.     IRS W-2 forms, pay stubs, credit reports,
Defendant Lockett was one of many              gift letters, VORs, and VOEs. Smith and
subjects who utilized false information on     Santarseiro were associated with
their mortgage applications when they          approximately six fraudulent FHA


HUD’s Single-Family Housing Programs                                                          43
                                  mortgages that resulted in a net loss of       histories. The remaining defendants,
                                  approximately $320,000 to HUD.                 Tasha Barnes, Akia Sanders, and Shawn
                                  Cobianchi signed a plea agreement and          Fleming, acted as straw-buyers, phony gift
                                  formally pled guilty in U.S. District Court,   donors, or straw-sellers to originate the
                                  District of New Jersey. Cobianchi is           fraudulent loans. Many of these
                                  associated with approximately 14               individuals would be paid cash from the
                                  fraudulent FHA mortgages that have             sellers for their role in the scheme or would
                                  resulted in a net loss of $310,000 to HUD.     be promised future business if they
                                                                                 continued to create the fraudulent
                                       In the Northern District of Illinois,     paperwork. The estimated loss to HUD at
                                  Eastern Division, a Federal grand jury         this point in the investigation is $1.5 million.
                                  returned a 61-count indictment against         This case involved a total of 57 alleged
                                  defendants Douglas Hastings, Philip            fraudulent loans with 48 insured by HUD.
                                  Miskimon, Edward Martins, Price Brooks,
Single-Family Housing Programs



                                  Akia Sanders, Dale Nelson, Chad Nicks,              Following the 61-count indictment of 12
                                  Shawn Flemeing, Todd Ernst, Jeffrey            individuals for conspiracy to defraud the
                                  Meyer, Tasha Barnes, and Julie Smith of        United States, making false statements,
                                  Rockford, IL, for conspiracy to defraud the    and making false statements to HUD, three
                                  United States, making false statements, and    additional informations were filed in United
                                  making false statements to HUD.                States District Court, Northern District of
                                  According to the indictment, Hastings,         Illinois, Western Division.           These
                                  Miskimon and Martins, while acting as          informations were followed by guilty pleas
                                  sellers/investors, conspired to defraud HUD    from defendants Adam L. Ernst, Brian A.
                                  through the FHA-insured loan program by        Fox, and Alexandrea M. Ellis of Rockford,
                                  purchasing properties at a low price, making   IL, for making a false statement to HUD.
                                  cosmetic repairs to the property, paying
                                  recruiters to find new buyers, and reselling        Defendant Adam L. Ernst pled guilty to
                                  the properties at a much higher price. To      his role in being a straw-buyer for an FHA-
                                  complete the scheme, the indictment alleged    insured property, wherein, he received
                                  that defendants prepared false loan            $5,000 in cash for indicating that he would
                                  documents to be placed into the loan file so   occupy the residence when he had no
                                  as to make it appear that the buyer was        intention to honor any of the loan’s
                                  qualified for an FHA-insured loan when the     commitments.
                                  buyer was not qualified for financing.
                                                                                      Defendant Brian A. Fox, a realtor, pled
                                       Other defendants, specifically Price      guilty to providing false VOR documents.
                                  Brooks of Brooks Detail Shop and Todd          Fox would falsely certify that he owned a
                                  Ernst of Ernst Roofing, would allegedly        property and that he collected rent on a
                                  assist in this conspiracy by creating,         timely basis from various mortgagors when
                                  altering, or signing false documents such      he neither owned the property nor collected
                                  as VOEs and pay stubs, while others, Julie     rental payments.
                                  Smith of Eucker Insurance, Chad Nicks of
                                  Verizon Wireless, Jeffrey Meyer of Meyer            Finally, defendant Alexandrea M. Ellis
                                  Insurance, and Dale Nelson of AMD Sales,       pled guilty to her role in being a straw-buyer
                                  allegedly used their private insurance,        for an FHA-insured property, wherein she
                                  computer, and cell phone companies to          assumed the identity of another person to
                                  create fictitious credit letters and credit    qualify for the loan. Further, she provided a


                          HUD’s Single-Family Housing Programs                                                                44
false employment and rental history to          transaction and an application for
originate the loan.                             bankruptcy. The investigation disclosed
                                                that the defendant created a false identity,
    Defendants Jesus Bernal-Hernandez           including a false SSN and false
and Salvador Bernal Hernandez of Salt           employment and asset information, to
Lake City, UT, were indicted by a Federal       purchase a home with an FHA-insured
grand jury in the District of Utah on one       mortgage. After she defaulted on the
count of making false statements, two           mortgage, she used the same false identity
counts of misuse of an SSN, one count of        to file for bankruptcy protection. The HUD
false bankruptcy declaration, and one           loss resulting from the foreclosed mortgage
count of false bankruptcy documents. The        is $132,000.
defendants allegedly submitted voluntary
petitions, Form B1, to the Bankruptcy                Defendant Maria Carmen Garcia of
Court for the District of Utah after signing    Phoenix, AZ, pled guilty in U.S. District




                                                                                                Single-Family Housing Programs
the forms under a penalty clause. The           Court, District of Arizona, to the charge of
defendants, who purchased homes insured         submitting false statements to HUD in
through the FHA 203(b) insurance                connection with the FHA single-family
program in May 2001 utilizing fraudulent        home loan program. Defendant Garcia, a
SSNs, assumed the identity of third parties     loan officer, and her brother, realtor Leonel
when they filed their bankruptcy petitions.     Estrella, were indicted by a Federal grand
The loss to the FHA insurance fund is           jury on charges of conspiracy and
$123,068.                                       submission of false statements to HUD. The
                                                investigation found that the defendants
     Defendants Sergio Lopez Hernandez,         submitted falsified wage documents and
Porfiria Ceron, Luis A. Caldera,                SSN information to HUD to obtain FHA-
and Armando Caldera, Sr., of Kansas             insured home loans for their mutual clients.
City, KS, FHA-insured single-family             A total of 14 FHA-insured home loans,
mortgagors, were sentenced in U.S. District     with insured mortgages totaling $1.58
Court for the District of Kansas as a result    million, were involved in the scheme. Five
of pleading guilty to providing a false         of these FHA-insured home loans
statement in applying for an FHA-insured        foreclosed, which resulted in a loss to HUD
loan. Defendants Hernandez and Ceron            of $140,310.
received 2 years probation, and Caldera
and Caldera, Sr., received a 1-year                  A second superseding indictment was
probation. These defendants are four of         filed on Paul and William Peterson of Los
several mortgagors identified in an             Angeles, CA, in the Central District of
investigation that was initiated after it was   California. Paul and William Peterson
reported that 49 FHA-insured loans were         were employed at Peterson Land and
obtained fraudulently by undocumented           Development, a company which developed
aliens utilizing false SSNs and alien           and sold residential properties, some of
registration cards.                             which were sold pursuant to home
                                                mortgage loans insured by FHA. Paul and
    Defendant Patricia Cuthrell of              William Peterson allegedly conspired and
Norfolk, VA, pled guilty in Federal Court,      agreed to make false, fictitious, and
Eastern District of Virginia, to making false   fraudulent statements to HUD. Both were
statements in connection with an FHA            charged with one count of conspiracy, one



HUD’s Single-Family Housing Programs                                                            45
                                  count of making false statements, and           documents through convicted forger
                                  aiding and abetting. The approximate            Maggie Cuevas, including the documents
                                  amount involved is a $1,123,030 loss to         in loan files, and then submitting the
                                  HUD.                                            documents to a HUD FHA-approved
                                                                                  lender. The loans valued at $4,731,045
                                       Defendant Leonel Estrella of Phoenix,      subsequently went into default, which
                                  AZ, pled guilty in U.S. District Court,         resulted in foreclosures.
                                  District of Arizona, to the charge of
                                  submitting false statements to HUD in                Defendant Anthony Hernandez of
                                  connection with the FHA single-family           Los Angeles, CA, appeared in U.S. District
                                  home loan program. Defendant Estrella, a        Court for the Central District of California
                                  real estate agent, and his sister, defendant    and was sentenced to 6 months
                                  Maria Carmen Garcia, a loan officer, were       incarceration and 3 years probation and
                                  indicted by a Federal grand jury on the         ordered to pay restitution of $354,861 for
Single-Family Housing Programs



                                  charges of conspiracy and submission of         one count of wire fraud. Hernandez was
                                  false statements to HUD. The grand jury         previously indicted in June 25, 2003, for
                                  further indicted defendant Estrella on three    having purchased fraudulent documents
                                  counts of bank fraud. This investigation        through convicted forger Maggie Cuevas
                                  found that the defendants submitted             and then including the documents in loan
                                  falsified wage documents and SSN                files and submitting the documents to a
                                  information to HUD to obtain FHA-insured        HUD FHA-approved lender. The loans
                                  home loans for their mutual clients.            valued at $1,025,744 subsequently went
                                  Investigation further disclosed that Estrella   into default, which resulted in foreclosures.
                                  created false wage documents for other
                                  clients, which were used to obtain                  Defendant John Garitta of San Diego,
                                  conventional home loans from commercial         CA, former chief financial officer of
                                  lenders. A total of 14 FHA-insured home         PinnFund U.S.A., Inc., was sentenced to 4
                                  loans with insured mortgages totaling $1.58     years imprisonment and 5 years supervised
                                  million and 14 conventional home loans          release and ordered to pay restitution of
                                  with mortgages totaling $1.74 million were      $241,233,189. On August 23, 2002, Garitta
                                  involved in the scheme. Five of the FHA-        pled guilty to a Federal information
                                  insured home loans foreclosed, which            charging him with conspiracy, wire fraud,
                                  resulted in a loss to HUD of $140,310.          money laundering conspiracy, income tax
                                                                                  evasion, false entry with intent to defraud
                                  Mail Fraud, Wire Fraud, and Money               HUD, and aiding and abetting. The
                                                                                  information alleged that Garitta, with
                                  Laundering                                      intent to deceive an officer, auditor,
                                                                                  examiner, or agent of HUD, knowingly
                                      Defendant Javier Salazar of Los             made a false entry in the PinnFund’s
                                  Angeles, CA, appeared in U.S. District          financial statements to HUD.
                                  Court for the Central District of California
                                  and was sentenced to 3 months                        PinnFund was a sub-prime-lender and
                                  incarceration and 3 years probation and         a HUD-approved direct endorsement
                                  ordered to pay restitution of $953,242 for      lender. Garitta and other PinnFund
                                  two counts of wire fraud. Salazar was           officers concealed from investors the fact
                                  previously indicted in September 29, 2002,      that PinnFund lost $200 million from the
                                  for having purchased fraudulent                 mortgage business while soliciting new


                          HUD’s Single-Family Housing Programs                                                              46
investor money. From 1997 through 2000,                   checks to obtain portions of $1 million that
PinnFund gave investors money                             was placed in escrow for the environmental
contributed by new investors and falsely                  cleanup of an East St. Louis school
represented to them that these funds were                 property. Defendant Cohn also admitted
earnings or returns on capital.                           obtaining more than $620,000 in loans
                                                          using the environmental escrow funds as
     Defendant Phillip Cohn of East St.                   collateral. Defendant Cohn created false
Louis, MO, a real estate developer, was                   invoices to obtain the escrow funds for his
sentenced in Federal Court for the                        own personal use. In addition, defendant
Southern District of Illinois to serve 5                  Cohn admitted the illegal removal of
years probation and ordered to pay                        asbestos-containing materials from a
$347,200 in restitution. Defendant Cohn                   separate property he owned known as the
previously pled guilty to mail fraud,                     Spivey Building in downtown East St.
money laundering, and violating the                       Louis, IL, for which he applied for




                                                                                                         Single-Family Housing Programs
Environmental Clean Air Act. Defendant                    Empowerment Zone funding.
Cohn was previously indicted on 20 counts
that included three counts of mail fraud,                      Michael Hutchinson was sentenced in
11 counts of money laundering, three                      U.S. District Court, Springfield, MA, to 6
counts of bank fraud, one count of wire                   months at a halfway house, to be followed
fraud, and two counts of environmental                    by 3 months probation, and ordered to pay
crimes. Defendant Cohn admitted to                        a fine of $7,000. Hutchinson had previously
creating false invoices and falsely endorsing             been convicted at trial, along with former




Copyright, 2005. The Republican - Springfield, MA. Reprinted with permission.



HUD’s Single-Family Housing Programs                                                                     47
                                  Springfield police officer Chester Ardolino,      downpayment. This fraud scheme has
                                  of money laundering and bank fraud. The           resulted in losses to the FHA insurance fund
                                  charges stem from a land-flipping scheme          estimated to be approximately $1 million.
                                  that Hutchinson and Ardolino were
                                  involved in. Hutchinson and Ardolino                  Defendant Robert Frank Miller of
                                  utilized Hutchinson’s sister as a straw-          Washington, DC, was charged in Federal
                                  buyer.                                            Court, District of Columbia, with allegedly
                                                                                    defrauding potential investors by soliciting
                                       Defendants Arvin Weiss and Jesus             money from them under the guise that the
                                  Guevara, who were previously indicted by          funds would be used to purchase and
                                  a Federal grand jury in the District of           improve properties for resale at a profit,
                                  Colorado on charges of mail fraud, wire           when he intended to use the money for
                                  fraud, and witness tampering in connection        personal benefit. The charges follow his
                                  with an FHA mortgage fraud scheme, were           recent sentencing in Baltimore County
Single-Family Housing Programs



                                  arrested in Denver, CO. Defendant Weiss,          Circuit Court to 12 years incarceration for
                                  who was charged with 12 counts of mail            essentially the same scheme, in which he
                                  fraud, five counts of wire fraud, and six         represented that he owned or controlled
                                  counts of tampering with a witness, and           HUD REO properties. The investigation
                                  defendant Guevara, who was charged with           determined that the defendant may have
                                  nine counts of mail fraud, five counts of         obtained as much as $400,000 from
                                  wire fraud, and eight counts of witness           innocent investors.
                                  tampering, made their initial appearance
                                  before a Federal magistrate judge                      Defendant Jean Guilbaud of Mineola,
                                  immediately following their arrest.               NY, a licensed real estate broker, HUD-
                                  Defendant Weiss, a real estate agent doing        approved realtor, and a fugitive for more
                                  business as Reserve Capital Funds, Inc.,          than 2 years, was arrested on State charges
                                  acquired approximately 300 homes in the           of grand larceny, scheme to defraud, and bail
                                  Denver metropolitan area at low prices and        jumping in connection with a $40,000
                                  after some minimal improvements, sold the         HUD-owned real estate fraud scheme.
                                  properties at substantially higher prices to      Guilbaud was arrested on an indictment that
                                  Hispanic borrowers who knew little if any         charged him with failing to return bid
                                  English. The homes that were sold by              deposits ranging from $1,000 to $13,000 to
                                  defendant Weiss were insured through the          complainants bidding on HUD-owned
                                  FHA 203(b) insurance fund for                     properties who did not win the bid. In
                                  approximately $51 million. Defendant              addition, Guilbaud did not pass bid deposits
                                  Weiss knew the homebuyers would not be            on to HUD that were due from winning
                                  able to legitimately qualify for the loans.       bidders who failed to close on HUD-owned
                                  Defendant Weiss arranged for false                properties.
                                  information to be provided to the mortgage
                                  companies in order for these borrowers to             Kathleen Johnson pled guilty to one
                                  obtain the FHA-insured loans. Guevara, a          count of mail fraud in U.S. District Court,
                                  bilingual assistant who worked with Weiss,        Western District of New York. Johnson
                                  assisted him in finding the borrowers,            was employed as a HUD-approved real
                                  translated for the borrowers, and assisted        estate broker in the Rochester, NY, area.
                                  in acquiring the false information. In the        Johnson collected potential buyers’ earnest
                                  majority of the cases, Weiss concealed the fact   deposit money and failed to deposit the
                                  that he provided the borrowers’ required          funds in an earnest deposit account as


                          HUD’s Single-Family Housing Programs                                                                48
required. Johnson kept the funds, totaling    into a contractual agreement with him and
approximately $26,000, for her own            his company, Lake Shore Group. The
personal use. Additionally, Johnson           defendant allegedly collected an upfront
prepared and mailed false prequalification    fee of $3,500 and promised the victims that
letters from mortgage companies and           if they continued to pay their usual
banks to First Preston Management             mortgage to him instead of the mortgage
Company, certifying that the potential        company for 2 years, they would own their
buyers could finance the purchase.            home free and clear of any debt. In the
Johnson is scheduled for sentencing.          interim, the defendant allegedly filed
                                              fraudulent bankruptcy petitions for the
     Defendant Israel Pena of White Plains,   homeowners, for the purpose of invoking
NY, was arrested in Sunrise, FL, and          the automatic stay and giving the
charged with wire fraud and conspiracy        homeowners the false belief that their
to commit wire fraud for his role in a        foreclosures would be ended, when they




                                                                                              Single-Family Housing Programs
property-flipping scheme between 1998         were only temporarily delayed.
and 2001 in the New York metropolitan         Subsequently, the homeowners lost their
area. The complaint was filed in the          homes and in some cases were evicted the
Southern District of New York. Pena           same day. As a result of Cash’s
allegedly bought and sold more than 10        representations and promises, he is alleged
properties and flipped those properties by    to have received approximately $190,000
preparing false and fraudulent documents,     from 30 homeowners who have since lost
including phony gift letters, VOEs,           their homes.
downpayment checks, and IRS W-2 forms,
to qualify homebuyers for both FHA and             Defendant Nicholas Lopez of Denver,
conventional mortgages. In one particular     CO, a fraudulent document vendor who
property flip, Pena allegedly sold a house    provided false documents to real estate
that he did not legally own by preparing a    agents, pled guilty in the U.S. District
phony deed and title report.                  Court for the District of Colorado to a
                                              violation of wire fraud. Defendant Lopez
     Defendant John Cash, also known as       assisted real estate agents in the Denver
Typhoon, was indicted in the Northern         metropolitan area with the production and
District of Chicago, IL, on charges of        distribution of fraudulent documents that
bankruptcy, wire, and mail fraud. On July     were used to assist unqualified illegal alien
18, 2005, agents from HUD OIG and an          homebuyers in purchasing homes that were
agent from the Department of Veterans         insured through the FHA 203(b) insurance
Affairs (VA) OIG arrested Cash in Atlanta,    program. Defendant Lopez fabricated
GA.                                           fraudulent IRS W-2 forms and pay stubs
                                              for these illegal aliens, who were
     According to the indictment, Cash        purchasing the FHA-insured homes. This
allegedly placed ads in local newspapers,     investigation identified more than 300 FHA-
soliciting homeowners who found               insured home loans that have been
themselves in financial distress and were     associated with this loan origination fraud
not able to pay their mortgage. Cash          scheme. It is estimated that the
would allegedly promise them that he          approximate total loan value exceeds
“could stop foreclosures dead in their        $62,574,000. The investigation disclosed
tracks.” Cash purportedly met most of the     that this fraud scheme has resulted in a loss
victims at their homes and had them enter     to the FHA insurance fund amounting to


HUD’s Single-Family Housing Programs                                                          49
                                  approximately $2,350,000. Defendant             and Holt’s former employer. Share
                                  Lopez was scheduled for sentencing.             Development acquired numerous
                                                                                  properties, some of which were obtained
                                       Defendants Rogasiano Caldera and           through HUD’s direct sales program and
                                  Patricia Soehnge, also known as Patty           North East Austin, and resold them. Many
                                  Moreno, of Denver, CO, realtors, as well        of the applications for the mortgage
                                  as document vendor Nicolas Lopez, were          loans contained inflated employment
                                  indicted by a Federal grand jury for the        information, including information that
                                  District of Colorado in a 22-count              some buyers worked for Share
                                  indictment for violations of the U.S.           Development and Northeast Austin. In
                                  Criminal Code that included making false        addition, buyers, as well as loan officers
                                  statements, wire fraud, and criminal            were paid $3,000 to $4,000 outside closing
                                  forfeiture. This investigation identified the   for purchasing these properties. During
                                  defendants as being allegedly involved in       the course of the investigation, a search
Single-Family Housing Programs



                                  a single-family fraud scheme that assisted      was conducted at Holt’s personal residence
                                  illegal aliens in obtaining properties that     where FBI and HUD agents seized a 1998
                                  were insured through the FHA 203(b)             Cadillac El Dorado along with $107,304
                                  program. Soehnge assisted unqualified           in cash. Lis Pendens—a lien placed on a
                                  illegal alien homebuyers to secure              property by the Government, which
                                  fraudulent IRS W-2 forms, pay stubs, tax        ensures that if the subject tries to sell it, the
                                  returns, and other fraudulent documents         subject cannot collect the proceeds—were
                                  to qualify the illegal aliens for the FHA-      also placed on two of Holt’s properties
                                  insured homes. This fraud scheme involved       located on the north side of Chicago, IL.
                                  approximately 300 FHA-insured properties        After the search warrant in 2002, Holt fled
                                  with an insured value of $62,574,000. The       the country and was a fugitive for
                                  investigation found that numerous FHA-          approximately 2 years. In early 2004,
                                  insured properties have gone into               Chicago agents received a call from Holt’s
                                  foreclosure, resulting in approximately         daughter, Athena Holt, reporting the
                                  $2,350,000 in losses to the FHA insurance       whereabouts of her mother in South Africa
                                  fund.                                           and asking for a reward to turn her in. Holt
                                                                                  then surrendered to the American Embassy
                                       Defendant Theresa Holt of Chicago,         in South Africa and was transported to
                                  IL, was sentenced to 3 years in prison, 3       Chicago, IL, where she later pled guilty.
                                  years supervised release, and restitution
                                  totaling $2,573,000 in the Northern District        In the Northern District of Chicago,
                                  of Chicago, IL.                                 IL, loan processor Shah Siddiqui was
                                                                                  sentenced, following his earlier guilty plea
                                      Earlier, Holt pled guilty to 22 counts      to one count of mail fraud for his
                                  of mail fraud and 56 counts of money            participation in a fraud scheme involving
                                  laundering for her planning of and              100 properties with $5.7 million in loans.
                                  participation in a fraud scheme involving       The scheme involved Theresa Holt, a
                                  100 properties with $5.7 million in loans,      former employee of North East Austin, a
                                  in which Holt received $1.7 million in          HUD-approved direct sales nonprofit, who
                                  fraudulent sales proceeds. The scheme           started her own business, known as
                                  involved Holt, the owner of Share               Share Development Corporation. Share
                                  Development Corporation, and North East         Development acquired numerous
                                  Austin, a HUD-approved nonprofit                properties, many of which were obtained


                          HUD’s Single-Family Housing Programs                                                                  50
through HUD’s direct sales program and          term of 1 year and 1 day. Upon release,
North East Austin, and resold them. Many        Gandy will be on supervised probation for
of the applications for the mortgage loans      3 years. He was also ordered to pay
contained       inflated     employment         restitution in the amount of $110,213.
information, including information that
some buyers worked for Share                         Defendant Odie Webster III of Denver,
Development and Northeast Austin. In            CO, a real estate agent, was indicted
addition, buyers, as well as loan officers,     through a superseding indictment by the
were paid $3,000 to $4,000 outside closing      Federal grand jury for the District of
for purchasing these properties. Siddiqui       Colorado. Defendant Webster was
was sentenced to 4 months in prison and         charged with one count of conspiracy,
2 years supervised release and ordered to       three counts of making false statements,
pay $866,077 in restitution. In addition,       three counts of mail fraud, and three
Siddiqui was ordered to have a time curfew      counts of wire fraud. Defendant Webster




                                                                                                   Single-Family Housing Programs
until his surrender date.                       allegedly assisted unqualified homebuyers
                                                in obtaining mortgages that were insured
      Defendant James Thurman of St.            through the FHA 203(b) insurance
Louis, MO, owner of Phoenix Title, pled         program by utilizing false SSNs as well as
guilty in Federal Court, U.S. District Court    false income information. Defendant
for the Eastern District of Missouri, to wire   Webster was arrested on April 27, 2005,
fraud and admitted to causing more than         by special agents from the HUD OIG and
$1.6 million in losses. Defendant Thurman       IRS-Criminal Investigation Division (CID).
was previously indicted on nine counts of
wire fraud and one count of bank fraud,              In the Northern District of Chicago, IL,
charging him with defrauding his                defendant Michael Fedynich, a broker/seller,
customers and First Bank of $3.9 million.       pled guilty to mail fraud. Fedynich, the
Defendant Thurman admitted to illegally         owner of Westgate Realty, admitted to
diverting more than $3.9 million from his       having provided homebuyers with
title company escrow accounts from March        downpayment funds in order for the
2002 to January 2005. The funds were            prospective buyers to qualify for Fedynich-
diverted to his real estate company and         owned properties. To further the scheme,
personal accounts. The diversions caused        Fedynich accepted responsibility for
a shortage in escrow funds, which caused        personally funding the downpayment to a
the company to eventually close and             friend or a relative of the homebuyer and
disbursements to go unpaid on several           instructing those persons to execute a gift
customer transactions. Defendant                affidavit, wherein they falsely stated that they
Thurman has paid back a portion of the          had provided the downpayment to the
$3.8 million, leaving a loss of $1.6 million.   homebuyer as a gift. The person executing
                                                the gift affidavit would use the funds provided
    Defendant J.C. Gandy of Tupelo, MS,         by Fedynich to obtain a cashier’s check made
appeared before the U.S. District Court,        payable to the homebuyer. Following these
Northern District of Mississippi, for           transactions, Fedynich provided a false
sentencing. He had been previously              certification at closing, which indicated that
convicted on one count of mail fraud and        he had not provided funds to the borrower.
one count of embezzlement. Gandy was            This investigation involved 10 FHA-insured
committed to the custody of the U.S.            loans totaling $716,000 in insurance and
Bureau of Prisons to be imprisoned for a        losses totaling $516,429.


HUD’s Single-Family Housing Programs                                                               51
                                       Defendant John Everett of Las Vegas,       pay restitution in the amount of $216,377.
                                  NV, an investor, was sentenced in the U.S.      Lawhorn was sentenced to 1 month
                                  District Court for Nevada to 30 months          incarceration, placed on 3 years of supervised
                                  incarceration and 3 years of supervised         release (6 months of which he has to be
                                  release and ordered to pay the balance of       confined to his residence), ordered to perform
                                  the unpaid portion of $185,000 in restitution   200 hours of community service, and ordered
                                  ordered upon his three codefendants,            to pay restitution in the amount of $80,878.
                                  which amounts to $2,336. Everett had            Lawhorn and Griffin were part of a scheme
                                  previously pled guilty in the District of       in which six other individuals, James Rucker,
                                  Nevada to two counts of the indictment          Gregory Jacobs, Tina Hoard, Patricia Mays,
                                  charging him with money laundering.             Carmen Perry, and William Scott, were also
                                  Everett purchased homes, using straw-           charged.
                                  buyers, from individuals who were on the
                                  verge of foreclosure and set up nonprofit             Lawhorn admitted that as soon as he
Single-Family Housing Programs



                                  companies, alleging to the sellers that these   began working with Rucker at Design
                                  companies were purchasing the homes to          Mortgage Corporation, he assisted Rucker in
                                  use as halfway houses. At closing, Everett      fraud by, among other things, signing
                                  withdrew amounts equal to the equity            fraudulent loan applications as the loan
                                  available in the homes, identifying these       officer, drafting fraudulent letters for Rucker,
                                  disbursements as rehabilitation costs to        and providing Rucker with copies of backs
                                  convert the homes to halfway houses.            of checks which he used for fraudulent
                                  Fraudulent documentation was prepared           purposes. Griffin admitted that as soon as
                                  and submitted for each straw-buyer              he began working at Comprehensive
                                  including false bank account statements,        Mortgage and continuing through his
                                  IRS W-2 forms, gift letters, VOEs, and bills    employment at Design Mortgage
                                  of sale to support the source of                Corporation, he participated in a fraud
                                  downpayments. Everett was involved in           scheme. Griffin admitted that he created and
                                  18 fraudulent loans valued at more than         submitted false loan documents including
                                  $6 million through National City Mortgage       IRS W-2 forms, pay stubs, rent payment
                                  Company. All of the loans have gone into        checks, verifications of deposit, VOEs, and
                                  default. Three of Everett’s coconspirators      other false documents to be placed into loan
                                  in this scheme have been prosecuted for         files.
                                  their part in originating fraudulent FHA
                                  loans at Mortgage Capital Resources             Equity Skimming
                                  (MCR). While under investigation for their
                                  activities at MCR, they moved to National
                                                                                      Defendant Edwin “Andy” Kane of
                                  City Mortgage, where they engaged in a
                                                                                  Rochester, NY, was sentenced in Federal
                                  mortgage fraud scheme involving
                                                                                  court as a result of his guilty plea to one
                                  conventional loans.
                                                                                  count of equity skimming. Kane was
                                                                                  sentenced to serve a term of 2 years in
                                       In the Northern District of Chicago, IL,
                                                                                  Federal prison and ordered to pay
                                  defendants Stephen Lawhorn and Virgil
                                                                                  restitution to HUD in the amount of
                                  Griffin were sentenced based on their guilty
                                                                                  $747,000. Kane was also sentenced to a 3-
                                  pleas for mail fraud. Griffin was sentenced
                                                                                  year term of supervised release
                                  to 8 months of incarceration, placed on 2
                                                                                  immediately following his prison term.
                                  years of supervised release, and ordered to



                          HUD’s Single-Family Housing Programs                                                                 52
Kane devised a scheme in which he                    Defendants Gordon Miller and Jamen
purchased more than 20 FHA-insured              Wood of Salt Lake City, UT, were indicted
properties throughout the City of               by a Federal grand jury for the U.S. District
Rochester, NY. At the time of purchase,         Court, District of Utah. Defendants Miller
all of the properties were rented to tenants.   and Wood were indicted on a one-count
Kane continued to collect the rents on the      violation of equity skimming, a five-count
properties but failed to pay the FHA            violation of mail fraud, and a six-count
mortgages, causing the properties to go into    violation of wire fraud. The investigation
foreclosure. Due to Kane’s actions, more        disclosed that defendants Miller and Wood
than 30 properties have been foreclosed         were allegedly involved in equity skimming
upon, resulting in a loss of approximately      activity in numerous States, which included
$1,140,000 to HUD.                              Utah, Colorado, Idaho, Arizona,
                                                Wyoming, Minnesota, North Carolina, and
     Speculator James Holbert of                Washington. The investigation found that




                                                                                                Single-Family Housing Programs
Washington, DC, was sentenced in U.S.           from July 2002 through December 2004,
District Court, District of Columbia, as a      defendants Miller and Wood allegedly
result of his previous plea of guilty to        identified properties that had been
conspiring to commit wire fraud in              surrendered through a bankruptcy
connection with a scheme to defraud FHA,        proceeding by searching the bankruptcy
conventional mortgage companies, and            courts’ database known as PACER.
various borrowers. He was ordered to            Defendants Miller and Wood would
serve 4 years in prison in addition to          allegedly make sure the properties were
agreeing to forfeit $493,000 in funds           vacant and then rent them out, in many
obtained from profits he earned on the          cases without contacting the homeowners
illegal transactions to which he was            or the bankruptcy trustee to obtain consent.
associated. An investigation determined         The defendants allegedly rented some of the
that from 1999 into 2001, Holbert and two       properties they acquired through quit claim
coconspirators, Terry Waterman and              deeds to other homeowners who did not
Edward Robinson (both previously pled           suspect that the defendants had taken
guilty and are awaiting sentencing), sold       possession of the property from a secondary
homes to straw-buyers at inflated prices for    homeowner. In some instances, defendants
purposes of cashing out their equity and        Miller and Wood allegedly misrepresented
realizing inordinate profits. They recruited    themselves as representatives of the bank
another individual to prepare false             or bankruptcy department to convince
documents to qualify the buyers, who            homeowners to sign a quit claim deed for
otherwise would not have been eligible. In      the property, transferring ownership to
several cases, Holbert secured Section 8        defendants Wood and Miller. Miller and
tenants and received rental income until        Wood allegedly collected rent money, failed
foreclosure finally occurred. One of the        to forward the rent money to the mortgage
straw-buyers, Ronald Ricks, was                 company, and instead used the money for
previously convicted and sentenced to 6         their own personal expenses. The
months incarceration. The investigation         defendants allegedly rented approximately
identified at least 50 transactions involving   300 properties in this manner. The
Holbert or one of his coconspirators with       properties used by the defendants had been
losses to FHA and conventional lenders          insured through a number of different
amounting to at least $2 million.               programs such as conventional mortgages
                                                and FHA VA-insured mortgages. There


HUD’s Single-Family Housing Programs                                                            53
                                  were approximately two dozen FHA-              count of forgery, a third degree felony, and
                                  insured loans involved with this equity-       one count of communications fraud, a
                                  skimming scheme with an insured loan           second degree felony. Defendant Tenorio
                                  value of approximately $2 million.             pled guilty as a result of his participation
                                                                                 in a mortgage fraud scheme involving the
                                  Forgery, Theft, and Embezzlement               purchase of FHA-insured homes by illegal
                                                                                 aliens who were not qualified to participate
                                                                                 in the FHA insurance program. Defendant
                                       An Arizona State grand jury indicted
                                                                                 Tenorio used an SSN of a third party to
                                  defendant Edward Carrillo of Scottsdale,
                                                                                 obtain an FHA-insured single family home,
                                  AZ, on six counts of fraudulent schemes
                                                                                 which subsequently went into default and
                                  and six counts of theft. On February 24,
                                                                                 eventual foreclosure. This foreclosure
                                  2005, Carrillo was indicted on separate
                                                                                 process was then reflected on the credit
                                  charges of three counts of fraudulent
                                                                                 history of the third party whose SSN had
Single-Family Housing Programs



                                  schemes and one count of theft. Carrillo,
                                                                                 been compromised.
                                  doing business as Sahara Investments, sold
                                  his alleged fraudulent preforeclosure
                                                                                      Defendant Gary T. Coley of Baltimore,
                                  business to three investors for $400,000 in
                                                                                 MD, was found guilty in U.S. District
                                  January 2004, 6 weeks after HUD OIG
                                                                                 Court, District of Maryland, of preparing
                                  executed a Federal search warrant at
                                                                                 and passing false forged U.S. Treasury
                                  Carrillo’s home/office. The Federal
                                                                                 securities in connection with a scheme that
                                  investigation was initiated after a mortgage
                                                                                 involved in major part homeowners with
                                  company notified HUD OIG that Carrillo
                                                                                 FHA-insured mortgages who were in
                                  allegedly had been purchasing FHA-
                                                                                 danger of losing their homes. The
                                  insured properties through HUD’s
                                                                                 investigation determined that Coley would
                                  preforeclosure program at substantial
                                                                                 contact individuals who had defaulted on
                                  discounts, often using fraudulent
                                                                                 their mortgages and represent himself as
                                  appraisals. Carrillo then allegedly sold the
                                                                                 an investor/entrepreneur who would
                                  houses the same day he purchased them
                                                                                 assist them in avoiding foreclosure. He
                                  at market value. HUD paid substantial
                                                                                 collected fees and deposits from the
                                  claims for each property sold through the
                                                                                 homeowners and then manufactured at
                                  preforeclosure program. The current
                                                                                 least $1.8 million in counterfeit U.S.
                                  indictment alleges that Carrillo accepted
                                                                                 Treasury securities that he then passed off
                                  funds from five individuals, which totaled
                                                                                 to the various lenders as payment toward
                                  $465,000, to be used as deposits to purchase
                                                                                 bringing the mortgages current. A
                                  homes, as real estate investments, and as
                                                                                 majority of the homeowners eventually lost
                                  fees for teaching investors the
                                                                                 their homes, although many foreclosures
                                  preforeclosure business. Carrillo was
                                                                                 could have been avoided had the
                                  unable to acquire properties as promised
                                                                                 homeowners applied the money they paid
                                  and failed to return $379,800 to the
                                                                                 Coley toward mitigation of their mortgage
                                  investors. The previous indictment alleged
                                                                                 arrearages. Investigation identified at least
                                  that Carrillo stole more than $600,000 from
                                                                                 seven FHA mortgagors who dealt with
                                  other investors.
                                                                                 Coley and eventually lost their homes,
                                                                                 resulting in net claims of $800,000 on the
                                       Defendant Roberto Osorio Tenorio of
                                                                                 mortgage insurance fund. Coley was
                                  Salt Lake City, UT, pled guilty in the Third
                                                                                 sentenced to 15 months confinement and
                                  District Court for the State of Utah to one


                          HUD’s Single-Family Housing Programs                                                             54
3 years probation and ordered to pay a                In the same case in the U.S. District Court
$1,300 fine.                                      of New Jersey, Stanley Rothman was
                                                  sentenced to 3 years probation, restitution of
    In the third Judicial District for the        $356,000, and a fine of $5,000. Rothman pled
District of Salt Lake County, defendant           guilty to conspiracy to embezzle from a
Enrique Montanez of Salt Lake City, UT,           welfare benefit fund.
pled guilty to one count of forgery, a third
degree felony, and one count of                        Rothman and Nardone, Jr,. had beed
communications fraud, a second degree             charged with conspiracy to steal welfare
felony, as a result of his participation in a     funds, embezzlement from welfare funds,
mortgage fraud investigation. Defendant           and conspiracy to conceal material facts in
Montanez used an SSN of a third party to          connection with HUD fraud and money
obtain an FHA-insured single family home.         laundering. Rothman used straw-buyer
The subsequent default associated with the        Steven Freeman to purchase HUD properties




                                                                                                    Single-Family Housing Programs
mortgage was reflected on the victim’s            in Florida, which he later resold for a profit
credit report, making future financial            in the conspiracy. Some of the straw-buyers
transactions difficult. The actions of the        used by Rothman were members of his
defendant resulted in the FHA insurance           family, while others worked or were
fund incurring a loss of approximately            associated with Novelty Production Workers
$50,817.                                          Union 148 Welfare Fund. Rothman
                                                  purchased 10 HUD properties with a value
      In the U.S. District Court of New Jersey,   of more than $675,000. Nardone, Jr.,
defendants Joseph Nardone, Jr., former            conspired with Rothman to embezzle
president of Local 148, International Novelty     $350,000 from the union welfare fund
Workers Union, and his father Joseph              between December 1992 and May 2001.
Nardone, Sr., former president of the Novelty
Production Workers Union of Newark, NJ,               Defendant Harold V. Fields, real estate
were sentenced. Nardone, Jr., was sentenced       agent, Valley Home Experts, Glendale, AZ,
to 3 years and 4 months in prison, restitution    was sentenced to 6 years in jail, 7 years
of $431,000, a fine of $7,500, and 2 years        probation, and revocation of his real estate
probation. Nardone, Sr., was sentenced to 1       license in the Arizona Superior Court,
year in prison, $423,100 in restitution, a fine   Phoenix, AZ. Fields was previously
of $5,000, and 2 years probation. Nardone,        indicted by an Arizona State grand jury on
Jr., and Nardone, Sr., were found guilty by a     three counts of fraudulent schemes, one
jury in the District of New Jersey of             count of unlicensed real estate activity, and
compsiracy to embezzle from a welfare             26 counts of theft. Valley Home Experts
benefit fund.                                     had been the number one seller of HUD
                                                  REO properties in Arizona for several
     In the same case in the U.S. District        years. The investigation disclosed that
Court of New Jersey, Steven Freeman was           Fields recruited investors through
sentenced to 3 years probation and ordered        advertisements in the newspaper and
to pay $266,000 in restitution. On September      requested that each investor give him
24, 2004, Steven Freeman pled guilty to           $25,000 to $100,000 to buy HUD REO
conspiracy to embezzle from a welfare             properties. Fields told each investor that
benefit fund.                                     these funds would be held in a trust
                                                  account to be used for downpayments and
                                                  closing costs for up to 12 investment


HUD’s Single-Family Housing Programs                                                                55
                                  properties. Because of financing issues,         previously indicted in June 2003 for theft
                                  many of the loans did not close, and the         and money laundering as part of a
                                  properties were recycled back into the HUD       complicated mortgage scheme, which
                                  inventory. Many of the investors began to        among other things included HUD’s direct
                                  demand that Fields return their money after      sales program.
                                  he failed to provide closing costs for several
                                  homes. The indictment covered 26                      Hubbard admitted to her involvement
                                  investors who lost $1,502,166. These funds       in a scheme, wherein properties were
                                  were never deposited into a trust account,       obtained through various means, to include
                                  and the investigations disclosed that more       HUD’s direct sales program. After
                                  than $500,000 had been wired overseas to         acquiring the properties, the indictment
                                  an offshore sports betting operation. Fields     alleged that they were sold through
                                  has been ordered to pay $1,437,765 in            various fraudulent documents to investors,
                                  restitution.                                     who in turn were told that the properties
Single-Family Housing Programs



                                                                                   would be rehabilitated and then turned
                                       In Superior Court of California,            over to them following completion of the
                                  County of Ventura, a 10-count State of           repairs. According to the indictment, at
                                  California felony complaint was filed            the sale of the properties to the investors,
                                  against Jose Luis Ramirez Velasco of             the legitimate payoff checks, which were
                                  Oxnard, CA, charging him with identity           intended for the mortgage companies,
                                  theft, grand theft, forgery, and filing false    were diverted through a fraudulent payoff
                                  or forged real estate documents. Jose            letter to Kenneth Steward, president of
                                  Velasco, a licensed real estate agent for a      K.E.E.P., a HUD-approved nonprofit;
                                  real estate company in Oxnard, CA, was           Hubbard himself; and/or Eric Pollards,
                                  arrested pursuant to the complaint               who acted as a loan officer and an
                                  being filed. Allegedly Velasco falsely           appraiser.
                                  impersonated and used the identities of
                                  four unsuspecting victims for the purpose            Hubbard personally accepted
                                  of obtaining an FHA-insured loan totaling        responsibility for accepting the diverted
                                  more than $250,000. The illicit transaction      checks and cashing them at a credit union
                                  was accomplished without the victims’            where she knew the employees. Hubbard
                                  knowledge or consent. After acquiring and        would then kick the proceeds back to
                                  taking possession of the residential             Steward. Approximately $1.9 million in
                                  property, Velasco allegedly rented the           mortgage proceeds were allegedly diverted
                                  residence to tenants. Velasco purportedly        during this scheme. On the same day of
                                  continued to collect monthly rent payments       her guilty plea, Hubbard was sentenced to
                                  from the tenants, but he subsequently failed     3 years confinement and was taken into
                                  to make the monthly mortgage payments.           custody. The other individuals, who have
                                  The property, in the innocent borrowers’         previously pled guilty in this scheme, are
                                  names, ultimately went into foreclosure          Jocqua Carter, accountant; David Johnson,
                                  proceedings. If convicted of all charges,        appraiser; Fritz Fox, loan officer; and Eric
                                  Velasco could face a maximum sentence of         Pollards, loan officer/appraiser.
                                  8 years in State prison.
                                                                                       Defendants Nathan J. Brinkle and
                                      Sheila Hubbard pled guilty to money          Jonathan T. Jennings of Kansas City, MO,
                                  laundering in the Circuit Court of Cook          real estate investors doing business as
                                  County, Chicago, IL. Hubbard was                 Brighter Homes East, Inc., and JB


                          HUD’s Single-Family Housing Programs                                                              56
Renovations, and Adam T. Kerr, a               the lenders when making the loans. These
mortgage broker doing business as              fraudulent loans totaled $6.4 million, funds
Platinum Mortgage II and later Pearl           which were wire transferred and affected
Mortgage, each waived his rights and           interstate commerce.
pleaded guilty in Federal Court for the U.S.
District of Western Missouri to a Federal           Additionally, defendants Brinkle,
information that charges them with wire        Jennings, and Kerr engaged in monetary
fraud and money laundering.                    transactions involving criminally derived
                                               property, through the deposits of checks
    Defendants Brinkle and Jennings            payable to Platinum Mortgage II and
purchased and rehabilitated distressed         drawn primarily on the accounts of
properties for resale to investors, and        Brighter Homes East, Brinkle, and Jennings.
defendant Kerr assisted investors in           Under Federal statutes, each defendant
obtaining mortgage loans. Investors were       could be sentenced to up to 30 years




                                                                                                Single-Family Housing Programs
advised by defendants Brinkle, Jennings,       incarceration without parole, plus a fine
and Kerr that once they took possession of     of up to $50,000, and ordered to pay
the properties, all of the rehabilitation      restitution.
work would be completed and Section 8
tenants would be allowed to occupy the              Defendant Mary Pounds of Los
homes, thereby generating cash flow            Angeles, CA, was arrested at her residence
for the investors. These purchases             by Federal agents from HUD OIG, Social
were represented as no-money-down              Security Administration (SSA) OIG, and the
investments. To accomplish this, the           Los Angeles Police Department/FBI
appraised values were inflated and on          Fugitive Task Force due to an outstanding
some occasions, loan applications were         felony warrant issued by the United States
prepared to falsely show the source of the     District Court, Central District of
downpayment was the new investor.              California, as a result of a four-count felony
                                               indictment. Pounds allegedly used the
     By pleading guilty, the defendants        identity of her then 15-year-old daughter
admitted that they prepared various false      to fraudulently obtain an FHA-insured
loan applications and supporting               single-family home loan from Countrywide
documents that contained materially false      Mortgage. While owning the FHA-insured
and fraudulent representations, and these      home, Pounds allegedly charged her
documents were submitted to lending            daughter monthly rent and concealed these
institutions to ensure that the loan           facts in order to receive Social Security
application would be approved. As a            Insurance (SSI) benefits. The HUD OIG
result of this scheme to defraud, between      case agent referred the fraudulently
May 23, 2001, and August 30, 2002, the         obtained FHA loan to the Santa Ana
defendants made and submitted to lending       Homeownership Center (HOC), Santa
institutions 94 false and fraudulent loan      Ana, CA, for indemnification.
applications. These misrepresentations         Countrywide Mortgage Company entered
included false installment payment             into an indemnification agreement with the
information, falsified HUD-1 settlement        Santa Ana HOC. In addition, Pounds was
statements, phony contracts for deeds,         wanted on an outstanding misdemeanor
false source of funds information, and         State warrant on charges of knowingly
other pertinent information relied on by       receiving stolen property.



HUD’s Single-Family Housing Programs                                                            57
                                       Contractor Thomas Neimiller of                     In the Eastern District of Michigan,
                                  Towson, MD, doing business as Maryland            former Detroit, MI, Police Sergeant Eileen
                                  Real Estate Services, agreed to repay HUD         Martin agreed to the terms of a pretrial
                                  $30,000 in settlement of a potential PFCRA        diversion for a period of 1 year. Based on
                                  action. Investigation by OIG disclosed that       the terms, Martin must repay HUD the
                                  from 1999 to 2001, Neimiller falsely charged      discount price of $9,600 and complete 40
                                  dumpster fees on at least eight properties        hours of community service. Martin accepted
                                  scheduled for foreclosure and eventual            responsibility for purchasing a home through
                                  assignment to HUD under the REO                   HUD’s OND program and failing to occupy
                                  program. The claims paid by HUD to the            it as her sole/primary residence as required
                                  lender(s) included the fraudulent dumpster        by the rules of the program. Instead, she
                                  fees.                                             rented it to a Section 8 recipient.

                                  Officer Next Door Program                              A settlement agreement was entered
Single-Family Housing Programs



                                                                                    into between HUD and David H. Krueger
                                                                                    of Kenosha, WI, a lieutenant with the City
                                       In the Eastern District of Michigan,
                                                                                    of Kenosha Police Department, Kenosha,
                                  former Detroit, MI, Police Officer Quinnon
                                                                                    WI. This agreement is pursuant to a
                                  Martin was sentenced to 3 years probation,
                                                                                    complaint HUD served upon Krueger
                                  a $10,000 fine, and $22,500 in restitution.
                                                                                    under PFCRA. This settlement agreement,
                                  Martin had previously pled guilty for his role
                                                                                    whereby Krueger agreed to repay HUD an
                                  in a scheme to defraud HUD’s Officer Next
                                                                                    additional $13,000, stems from an
                                  Door (OND) program. Martin rented out his
                                                                                    investigation conducted by HUD OIG
                                  OND property to a Section 8 tenant in lieu of
                                                                                    pertaining to Krueger’s purchase of a
                                  occupying it as his sole/primary residence as
                                                                                    single-family property in Kenosha, WI.
                                  required under the rules of the program.
                                                                                    This was done through HUD’s OND
                                                                                    program. Under the terms of the sale,
                                       Former Baltimore, MD, Police Officer
                                                                                    Krueger had agreed to reside in the
                                  Carl Clayton was charged in Federal
                                                                                    property for a minimum of 3 years but had
                                  Court, District of Maryland, with making
                                                                                    never resided in the property. Instead, he
                                  false statements to enable him to purchase
                                                                                    rented the property out for approximately
                                  an REO property under the OND program.
                                                                                    2 years and repaid HUD 30 percent of the
                                  Investigation by OIG disclosed that
                                                                                    discount price; i.e., $10,800, pursuant to a
                                  Clayton, who has since moved to New York
                                                                                    letter sent to HUD by Krueger’s attorney,
                                  City, purchased the property for $18,000,
                                                                                    which had led HUD to believe that Krueger
                                  which included a discount of $18,000,
                                                                                    had completed 2 of the 3 years of his
                                  based on his certification that he would
                                                                                    residency requirement and caused HUD to
                                  reside in it for at least 3 years. He allegedly
                                                                                    release him from the remainder of his 3-
                                  never moved in but began leasing it within
                                                                                    year residency agreement, allowing him to
                                  30 days of settlement and lived in a HUD-
                                                                                    then sell the property.
                                  assisted rental unit administered by the
                                  Housing Authority of Baltimore City. He
                                  allegedly continued to rent the home for
                                  almost 3 years (the period covering his
                                  required occupancy), finally selling it for
                                  $80,000.




                          HUD’s Single-Family Housing Programs                                                               58
      Chapter 3




HUD’s Public and Indian
  Housing Programs
                                         T         he U.S. Department of
                                                     Housing and Urban
                                    Development (HUD) provides grants and
                                                                                                    Chart 3.1: Public and Indian Housing
                                                                                                               Reports Issued

                                    subsidies to approximately 4,200 public                                                      3 Internal Reports
                                    housing authorities (PHA) nationwide.
                                    About 3,200 PHAs manage public
                                    housing units, and another 1,000, with no
                                    public housing, manage units under
                                    Section 8 programs. Many PHAs
                                                                                                               31 External Reports
                                    administer both public housing and
                                    Section 8 programs. HUD also provides
Public & Indian Housing Programs


                                    assistance directly to PHAs’ resident                      Chart 3.2: Public and Indian Housing Dollars
                                    organizations to encourage increased                        $45,000,000
                                    resident management of public housing                       $40,000,000
                                                                                                $35,000,000
                                    developments and to promote the                             $30,000,000
                                    formation and development of resident                       $25,000,000
                                                                                                $20,000,000
                                    management entities and resident skills                     $15,000,000
                                    programs. Programs administered by                          $10,000,000
                                                                                                 $5,000,000
                                    PHAs are designed to enable low-income                                0
                                    families, the elderly, and persons with                                   Internal Reports     External Reports

                                    disabilities to obtain and reside in housing                       Questioned Costs      Funds Put to Better use

                                    that is safe, decent, sanitary, and in good
                                    repair.
                                                                                            Section 8 Voucher Program
                                    Audits                                                  Activities
                                         During this reporting period, the                      OIG audited the Section 8 Housing
                                    Office of Inspector General (OIG) issued 34             Choice Voucher program administered by
                                    reports: 3 internal audits and 31 external              the Housing Authority of the City of
                                    audits in the Public and Indian Housing                 Houston, TX. OIG performed the audit to
                                    (PIH) program area. These reports                       determine whether the Authority complied
                                    disclosed nearly $41 million in questioned              with HUD regulations concerning
                                    costs and about $40 million in                          overhousing of tenants; correctly calculated
                                    recommendations that funds be put to                    housing assistance payments; and ensured
                                    better use. During this reporting period,               that tenants reside in decent, safe, and
                                    OIG reviewed the Section 8 Housing                      sanitary housing.
                                    Choice Voucher program activities and
                                    public housing activities, including PHA                     The Authority did not effectively
                                    activities with related nonprofit entities,             monitor the contactor it hired to manage
                                    and PHA pension plan forfeiture policy. In              its Section 8 programs. The Authority
                                    addition, OIG conducted a corrective                    overhoused tenants; incorrectly calculated
                                    action verification review.

                                    The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                    this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                    reports with management decisions reached during this semiannual period. Because there is a time lag
                                    between report issuance and management decisions, the two totals will not agree.


                            HUD’s Public and Indian Housing Programs                                                                                   60
housing assistance payments; and paid            address ambiguous and contradictory
assistance for tenants to reside in units that   provisions or a lack of policies and
did not meet minimal decent, safe, and           procedures.
sanitary standards for at least 1 year.
                                                     OIG recommended that HUD require
     OIG recommended that HUD require            the Authority to ensure that its employees
the Authority to repay $7.44 million,            follow its abatement and termination
including $2.4 million that it retained from     policies and procedures and impose
its administrative fees and $5.04 million that   penalties on employees if they do not. In
it paid to the contractor for which it did       addition, OIG recommended that the
not receive adequate service. OIG also           Authority be required to revise its




                                                                                                 Public & Indian Housing Programs
recommended that HUD require the                 abatement policies and procedures to
Authority to implement internal controls         address deficiencies. (Audit Report: 2005-
and establish monitoring systems to ensure       FW-1012)
compliance with its contributions contract,
which will result in more than $7.9 million           HUD OIG audited the Housing
in funds being put to better use. (Audit         Authority of the City of Gary, IN’s Section
Report: 2005-FW-1018)                            8 housing program. The audit was part of
                                                 the activities in OIG’s fiscal year (FY) 2005
     HUD OIG audited the Housing                 annual audit plan. OIG selected the
Authority of the City of Houston, TX,            Authority based upon a risk analysis that
because an earlier audit indicated the           identified it as having a high-risk Section 8
Authority’s contractor may not have been         housing program. The objective of the audit
following its abatement and termination          was to determine whether the Authority
policy. The objective was to determine           managed its Section 8 program in
whether the Authority enforced its policy        accordance with HUD’s requirements.
to deduct (abate) rental payments to
owners and/or terminate tenants whose                The Authority’s Section 8 housing units
Section 8-assisted units repeatedly failed       were in poor physical condition. OIG’s
inspections.                                     inspections noted 57 of 63 units that did
                                                 not meet HUD’s housing quality standards.
     Neither the Authority nor its               OIG also noted significant weaknesses in
contractor ensured that staff followed its       using administrative fees, issuing vouchers
abatement and termination policies and           without      proper     documentation,
procedures in 8 of the 10 cases reviewed.        calculating housing assistance payments,
Although the Authority terminated the            and abating Section 8 vouchers. In
contractor in October 2004, similar              addition, the Authority misused Section 8
problems could continue to occur since the       funds by overpaying per diem, improperly
Authority now employs the contractor’s           disallowing tenant income, and
staff. If the Authority does not improve its     erroneously charging expenses to its
abatement and termination policies,              Section 8 housing program.
procedures, and practices, it will expend
$1 to $6.9 million in inappropriate Section           OIG recommended that HUD issue a
8 assistance. In addition, the Authority         notice of default to the Authority regarding
needs to revise some of its abatement and        the administration of its Section 8 housing
termination policies and procedures to           program. OIG also recommended that



HUD’s Public and Indian Housing Programs                                                         61
                                    HUD require the Authority to contract out           material noncompliance with housing
                                    its Section 8 program or transfer control to        quality standards. Projecting the results of
                                    HUD and ensure the Authority reimburses             the statistical sample to the population
                                    its program for the inappropriate uses of           indicated at least 1,486 of the Authority’s
                                    Section 8 funds identified. (Audit Report:          2,778 units did not meet minimum housing
                                    2005-CH-1020)                                       quality standards. Further, 939 units were
                                                                                        in material noncompliance with housing
                                                                                        quality standards. In addition, the
                                                                                        Authority did not consistently determine
                                                                                        or verify family incomes, calculate utility
                                                                                        allowances, perform timely recertifications,
Public & Indian Housing Programs


                                                                                        or correctly calculate Section 8 housing
                                                                                        assistance payment amounts.

                                                                                             OIG recommended that HUD require
                                                                                        the Authority to inspect all of its Section 8
                                                                                        housing choice voucher-assisted units
                                     3837 Maryland: Exposed wires in basement
                                                                                        within the next 12 months and develop and
                                     junction box.                                      implement an internal control plan to
                                                                                        ensure the units meet housing quality
                                                                                        standards and inspections meet HUD
                                                                                        requirements to prevent an estimated $4.7
                                                                                        million from being spent on units that are
                                                                                        in material noncompliance with standards.
                                                                                        HUD should also require the Authority to
                                                                                        repay more than $9,000 for housing
                                                                                        assistance payments it made for ineligible
                                                                                        units. Further, since the Authority failed
                                                                                        to correct deficiencies identified by HUD
                                                                                        in September 2002, HUD should reduce
                                     3960 Maryland: Cover on electric panel not         the Authority’s administrative fees by 10
                                     securely fastened; panel also missing a breaker.
                                                                                        percent retroactively to August 2004, or
                                                                                        about $125,000. HUD should continue to
                                        HUD OIG audited the Chattanooga,                monitor the Authority and withhold 10
                                    TN, Housing Authority’s Section 8 Housing           percent of the administrative fee until the
                                    Choice Voucher program to determine                 Authority has complied with requirements.
                                    whether the Authority made Section 8                (Audit Report: 2005-AT-1010)
                                    subsidy payments only for units that were
                                    decent, safe, and sanitary and whether the              HUD OIG audited portability
                                    Authority properly determined tenant                procedures and responsibilities, salary
                                    program eligibility and subsidy payment             allocation and procurement procedures
                                    amounts.                                            and administration of tenant eligibility and
                                                                                        housing assistance payments at Inglewood
                                        Of 60 Section 8 units reviewed, 40 did          Housing Authority in Inglewood, CA. The
                                    not meet minimum housing quality                    objective of the portability audit was to
                                    standards. Of the 40 units, 28 were in              determine whether the Authority complied



                            HUD’s Public and Indian Housing Programs                                                              62
with the Housing Choice Voucher                    OIG recommended that HUD require
program’s portability procedures and           the Authority to develop and implement
responsibilities and other HUD                 procedures to track its staff time spent on
requirements.                                  HUD programs, develop a cost allocation
                                               plan, and determine the portion of the more
     In 143 portable tenant files reviewed,    than $1.8 million in salary expenses
the initial public housing agency, Housing     applicable to each HUD program and make
Authority of the City of Los Angeles,          the appropriate accounting adjustments.
refused to pay the housing assistance          OIG also recommended that HUD require
payments because the Authority did not         the Authority to develop and implement
submit the initial bill within the required    adequate procurement policies and




                                                                                              Public & Indian Housing Programs
timeframe, causing the Authority to absorb     procedures. (Audit Report: 2005-LA-1005)
these tenants and exceed its authorized
budget by $1.9 million. In addition, the            HUD OIG audited the Inglewood
Authority did not submit the appropriate       Housing Authority’s administration of
documentation to ensure duplicate              tenant eligibility and housing assistance
payments were not made on behalf of the        payments and maintenance of its housing
ported tenants.                                assistance payment register. The objectives
                                               were to determine whether the Authority
    OIG recommended that HUD not               (1) accurately determined tenant eligibility
reimburse the Authority’s Section 8            in the Section 8 Housing Choice Voucher
program for the more than $1.9 million in      program in accordance with HUD
excess of its budget authority as was          requirements; (2) made Section 8 payments
requested in its FY 2004 year-end              only for units that were decent, safe, and
settlement statement. OIG also                 sanitary; and (3) maintained an accurate
recommended that HUD ensure the                housing assistance payment register.
Authority submits its billings and
documentation on time. (Audit Report:              The Authority did not always ensure
2005-LA-1008)                                  the initial tenant certifications were
                                               completed with all the necessary
     HUD OIG audited the salary                documents. Of the 72 tenant files reviewed,
allocation and procurement procedures of       43 were missing a total of 96 required
the Inglewood Housing Authority to             documents. In addition, the Authority’s
determine whether the Authority                unit inspections did not sufficiently detect
accurately tracked and allocated its salary    housing quality standards violations. Of 35
expenses and whether the Authority’s           units inspected, 25 contained a total of 119
procurement policies and procedures            violations. Also, the Authority did not
complied with HUD requirements.                maintain an accurate housing assistance
                                               payment register. OIG’s review of its
     The Authority did not track its           October 2004 register identified
employees’ time by program activity or         inaccuracies due to problems with 20
implement a cost allocation plan to allocate   tenants because the tenants were either
its salary expenses totaling more than $1.8    deceased, had erroneous and/or false
million for fiscal years 2001-2003. The        Social Security numbers (SSN), or were no
Authority also could not support the basis     longer receiving assistance.
for its purchase of two software packages
totaling more than $31,000.


HUD’s Public and Indian Housing Programs                                                      63
                                        OIG recommended that HUD require           more than $121,000 in housing assistance
                                    the Authority to repay from nonfederal         disbursed. Further, since the Authority
                                    funds more than $261,000 in unsupported        failed to correct deficiencies identified by
                                    housing assistance payments for those          HUD in December 2002, HUD should
                                    tenants determined to be ineligible and        reduce the Authority’s administrative fees
                                    repay the appropriate HUD program              earned by 10 percent retroactively to July
                                    approximately $27,000 for ineligible           2003, approximately $413,000. HUD
                                    expenses paid for units that were not          should continue to monitor the Authority
                                    decent, safe, and sanitary. (Audit Report:     and withhold 10 percent of the
                                    2005-LA-1009)                                  administrative fee, approximately another
                                                                                   $410,000, until the Authority complies with
Public & Indian Housing Programs


                                        OIG audited the Municipality of San        requirements. OIG also recommend that
                                    Juan, PR, Housing Authority’s Section 8        HUD require the Authority to establish and
                                    Housing Choice Voucher program as part         implement controls to ensure it follows
                                    of the strategic plan goals to reduce          HUD requirements so that assistance
                                    erroneous payments in rental assistance        payments are correct, files are properly
                                    programs. The review was initiated in          documented, and participants are properly
                                    response to a request from the HUD San         selected from the waiting list. (Audit
                                    Juan Office of Public and Indian Housing.      Report: 2005-AT-1015)
                                    The San Juan office advised that it was not
                                    satisfied with the Authority’s overall             HUD OIG reviewed the Housing
                                    performance in administering its Section 8     Authority of the County of Salt Lake, UT’s
                                    program.                                       internal controls over its Housing Choice
                                                                                   Voucher and public housing programs to
                                        The Authority did not have adequate        determine whether the controls provided
                                    controls to ensure tenants received the        reasonable assurance that the Authority’s
                                    proper voucher size, assistance payments       programs complied with HUD
                                    were correct, files were properly              requirements.
                                    documented, and participants were
                                    properly selected from the waiting list. As         The Authority’s controls provided
                                    a result, the Authority made erroneous         reasonable assurance that its staff properly
                                    housing assistance payments totaling more      assessed tenant eligibility, verified tenant
                                    than $9,000 and could incur additional         income, calculated Section 8 subsidy
                                    overpayments of approximately $148,000.        payments, calculated public housing
                                                                                   tenant rents, and used Section 8 housing
                                        OIG recommended that HUD require           choice vouchers. In addition, the
                                    the Authority to repay the approximate         Authority’s controls over housing
                                    $6,000 that had not been recovered for         inspections provided reasonable assurance
                                    excessive and erroneous housing assistance     of timely and well-documented inspections
                                    payments and take measures to avoid            and enforcement of corrective actions for
                                    future estimated overpayments of               identified violations. However, the
                                    approximately $148,000. HUD should also        Authority inappropriately loaned $375,000
                                    require the Authority to review tenant files   in HUD funds to the Housing Authority of
                                    with inadequate income verifications,          Salt Lake City.
                                    locate missing tenant files, and determine
                                    the appropriateness and eligibility of the



                            HUD’s Public and Indian Housing Programs                                                        64
     OIG recommended that HUD require
the Authority to establish a policy
concerning proper documentation of any
future loans and to use the funds repaid
by the Housing Authority of Salt Lake City
for HUD-related housing activities. (Audit
Report: 2005-DE-1005)

     HUD OIG audited the Flint, MI,
Housing Commission’s Section 8 housing
program. OIG selected the Commission,




                                                                                                  Public & Indian Housing Programs
based upon a risk analysis that identified
it as having a high-risk Section 8 housing
program. The overall objectives were to
determine whether the Commission
managed its Section 8 housing program
effectively and followed HUD’s
requirements. OIG determined whether the
Commission had adequate procedures and
controls over its inspection of units,
abatement of housing assistance payments,     Window has no counterweights and does not stay
                                              up. Bottle keeps window propped up for the unit
and rent reasonableness determinations.       located at 3905 Proctor.

     Of 56 units inspected, 52 did not meet
HUD’s standards and/or local code. OIG
determined that more than $80,000 in
housing assistance payments and
administrative fees were improperly paid
for units not meeting HUD’s standards
and/or local code. The Commission also
did not abate approximately $50,000 in
housing assistance payments based on
units that failed inspections performed by
the Commission’s inspector. In addition,      Power strip connected to an ungrounded receptacle
                                              near sink in unit located at 3813 Kellar.
the Commission did not properly complete
rent reasonableness certifications and
maintain adequate records or market rate
units for rent reasonableness comparisons.        HUD OIG audited the Housing
                                              Authority of the County of Marin’s Section
    OIG recommended that HUD require          8 project-based voucher program in
the Commission to reimburse its Section 8     San Rafael, CA, to determine whether
housing program for the inappropriately       the Authority (1) performed rent
used funds and implement procedures and       reasonableness determinations and (2)
controls to correct the deficiencies          executed housing assistance payments
identified. (Audit Report: 2005-CH-1017)      without HUD-required contracts.




HUD’s Public and Indian Housing Programs                                                          65
                                         The Authority (1) did not perform        to ensure the accuracy of data entry of key
                                    rent reasonableness determinations to         tenant identification information. These
                                    ensure Section 8 tenants’ rent was            procedural deficiencies caused the
                                    reasonable before entering into housing       Authority to expend more than $24,000 in
                                    assistance payment contracts, (2) used        excess housing assistance payments and
                                    tenant-based         contracts      and       hindered the Authority’s ability to obtain
                                    unenforceable memorandums of                  tenant income information from the
                                    understanding to issue housing                Enterprise Income Verification system
                                    assistance payments under its Section 8       when calculating tenant rent and subsidy
                                    project-based program instead of the          payments.
                                    appropriate project-based voucher
Public & Indian Housing Programs


                                    contracts, and (3) received more than             OIG recommended that HUD require
                                    $318,000 in Section 8 administrative fees     the Authority to reimburse the more than
                                    while inappropriately administering its       $24,000 in excess housing assistance
                                    Section 8 program.                            payments and ensure that the Authority
                                                                                  develops and implements procedures to
                                         The Authority did not have policies      ensure that each tenant receives the proper
                                    and procedures in effect to properly          voucher size. In addition, OIG
                                    administer the project-based program or       recommended that the Authority review
                                    safeguard Section 8 resources. It’s actions   the accuracy of the input of the tenant’s
                                    could have given participating tenants        identification information. (Audit Report:
                                    false impressions concerning how they         2005-KC-1008)
                                    were allowed to use these vouchers, and
                                    it unnecessarily jeopardized funds                 HUD OIG audited the Housing Choice
                                    needed to provide Section 8 program           Voucher program of the Housing
                                    recipients affordable housing.                Authority of the City of Tacoma, WA, to
                                                                                  determine whether it had adequate
                                         OIG recommended that HUD                 internal controls to operate its Section 8
                                    require the Authority to (1) develop and      program in accordance with HUD
                                    implement Section 8 procedures in             requirements. While the Authority
                                    accordance with HUD regulations and           generally had adequate internal controls,
                                    (2) reimburse HUD more than $318,000          it did not adequately address more than
                                    from its administrative reserves for          $30,000 in excess housing assistance
                                    inappropriately administering the Section     payments to landlords and did not properly
                                    8 program. (Audit Report: 2005-LA-            document its Section 8 Management
                                    1004)                                         Assessment Program quality control
                                                                                  reviews.
                                        HUD OIG audited the Housing Choice
                                    Voucher program of the St. Louis, MO,              OIG recommended that HUD require
                                    Housing Authority to determine whether        the Authority to institute processes to
                                    the Authority was operating its Section 8     correct these deficiencies and to recoup any
                                    program in accordance with HUD                of the excess housing assistance payments
                                    requirements.                                 that are ineligible. (Audit Report: 2005-SE-
                                                                                  1005)
                                        The Authority did not have adequate
                                    procedures in place to ensure that its           HUD OIG audited the Syracuse
                                    tenants receive the proper voucher size or    Housing Authority in Syracuse, NY,


                            HUD’s Public and Indian Housing Programs                                                       66
regarding administration of its Section 8      determine whether the Authority had
Housing Choice Voucher program. The            implemented key recommendations
objectives of the audit were to determine      included in our March 28, 2001, audit
whether the Authority (1) implemented          report (Audit Report: 2001-PH-1003).
Section 8 admission policies consistent with
HUD requirements, (2) verified the                  The Authority experienced delays in
accuracy of the information on Section 8       implementing its management information
applicants’ applications and Section 8         system, which adversely affected its ability
participants’ recertification forms, (3)       to fully implement the recommendations.
properly calculated participants’ housing      The Authority had not developed and
assistance payments, (4) accurately            implemented all of the financial system




                                                                                               Public & Indian Housing Programs
reported information to HUD, and (5)           controls necessary to ensure its books and
ensured that units provided to participants    records were maintained in accordance
met HUD’s housing quality standards.           with HUD requirements and did not follow
                                               adequate procedures to fully budget and
    The Authority’s waiting list was not       use its available Section 8 resources
maintained in accordance with HUD              effectively.
requirements, recertifications were not
conducted in a timely manner, inaccurate            OIG again recommended that the
occupancy information was reported to          Authority improve its financial system
HUD, and housing units contained               controls and key components of the
deficiencies pertaining to housing quality     administration of its Section 8 programs
standards.                                     and that HUD immediately recapture $25.1
                                               million of the $38 million in the Authority’s
    OIG recommended that HUD require           reserve account and require the Authority
the Authority to (1) implement procedures      to repay or reimburse the program for more
to purge its waiting list, (2) implement       than $70,000 in ineligible expenses.
procedures and controls to ensure that the
Section 8 recertification process is                Before reaching a management
conducted in a timely manner, (3) develop      decision on the CAV, the Department
and implement a quality control plan to        executed an agreement with the Authority,
ensure that the information reported to        allowing it to participate in the Moving To
HUD is current and accurate, and (4)           Work (MTW) Demonstration program,
ensure that the housing quality standards      without notifying OIG or HUD Office of
deficiencies identified are corrected within   Public and Indian Housing field office staff.
the required timeframes. (Audit Report:        In approving the Authority’s participation
2005-NY-1006)                                  in the MTW Demonstration program, the
                                               Department rendered our audit
Corrective Action Verification                 recommendations moot since under the
                                               program agreement, the Authority is no
Review                                         longer required to follow HUD’s
                                               requirements and regulations. OIG has an
     HUD OIG conducted a corrective            audit in process to review HUD’s
action verification (CAV) review of the        acceptance of the Authority into the MTW
Housing Authority of Baltimore City,           Demonstration program. (Audit Report:
Baltimore, MD’s Section 8 certification and    2005-PH-1004)
Housing Choice Voucher programs to


HUD’s Public and Indian Housing Programs                                                       67
                                    Public Housing Authority Activity              administrative fee reserves should have
                                                                                   been subject to recapture by HUD.
                                    with Nonprofit Entities
                                                                                        OIG recommended that HUD (1)
                                         In our previous semiannual report, we     request the Authority to pay it the more
                                    identified PHAs that improperly used HUD       than $2.5 million that remained after
                                    funds to develop and support its affiliated    redemption of the Authority’s 1980
                                    nonfederal entities, which in one instance     mortgage revenue bonds (2) ensure that the
                                    resulted in jeopardizing project stability     Authority reimburses the housing choice
                                    and could not always support expenditures      voucher administrative fee reserve account
                                    made with HUD funds. We continue to            more than $3.9 million expended for
                                    to assess the impact of annual contributions
Public & Indian Housing Programs


                                                                                   non-housing-related purposes, and (3)
                                    contract and other requirement violations      recapture more than $729,000 of the
                                    as they related to PHA activities with         housing choice voucher administrative fee
                                    related nonprofit entities. During the         reserves that exceeded the allowable level
                                    current period, we completed reviews of        as of January 31, 2003. In addition, OIG
                                    an additional eight PHAs. Improper             recommended that controls be established
                                    activities were found at the eight PHAs,       to ensure the proper (1) disposition of the
                                    resulting in questioned costs of nearly $25    proceeds from bond redemptions and (2)
                                    million and funds that could be put to         use and reporting of housing choice
                                    better use of about $5 million. Details of     voucher administrative fee reserves. (Audit
                                    the improper activities are discussed below.   Report: 2005-NY-1005)

                                        HUD OIG audited the Housing                    OIG reviewed the low-income public
                                    Authority of the City of Newark, NJ, to        housing program at the Hartford, CT,
                                    determine whether it (1) complied with         Housing Authority. The objective was to
                                    HUD requirements for the disposition of        determine whether the Authority used
                                    proceeds from the redemption of tax-           low-income public housing operating
                                    exempt bond financing and (2) properly         subsidies in compliance with the financial
                                    expended its Section 8 housing choice          provisions of its annual contributions
                                    voucher administrative fee reserves.           contract.

                                         The Authority improperly (1) allowed            The Authority did not administer its
                                    its Housing Finance Corporation to retain      public housing operating subsidies in
                                    more than $2.5 million in funds remaining      compliance with the financial provisions
                                    after the redemption of the Authority’s        of its annual contributions contract. It used
                                    1980 tax-exempt mortgage revenue bonds         public housing operating subsidies to pay
                                    and (2) used its Section 8 housing choice      expenditures of its State-subsidized
                                    voucher administrative fee reserves for        housing program and other Federal
                                    non-housing-related purposes by                housing programs. As a result, the
                                    committing more than $4.4 million, of          Authority did not have $3.7 million
                                    which $3.9 million was expended, to            available to administer its public housing
                                    acquire properties for the construction of     program.
                                    a hockey arena. This caused an
                                    underreporting of the administrative fee            OIG recommended that HUD require
                                    reserve balance as of January 31, 2003.        that the Authority repay the public housing
                                    Consequently, more than $729,000 in            operating fund $3.7 million plus interest.


                            HUD’s Public and Indian Housing Programs                                                         68
In addition, the Authority should establish     encumbered HUD funds for the benefit of
and implement policies and procedures to        non-HUD development activity without
ensure that public housing operating            specific HUD approval.
subsidies are used only for program
purposes. (Audit Report: 2005-BO-1006)              The Authority received more than
                                                $459,000 in Home Ownership Made Easy
    HUD OIG reviewed the Housing                (HOME) funds from Stark County between
Choice Voucher, Public Housing Operating        August 2001 and September 2002 to
Fund, and Public Housing Capital Fund           develop five low-income housing units.
programs at the Fall River Housing              Two of the units were for Ruthe and
Authority in Fall River, MA. The objective      Isadore Freed Housing Corporation, the




                                                                                              Public & Indian Housing Programs
was to determine whether the Authority          Authority’s nonprofit affiliate entity. The
used its Federal funds in compliance with       Authority administered these funds and
the financial provisions of its annual          deposited them into its general fund. It
contributions contracts.                        expended more than $696,000 from its
                                                general fund for the development of low-
     The Authority used Federal funds to        income housing units but could not support
pay expenditures for State-subsidized           whether HUD operating subsidies or
housing programs. As a result, it did not       nonfederal funds were expended.
have $3.5 million available to administer
its Federal programs. Additionally, the             Freed transferred more than $528,000
Authority overreported its voucher              to the Authority, which has not
utilization.                                    demonstrated that these funds were
                                                reimbursed to its low-income housing
      OIG recommended that HUD require          program. The transfers made to Freed were
the Authority to (1) repay more than $3.5       in excess of the amount Freed had on
million (taken from the Federal programs),      deposit in the Authority’s general fund for
(2) strengthen its controls over tracking and   the period between December 2000 and
reporting of Federal funds, and (3)             March 2005. Freed lacked the funds to
establish adequate controls to ensure           transfer more than $168,000 to the
accurate reporting of Section 8 housing         Authority as of March 2005.
choice voucher utilization. (Audit Report:
2005-BO-1005)                                        The Authority also executed two loan
                                                agreements for the purchase of properties
     In Canton, OH, HUD OIG audited the         that encumbered $278,000 of its general
Stark Metropolitan Housing Authority’s          fund, including low-income housing
activities with its related nonprofit           operating subsidies, without HUD
organizations. OIG selected the Authority       approval. The agreements allowed the
for audit because it was identified as having   lender to withdraw the funds on deposit if
high-risk indicators of nonprofit               the loan payments were not made. In April
development activity. The objectives were       2004, the Authority secured $184,000 in
to determine whether the Authority (1)          loan agreements with nonfederal funds.
used annual contributions contract funds
for non-annual-contributions-contract               OIG recommended that HUD require
activities, (2) accounted for the source and    the Authority to (1) collect the more than
use of funds as required by its annual          $168,000 that Freed owes the Authority and
contributions contract with HUD, and (3)        reimburse its low-income housing reserve


HUD’s Public and Indian Housing Programs                                                      69
                                    account or reimburse its low-income                  HUD OIG audited the Lycoming
                                    housing reserve account from nonfederal        County Housing Authority, Williamsport,
                                    funds, (2) provide adequate documentation      PA, in response to a referral from the HUD
                                    to support that the repayment of more          Pennsylvania State Office, Office of Public
                                    than $528,000 from Freed Corporation was       Housing. The audit objective was to
                                    from nonfederal funds or reimburse its low-    determine whether the Authority properly
                                    income housing reserve account from            used HUD funds to develop and support
                                    nonfederal funds, (3) provide adequate         its affiliated nonfederal entity.
                                    documentation to support that the
                                    encumbrance for $94,000 was removed                  The Authority properly allocated
                                    and secured with nonfederal funds, and         direct and indirect costs to its nonfederal
Public & Indian Housing Programs


                                    (4) implement procedures and controls to       entity. However, it violated its annual
                                    correct the weaknesses cited. (Audit           contributions contract with HUD by
                                    Report: 2005-CH-1011)                          guaranteeing a $3.5 million line of credit
                                                                                   with HUD assets to help support the
                                         In Richmond, VA, HUD OIG audited          nonfederal entity. As of March 2005, the
                                    the Richmond Redevelopment and                 Authority owed $2.9 million on this line of
                                    Housing Authority in response to a             credit, placing significant HUD assets at
                                    citizen’s complaint. The audit objective was   risk.
                                    to determine whether the Authority
                                    properly used HUD funds in accordance               OIG recommended HUD notify the
                                    with its annual contributions contract.        Authority that it improperly encumbered
                                                                                   annual contributions contract assets and
                                         OIG found the Authority improperly        direct it to provide evidence within 30 days
                                    used more than $6 million in public housing    that the financial instruments encumbering
                                    low-rent funds to pay the administrative       the assets have been changed to exclude
                                    expenses of other HUD programs. Also, it       the assets, thereby putting $2.9 million to
                                    improperly used $1.5 million in HUD funds      better use. (Audit Report: 2005-PH-1012)
                                    to support its nonfederal entities and could
                                    not support all costs.                             In Fulton County, GA, HUD OIG
                                                                                   reviewed the Housing Authority of Fulton
                                         OIG recommended HUD require the           County’s administration of its housing
                                    Authority to (1) discontinue its practice of   development activities. The primary
                                    using public housing low-rent funds to pay     objective was to determine whether the
                                    the administrative expenses of its other       Authority advanced resources subject to an
                                    programs, (2) reconcile funds owed to its      annual contributions contract or other
                                    public housing low-rent program from its       agreements or regulations to the benefit of
                                    other HUD programs and then reduce the         other entities without specific HUD
                                    appropriate programs’ funding by               approval. The objective included
                                    approximately $6 million or the amount         determining whether the Authority’s cost
                                    certified from the reconciliation, and (3)     allocation method complied with
                                    recover $1.5 million provided to its           provisions of Office of Management and
                                    nonfederal entities or repay it from           Budget (OMB) Circular A-87 and whether
                                    nonfederal sources. (Audit Report: 2005-       adequate records were maintained for
                                    PH-1009)                                       public housing program expenses.




                            HUD’s Public and Indian Housing Programs                                                        70
     OIG      found       the     Authority       the Town of Crossville, TN, Housing
inappropriately used public housing funds         Authority’s housing development activities.
for other programs’ and related entities’         The objectives were to determine whether
expenses in excess of funds the programs          the Authority inappropriately advanced or
or entities had on deposit. As of July 31,        diverted resources in violation of its annual
2004, six programs or entities owed the           contributions contract or other
public housing program more than                  requirements and whether the Authority’s
$640,000. In addition, the Authority              cost allocation procedures complied with
inappropriately advanced public housing           OMB requirements.
funds for some of its activities and activities
of the nonprofit entities. The Authority also          The Authority spent more than




                                                                                                   Public & Indian Housing Programs
did not have a record of the time spent on        $583,000 from its public housing programs
various activities and may have paid a            for ineligible activities. In violation of its
disproportionate share of the costs. As of        annual contributions contract, the
September 30, 2004, the Authority had             Authority used the funds to support its
allocated more than $1.3 million more to          affordable housing development activities,
its Federal programs than had comparable          including several tax credit properties
housing agencies. Further, the Authority          substantially owned by other entities. As a
did not maintain adequate records for             result, the funds were not available for
public housing expenses totaling more than        operation or modernization of the
$770,000 incurred from FY 2001 through            Authority’s public housing units. In
2004. The Authority could not provide             addition, the Authority did not adequately
support for (1) more than $550,000 in             support costs allocated to its Federal
reclassified salary and benefit costs (2)         programs as required by OMB Circular A-
more than $181,000 in reclassified                87. Without adequate support, the
expenses, and (3) approximately $40,000           Authority cannot assure that its various
in other expenses.                                programs, including HUD programs, paid
                                                  only their fair share of costs.
     OIG recommended that HUD require
the Authority to (1) repay more than                  OIG recommended that the Authority
$640,000 or the current balance owed to           reimburse HUD more than $417,000 and
its public housing program and ensure             that HUD recapture $130,000 in capital
future transactions comply with the               funds. (Audit Report: 2005-AT-1012)
contract and other HUD requirements, (2)
provide documentation to justify                  Public Housing Authority
allocations of more than $1.3 million in
salary and benefit costs or reimburse its         Management of Monetary and
public housing program, and (3) develop           Physical Assets
internal controls to ensure that more than
$770,000 of public housing expenses are               HUD OIG audited the Milford
properly supported and that supporting            Housing Authority’s, Milford, CT, Public
documentation is made readily available           Housing Capital Fund program, public
upon request. (Audit Report: 2005-AT-             housing development grants for scattered
1009)                                             sites, and Section 8 Housing Choice
                                                  Voucher program. The audit objective was
  Because of indications of violations of         to determine whether the authority
HUD requirements, HUD OIG reviewed


HUD’s Public and Indian Housing Programs                                                           71
                                    operated in an effective and efficient          nonfederal funds for more than $215,000
                                    manner and in compliance with HUD’s             in ineligible legal costs and develops
                                    annual contributions contract, applicable       adequate management controls for over
                                    laws, and contractual requirements.             $3,000 in legal expenditures that were
                                                                                    unsupported; (5) reimburses HUD
                                          The audit identified questioned costs     approximately $26,000 from nonfederal
                                    and opportunities for funds to be put to        funds for Section 8 administrative fees
                                    better use of more than $1.5 million. The       collected by the Authority when its Section
                                    Authority failed to (1) address exigent         8 program units did not meet housing
                                    health and safety issues; (2) manage one        quality standards; (6) implements an
                                    project in an effective and efficient manner;   effective system to ensure all outstanding
Public & Indian Housing Programs


                                    (3) use development funds for scattered site    housing quality standards deficiencies are
                                    units on necessary and needed                   monitored and corrected within the
                                    expenditures, maintain an inventory for         required time, which will put more than
                                    prematurely replaced or newly purchased         $280,000 in funds to better use; (7) submits
                                    scattered site equipment, and comply with       a monitoring plan to ensure it uses all
                                    Section 504 handicapped requirements for        available Section 8 funding; (8) implements
                                    the development of scattered site units; (4)    controls to ensure it complies with HUD
                                    comply with Federal requirements and its        regulations and its own procurement policy
                                    own contracts for legal services; (5)           in    awarding        competitive       and
                                    implement adequate management controls          noncompetitive contracts; (9) submits the
                                    and procedures over Section 8 inspections;      executive director’s current contract for
                                    (6) lease-up Section 8 units at an acceptable   HUD approval and establishes specific
                                    rate; (7) comply with HUD procurement           goals and measurements to evaluate the
                                    regulations and its own procurement             executive director’s performance; and (10)
                                    policy; and (8) follow proper                   reimburses its applicable programs from
                                    administrative procedures relating to the       nonfederal funds more than $25,000 for the
                                    executive director’s employment contract        executive director’s personal use of a
                                    and performance evaluations, properly           vehicle. (Audit Report: 2005-BO-1003)
                                    handle personnel functions and employee
                                    benefits, and comply with requirements for          HUD OIG reviewed the McKeesport,
                                    executive sessions conducted during board       PA, Housing Authority’s Section 8 and
                                    of commissioners meetings.                      public housing programs to determine
                                                                                    whether the Authority operated its Section
                                         OIG recommended that HUD assure            8 and public housing programs according
                                    the Authority (1) prioritizes repairs and/      to HUD requirements.
                                    or replacements using available operating
                                    reserves and capital funds, which will put          OIG found no significant deficiencies
                                    approximately $838,000 in funds to better       with the Authority’s administration of its
                                    use; (2) reimburses the scattered site          Section 8 program. However, the
                                    development fund more than $135,000             Authority’s physical inspection process is
                                    from nonfederal funds for the premature         not effective in ensuring its low-rent units
                                    replacement of various items; (3) complies      are always properly maintained. The
                                    with the Section 504 handicapped-               Authority’s 1) method of scheduling low-
                                    accessible regulations covering the             rent inspections caused a maintenance
                                    development of scattered sites; (4)             backlog, 2) inspections were not thorough
                                    reimburses its applicable programs from         or adequately documented, and 3)


                            HUD’s Public and Indian Housing Programs                                                         72
procedures to ensure deficiencies identified   housing funds for voucher program
during inspections are completed in a          expenses;      improperly     charged
timely manner were not effective. As a         approximately $410,000 in administrative
result, the Authority’s low-rent housing       costs to the voucher program; and
units were not always maintained in an         improperly calculated and supported
efficient and effective manner. This was       housing assistance payments.
demonstrated when five of the Authority’s
eight low-rent properties received                  OIG identified questioned costs and
individual failing scores ranging from 45      opportunities for funds to be put to better
to 59 points on its fiscal year 2004 Real      use totaling $3.8 million and recommended
Estate Assessment Center (REAC)                that HUD require the Authority to justify




                                                                                                    Public & Indian Housing Programs
inspection for its Public Housing              the acquisition and use of the 215 Warren
Assessment System review.                      Street office space or sell the property,
                                               implement procedures to ensure that only
     OIG recommended the Authority             eligible families own and rent Pembroke
implement a number of policies and             Green housing units or repay the $1.3
procedures to improve its low-rent             million in HUD funds used to develop the
inspection process. These policies should      project that did not benefit eligible families,
ensure that low-rent inspections are           repay more than $636,000 to the low-
scheduled throughout the year, thoroughly      income public housing program for funds
completed, and properly documented, with       used for the voucher program, implement
a followup inspection procedure to ensure      an equitable cost allocation plan and
previous deficiencies are corrected in a       accounting procedures to allocate expenses
timely manner. (Audit Report: 2005-PH-         to the benefiting programs and reimburse
1014)                                          its voucher program approximately
                                               $410,000 for ineligible costs charged to the
     HUD OIG audited the Bridgeport, CT,       program, and adequately implement its
Housing Authority’s Section 8 Housing          quality control procedures to ensure
Choice Voucher and low-income public           housing assistance payments are properly
housing programs. The audit was                calculated and supported. (Audit Report:
conducted because recent HUD rental            2005-BO-1004)
integrity management reviews and
independent public accountant audit                 HUD OIG audited the procurement
reports identified program deficiencies. The   practices of the Housing Authority of the City
audit objective was to determine whether       of High Point, NC, to determine whether the
the programs were administered according       Authority solicited and awarded contracts
to program requirements.                       in accordance with procurement regulations
                                               and other requirements.
    The programs were not administered
according to program requirements. As a            The Authority paid at least
result, the Authority mismanaged the $1.5      $524,000 without following procurement
million purchase and renovation of             requirements. As a result, the Authority
additional office space; spent $2.6 million    cannot ensure it received the resulting goods
on the Pembroke Green Development              and services at the best price or that it properly
Project, of which $1.3 million failed to       used HUD funds to meet its mission of
benefit eligible families; improperly used     providing safe and sanitary housing.
more than $636,000 in low-income public


HUD’s Public and Indian Housing Programs                                                            73
                                         OIG recommended that HUD (1) require      assigning proper unit sizes for tenants; (4)
                                    the Authority to develop and implement         did not follow its personnel policies related
                                    procurement policies and procedures that       to maintaining documentation in personnel
                                    ensure future procurements are in              files, conducting performance appraisals in
                                    accordance with requirements, thus             a timely manner, and properly
                                    providing assurance that at least $524,000     administering personnel benefits; and (5)
                                    will be put to better use during the next 12   failed to provide adequate oversight of its
                                    months; (2) require the Authority to           Turnkey III Homeownership Opportunity
                                    discontinue paying vendors who do not have     program.
                                    valid contracts or purchase orders; and (3)
                                    monitor the Authority to ensure it complies         OIG recommended that HUD require
Public & Indian Housing Programs


                                    with procurement requirements and, if          the Authority to (1) reduce its low-rent
                                    necessary, implement appropriate sanctions     performance funding operating subsidy for
                                    to ensure compliance. (Audit Report: 2005-     the inappropriately used monies and (2)
                                    AT-1011)                                       implement procedures and controls to
                                                                                   correct the weaknesses cited. (Audit
                                         In Kankakee, IL, HUD OIG audited          Report: 2005-CH-1010)
                                    the Kankakee County Housing Authority’s
                                    low-rent housing program in response to             HUD OIG conducted a second audit
                                    a citizen’s complaint and as part of a         of the Kankakee County Housing
                                    comprehensive audit of the Authority. The      Authority in Kankakee, IL. The objective
                                    objective of the audit was to determine        was to determine whether the Authority
                                    whether the Authority administered its         maintained its low-rent housing units in
                                    low-rent housing program in an efficient       accordance with HUD’s requirements and
                                    and effective manner and had adequate          ensured that they complied with the City
                                    procedures and controls over its subsidy       of Kankakee’s ordinance on rental
                                    requests, preventive maintenance,              licensing.
                                    admission and occupancy, personnel
                                    practices, and Turnkey III Homeownership           OIG inspected 39 family housing units
                                    Opportunity program.                           and identified 693 deficiencies causing the
                                                                                   unit not to be in good repair, order, and
                                         OIG found the Authority (1)               condition, as well as health and safety
                                    improperly included Turnkey III units in       issues for 36 of the 39 units. The Authority
                                    its calculation of its low-rent performance    improperly used HUD funds to pay more
                                    funding operating subsidy, resulting in the    than $10,000 in fines for its low-rent
                                    Authority receiving more than $119,000 in      housing family units that did not have valid
                                    excess operating subsidies; (2) did not        rental licenses issued by the City.
                                    follow its annual contributions contract
                                    with HUD to implement an effective                 OIG recommended that HUD require
                                    maintenance program, resulting in lost         the Authority to (1) reduce its low-rent
                                    rental proceeds of more than $69,000; (3)      housing operating subsidy for the
                                    failed to improve its low-rent housing         inappropriately used funds, (2) seek
                                    program’s admission and occupancy              reimbursement from the City for fines that
                                    controls over maintaining proper               may have been improperly paid, and (3)
                                    documentation in tenant files, conducting      implement procedures and controls to
                                    timely reexaminations, accurately              correct the weaknesses identified. (Audit
                                    calculating total tenant payments, and         Report: 2005-CH-1014)


                            HUD’s Public and Indian Housing Programs                                                         74
Public Housing Mortgages and                      is not submitted to and approved by HUD’s
                                                  Chief Financial Officer by October 30, 2005.
Security Interest Program                         (Audit Report: 2005-BO-0002)

     HUD OIG audited HUD’s Public                 Moving to Work Demonstration
Housing Mortgages and Security Interest
program’s process for granting security           Program
interest in unappropriated Public Housing
Capital Fund grants. An earlier audit on               HUD OIG reviewed HUD’s design and
the Capital Fund program administered by          implementation of the public housing/
a Connecticut Housing Authority,                  Section 8 Moving to Work (MTW)




                                                                                                 Public & Indian Housing Programs
disclosed potential weaknesses in the HUD         Demonstration program to determine
Office of Public and Indian Housing’s             whether (1) the program tested ways to
internal controls over its Public Housing         provide and administer housing assistance
Mortgages and Security Interest program.          that reduced costs, promoted self-
The objective was to determine whether            sufficiency, and increased housing choices
HUD established adequate internal controls        and (2) HUD had the authority to approve
to safeguard funding before allowing              housing authority requests to make tenants
public housing authorities to use security        enter new contracts with time-limited
interests in future program grants.               housing assistance.

     HUD’s Office of Public and Indian                 OIG determined HUD relied on an
Housing failed to perform a front-end risk        existing system to collect tenant
assessment before allowing public housing         information. The system could not accept
authorities to use security interests in future   tenant information and was not adapted
Public Housing Capital Fund program               in time to support an interim evaluation.
grants. A front-end risk assessment is            As a result, HUD was not able to measure
needed to ensure internal controls are            interim program impacts on costs, family
effective. HUD has approximately $94              self-sufficiency, and housing choices as
million in financing proposals under              planned. In addition, HUD relied on
review that should not be approved until          existing assisted housing rules modified by
a program risk assessment is completed and        public housing/Section 8 MTW
approved and adequate internal controls           Demonstration requirements. However,
are in place.                                     the modified rules did not ensure HUD (1)
                                                  consistently        monitored        MTW
     OIG recommended that HUD (1)                 Demonstration housing authority activities
complete a front-end risk assessment of the       and performance and (2) obtained required
Public Housing Mortgages and Security             OMB approval when collecting program
Interest program, which will result in funds      information. OIG determined HUD had
to be put to better use in the amount of $4.9     the authority to make tenants enter new
million; (2) establish internal controls,         time-limited contracts.
including rules and regulations, for the
Public Housing Mortgages and Security                  OIG recommended that HUD (1)
Interest program based on results of the          develop a means for evaluating public
front-end risk assessment; and (3) suspend        housing/Section 8 MTW Demonstration
approvals of financing proposals valued at        program performance, (2) require field
$94 million if the front-end risk assessment      offices to monitor program activities, and


HUD’s Public and Indian Housing Programs                                                         75
                                    (3) obtain OMB approval for annual
                                    plans and reports. (Audit Report: 2005-
                                    SE-0001)

                                    Operating Subsidy Program
                                    Review Process
                                        HUD OIG audited the HUD Office of
                                    Public Housing, Boston Hub’s review
                                    process for operating subsidy calculations
Public & Indian Housing Programs


                                    for Region 1 public housing agencies
                                    administering low-income public housing
                                    programs during fiscal years 2004-2005.

                                         The Boston Hub incorrectly approved
                                    more than $1.3 million in operating
                                    subsidies for public housing agencies in FY
                                    2004-2005. It had not implemented a
                                    quality control process to ensure the
                                    accuracy of the operating subsidy
                                    determinations approved. As a result, it
                                    provided some public housing agencies less
                                    than their eligible subsidy, while providing
                                    others approximately $446,000 more than
                                    their eligible subsidy. As of April 28, 2005,
                                    the Boston Hub had submitted more than
                                    $932,000 in revisions, not including the
                                    $446,000, to the REAC Financial
                                    Management Division in response to this
                                    review.

                                         OIG recommended that HUD
                                    implement a quality control process to
                                    ensure the accuracy of the operating
                                    subsidy determinations approved, recover
                                    the more than $446,000 in excess subsidies
                                    approved in FY 2004, and ensure that
                                    REAC’s Financial Management Division
                                    implements the more than $932,000 in
                                    revisions the Boston Hub submitted. (Audit
                                    Report: 2005-BO-0001)




                            HUD’s Public and Indian Housing Programs                76
   Investigations                                        PHA Management and Program
                                                         Officials/Employees
        During this reporting period, OIG
   opened 388 investigation cases and closed                  Section 8 landlord Augustus R. Bond,
   392 cases in the PIH program area.                    Sr., of Baltimore, MD, was sentenced in
   Judicial action taken on these cases during           U.S. District Court, District of Maryland,
   the period included $12,675,659                       for his previously admitted role in the theft
   in investigative recoveries, $57,654,988              of HUD funds from the Housing Authority
   in funds put to better use, 415 indictments/          of Baltimore City (HABC). Defendant
   informations, 327 convictions/pleas/                  Bond received 6 months home detention,
   pretrial diversions, 1,499 administrative




                                                                                                         Public & Indian Housing Programs
                                                         followed by 2 years supervised release, was
   actions, 9 civil actions, 19 personnel actions,       fined $2,000, and was ordered to repay
   and 3,634 arrests.                                    $30,500 to HABC. The investigation
                                                         disclosed that for several years, Bond
        Some of the investigations discussed in          received a total of 77 HABC Section 8
   this report were conducted by OIG, while              housing assistance payment (HAP) checks
   others were conducted jointly with Federal,           on behalf of two tenants who he knew
   State, and local law enforcement agencies.            were no longer eligible for assistance. In
   The results of OIG’s more significant                 one case, Bond falsely reported that a
   investigations are described below.                   tenant who had previously vacated a unit
                                                         had returned, and he continued to file false
       Chart 3.3: Public and Indian Housing              reports for almost 8 years to continue
            Investigative Recoveries                     receiving assistance on that unit. In the
                   False                                 other case, Bond knew that one of his
                Statements                               tenants began subleasing the assisted unit
 PHA Fraud          7%       Other
                              0%          Embezzlement   to a friend in January 1999, but he
    4%
                                              27%
                                                         continued to report the original tenant as
  Fugitive                                               occupying the unit for a period of 4 years
   Felon
 Initiative
                                                         until the scheme was uncovered.
    7%
                                      Section 8               Former executive director Denise P.
                                        55%
Total: $12,675,659                                       Guite of Hartford, CT, was sentenced in
                                                         Connecticut Superior Court. Defendant
  Chart 3.4: Public and Indian Housing Funds             Guite previously pled guilty to one count
              Put to Better Use                          of larceny in the first degree by defrauding
                                                         a public community. Guite was sentenced
                           Other
                                                         to 10 years imprisonment, suspended after
                 False
              Statements    2%       Embezzlement        serving 15 months, and 5 years probation.
 PHA Fraud
                  2%                     3%              Guite was also ordered to repay $3,000 per
   37%                                                   year to the Berlin Housing Authority
                                                         (BHA), over her 5-year probation period.
                                                         Guite has already repaid $18,800 to the
                    Fugitive Felon        Section 8
                                                         BHA, which represents the amount of
                      Initiative            54%          money involved in the theft that was not
                          2%                             repaid by insurers of the BHA.
Total: $57,654,988



   HUD’s Public and Indian Housing Programs                                                              77
                                         Scott Banninga of Grand Rapids, MI,             Defendant Marysol Morales of Boston,
                                    former executive director of the Dowagiac       MA, former Section 8 coordinator, Avon,
                                    Housing Commission, was sentenced to 2          MA, Housing Authority, was charged in a
                                    years probation and court-ordered               21-count superseding indictment by a
                                    restitution totaling $2,298. This followed      Federal grand jury in U.S. District Court,
                                    his earlier guilty plea in the U.S. District    Boston, MA. Morales was charged with a
                                    Court, Western District of Michigan to          total of six counts of corrupt receipt of
                                    embezzlement of Federal funds. Banninga,        payments by an agent of a federally funded
                                    as executive director, utilized two             local government entity and with 15 counts
                                    Dowagiac Commission American Express            of using false documents in a matter within
                                    credit cards to purchase meals, computer        the jurisdiction of a Federal agency. In a
Public & Indian Housing Programs


                                    programs, textbooks, car repairs, and           previous Federal indictment, which was
                                    Internet services; all of which were used       returned on February 16, 2005, Morales
                                    for his personal benefit. The total loss was    had been charged with three counts of
                                    approximately $5,000. As a result of the        corrupt receipt of payments.
                                    criminal investigation, Banninga’s $45,000
                                    annual contract with the housing                    These actions are the result of an
                                    commission was immediately terminated.          ongoing HUD OIG investigation, which
                                                                                    revealed that Morales had allegedly
                                          A criminal information was filed          solicited bribes from several Section 8
                                    against Jerome Wisniewski of Grand
                                    Rapids, MI, the former executive director
                                    of the Manistee Housing Commission.
                                    Wisniewski was charged in the U.S,
                                    District Court, Western District of
                                    Michigan, with two counts of
                                    embezzlement and unlawful monetary
                                    transaction for his role in an alleged scheme
                                    to defraud the housing commission of more
                                    than $1.2 million in the Western District of
                                    Michigan. Wisniewski, who had been an
                                    employee of the housing commission for
                                    more than 34 years, purportedly used the
                                    authority’s funds to purchase a 1989 Rolls
                                    Royce Silver Spur, a 1999 Porsche 911, and
                                    two pieces of real estate. According to the
                                    criminal information, Wisniewski was able
                                    to further his scheme through the creation
                                    of a fictitious company, which allowed him
                                    to funnel housing commission funds.
                                    Forfeiture arrangements are already
                                    underway for Wisniewski’s vehicles and
                                    the proceeds from the imminent sale of his
                                    properties.


                                                                                    Copyright, 2005. The Enterprise- Brockton, MA.
                                                                                    Reprinted with permission.


                            HUD’s Public and Indian Housing Programs                                                                 78
applicants ranging from $2,600 to $6,500.            Defendant Miriam Brown, former
In addition, Morales issued more than 90        executive director of the Maquoketa, IA,
alleged Section 8 vouchers that should not      Housing Authority, was sentenced in U.S.
have been issued causing the housing            District Court, Northern District of Iowa,
authority to terminate more than 90             to serve 7 months imprisonment, 7 months
families from the Section 8 program. The        home confinement, and 2 years supervised
90 fraudulent Section 8 vouchers were           release. Defendant Brown previously pled
valued at more than $1,300,000, which           guilty to embezzling more than $64,000
caused the Avon Housing Authority to pay        from HUD. Defendant Brown embezzled
in excess of $50,000 per month in HAP,          the funds from the Housing Authority
funds that it did not have.                     operating account by reimbursing herself




                                                                                              Public & Indian Housing Programs
                                                for expenses that did not exist and
     As a result of the allegations, the Avon   overpaying herself with unapproved bonus
Housing Authority also attached a lien          and salary checks during a 3-year period.
against Morales’ personal residence,            Defendant Brown repaid the $64,000 in
located in Brockton, MA, in the amount of       restitution to HUD prior to her sentencing.
$350,000, since she had placed the property     This investigation was conducted by HUD
up for sale. Morales was terminated from        OIG.
her job at the Avon Housing Authority on
December 30, 2004.                                   Defendant Jane Burchett, Omaha, NE,
                                                former executive director of the Housing
     Samuel Norris of Miami, FL, a housing      Authority of Wymore, NE, was indicted by
authority employee for more than 17 years,      a Federal grand jury for the District
pled guilty to two counts of theft              of Nebraska for embezzling funds.
concerning programs receiving Federal           Defendant Burchett allegedly hired a
funds in the U.S. District Court, Southern      tenant to clean restrooms and clean out
District of Florida. Norris was previously      apartments. The tenant worked 7 to 12
indicted on March 1, 2005, and charged          hours per month. Defendant Burchett
with two counts of theft concerning             allegedly issued a monthly check generally
programs receiving Federal funds, nine          for $498 payable to the tenant, allegedly
counts of theft of public money, and one        endorsed it by signing the tenant’s name
count of false statements to HUD. Norris,       as well as her own, then paid the tenant
a leasing and contracts supervisor for the      approximately $100 per month. The checks
Miami Dade Housing Agency (MDHA),               issued and cashed in this manner totalled
was responsible for approving and               more than $26,600 from 1999 through
processing Section 8 applicants at the          September 2004.
housing authority. Norris abused his
position by certifying MDHA documents               Defendant Renee Gonzales, former
to reflect a fictitious Section 8 landlord in   executive director of the Fort Lupton, CO,
order to divert the Section 8 subsidy checks    Housing Authority was indicted by a
to himself. From 2000 through 2004,             Federal grand jury for the U.S. District
Norris ensured that he successfully             Court, District of Colorado, on July 11,
diverted the Section 8 subsidy checks to        2005. On July 14, 2005, Federal agents
himself in the amount of $21,706. Norris        from HUD OIG and the Federal Bureau of
was suspended without pay following his         Investigation (FBI) arrested defendant
indictment and has resigned from his            Gonzales at her residence in Fort Lupton,
position as a result of his guilty plea.        CO. The Federal grand jury indicted


HUD’s Public and Indian Housing Programs                                                      79
                                    Gonzales on 53 counts of theft of               SHA vendors involved in paying kickbacks;
                                    government program funds. The                   and to wholesale theft of SHA material
                                    investigation found that defendant              from the warehouse.
                                    Gonzales allegedly wrote 53 Housing
                                    Authority checks to fraudulent payees then          A 12-count felony complaint was filed
                                    deposited the checks into the bank accounts     on Johnny Walker, an employee of the
                                    of her husband’s trucking company. The          Housing Authority City of Los Angeles,
                                    investigation disclosed that during the         CA (HACLA), his wife, Linneth Tirhanna
                                    period of May 2003 though June 2004,            Walker, and his mother-in-law, Cecilia
                                    defendant Gonzales allegedly embezzled          Singh. All three allegedly conspired to
                                    approximately $212,095 of Housing               commit grand theft and welfare fraud. On
Public & Indian Housing Programs


                                    Authority funds.                                or between January 1, 2001, and January
                                                                                    1, 2003, Johnny Walker and Linneth
                                         Defendant        Verda      Steward,       Walker allegedly defrauded the HUD
                                    unreported Section 8 tenant, Housing            Section 8 program by renting a subsidized
                                    Authority of Kansas City, MO (HAKC),            property to Cecilia Singh, a violation of
                                    was charged in the 16th Circuit Court for       program regulations. These individuals
                                    the State of Missouri with one count of         were charged with grand theft of personal
                                    theft/stealing of property or services of       property, causing a loss of monies
                                    $500 or more. Clellie Barker, defendant         exceeding $15,000 to the HACLA.
                                    Steward’s deceased boyfriend, had been a
                                    Section 8 recipient but died in December            On August 19, 2005, Johnny Walker,
                                    2001. Defendant Steward, who was never          Linneth Walker, and Cecilia Singh were
                                    on the lease, allegedly continued to receive    arrested at their residence and taken into
                                    benefits under Barker’s identity after his      custody. All three were released on their
                                    death. Defendant Steward
                                    allegedly received $6,652 in
                                    housing benefits from the HAKC
                                    to which she was not entitled.

                                        Francis X. Maroney, former
                                    chief, Purchasing Department
                                    Warehousing, Springfield
                                    Housing Authority (SHA),
                                    entered a plea of guilty to one
                                    count of bribery and one count
                                    of obstruction of justice.
                                    Maroney’s plea was based on an
                                    information filed in U.S. District
                                    Court, Springfield, MA.
                                    Maroney, in entering his plea,
                                    admitted to his participation in
                                    accepting bribes from an
                                    SHA vendor; to misleading
                                    investigators regarding other
                                                                         Copyright, 2005. The Republican - Springfield, MA. Reprinted with
                                                                         permission.



                            HUD’s Public and Indian Housing Programs                                                                    80
own recognizance and are scheduled to                Defendant Barbara Gilbert of Newark,
appear in court.                                NJ, former executive director of the Buena
                                                Housing Authority, was indicted on one
     Defendant James H. Tate of Topeka,         count of official misconduct and four
KS, former executive director of the            counts of theft by deception in the Atlantic
Junction City, Kansas, Housing Authority        County Court of New Jersey. Gilbert
(JCHA), pled guilty in Federal Court, U.S.      allegedly utilized Housing Authority checks
District of Kansas, to a one-count              to pay for more than $7,800 worth of
information charging him with the theft of      personal purchases and her cell phone bill.
JCHA funds. Defendant Tate admitted             In addition, Gilbert allegedly utilized the
that between December 2002 and                  Housing Authority’s Home Depot credit




                                                                                                Public & Indian Housing Programs
November 2004, he stole a total of              account to make personal purchases.
$102,701.23 from the JCHA. Defendant
Tate had worked for the JCHA since 1990,             Defendant Wayne August Nickols of
and his job was to manage the daily             Montgomery, AL, pled guilty in U.S.
operations of the housing authority and to      District Court for the Middle District of
report to the authority’s board of directors.   Alabama to one count of mail fraud.
Defendant Tate charged personal items on        Nickols conspired with the former
the JCHA credit card, including eye glasses,    executive director, Wiley Thomas, of the
clothes, travel expenses, food, jewelry,        Montgomery Housing Authority to pay
phone bills, cable bills, and other items he    kickbacks to Thomas in exchange for
purchased for his friends and family. He        contracts. Nickols and Wiley would inflate
also used the JCHA’s gas cards to buy gas       the price of the contracts for services, and
for his personal use and drove housing          as a result of the scheme, Nickols received
authority vehicles on trips with family and     $243,280 from the Montgomery Housing
friends or to shop or dine. Defendant Tate      Authority.
paid the unauthorized credit card expenses
by obtaining the JCHA chairman of the                Defendant Benita James, a former
board’s electronic signature password,          employee of the Housing Authority of the
which he used to write checks on the JCHA       City of New Haven, CT (HANH), pled
computerized software accounting                guilty in U.S. District Court, Bridgeport,
program.                                        CT, to a one-count information charging
                                                her with theft or bribery concerning
     Defendant Cynthia Stone, employee of       programs receiving Federal funds. While
the Housing Authority of Kansas City, MO        employed as an intake specialist for the
(HAKC), and HAKC Section 8 tenant, pled         HANH Service Center, James admitted to
guilty in the U.S. District Court for Western   receiving bribes of cash and stolen clothing
Missouri to one count of embezzlement/          in exchange for moving people to the top
theft of public money. Defendant Stone          of the Section 8 waiting list. James knew
admitted she failed to report her HAKC          that the process for obtaining Section 8
employment income. Defendant Stone              assistance through the Housing Authority
previously confessed that she did not report    typically took up to 2 years. James entered
to HAKC that for extended periods of time,      the Housing Authority’s Emphasis Elite
she had lived at another address with her       computer system and altered electronic
boyfriend and her niece lived at the Section    records, thereby moving people to the top
8 address. The loss to the HAKC is $20,067.     of the Section 8 waiting list. As part of her



HUD’s Public and Indian Housing Programs                                                        81
                                                                                            Grand Theft/False Statements/
                                                                                            Conspiracy
                                                                                                 Michael Ciarci, owner of Ciarci
                                                                                            Construction, LLC, was found guilty by a
                                                                                            jury in U.S. District Court, Hartford, CT,
                                                                                            on one count of money laundering and one
                                                                                            count of conspiracy to commit money
                                                                                            laundering. Ciarci Construction, LLC, had
                                                                                            a contract with the Housing Authority of
Public & Indian Housing Programs


                                                                                            the City of New Britain (HANB) to
                                                                                            rehabilitate units at the Pinnacle Heights
                                                                                            housing development. In furtherance of
                                                                                            this contract, Michael Ciarci certified to the
                                                                                            HANB that Luis Santiago worked in
                                                                                            December of 2001 performing services
                                                                                            related to this contract. Santiago had given
                                                                                            Ciarci $31,000 in cash that was generated
                                                                                            from the sale of narcotics, in return for
                                                                                            which Ciarci agreed to issue weekly
                                                                                            paychecks from Ciarci Construction, LLC,
                                                                                            to Santiago. In addition, Luis Santiago was
                                                                                            indicted, pled guilty to one count of money
                                      Copyright, 2005. The Connecticut Post - Bridgeport,   laundering, and was sentenced to 33
                                      CT. Reprinted with permission.
                                                                                            months incarceration.

                                    scheme, James would locate electronic                        Miladys Gomez of Newark, NJ,
                                    records for applicants for Section 8                    appeared in United States District Court,
                                    vouchers who were at or near the top of                 District of New Jersey, and was sentenced
                                    the Section 8 waiting list and change the               to 2 years of imprisonment and 2 years of
                                    applicant information to that of the persons            supervised release upon the conclusion of
                                    who provided her with money and other                   her prison term. In addition, Gomez was
                                    things of value. James is scheduled to be               ordered to pay $407,603 in restitution to
                                    sentenced on December 5, 2005.                          HUD. Gomez had previously pled guilty
                                                                                            to four counts of theft of Section 8 funds
                                        Defendant Renay Robison-Scheer of                   (theft from programs receiving Federal
                                    Norfolk, NE, executive director, Northeast              funds). This investigation disclosed that
                                    Nebraska Economic Development District                  from approximately April 2000 to January
                                    (NEDD), in the U.S. District Court for                  2004, Gomez embezzled more than
                                    Nebraska, agreed to a civil settlement to               $400,000 in Section 8 funds.
                                    pay HUD $39,236. Defendant Robison-
                                    Scheer fraudulently misspent various HUD                    Leslie Tourner of Orlando, FL, was
                                    administrative and operational grant funds              sentenced in U.S. District Court, Middle
                                    of NEDD.                                                District of Florida, to 24 months
                                                                                            incarceration, 3 years supervised release,



                            HUD’s Public and Indian Housing Programs                                                                   82
and 150 hours of community service;            William Dixon, who was employed with a
ordered to pay $204,693 in restitution; and    nationwide property management firm.
prohibited from incurring new credit           Pertinent information has been provided
charges, opening additional lines of credit,   to DOJ for appropriate administrative
or making an obligation for any major          and/or disciplinary action against the
purchases. Tourner previously pleaded          defendant.
guilty to one count of conspiracy to
embezzle and money laundering. Tourner              Reginald Vaughn Hurd, Margie
coconspired with Randy Donawa, the             Langdon Stinson, Michelle Delores Brown,
former Section 8 director of the Orlando       Antwinette Anderson, Helen Syatt, and
Housing Authority, Shawana Glover, and         Yvonne Taylor of Dallas, TX, were arrested




                                                                                               Public & Indian Housing Programs
Brian Tourner. The subjects allegedly          for securing and executing a document by
devised a scheme in which they created         deception. In addition, Helen Emory Hurd
fictitious landlords, opened bank accounts     was arrested for forgery. The seven
under the landlords’ false identities, and     subjects are allegedly involved in a scheme
wire transferred $425,000 in Section 8         to defraud the Dallas Housing Authority
money into the accounts. Donawa pleaded        (DHA) by falsifying deeds and other
guilty to the same charges and was             governmental records to qualify properties
sentenced on May 23, 2005, to 21 months        for subsidized housing assistance. The
incarceration and 2 years supervised           two main subjects, Michael Booty and
release and ordered to pay $257,265 in         Leoy Phillip Mitchell, involved the
restitution. Glover and Tourner were           aforementioned subjects by placing
sentenced on May 18 and 20, 2005, after        properties in their names and obtaining
pleading guilty to the same charges. Glover    home improvement loans for the
was sentenced to 15 months incarceration,      properties. Once the loans were approved,
and Tourner was sentenced to 18 months         the subjects allegedly received a kickback
incarceration. Both Glover and Tourner         as the “owner” of the property, and
were sentenced to 3 years supervised           Mitchell and Booty, through their
release and 150 hours community services       construction companies, would make
and ordered to pay $204,693 in restitution.    nominal repairs to the properties and then
                                               keep a large portion of the loans as profit.
     Defendant Pamela Rouse of Upper           DHA then paid all of the HAP funds to
Marlboro, MD, an employee of the U.S.          the “listed owners” of the properties;
Department of Justice (DOJ), Civil Rights      however, all of the funds went to Booty and
Division, Washington, DC, pled guilty in       Mitchell as property managers, and they
Maryland District Court for Prince Georges     serviced the loans. In addition, the subjects
County to making false statements              have created at least three properties from
to fraudulently obtain Section 8               detached garages and forged or altered real
housing assistance. She was immediately        deeds for those properties stating they were
sentenced to 36 months probation and           residences.
ordered to make full restitution of $11,718
to the Prince Georges County Department             As part of a Joint Terrorism Task Force
of Housing and Community Development.          (JTTF) criminal referral, three Section 8
Joint investigation by HUD and DOJ OIG         tenants and their husbands were indicted by
disclosed that, over a 3-year period, the      a grand jury in U.S. District Court, Southern
defendant failed to include the residency      District of Indianapolis, IN. The tenants are
and income of the father of her child,         Wafa Monhammad Taha (site-based),


HUD’s Public and Indian Housing Programs                                                       83
                                    Nazmiah M. Abed (tenant-based), and Sadi             The Worcester, MA, Police
                                    Aduhamdeh (tenant-based). All are alleged       Department (WPD) obtained state
                                    to have their husbands living in the assisted   complaints charging Kenneth Flood and
                                    unit and failing to report accurate family      Melissa Lenart with larceny over $250 and
                                    composition and/or income. The men              uttering a false instrument. The complaints
                                    charged, Mohammad T. Ibrahim, Ibrahim           were made after a joint HUD OIG, WPD,
                                    Taha Abed, and Abdelnaser Sadi, have            and Worcester Housing Authority (WHA)
                                    commercial driver’s licenses with hazardous     Department of Public Safety investigation
                                    materials approvals and made sizable            showed Flood and Lenart had allegedly
                                    incomes during the periods in question. The     forged and cashed $6,800 in checks stolen
                                    tenants and their husbands were all charged     from a WHA tenant association.
Public & Indian Housing Programs


                                    with making false statements and theft of
                                    public monies. The total loss to HUD is              Section 8 tenants LuAnn Fell and
                                    $62,346.                                        Peggy Wolfe were charged separately in
                                                                                    State Circuit Court, Frederick County, MD,
                                         A Federal grand jury in the Northern       on theft and fraud charges relating to their
                                    District of Cleveland, OH, unsealed a 42-       receipt of rental assistance from the
                                    count indictment charging, among other          Frederick, MD, Housing Authority.
                                    things, defendants Frank Adams, Gordon          Investigation by OIG was initiated as a
                                    Nelson, Jimmie Mitchell, Aubrey Benjamin,       result of our ongoing review of zero- or low-
                                    Andre Jenkins, Nathaniel Thompson,              income tenants receiving assistance from
                                    Roland Smith, Julena Burns, Juan                the Authority and disclosed that defendant
                                    Mendoza, and Gary Eppinger with                 Fell allegedly failed to report income of
                                    violation of currency reporting and             approximately $1,000 per week from a
                                    structuring laws and possession with intent     cleaning business and claimed additional
                                    to distribute cocaine (5 kilograms or more).    family members who did not reside with
                                    It is alleged that Mitchell (Section 8          her to obtain a larger rental unit.
                                    landlord), Benjamin (Section 8 landlord),       Defendant Wolfe failed to report the
                                    Nelson, Jenkins, Thompson, Smith, and           occupancy and income of the father of her
                                    Eppinger received multiple kilograms of         child, who is employed as a driver for a
                                    cocaine from their suppliers in Los Angeles,    local dairy, earning approximately $50,000
                                    CA, Frank Adams, Juan Mendoza, and              per year. The aggregate amount of rental
                                    Julena Burns.                                   assistance overpaid on the defendants’
                                                                                    behalf is almost $40,000.
                                        It is alleged that Mitchell distributes
                                    these multiple kilograms of cocaine to               Section 8 tenant Carol Jackson of
                                    Cleveland area dealers (at least four of        Scranton, PA, a resident of Village Park
                                    whom are Section 8 landlords). To conceal       Apartments, was charged in U.S. District
                                    the proceeds of his drug trafficking,           Court, Middle District of Pennsylvania,
                                    Mitchell opened and operated several            with providing false information to obtain
                                    construction businesses. Although the           housing assistance to which she was not
                                    construction businesses had bank                entitled. Investigation by OIG, which
                                    accounts, none of the money was                 included execution of a search warrant at
                                    purportedly used for the three houses his       the subsidized unit, disclosed that since at
                                    construction companies built.                   least 1988, the defendant has allegedly been
                                                                                    operating a private-duty nursing registry



                            HUD’s Public and Indian Housing Programs                                                          84
from her apartment. The defendant would          District of Pennsylvania, with concealing
allegedly refer persons to provide home          his and another member of the board’s
health care for the aged and infirm, for         financial interest in the HUD-funded
which she received fees of up to $400. She       Section 8 program. Investigation by OIG
also allegedly maintained substantial funds      disclosed that Meyer has allegedly owned
in a personal bank account that was never        property under the name Brandon
disclosed. Throughout the years since            Investment Group that has received rental
1988, she allegedly reported only welfare        assistance on behalf of a tenant since 1999.
and income from sporadic employment on           Further, he also allegedly knew that the
official recertification forms and received      board member and another employee
the benefit of $189,000 in rental assistance.    owned property that housed Section 8




                                                                                                    Public & Indian Housing Programs
                                                 tenants. Despite this, he allegedly certified
    In Will County Circuit Court, as part of     annually to HUD that the Section 8
Region 5’s proactive tenant/landlord fraud       program was being administered in
efforts through the Joliet, IL, Housing          accordance with outstanding regulations.
Authority (JHA), two tenants entered guilty      The aggregate amount of housing
pleas on criminal informations, three other      assistance paid improperly to all three
tenants were indicted, and one landlord was      individuals was computed at $44,424.
indicted in what is known as “OPERATION
JOLI 8.”                                              Defendant William Hudgens, a former
                                                 Cave Springs, GA, police officer assigned
     Tenant Debbie Daniels was charged with      to the Cave Springs Housing Authority,
failing to report more than $50,000 from a       pleaded guilty in Floyd Superior Court,
local casino to the JHA, thus causing an         Rome Judicial District, to 14 counts of theft
estimated loss of $11,000. Tenant Aquenetta      by deception violation and one count of
Hughes, an employee of the State of Illinois,    violation of oath of office as a police officer.
was charged with failing to report more than     Hudgens was formerly arrested and
$100,000 from her employer, thus causing a       indicted for theft of $25,000. He admitted
loss of $23,000. Tenant Letha Griffin was        to converting housing authority funds for
charged with failing to report in excess of      his personal use while being assigned to the
$60,000, thus causing a loss of $20,000.         housing authority as a community police
Section 8 landlord Stephanie Roberts was         officer. On this same date, Hudgens was
charged with accepting approximately             sentenced to 15 years incarceration,
$7,000 in “side payments” over and above         ordered to pay $23,849 in restitution, and
what her true tenant’s payment should have       fined $12,600.
been. Tenants Yvette Steel and Johnnie Mae
Carver pleaded guilty and were sentenced             Defendant Amanda Horn, a Junction
for their failure to report accurate income to   City, KS, Housing Authority (JCHA)
the JHA. Steel was sentenced to 2 years          Section 8 tenant, was indicted in the U.S.
probation and ordered to pay restitution         District Court of Kansas on a 13-count
totaling $6,500. Carver was sentenced to 2       indictment. Defendant Horn committed
years probation and ordered to pay               fraud against HUD, the U.S. Department
restitution totaling $15,000.                    of Agriculture (USDA) Food Stamp
                                                 program, U.S. Department of Health and
    Williamsport, PA, Housing Authority          Human Services (HHS) Temporary
executive director Bernard Meyer was             Assistance for Families program, and the
charged in U.S. District Court, Middle           Medicaid program, when she allegedly


HUD’s Public and Indian Housing Programs                                                            85
                                    failed to report that her mother, Catherine      September 2004. Simpson and his wife
                                    Stinnet, paid Debra Printup for daycare          Lisa Khandker-Simpson, a codefendant,
                                    services on Defendant Horn’s behalf. These       falsely represented his total household
                                    payments were as follows: $1,020 from            income to obtain Section 8 housing
                                    approximately October 7, 2002, through           assistance and welfare benefits from the
                                    December 31, 2002; $2,700 from                   New York City – Human Resource
                                    approximately January 1, 2003, through           Administration and caused such benefits
                                    March 30, 2003, and again from August            to be mailed through the United States
                                    21, 2003, through December 31, 2003; and         Postal Services. From August 2001
                                    $1,320 from approximately February 10,           through December 2003, the defendant
                                    2004, though April 30, 2004. As a result,        falsified initial applications and annual
Public & Indian Housing Programs


                                    JCHA paid out $7,200 in excessive HAP            recertifications, thereby wrongly receiving
                                    benefits, Kansas Social and Rehabilitative       rental assistance and welfare funds in
                                    Services paid out $ 2,829 in excessive USDA      excess of $71,723.
                                    food stamp benefits and $589 in general
                                    cash assistance, and HHS paid out $3,976              In U.S. District Court for the Western
                                    in Medicaid overpayments. Defendant              District of Washington, defendant Carol
                                    Horn’s alleged failure to report changes in      Tharpe of Seattle, WA, was charged with
                                    her household composition and income             one felony count of theft of government
                                    resulted in a total loss to the government       funds. Tharpe pled guilty and was
                                    of $14,594.                                      scheduled for sentencing.             This
                                                                                     investigation began after HUD OIG
                                         Ronald Nagel, former Sacramento, CA,        received allegations that Tharpe was
                                    Housing and Redevelopment Agency                 involved in a public housing fraud scheme
                                    (SHRA) conventional housing tenant, was          in which the defendant obtained public
                                    indicted by a Federal grand jury in the          housing benefits by understating her
                                    Eastern District of California on one count of   annual income on annual Seattle Housing
                                    theft. This investigation found that Nagel       Authority recertification forms. From 1998
                                    allegedly failed to report income derived        through 2004, Tharpe understated her
                                    from the sale of cigarettes to the SHRA from     income to qualify for public housing
                                    2000 through 2003. This case was referred        assistance. As a result of submitting
                                    to the Social Security Administration (SSA)      fraudulent recertifications, Tharpe
                                    OIG by this office upon discovery that Nagel     obtained more than $37,500 in public
                                    was receiving benefits from that agency.         housing assistance she was not entitled to
                                    The loss to the government due to Nagel’s        receive.
                                    failure to report the income is
                                    approximately $51,000.                               Elvira Sami-Anas, tenant of New
                                                                                     York, NY, was sentenced in the Southern
                                         Windale Simpson, tenant of 40               District of New York to 3 years probation
                                    Waterside Plaza, New York, NY, was               and ordered to pay a $100 special
                                    convicted on five counts by a Federal jury       assessment and $12,496 in restitution. In
                                    in the Southern District of New York: two        April 2005, Sami-Anas pled guilty to two
                                    counts of submitting false statements, two       counts of submitting false statements and
                                    counts of theft of government funds, and         one count of theft of government funds.
                                    one count of mail fraud. Simpson was             Sami-Anas was arrested pursuant to an
                                    arrested pursuant to an indictment in            indictment in September 2004. Sami-Anas



                            HUD’s Public and Indian Housing Programs                                                          86
falsely represented her total household             Teresa Akridge, Erica Broughton,
income to obtain Section 8 housing             Tanya Callaway, Priscilla Colbert, Sharon
assistance. Sami-Anas also subleased her       Hester, Shawwee Pitts, Denise Polite, and
apartment and moved to another address         Betty Sorrells were indicted by a Walton
for which she also submitted an application    County, GA, grand jury for theft of
to HUD under an alias to receive Section 8     services. The former Section 8 tenants
housing assistance. From July 1993             received assistance through the Georgia
through July 2004, the defendant falsified     Department of Community Affairs;
initial applications and annual                however, the participants allegedly failed
recertifications, thereby wrongly receiving    to report their income, which resulted in
rental assistance.                             an overpayment of approximately $65,000




                                                                                               Public & Indian Housing Programs
                                               in Section 8 assistance. Subsequent to the
     Defendant Cindy Cerda pled guilty to      indictments, all individuals were arrested
one count of execution of a document by        by HUD OIG, Monroe Police Department,
deception. Cerda was sentenced to 5 years      Walton County Sheriff’s Office, and Walton
probation, a $500 fine, court costs of $198,   County Investigators on June 27, 2005.
and $10,105 in restitution. Cerda is one of
82 individuals that have been indicted by           Lawrence, KS, defendant Carla
a Dallas, TX, County grand jury since          Rayton, a Lawrence-Douglas County
October 2004, accused of defrauding            Housing Authority (LDCHA) Section 8
Dallas Housing Authority (DHA) by means        tenant, was indicted in the U.S. District
of underreporting family income or assets      Court of Kansas on a 15-count indictment.
to illegally get more than $1.2 million in     Defendant Rayton allegedly committed
higher rental subsidies or public housing      fraud against HUD; the USDA-Food
assistance. DHA terminated 134 tenants         Stamp program; and the HHS - Temporary
from its housing assistance program for        Assistance for Families, Work Support
criminal activities. These terminations        Services, and Child Care Subsidy programs
resulted in funds put to better use of $4      when she failed to inform the LDCHA and
million with an overall funds put to better    the Kansas Department of Social and
use for the Dallas Rental Housing Integrity    Rehabilitation Services (SRS) that William
Improvement Project (RHIIP) initiative of      Bernard Thomas had been living with her
$5,182,992.                                    since May 1, 1998, and that Mr. Thomas
                                               had been employed periodically.
     Officers from the Austin, TX, Police      Defendant Rayton also failed to inform the
Department (APD) and special agents from       LDCHA that Anthony Wayne Thomas had
HUD OIG arrested 30 current and former         also been living with her since July 1, 1999.
tenants of the Housing Authority of the        Both William Thomas and Anthony
City of Austin (HACA). Thirteen                Thomas would have been ineligible to
individuals were indicted on charges of        receive public housing benefits due to their
tampering with a government record for         prior criminal history. Benefits which they
failing to accurately report income and/       received and to which they were not
or household composition in relation to        entitled were $49,377 in HAP payments,
their federally subsidized housing benefits.   $15,882 in USDA food stamp benefits,
In addition, 18 individuals living in public   $2,906 in general cash assistance, $6,164
and assisted housing were identified as        in Work Program Support Services, and
having outstanding warrants for violent        $5,006 in Child Care Subsidy. Defendant
crime offenses.


HUD’s Public and Indian Housing Programs                                                       87
                                    Rayton’s failure to report her total                Defendant Pamela Haughton, St.
                                    household income resulted in a total loss      Louis, MO, Housing Authority Section 8
                                    to the government of $79,335. Defendant        tenant, was indicted by a Federal grand
                                    Rayton’s failure to accurately report her      jury for the Eastern District of Missouri on
                                    household composition and income is            one count of making false statements to
                                    making false statements, embezzlement of       HUD and one count of making false
                                    government money, food stamp fraud,            statements to the SSA. Defendant
                                    false statements relating to health care,      Haughton allegedly reported to both HUD
                                    embezzlement in connection with health         and the SSA that she was unemployed,
                                    care, and health care fraud.                   when she was employed full time as a
                                                                                   corrections officer for the City of St. Louis.
Public & Indian Housing Programs


                                         Therese Jones Brown, former               Defendant Haughton caused losses of more
                                    accountant for the Chickasaw, AL,              than $50,500 due to her alleged false
                                    Housing Authority, was indicted by a           statements.
                                    Federal grand jury in the Southern District
                                    of Alabama with one count of                        Tony Jones of Tampa, FL, was
                                    embezzlement. The indictment stated that       convicted in U.S. District Court, Middle
                                    Ms. Brown embezzled, stole, obtained by        District of Florida, of conspiracy to steal
                                    fraud, and without authority knowingly         HUD funds. Jones was indicted on January
                                    converted to her use and the use of other      26, 2005. Natalie Jones, his estranged wife
                                    persons misapplied property valued at          and coconspirator previously pleaded
                                    approximately $1.6 million owned by the        guilty to conspiracy to defraud HUD and
                                    Chickasaw Housing Authority. The               testified against him in trial. The Joneses
                                    investigation revealed that Ms. Brown was      conspired with each other and applied for
                                    allegedly using housing authority funds to     Section 8 benefits at the Tampa Housing
                                    gamble in Mississippi.                         Authority using Natalie’s maiden name
                                                                                   and did not reveal to the Housing Authority
                                         Ana Hidalgo of White Plains, NY,          that she was married to the landlord. They
                                    surrendered based upon a Federal arrest        received $26,000 in Section 8 benefits,
                                    warrant that was issued by the United          which Jones testified during the trial he
                                    States District Court, Southern District       used to pay the mortgage of the jointly
                                    of New York, for one count of theft            shared home. Jones played professional
                                    of government funds. During this               arena football for the Tampa Bay Storm
                                    investigation, the Yonkers Municipal           from 1995 through 1997 and the Buffalo
                                    Housing Authority (YMHA) determined            Destroyers in 1998.
                                    that Hidalgo, who was a Section 8 recipient,
                                    received approximately $73,496 in Federal           Defendant Carolyn Rose Foster of
                                    subsidies to which she was allegedly not       Rancho Cucamonga, CA, an Upland
                                    entitled. Hidalgo allegedly failed to report   Housing Authority (UHA) Section 8
                                    to the YMHA that she has lived with her        recipient, was charged with five felony
                                    husband, Dickson Trinidad, for the last 9      counts: grand theft, conspiracy to defraud
                                    years at her Section 8 apartment. Trinidad     another of property, and three counts of
                                    owns a shipping business in Yonkers, NY.       false/forged instrument. Foster allegedly
                                    New York State tax records show that he        conspired with her brother to defraud
                                    has reported income from this business over    UHA by failing to report income received
                                    the last several years.                        from a rental property owned by her



                            HUD’s Public and Indian Housing Programs                                                          88
brother. On February 3, 2005, the San                 Louvene Reed, Anthony Travis, Lyris
Bernardino County District Attorney              Wolfe, Sheila Whittenberg, Christine
dismissed all charges against Foster. On         Carpenter, and Donna James of San
May 5, 2005, the San Bernardino County           Francisco, CA, were arrested in the Northern
District Attorney refiled a four-count felony    District of California in connection with the
complaint against Foster. Foster has been        issuance of 10 Federal arrest warrants for a
charged with one count of grand theft and        felony charge of making false statements to
three counts of forgery. Foster is awaiting      HUD. Pilar Fontenot, Rossie Hawkins, and
trial.                                           Ranina Jones surrendered to the United
                                                 States Marshals Service (USMS) and/or the
     Defendant John Salem of Clearwater,         Federal Court, Northern District of




                                                                                                 Public & Indian Housing Programs
FL, was arrested in Pinellas County on five      California. Cellestine Gallegos remains at
counts of possession of child pornography        large and a fugitive. The 10 individuals are
violation of Florida State Statute 827.071(5).   unrelated but were all allegedly receiving
Salem was a recipient of Section 8 subsidy       dual subsidies at the same time from both
through HUD’s 811 program. HUD OIG               the San Francisco Housing Authority
previously executed a Federal search warrant     (SFHA) and the Housing Authority of the
at Salem’s residence where agents and            County of San Mateo (HACSM). These
officers seized files that yielded evidence of   individuals had allegedly been living in
false statements to obtain housing, videos,      public housing and receiving housing
and computers. Salem allegedly possessed         subsidy from SFHA when they applied for
hundreds of images and videos of child           and received Section 8 subsidy from
pornography, some of which Salem created         HACSM.
himself. The investigation disclosed Salem
allegedly falsified his income to HUD and,            Pursuant to a joint task force, the Los
while residing in an apartment subsidized        Angeles field office assisted the Drug
by HUD, committed heinous crimes                 Enforcement Administration (DEA) and
involving child pornography. This matter         the San Diego, CA, Police Department in
was pursued by the U.S. Attorney’s Office        the execution of state search and arrests
but was returned to the State for prosecution    warrants. The arrests were a result of
due to recent appeals in a similar matter,       searches conducted at several units within
wherein Federal jurisdiction was overturned.     the Meadowbrook Multi-Family Housing
                                                 Development. As a result of this operation,
     Defendants Carl E. Remm, former             state complaints were issued on 33
Section 8 landlord, and Cassie B. Thomas,        individuals. The task force was established
former Section 8 tenant, both of Lexington,      to investigate Section 8 tenants who are
KY, pled guilty to criminal informations         fraudulently underreporting their income,
charging them with making false                  trespassers using the units to conduct
statements to HUD. The OIG investigation         illegal criminal activity, and tenants
disclosed that the subjects were living          housing unauthorized persons in violation
together in a subsidized residence while         of the Section 8 program. The complaints
also working at a nursing home. The              and arrests were based on charges ranging
Eastern District of Kentucky issued a press      from weapons violations to manufacturing
release regarding this case on June 2, 2005.     of a controlled substance.             This
                                                 collaborative law enforcement effort
                                                 involves an ongoing identification of



HUD’s Public and Indian Housing Programs                                                         89
                                    tenants and nontenants, who are involved          County District Attorney’s Office for
                                    in illegal and fraudulent activity                Attalla, AL. Jones’ alleged failure to report
                                    within Meadowbrook Multi-Family                   income and holding residency in two public
                                    Housing Developments in San Diego.                housing units resulted in an overpayment
                                    Administrative action to terminate tenants        of Section 8 assistance of $9,455. In
                                    based on these arrests has been initiated,        addition to not reporting household
                                    and injunctions on nonresidents will be           income, Jones was allegedly subleasing one
                                    pursued.                                          of the subsidized units.

                                         Former Section 8 tenant Mayra                     Mark Rolfsema pleaded guilty in U.S.
                                    Montano of Hauppauge, NY, was arrested            District Court, Boston, MA, to one count
Public & Indian Housing Programs


                                    on a New York State felony complaint              of possession of child pornography.
                                    charging her with grand larceny.                  Rolfsema, a former Section 8 resident who
                                    Defendant Montano was charged in New              lived at the Andover Commons Apartment
                                    York State Court, Suffolk County, NY, with        Complex in Andover, MA, was previously
                                    fraudulently receiving $107,000 in rental         indicted after agents conducted a search
                                    assistance over an 8-year period and for          of Rolfsema’s Section 8 apartment. During
                                    failing to disclose her ownership of the          this search, agents seized child
                                    subsidized property. Montano allegedly            pornography, along with evidence to
                                    received and cashed the Section 8 checks          suggest that Rolfsema did not accurately
                                    and used the proceeds to pay the mortgage         report all of his assets and income during
                                    and taxes on the property. The checks were        his annual Section 8 certifications.
                                    made payable to Montano’s friend,                 Rolfsema is scheduled for sentencing.
                                    who allegedly acted as the nominee
                                    property owner. Montano also allegedly                Debra Utley, a Section 8 tenant, was
                                    underreported her income and assets to            indicted by a Federal grand jury for the
                                    initially qualify for rental assistance and for   Middle District of Nashville, TN, in a one-
                                    14 years thereafter, causing HUD to pay           count indictment charging her with theft
                                    $150,000 in rental assistance. A New York         and embezzlement – public money,
                                    State civil complaint was also filed in a         property, or records. Ms. Utley allegedly
                                    forfeiture action against the subsidized          failed to report to the Metropolitan
                                    property and Montano’s bank accounts.             Nashville Development and Housing
                                                                                      Agency (MDHA) that she had returned to
                                         Defendant Shaun Simon of New York,           work after an extended leave of absence.
                                    NY, was indicted for in conspiracy and            Ms. Utley’s alleged failure to accurately
                                    substantive theft of government funds in          report her household income resulted in an
                                    Manhattan Federal Court for the Southern          overpayment in rental assistance.
                                    District of New York. Simon, who is
                                    believed to have fled the country, is accused          Natalie D. Jones, who previously pled
                                    of embezzling approximately $400,000              guilty to one count of conspiracy to defraud
                                    from Esplanade Gardens, a cooperative             HUD and later provided testimony against
                                    HUD-insured building that receives public         her husband during his trial last month,
                                    housing Section 8 subsidies.                      appeared before the Honorable James D.
                                                                                      Whittemore, Federal District Court, Middle
                                        Kelly Jones, a Section 8 tenant, was          District of Florida, Tampa, FL. Judge
                                    charged with theft in connection with a           Whittemore sentenced Jones to the custody
                                    public housing scheme by the Etowah               of the Federal Bureau of Prisons for a term


                            HUD’s Public and Indian Housing Programs                                                            90
of 4 months, to be followed by 4 months of        Villafane’s friend has two young children
home detention with an electronic                 (3-year-old girl and 6-year-old boy). The
monitoring device. Jones was placed on 3          friend and his family were not aware of
years supervised release and ordered to           his crimes. At the time of Villafane’s arrest,
perform 200 hours of community service            he was sleeping with the two young
and pay restitution in the amount of              children.
$31,606 to HUD.
                                                       Former Baltimore, MD, city police
    Sandra Wiley of Chicago, IL, FHA              officer Carl Clayton pled guilty in Federal
program participant and former HAP                Court, District of Maryland, to making false
recipient, was indicted in Cook County            statements in connection with his purchase




                                                                                                     Public & Indian Housing Programs
Circuit Court on one count of theft by            of a Real Estate Owned (REO) property
deception, class 3 felony, under Illinois         under the Officer Next Door (OND)
Compiled Statutes, chapter 720, section 5/        program. Investigation by OIG disclosed
15-4(a), and one count of forgery, class 3        that the defendant purchased the REO
felony, under Illinois Compiled Statutes.         property at a 50 percent discount by
                                                  certifying that he would live in it for at least
     Wiley allegedly failed to report to the      3 years, pursuant to OND rules. Instead,
Chicago Housing Choice Voucher                    he began renting the unit almost
program (formerly Section 8) the purchase         immediately while he lived in a public
of the FHA-insured property located in            housing unit. Sentencing is set for
Belvidere, IL, in August of 2003. The total       December 19, 2005, and the U.S. Attorney
loss to HUD is approximately $16,120.             has initiated civil proceedings in an attempt
                                                  to recover the discount benefit that the
     HUD OIG special agents and other             defendant received under OND.
law enforcement officers assigned to the
New York/New Jersey Regional Fugitive                  Defendants Ross Polete and Christine
Taskforce arrested registered sex offender        Mook of Olathe, KS, Section 8 landlord
Eric Villafane in New York, NY, in a HUD-         and tenant, pled no contest and guilty,
subsidized apartment. Villafane was               respectively, in the Tenth Judicial District
wanted for the 1997 murder and rape of            of Kansas to amended complaints charging
his cousin, a 15-year-old girl, in Puerto Rico.   them with misdemeanor charges of theft.
Villafane had been the main suspect in this       Defendants Polete and Mook failed to
heinous crime for years. A warrant from           report to the Johnson County Human
Puerto Rico was issued for his arrest in          Services and Aging (JCHA) and the Kansas
2004. Villafane fled Puerto Rico and went         Social and Rehabilitative Services (SRS)
to Massachusetts. In 2001, while living in        that they lived together while participating
Massachusetts, he raped a 12-year-old girl.       in the Section 8 voucher, food stamps, cash
Villafane was sentenced to 1 year in jail         assistance to families, and medical payment
for this crime. He was released on parole         programs. Defendant Polete certified to
in 2002 and by law became a registered sex        the JCHA that he understood that he was
offender in the State of Massachusetts.           not permitted to live in Mook’s unit while
                                                  she received housing assistance payments.
   Villafane violated his parole in               Defendant Mook certified to the JCHA and
Massachusetts and came to live in New             the SRS that the only occupants of her
York. He was located living with a friend         residence were her and her son. Defendant
in a HUD-subsidized apartment.                    Polete was sentenced to imprisonment of


HUD’s Public and Indian Housing Programs                                                             91
                                   10 months and granted 1 year probation.           Seven defendants, one Section 8
                                   Defendant Mook was sentenced to 1 year       landlord, and six Section 8 subsidized
                                   imprisonment on each of two counts, to       tenants were sentenced in Miami, FL, for
                                   run concurrently, and was granted            multiple counts of theft of Federal funds
                                   probation of 1 year. The defendants are to   and filing false statements to HUD. The
                                   jointly pay restitution of $21,000.          defendants were arrested on January 25,
                                                                                2005, as part of the national Section 8 fraud
                                        Six present and former Section 8        initiative, with a press conference held by
                                   tenants from the Norfolk, VA,                the United States Attorney Marcos Jimenez
                                   Redevelopment and Housing Authority          and Inspector Geneal Kenneth Donohue.
                                   (NRHA) were charged in state court with      Tenants Amy Willis, Missia Lee, Rhonda
                                   obtaining rental assistance under false      Simms, Sandra Love, Kandis Roberts,
Public & Indian Housing Programs


                                   pretenses. Investigation by OIG, in          Lakeisha Veargis, and landlord Ronald
                                   cooperation with NRHA staff, disclosed       Amira were sentenced from 2 years
                                   that the defendants allegedly received in    supervised release to 78 days incarceration
                                   aggregate more than $60,000 in rental        and required to pay a total restitution to
                                   assistance to which they were not entitled   HUD of $91,933. The false statements
                                   by failing to properly report income from    provided by the six Section 8 subsidized
                                   employment or other material information     tenants consisted of concealing
                                   relating to family composition as required   employment income, concealing ownership
                                   by the NRHA. At least one of the             of property, concealing ownership of
                                   defendants allegedly failed to notify NRHA   businesses, and undisclosed tenants. The
                                   that he was a convicted sex offender, as     seventh defendant, Ronald Amira, a
                                   required. Further, as a result of the        Section 8 landlord, sold the property he
                                   investigation, NRHA has instituted           rented under the program and continued
                                   changes designed to detect and prevent       to receive and negotiate subsidy checks for
                                   fraud, such as requiring zero-income         an 11-month period. Collectively, the
                                   tenants to recertify monthly, more           defendants defrauded HUD through three
                                   expeditious criminal history checks of new   separate housing authorities: the Miami-
                                   applicants, and timelier handling of         Dade Housing Agency, the Broward
                                   evictions for failing to properly report     County Housing Authority, and the
                                   income. To date, 36 Section 8 tenants have   Hialeah Housing Authority.
                                   been evicted, resulting from the
                                   investigation, and the number of zero-       Identity Theft
                                   income units has been reduced from 110
                                   to 35.
                                                                                     Khalilah Crumpler of Cleveland, OH,
                                                                                a former Cuyahoga Metropolitan Housing
                                       Gladys Beck of Denton County, TX,
                                                                                Authority (CMHA) Section 8 landlord,
                                   was indicted for securing execution of a
                                                                                pled guilty in Cuyahoga County Court of
                                   document by deception. As a result of her
                                                                                Common Pleas to one count of tampering
                                   alleged failure to accurately report her
                                                                                with records and one count of identity
                                   household income to the Denton Housing
                                                                                fraud. As part of the plea agreement,
                                   Authority, she stole $4,428.
                                                                                Crumpler must sell the residence (Section
                                                                                8 property) purchased with the false
                                                                                identification and forfeit the equity to the




                            HUD’s Public and Indian Housing Programs                                                        92
State of Ohio. Sentencing has been             identification card, a Uganda passport, a
scheduled.                                     passport from the Republic of Congo, and
                                               a passport from South Africa. Nsubuga
     Crumpler, using the name and SSN of       deposited bogus checks into the various
Marcia James, purchased a two-family           bank accounts and then withdrew the
residence in April 2001. Beginning in          funds. This scheme resulted in a loss to
January 2002, Crumpler, became a Section       the various financial institutions that
8 landlord through the CMHA, using the         exceeded $100,000. On August 1, 2005,
name James. From January 2002 until the        Nsubuga was arrested without incident at
HAP was terminated due to fraud-related        her federally subsidized apartment located
activities in February 2004, Crumpler had      in Malden.
received $20,985 in HAP using the name




                                                                                                 Public & Indian Housing Programs
Marcia James.                                  The Office of Inspector
    Yanelly Lorenzi of Worcester, MA, a        Gene ral ’s Enforcement Actions
                                               General
Section 8 tenant, was arrested in her HUD-     in Support of the Rental
assisted apartment by the Webster and
Worcester Police Departments. Lorenzi          Housing Integrity Improvement
was arrested on a State warrant for eight      Program
felony charges that include public
assistance fraud, identity fraud, and               As a result of a computer match done
forgery. The arrest was made after an          using the HUD RHIIP Upfront Income
investigation showed Lorenzi allegedly         Verification (UIV), now known as EIV,
obtained and used a false identification       Enterprise Income Verification, HUD OIG
card to obtain public assistance and           conducted a joint investigation with the
property and to cash forged checks.            McKeesport, PA, Police Department and
Lorenzi was arraigned at the Dudley, MA,       the FBI which resulted in the charging and
District Court.                                arrest of 21 individuals by the Allegheny
                                               County District Attorney for Theft by
     A Federal criminal complaint was filed    Deception against the McKeesport
against Ms. Billy Nsubuga of Boston, MA,       Housing Authority (MHA). HUD OIG
in the United States District Court for the    pulled a discrepancy report from the EIV
District of Massachusetts. Defendant           system and confirmed that 21 individuals
Nsubuga was charged with one count of          on the list had failed to report all or part of
bank fraud, one count of mail fraud, one       their income. The defendants, including a
count of false use of a passport, and one      former Miss Pittsburgh and an MHA
count of fraud in connection with an           maintenance employee, allegedly failed to
identification document. Nsubuga, a            report income either attributable to them
resident of a federally subsidized apartment   or another household resident over a
located in Malden, MA, allegedly opened        period of several years. The aggregate
various bank accounts and corresponding        amount of overpaid rental assistance is
mail drops in Massachusetts and New            approximately $260,000.
York. Nsubuga allegedly utilized various
false identities when she opened these
accounts, including a California




 HUD’s Public and Indian Housing Programs                                                        93
Public & Indian Housing Programs




                                   Copyright, 2005. The Tribune-Review - Pittsburgh, PA. Reprinted with permission.



                                        Defendant Cindy Cerda pled guilty to                      Officers from the Austin, TX, Police
                                   one count of execution of a document by                   Department (APD) and special agents from
                                   deception. Cerda was sentenced to 5 years                 HUD OIG arrested 30 current and former
                                   probation, $500 fine, court cost of $198, and             tenants of the Housing Authority of the City
                                   $10,105 in restitution. Cerda is one of 93                of Austin (HACA). Thirteen individuals
                                   individuals that have been indicted by a                  were indicted on charges of tampering with
                                   Dallas, TX, County grand jury since October               a government record for failing to accurately
                                   2004, accused of defrauding Dallas Housing                report income and/or household
                                   Authority (DHA) by means of                               composition in relation to their federally
                                   underreporting family income or assets to                 subsidized housing benefits. In addition, 18
                                   illegally get more than $1.2 million in higher            individuals living in public and assisted
                                   rental subsidies or public housing assistance.            housing were identified as having
                                   DHA terminated 134 tenants from their                     outstanding warrants for violent crime
                                   housing assistance program for criminal                   offenses.
                                   activities. These terminations resulted in
                                   funds put to better use of $4 million with an                  As a followup to Region 5’s 14-subject
                                   overall funds put to better use for the Dallas            mass indictment in December 2004, in what
                                   RHIIP initiative of $4,182,992. The Dallas                was termed “Operation Eight” (Eliminating
                                   Housing Authority has 18,000 clients and a                Ineligible Grantees Housing Task Force),
                                   waiting list of more than 20,000 individuals.             several Chicago, IL, subjects pled guilty, were




                            HUD’s Public and Indian Housing Programs                                                                       94
sentenced, and reached civil settlements in            Bader Hafeez was sentenced to 3 years
the Northern District of Illinois in connection   probation and 500 hours of community
with their role in defrauding HUD’s rental        service for his role in a scheme to collect
assistance programs. A summary of the             Section 8 benefits while not reporting full-
individuals’ plea agreements, sentencing,         time employment from the State of Illinois
and civil judgments follows:                      and a private engineering firm. In addition,
                                                  in the same month, Hafeez agreed to a civil
     Defendant Urena Woods pled guilty to         settlement with the U.S. Attorney’s Office
one count of making false statements for her      to pay $50,880 for his role in the scheme
role in a scheme, wherein she fraudulently        mentioned above. These were HUD OIG
obtained an FHA-insured loan using fictitious     investigations.
employment documents. Subsequent to that,




                                                                                                    Public & Indian Housing Programs
Woods used her boyfriend as a Section 8                 Defendant Howard L. Wilson, Jr., was
landlord in spite of the fact that she owned      sentenced in the Northern District Court of
the property. She then became a Section 8         Illinois to 5 years probation, 6 months home
tenant for this same property and allowed         detention, and restitution to HUD in the
$19,000 in subsidy to be fraudulently paid        amount of $52,887 for his role in a scheme to
on her behalf.                                    collect Section 8 benefits while not reporting
                                                  his $50,000 per year income from a private
     Defendant Johnnie Mae Willis,                security company. Defendant Angela Gibbs
employee of Cook County Circuit Court,            was sentenced to 5 years probation, 6 months
was sentenced to 5 years probation, 6             home detention, participation in a drug and
months home confinement with electronic           alcohol abuse program, and restitution to
monitoring, and restitution to HUD in the         HUD in the amount of $36,956 for her role
amount of $43,987. Simultaneous with the          in a scheme to collect Section 8 benefits while
sentencing, Willis reached a civil                not reporting her sizable income from a
agreement, wherein she was ordered to             nurse’s salary. Defendant Savaya Chalmers
pay $37,000 to DOJ. Willis’ judicial actions      pled guilty for her role in a scheme to collect
follow her earlier guilty plea for her role in    Section 8 benefits to which she was not
a scheme to collect Section 8 benefits while      entitled by being a comortgagor on a property
not occupying the subsidized unit. Willis,        and not disclosing it to Section 8 officials.
instead, allowed a relative to reside in the      Further, Chalmers orchestrated a scheme in
unit while she obtained an FHA-insured            which she collected HAP checks on behalf
203K loan.                                        of her dead landlord while she was a tenant.
                                                  The total loss in this case exceeded $20,000.
    Antoine Reed, reached a civil
agreement with the U.S. Attorney’s Office,             During the week of July 18 in
wherein he agreed to pay $36,000 to the           Richmond, VA, HUD OIG at the request
DOJ for his role in a scheme to collect           of USMS and in cooperation with various
Section 8 benefits while not reporting            other Federal, State, county, and local law
substantial income from full-time                 enforcement agencies, conducted a
employment. Further, Reed owned an                citywide fugitive apprehension operation.
FHA-insured single-family property in the         This initiative was undertaken in response
southern suburbs of Chicago that he               to the recent wave of murders in and
resided in while collecting Section 8             around Richmond’s public housing. The
benefits.                                         initiative targeted wanted persons who live,
                                                  committed crimes, or were associated with


 HUD’s Public and Indian Housing Programs                                                           95
                                   public housing or in neighborhoods in the       2003, Davis falsely certified on Chicago
                                   city that have a high incidence of violent      Housing        Authority       Section     8
                                   crime. Operation FATE (Fugitive                 recertifications that her Section 8 unit in
                                   Apprehension and Threat Elimination)            Chicago was to be her principal residence
                                   resulted in 56 arrests on 89 charges.           when Davis resided in a public housing
                                   Included in the arrests were two murder         unit, also funded by HUD, in Mazomanie,
                                   suspects. Law enforcement served five           WI. Davis also received public aid
                                   armed robbery warrants, two rape                assistance in the forms of food stamps and
                                   warrants, four burglary warrants, 18            cash in Illinois and Wisconsin. U.S.
                                   firearms warrants, and 15 drug violation        Bankruptcy Court records, utility records,
                                   warrants. At least seven of the drug            and employment records revealed that
                                   violation warrants were for dealing drugs       Davis’ mother, Karol Davis, was residing
Public & Indian Housing Programs


                                   within 1,000 feet of a school that is located   in Davis’ Section 8 unit in Chicago. Davis
                                   adjacent to public housing.                     received $23,213 in Section 8 assistance and
                                                                                   $6,000 in Illinois public aid that she was
                                       HUD OIG is pursuing the eviction of         not entitled to since she was residing in
                                   three Richmond Redevelopment and                Wisconsin. The $46,426 figure reflects
                                   Housing Authority (RRHA) tenants as a           double damages.
                                   result of Operation FATE. The first RRHA
                                   tenant was the head of household and was            In Marion County, IN, the Marion
                                   arrested on charges relating to a violation     County State’s Attorneys Office, along with
                                   of the Drug Control Act. The second             HUD OIG and the Indianapolis, IN,
                                   tenant was the head of household and was        Housing Agency (IHA) Police Department,
                                   arrested on charges related to his              announced the filing of criminal charges
                                   unlawfully possessing a firearm while           against 15 individuals accused of
                                   being a convicted felon. Another                defrauding federally assisted housing
                                   individual, having been arrested on charges     programs administered by IHA.
                                   of rape and theft, was found living in a
                                   HUD-subsidized unit. HUD OIG is                     In an operation dubbed “Operation
                                   pursuing the eviction of the head of            Clean Sweep,” the following individuals
                                   household of the unit for having the            were charged with a multitude of different
                                   unauthorized person residing in the             State of Indiana crimes associated with
                                   apartment. HUD OIG hopes to positively          fraud against the IHA: Christopher
                                   impact the RRHA community by removing           McCarty, Sr., Christopher McCarty, Jr.,
                                   the three previously listed tenants and         Richard Hornsby, Jasmine Patterson,
                                   replacing them with tenants who will obey       Mamadou Badiane, Kimberly Love, Naomi
                                   the rules and regulations of the housing        Weaver, Tina Hutchinson, Alicia Gildon,
                                   authority.                                      Terra Kirdendall, Lonnie Johnson, Bertha
                                                                                   Woodard, Shantonna Finch, Kimberly
                                       In Chicago, IL, Tenille Davis, a former     Williamson, and Eldrie Turner. The
                                   Section 8 tenant of the Chicago Housing         specific schemes and charges for these
                                   Authority, agreed to a civil amount of          individuals are as follows:
                                   $46,426, following an earlier civil
                                   complaint, which charged false claims,              Christopher Quinn McCarty, Sr.,
                                   payment by mistake, and unjust                  Christopher Q. McCarty Jr., and Richard
                                   enrichment for her role in a scheme to          Hornsby were charged with multiple
                                   defraud Section 8 officials. From 2001 until    counts of forgery and theft in connection


                            HUD’s Public and Indian Housing Programs                                                          96
                                                  with allegations that the three individuals
                                                  conspired to distribute and cash several
                                                  counterfeit checks at various liquor stores
                                                  in Marion County. The fraudulent checks
                                                  passed did not contain the name of the IHA
                                                  but were manufactured with the checking
                                                  account number of the Section 8 program
                                                  affixed to each document.

                                                       Jasmine Patterson was charged with
                                                  attempted theft in connection with
                                                  allegations that she paid her utility bills over




                                                                                                     Public & Indian Housing Programs
                                                  the Internet and used a checking account
                                                  number of the IHA to do so.

                                                      Mamadou Badiane and his former
                                                  wife, Kimberly Love, were charged with
                                                  welfare fraud and theft in connection with
                                                  allegations that Badiane and Love
                                                  concealed from the IHA that they were
                                                  married and that Badiane allegedly lived
                                                  in Love’s public housing apartment.
                                                  Investigators alleged that Badiane, who
                                                  married Love on September 26, 2002, and
                                                  divorced her in July 2004, had earned
                                                  income in a 2-year period of approximately
                                                  $194,286 primarily from his employment
                                                  as a coach operator for the Indianapolis
                                                  Public Transportation Corporation,
                                                  “IndyGo.”

                                                       Naomi Weaver was charged with
                                                  welfare fraud and theft felony in
                                                  connection with allegations that Weaver
                                                  and another individual had purchased a
                                                  home at 3546 West 12th Street on or about
                                                  October 18, 2004, and moved into that
                                                  home shortly thereafter. On the same day
                                                  that Weaver purchased the home, she
                                                  submitted additional documents to the IHA
                                                  as to her indigence. She continued to
                                                  receive Section 8 assistance and never
                                                  notified the IHA that she had purchased a
                                                  home and had moved out of the home at
   Copyright, 2005. Indy-star.com -
   Indianapolis, IN. Reprinted with permission.   3103 West Michigan Street. Investigators
                                                  alleged that a family member remained in
                                                  the Section 8 unit after Weaver moved out.


HUD’s Public and Indian Housing Programs                                                             97
                                       Tiana Hutchinson was charged with         the IHA public housing office at 2210 East
                                   welfare fraud and theft in connection with    36th Street. The packages were addressed
                                   allegations that she failed to report the     to a Fortville, IN, woman, whose identity
                                   ownership of two separate homes on the        had been stolen by Woodard, in care of
                                   east side of Indianapolis, both valued at     the Indianapolis Housing Agency.
                                   $100,000, while a tenant for the agency.      Immediately thereafter, several bills from
                                   Further, investigators alleged that           AT&T Wireless started arriving via the U.S.
                                   Hutchinson concealed her employment           Mail addressed to the IHA, requesting
                                   and income as a coach operator for the        payment of these cellular telephones and
                                   Indianapolis Public Transportation            service. Woodard sold several cell phones
                                   Corporation, “IndyGo.”                        on the street as so-called “burnout phones.”
                                                                                 Some of those phones were found to have
Public & Indian Housing Programs


                                        Alicia Gildon, Terra Kirkendall, and     been in the possession of individuals
                                   Lonnie L. Johnson were charged with           arrested for narcotics offenses.
                                   welfare fraud and theft in connection with
                                   allegations that Gildon, who transferred           Kimberly Williamson and Eldrie
                                   her Section 8 voucher from Gary, IN, to       Turner were charged with welfare fraud
                                   Indianapolis in May 2002, conspired with      theft in connection with allegations that
                                   former Gary residents Kirkendall (her         between March 1, 2001, and March 13,
                                   sister) and Johnson (sister’s boyfriend) to   2004, Williamson and Turner concealed
                                   conceal occupancy of the Section 8 home       from the IHA that Turner resided in
                                   Gildon was supposed to be living in.          Williamson’s public housing apartment.
                                   Investigators executed a court-ordered        Turner, who was never reported as part of
                                   search warrant at the Commons Drive           the household composition in the charging
                                   apartment where they discovered that          period, had employment income from
                                   Gildon had never lived in the apartment,      defense contractor Rolls Royce and as a
                                   which was being subleased to Kirkendall       part-time coach for the Indianapolis Public
                                   and Johnson. The pair was found to be         Schools of $184,042.
                                   paying Gildon $300 per month in rent.
                                   Further, Gildon was found to be living in          OIG, working with approximately 100
                                   an upscale home in Indianapolis where she     agents/officers from several other Federal
                                   was paying $850 per month in rent.            and local/state law enforcement agencies,
                                   Investigators also discovered that while      executed 16 Federal arrest warrants and
                                   Gildon claimed she was indigent and           five Federal search warrants in the 517-unit
                                   receiving additional utility payment          public housing development known as Hall
                                   assistance from the IHA, she was employed     Manor in Harrisburg, PA. Five tenants
                                   earning a minimum of $24,000 in wages         were arrested and charged with
                                   in addition to other outside source income    encouraging or allowing their assisted unit
                                   assistance that was unreported and            to be used in furtherance of illegal narcotics
                                   concealed from the IHA.                       distribution. In addition, 16 individuals in
                                                                                 and around the development were charged
                                       Bertha Woodard and Shantonna Finch        with possession of illegal narcotics and/or
                                   were charged with identity deception,         failing to appear (fugitive warrant
                                   welfare fraud, and theft in connection with   outstanding). This initiative was the result
                                   allegations that that Woodard ordered         of a joint HUD OIG investigation with
                                   numerous cellular telephones from AT&T        DEA and state and county police that had
                                   Wireless that were delivered and billed to    begun at the request of the USAO as a


                            HUD’s Public and Indian Housing Programs                                                          98
result of concern over the rising incidence     charges of aggravated assault and domestic
of drug-related homicides, fatal drug           assault. Jonathan Strippe was arrested in
overdoses, and police service calls. In one     a Section 8 unit for violation of probation
particular drive-by shooting a school bus       with underlying charges of grand larceny.
transporting children had been struck by        This operation is part of an ongoing
stray gunfire. The OIG involvement              Fugitive Felon initiative.
focused on tenants who were using or
allowing their units to be used for illegal          The Massachusetts State Police (MSP)
drug activity or had in some way falsified      Violent Fugitive Apprehension Section
their admission application or annual           (VFAS), Worcester, MA, Police
recertification.                                Department (WPD), arrested two fugitives
                                                residing in HUD-assisted housing. Public




                                                                                                 Public & Indian Housing Programs
Fugitive Felon Initiative: OIG                  housing tenant Ovila Ballargion was
                                                arrested on a State warrant for assault and
Enforcement Action in Support                   battery with a dangerous weapon. Project-
of Rental Assistance Voucher                    based Section 8 tenant Manuel Santiago
                                                was arrested on a State warrant for failing
Fraud                                           to register as a sex offender. In addition,
                                                the operation identified a second sex
    Thirty-two individuals residing in          offender illegally residing in a project-based
public housing in San Juan, PR, under the       Section 8 apartment. Lease action is
Puerto Rico Public Housing Authority were       anticipated against the tenants involved.
arrested. Several bank accounts and
personal property with an approximate                Sixteen individuals residing at the
value of $3 million were seized as part         Guaynabo, PR, Alejandrino Public
of the Puerto Rico Local Fugitive               Housing project under the Puerto Rico
Felon initiative. Participating were            Housing Authority (PRPHA) were arrested
representatives from several Federal and        as part of the Local Fugitive Felon
local agencies such as HUD OIG, USMS,           initiative. Present were representatives
the Bureau of Alcohol, Tobacco, and             from HUD OIG, USMS, Puerto Rico
Firearms (ATF), Puerto Rico Police              Police Department, DEA, Puerto Rico
Department (PRPD), Immigration and              Department of Correction, and NIE.
Customs Enforcement (ICE), IRS-CID,
DEA, Puerto Rico Department of                      In connection with an ongoing
Correction, Puerto Rico Bureau of Special       criminal investigation to locate and
Investigations (NIE), and Puerto Rico           apprehend wanted fugitive felon Alex
Family Department.                              Capo-Carrillo of Trujillo Alto, PR, three
                                                out of four fugitive felons, members of the
     HUD OIG, Vermont Department of             Capo-Carrillo drug and firearms sales
Corrections-Probation and Parole,               organization, were arrested at the Villa
Burlington, VT, Police Department, and          Andalucia public housing project. Fugitive
SSA OIG executed three state felony arrest      felons Carlos A. Rivera, Jeffrey Figueroa,
warrants. Nelson Young, a Section 8             and Josue Vazquez were also located and
tenant, was arrested for violation of parole    apprehended at the above mentioned
with an underlying charge of felony theft.      public housing project. These defendants
Justin Matis was arrested in a Section 8 unit   currently receive HUD public housing
for probation violations with underlying        assistance. Fugitive felon Niel Torres


 HUD’s Public and Indian Housing Programs                                                        99
                                   was not present or not on the premises          Authority (WHA) has initiated eviction
                                   at the time of the execution of his             proceedings against the tenant heads of
                                   arrest warrant.                                 household involved.

                                        The Massachusetts State Police (MSP)            In connection with an ongoing
                                   Violent Fugitive Apprehension Section           criminal investigation to locate and
                                   (VFAS), Worcester, MA, Police                   apprehend wanted fugitive felons related
                                   Department (WPD) and USMS arrested              to the illegal sale and distribution of
                                   fugitive felon Santos Guzman. Guzman            firearms and drugs at the Vista Hermosa
                                   was wanted on state drug distribution           public housing project in San Juan, PR, four
                                   charges including drug distribution within      fugitive felons were successfully arrested
                                   a school zone. At the time of his arrest,       at the mentioned project. The fugitive
Public & Indian Housing Programs


                                   Guzman was illegally residing in a Section      felons arrested, Aqua Morales, Saul
                                   8-assisted apartment. Administrative            Andrades, Antonio Morales, and Jaimee
                                   action has been initiated against the Section   Vega, are currently receiving HUD public
                                   8 tenant head of household involved.            housing assistance. Eviction process will be
                                                                                   initiated against all subjects.
                                        Fugitive Felon Niel Torres of Hato Rey,
                                   PR, voluntarily surrendered to the USMS             HUD OIG and the Lakeland, FL,
                                   and the HUD OIG at the USMS Fugitive            Police Department executed two State
                                   Felon Task Force office. Fugitive Felon Niel    arrest warrants. Oveta Hicks, a Section 8
                                   Torres had absconded from the authorities       tenant, was arrested on an underlying
                                   at the time of the execution of his arrest      charge of failure to appear on charges for
                                   warrant at the Villa Andalucia public           obtaining property with insufficient funds.
                                   housing project when three other fugitive       Sharian Hicks, a public housing resident,
                                   felons were successfully arrested on            was arrested in a public housing unit on
                                   September 7, 2005. Torres was a member          an underlying charge of battery array. This
                                   of the Capo-Carrillo drug and firearms          operation is part of an ongoing Fugitive
                                   sales organization at the mentioned public      Felon initiative with the Lakeland Police
                                   housing project and currently receives          Department and the Lakeland Housing
                                   HUD public housing assistance. Eviction         Authority.
                                   process will be initiated.
                                                                                        In Miami, FL, 15 fugitives that received
                                        The Massachusetts State Police (MSP)       Section 8 subsidies were arrested in an
                                   Violent Fugitive Apprehension Section           innovative “sting” operation coordinated
                                   (VFAS), Worcester, MA, Police                   by HUD OIG and the Miami Dade Housing
                                   Department (WPD), and USMS arrested             Agency. The tenants were notified by the
                                   fugitive felons Jesus Melendez and Edwin        MDHA to report to the MDHA Section 8
                                   Melendez. The Melendez brothers were            Office on July 30, 2005, for their routine
                                   wanted on state charges of armed robbery,       annual certification of household
                                   assault and battery with a dangerous            composition. Once positively identified by
                                   weapon, assault and battery, and firearms       HUD OIG agencies working in an
                                   charges. The Melendez brothers were each        undercover capacity as MDHA employees,
                                   residing illegally in separate public housing   the fugitives were detained and arrested
                                   units at Great Brook Valley Gardens             by Miami-Dade Police Officers.
                                   Apartments. The Worcester Housing               Additionally, the fugitives were notified by




                            HUD’s Public and Indian Housing Programs                                                          100
MDHA personnel of the intent to terminate         The initiative named “Operation
their Section 8 subsidy based on the clear   Fugitive Tenant” was one of several
violation of HUD’s One Strike regulation.    cooperative efforts between HUD OIG and
The 15 subjects, with outstanding State      the Miami Dade Housing Agency in
warrants ranging from violation of           response to Inspector General Kenneth M.
probation to armed robbery, collectively     Donohue’s commitment to reduce
defrauded HUD and the taxpayers of more      erroneous payments in HUD’s rental
than $244,000 in Section 8 subsidies to      assistance programs.
which they were not entitled.




                                                                                         Public & Indian Housing Programs


 HUD’s Public and Indian Housing Programs                                               101
      Chapter 4




HUD’s Multifamily Housing
       Programs
                                     I      n addition to multifamily
                                             housing developments with
                                U.S. Department of Housing and Urban
                                                                                               Chart 4.2: Multifamily Housing Dollars
                                                                                            $30,000,000
                                                                                            $25,000,000
                                Development (HUD)-held or HUD-insured
                                                                                            $20,000,000
                                mortgages, the Department owns
                                                                                            $15,000,000
                                multifamily projects acquired through
                                                                                            $10,000,000
                                defaulted mortgages, subsidizes rents for
                                                                                             $5,000,000
                                low-income households, finances the
                                                                                                     0
                                construction or rehabilitation of rental                                  Internal Reports     External Reports
                                housing, and provides support services for                         Questioned Costs      Funds Put to Better use

                                the elderly and handicapped.

                                                                                        Suburban Mortgage Associates
                                Audits
                                                                                             HUD OIG audited specific HUD-
                                     During this period, the Office of                  insured mortgages originated and serviced
Multifamily Housing Programs




                                Inspector General (OIG) issued 1 internal               by Suburban Mortgage Associates,
                                and 7 external reports in the multifamily               Incorporated, of Bethesda, MD. The audit
                                housing program area. These reports                     objective was to assess the performance of
                                disclosed more than $16 million in                      Suburban Mortgage in carrying out its
                                questioned costs and more than $7 million               origination and servicing functions through
                                in recommendations that funds be put to                 a review of its HUD-insured loans.
                                better use.
                                                                                             Of six HUD-insured loans reviewed,
                                    Over the past 6 months, OIG audited                 four were originated to identity-of-interest
                                owner and management agent operations                   entities. Suburban Mortgage also
                                with an emphasis on combating equity                    originated a HUD-insured loan to a
                                skimming. The results of its more                       property that its executive vice president
                                significant audits are described below.                 formerly owned. It originated another
                                                                                        HUD-insured loan to a property of which
                                                                                        the owners had other business ventures
                                  Chart 4.1: Multifamily Housing Program                with its executive vice president. As of
                                             Reports Issued                             January 24, 2005, three affiliated entities
                                                                                        had defaulted on their loans. Suburban
                                                               1 Internal Report        Mortgage requested assignment of the three
                                                                                        defaulted loans to HUD. HUD paid
                                                                                        Suburban Mortgage’s claim for two of the
                                                                                        defaults, causing HUD a combined net loss
                                                                                        of $14 million. The third defaulted loan has
                                                                                        an unpaid principal balance of $12.6
                                      7 External Reports                                million. The claim for insurance was denied
                                                                                        for this loan. The risk of loss on this


                                The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                reports with management decisions reached during this semiannual period. Because there is a time lag
                                between report issuance and management decisions, the two totals will not agree.



                        HUD’s Multifamily Housing Programs                                                                                         104
defaulted loan and two other identity-of-               allowed by Suburban Mortgage and (2)
interest loans could cause HUD to lose an               terminate the $26.2 million in HUD-
additional $26.2 million. Suburban                      insured loans to the remaining three
Mortgage’s servicing failures contributed to            identity-of-interest properties. In addition,
unnecessary interest and penalties of more              OIG recommended that HUD take
than $229,000 connected with late payment               appropriate administrative sanctions
of real estate taxes.                                   against Suburban Mortgage and its
                                                        principals for its failure to perform its
   OIG recommended that HUD (1)                         mortgage-related fiduciary duties. (Audit
require reimbursement of more than                      Report: 2005 BO 1008)
$229,000 for the unnecessary charges
                                                        Idaho Housing and Finance
                                                        Association
                                                            HUD OIG audited Idaho Housing and
                                                        Finance Association, in Boise, ID. The




                                                                                                         Multifamily Housing Programs
                                                        audit objectives were to determine whether
                                                        Idaho Housing followed Federal
                                                        regulations and HUD guidelines when it
                                                        (1) allowed project owners to prepay
                                                        project mortgages and (2) refunded bonds
                                                        in 1994.

                                                            Idaho Housing did not properly follow
                                                        Federal regulations and HUD guidelines
                                                        when it allowed 10 project owners to
                                                        prepay project mortgages. As a result, HUD
                                                        paid more than $8.5 million in subsidies in
                                                        excess of fair market rents for these
                                                        projects. Further, Idaho Housing did not
                                                        properly follow Federal regulations and
                                                        HUD guidelines when it did not return
                                                        HUD’s 50 percent share of the savings of
                                                        more than $6 million generated from the
                                                        1994 bond refunding for 30 McKinney Act
                                                        projects and did not use more than
                                                        $997,000 of its 50 percent of the McKinney
                                                        Act savings appropriately. As a result, the
                                                        McKinney Act savings were not available
                                                        for HUD programs including those
                                                        administered by Idaho Housing.

                                                            OIG recommended that HUD require
                                                        Idaho Housing to (1) reimburse HUD, its
                                                        Federal programs, and the affected
Copyright, 2005. The Providence Journal - Providence,
RI. Reprinted with permission.                          project’s residual receipts account from


HUD’s Multifamily Housing Programs                                                                      105
                                nonfederal funds for excessive subsidy             OIG recommended that HUD pursue
                                payments on the terminated contracts and        appropriate administrative sanctions
                                for inappropriately distributed bond            against the owner and president of
                                proceeds; (2) keep HUD apprised                 America House and its three wholly
                                whenever a project owner prepays the            owned subsidiaries. (Audit Report: 2005-
                                mortgage on a project subject to the old        PH-1011)
                                regulations and renegotiate the housing
                                assistance payment contract with HUD;               HUD OIG reviewed the books and
                                and (3) implement procedures to ensure the      records of Savannah Trace Apartments, an
                                proper identification of old regulation         80-unit multifamily housing project in
                                projects with respect to the applicable         Kalamazoo, MI. OIG initiated the review
                                regulations and guidance. (Audit Report:        based on a request from HUD’s Detroit
                                2005-SE-1008)                                   Multifamily Hub. The review was also part
                                                                                of OIG’s efforts to combat multifamily
                                HUD-Insured Mortgages-Owner and                 equity skimming on HUD’s Federal
                                                                                Housing Administration (FHA) insurance
                                Management Agent Operations
Multifamily Housing Programs




                                                                                fund. The objective was to determine
                                                                                whether the owner/management agents
                                     HUD OIG audited America House,             used project funds in compliance with the
                                Inc., in Marshall, VA, at the request of the    regulatory agreement and HUD’s
                                director of HUD’s Richmond Multifamily          requirements.
                                Program Center. The objective of the audit
                                was to determine whether America House              Maplegrove Property Management,
                                and its subsidiaries complied with HUD          LLC, the project’s former identity-of-
                                requirements covering their HUD-insured         interest management agent; Keystone
                                mortgages.                                      Property Management, Inc., the project’s
                                                                                current management agent; and/or
                                     America House and its subsidiaries did     Richland Housing Partners, LLC, the
                                not comply with HUD requirements                project’s owner, inappropriately used
                                covering their HUD-insured mortgages.           more than $5,500 in project funds from
                                Contrary to their regulatory agreements         January 2002 through April 2005 when the
                                with HUD, America House and its                 project was in a non-surplus-cash position
                                subsidiaries failed to make the mortgage        and/or had defaulted on its HUD-insured
                                payments for their three HUD-insured            mortgage. The inappropriate disbursement
                                properties even when the mortgaged              included excessive management fees, late
                                properties produced sufficient income to        fees/finance charges, lawn service, and
                                cover the payments. In addition, America        office supplies/equipment. Further,
                                House improperly commingled funds in            Maplegrove charged the project more than
                                violation of its regulatory agreements and      $2,000 in excessive management fees that
                                did not properly maintain project records.      were not paid as of April 30, 2005.
                                These later actions prevented us from           Maplegrove and/or Richland also lacked
                                performing a thorough audit of the three        documentation to support that more than
                                HUD-insured properties. America House           $1,000 in project funds was properly used.
                                defaulted on the notes, and HUD was
                                compelled to sell the properties at a loss of        OIG recommended that HUD ensure
                                $4.1 million in September 2004.                 Richland, Keystone, and/or Maplegrove
                                                                                (1) reimburse the project’s reserve for


                        HUD’s Multifamily Housing Programs                                                             106
replacement account and/or HUD’s FHA         fees that were not paid as of April 30, 2005.
insurance fund for the inappropriate         Maplegrove and/or the Partnership also
expenses, (2) provide documentation to       lacked documentation to support that more
support the unsupported payments or          than $3,000 in project funds was properly
reimburse the appropriate amount to the      used.
project’s reserve account and/or HUD’s
FHA insurance fund, and (3) implement            OIG recommended that HUD ensure
procedures and controls regarding the use    the Partnership, Keystone, and/or
of project funds. OIG also recommended       Maplegrove (1) reimburse the project’s
that HUD, in conjunction with HUD OIG,       reserve for replacement account and/or
pursue double damages remedies if            HUD’s FHA insurance fund for the
Richland, Maplegrove, and/or Keystone        inappropriate expenses, (2) provide
do not make the reimbursement. Further,      documentation to support the unsupported
OIG recommended that HUD impose civil        payments or reimburse the appropriate
money penalties against Richland,            amount to the project’s reserve account
Maplegrove, Keystone, and/or their           and/or the FHA insurance fund, and (3)




                                                                                               Multifamily Housing Programs
principals/officers for the inappropriate    implement procedures and controls
use of project funds. (Audit Report: 2005-   regarding the use of project funds. OIG also
CH-1012)                                     recommended that HUD, in conjunction
                                             with HUD OIG, pursue double damages
    HUD OIG reviewed the books and           remedies if the Partnership, Maplegrove,
records of Ivan Woods Senior Apartments,     and/or Keystone do not make the
a 90-unit multifamily housing project in     reimbursement.            Further, OIG
Lansing, MI. OIG initiated the review        recommended that HUD impose civil
based on a request from HUD’s Detroit        money penalties against the Partnership,
Multifamily Hub. The review was also part    Maplegrove, Keystone, and/or their
of OIG’s efforts to combat multifamily       principals/officers for the inappropriate
equity skimming on HUD’s FHA insurance       use of project funds. (Audit Report: 2005-
fund. The objective was to determine         CH-1013)
whether the owner/management agents
used project funds in compliance with the         HUD OIG reviewed the books and
regulatory agreement and HUD’s               records of Petersen Health Center. The
requirements.                                project consists of three skilled nursing
                                             home facilities—Friendly Village, Horizons
    Maplegrove Property Management,          Unlimited, and Taylor Park—totaling 327
LLC, the project’s former identity-of-       beds in Rhinelander, WI. The review was
interest management agent; Keystone          part of OIG’s efforts to combat multifamily
Property Management, Inc., the project’s     equity skimming on HUD’s FHA insurance
current management agent; and/or Ivan        fund. OIG chose the project based upon its
Woods Limited Dividend Housing               negative surplus-cash position since 1999,
Association Limited Partnership, the         its default status, and indicators of diverted
project’s owner, inappropriately used        project funds/assets. The objective was to
almost $10,000 in project funds from June    determine whether the owner/operator
2002 through April 2005 when the project     used project funds in compliance with the
was in a non-surplus-cash position.          regulatory agreement and HUD’s
Further, Maplegrove charged the project      requirements.
more than $260 in excessive management


HUD’s Multifamily Housing Programs                                                            107
                                     Petersen Health Care of Wisconsin,        disabilities. The complainant alleged project
                                Inc., the project’s identity-of-interest       development funds and project facilities were
                                operator, improperly used more than            improperly used, two payments were
                                $728,000 in project funds when the project     improper, and project management
                                was in a non-surplus-cash position and/        deficiencies existed. The objectives were to
                                or in default of its HUD-insured loan. The     determine whether the owner used project
                                inappropriate disbursement included            development funds and project facilities
                                approximately $600,000 to P.P.F.               properly and whether the payments
                                Enterprises II, another identity-of-interest   questioned were proper.
                                company, to pay estimated taxes of the
                                partners of P.P.F. Enterprises, the owner           OIG found the owner properly used
                                of the project; more than $80,000 in           project development funds to pay for
                                prepaid legal services; $47,000 for legal      expenditures and payments related to the
                                services not related to the project’s          project. However, contrary to HUD
                                operations; $3,000 for scholarships;           regulations, one cosponsor of the project,
                                approximately $2,000 for Christmas             Mercy-Douglass Human Services Affiliate,
Multifamily Housing Programs




                                presents; and $600 related to charitable       the management agent, used project facilities
                                activities.                                    to perform work not exclusively related to
                                                                               the administration of the project. As a result,
                                     OIG recommended that HUD ensure           the project lost commercial rent of more than
                                that the owner and/or operator reimburse       $19,000. Correcting this situation will result
                                HUD’s FHA insurance fund more than             in future rental income of approximately
                                $728,000 for the inappropriate                 $18,000 per year.
                                disbursements and implement procedures
                                and controls to ensure funds required to            OIG recommended that HUD require
                                be used for project expenses are used          the owner to ensure the cosponsor, Mercy-
                                according to the regulatory agreement.         Douglass Human Services Affiliate, pays past
                                OIG also recommended that HUD, in              rent of more than $19,000 and future rent of
                                conjunction with HUD OIG, pursue double        approximately $18,000 per year for the extra
                                damages remedies if the owner and/or           space it occupies in the project. (Audit Report:
                                operator do not reimburse the insurance        2005-PH-1010)
                                fund for the inappropriate disbursements.
                                OIG further recommended that HUD               Active Partners Performance System
                                impose civil money penalties and pursue
                                administrative sanctions against the
                                owner, operator, and/or their principals/           HUD OIG audited the Active Partners
                                owners for the payment of inappropriate        Performance System to determine whether
                                disbursements that violated the project’s      it has been fully implemented and is being
                                regulatory agreement. (Audit Report:           used as intended. The audit was initiated
                                2005-CH-1016)                                  because OIG was unable to obtain needed
                                                                               information on multifamily program
                                    In response to a citizen’s complaint,      participants from the system.
                                HUD OIG audited the Rudolphy/Mercy-
                                Douglass Home for the Blind, Philadelphia,         Although the Active Partners
                                PA, an independent living facility for low-    Performance System has been operational
                                income persons with blindness and other        since 1999, its use by principal participants
                                                                               has not been required. Consequently, the


                        HUD’s Multifamily Housing Programs                                                                 108
previous participation certification (Form
HUD-2530, Previous Participation
Certification) process has not been fully
automated, and HUD does not have a
complete computer database of required
participant information. In April 2004,
HUD published in the Federal Register a
proposed change to 24 CFR [Code of
Federal Regulations] Part 200 that would
make use of the Active Partners
Performance System mandatory for all
multifamily participants. After undergoing
required legal evaluation of the requested
changes and public comments, the revised
rules received final approval in March 2005
and were published on April 13, 2005.




                                               Multifamily Housing Programs
    OIG recommended that HUD fully
implement the Active Partners
Performance System and ensure its use by
all HUD multifamily housing program
participants, thus putting more than $5.7
million in funds to better use. (Audit
Report: 2005-DP-0006)




HUD’s Multifamily Housing Programs            109
                                  Investigations                                            Equity Skimming
                                      During this reporting period, OIG                         Donald Baldyga was sentenced in U.S.
                                  opened 66 investigation cases and closed                  District Court, Portland, ME, to 1 year and
                                  103 cases in the multifamily housing                      1 day in prison, which commenced on
                                  program area. Judicial action taken on                    September 16, 2005. Upon his release,
                                  these cases during the period included                    Baldyga will be placed on supervised
                                  $3,648,858 in investigative recoveries,                   release for 3 years. Baldyga was also
                                  $19,377,603 in funds put to better                        ordered to pay $340,392 in restitution and
                                  use, 70 indictments/informations, 51                      a $100 fine. Baldyga was indicted by a
                                  convictions/pleas/pretrial diversions, 149                grand jury in Portland, ME, in December
                                  administrative actions, 4 civil actions,                  2004 for criminal equity skimming. The
                                  2 personnel actions, and 189 arrests.                     one-count indictment was based on the
                                                                                            period from June 2000 through February
                                       Some of the investigations discussed in              of 2002, during which Baldyga skimmed
Multifamily Housing Programs




                                  this report were conducted by OIG, while
                                  others were conducted jointly with Federal,
                                  State, and local law enforcement agencies.
                                  The results of OIG’s more significant
                                  investigations are described below.

                               Chart 4.3: Multifamily Investigative Recoveries

                                                                    False Statements
                                                   Skimming               12%
                                                      10%
                               Embezzlement                                     Section 8
                                   53%                                             8%



                                                                       Others
                                                      Davis Bacon       15%
                                                          2%
                               Total: $6,648,858


                                Chart 4.4: Multifamily Funds Put to Better Use

                                      Others
                                       1%          Davis Bacon
                                                      18%
                                  Section 8
                                     9%




                                False Statements                       Skimming
                                       6%                                 66%

                               Total: $19,377,603


                                                                                            Copyright, 2005. Portland Press Herald - Portland, ME.
                                                                                            Reprinted with permission.

                        HUD’s Multifamily Housing Programs                                                                                     110
approximately $300,000 from the Family         fee and ordered to make restitution of
Living Adult Care Center operating             $125,000 to HUD. The sentence was a
account. The two buildings, which make         result of O’Connor’s guilty plea to one
up the Family Living Adult Care Center,        count of conspiracy. This sentence is the
are located in Biddeford and Sacco, ME.        result of a HUD OIG investigation in which
The elderly housing site was purchased         Janet Gaibl and Joseph Cassidy were
using a HUD-insured loan; Baldyga only         indicted by a Federal grand jury in the
made one mortgage payment during the           District of Massachusetts on November 19,
course of the loan.                            2003, charging both with one count of
                                               conspiracy. The indictment alleged that
False Statements                               between 1988 and continuing to mid-2000,
                                               Gaibl and Cassidy, former employees of
                                               First Realty Management (FRM), combined
     Section 8 tenant defendant Carol Jack-    to cause false statements to be submitted
son of Scranton, PA, pled guilty in Federal    to HUD relating to a rent subsidy program
Court, Middle District of Pennsylvania, to     at Cummins Towers, a HUD-insured
making false statements to obtain the




                                                                                              Multifamily Housing Programs
                                               multifamily complex managed by FRM.
benefit of housing assistance to which she     Gaibl and Cassidy identified certain
was not entitled. The OIG investigation,       federally subsidized units at the
which included the execution of a search       development for their own use and
warrant at the subsidized unit in Village      provided a unit to O’Connor who then ran
Park Apartments, Scranton, disclosed that      a maintenance company out of a federally
for at least 16 years, Jackson ran a private   subsidized unit, which caused false
duty-nursing registry, for which she re-       statements to be made on related HUD
ceived fees of up to $400 per referral. She    forms and caused supporting documents
never reported this source of income, only     to be fabricated for the purpose of
income from welfare and/or sporadic            obtaining subsidized units for individuals
employment at odd jobs. Jackson has            who would not otherwise qualify. By their
agreed to repay approximately $197,000 in      actions, Gaibl, Cassidy, and O’Connor
rental assistance benefits that were           caused a loss to HUD in excess of $140,000
improperly paid on her behalf.                 and deprived qualified families of use of
                                               the units.
Conspiracy
                                                   Defendant Vern Strauch of Lincoln,
     Defendant Janet Gaibl, former             NE, owner/manager of Blanket
property manager, was sentenced in U.S.        Corporation, doing business as Serenity
District Court, Boston, MA, to one charge      Place Apartments, was sentenced in the
of conspiracy. Gaibl was sentenced to 4        U.S. District Court of Nebraska on one
months home confinement with an                count of conspiracy. Defendant Strauch
electronic bracelet, 3 years probation, and    and others conspired to defraud various
a $100 special assessment fee and ordered      United States Government agencies
to make restitution of $125,000 to HUD.        through an assisted living scheme. Serenity
Joseph O’Connor was also sentenced in          Place receives money from HUD, the U.S.
U.S. District Court, Boston, MA, to charges    Department of Health and Human Services
of conspiracy. O’Connor was sentenced          (HHS), the Social Security Administration
to 1 year and 1 day incarceration, 2 years     (SSA), and various State agencies for
probation, and a $100 special assessment       subsistence, transportation, lodging, and


HUD’s Multifamily Housing Programs                                                           111
                                medication. Defendant Strauch deprived         HUD mortgage-insured multifamily
                                the occupants of amounts they are entitled     project through fraudulent contractor’s
                                to as well as providing false statements to    invoices and the manipulation of rent rolls
                                HUD, HHS, and SSA to receive funds to          and rental income. It is believed that a
                                which he was not entitled. Defendant           majority of the money involved was cash.
                                Strauch was sentenced to 12 months and
                                1 day confinement and 3 years supervised       Wire Fraud
                                release. Blanket Corp et al were fined $800,
                                and both Strauch and the corporations                In the U.S. District Court, Northern
                                were ordered to pay restitution of             District of Illinois, Chicago, IL, a Federal
                                $250,000. Four other persons and three         grand jury returned a two-count
                                corporations were indicted in June 2003.       indictment against William Moorehead,
                                                                               Patricia Taylor, and Brian Townsend for
                                Theft and Embezzlement                         wire fraud. Moorehead and his company,
                                                                               William Moorehead and Associates
                                     Defendant Everett Eighmy of               (WMA), acted as the managing agent for
Multifamily Housing Programs




                                Pittsburgh, PA, co-owner of the HUD-           numerous properties in and around the
                                assisted and Section 8-subsidized Butler       Chicago metropolitan area. These
                                Family Housing Apartments, was charged         multifamily properties were owned by
                                in Federal Court, Western District of          either the Chicago Housing Authority or
                                Pennsylvania, with embezzlement. The           independently owned, and mortgage
                                investigation was initiated after HUD          insurance was provided by HUD.
                                advised that Eighmy had stopped making         Moorehead was also the chairman of the
                                mortgage payments even though the              board of the Marion Stamps Memorial
                                development was at or close to full            Charity Fund, which was established to
                                occupancy. It is alleged that Eighmy had       benefit low-income children by providing
                                improperly written at least 80 project         life skills programs and a day care center.
                                checks totaling in excess of $80,000 to        Taylor and Townsend were both employed
                                himself, to accomplices, or to cash, and the   in the capacity of controller for
                                funds were used in major part to purchase      Moorehead’s company.
                                crack cocaine. Further, his failure to make
                                timely mortgage payments allegedly                  The indictment alleges that
                                resulted in foreclosure of the HUD-insured     Moorehead illegally transferred funds from
                                mortgage and a claim to the insurance          one property to another and stole property
                                fund of $1.5 million                           funds for personal use. To cover these
                                                                               transfers and thefts, Moorehead,
                                    Defendant Mark Southard of                 Townsend, and Taylor purportedly
                                Stockton, CA, former employee of The           maintained two sets of records, altered
                                Garibaldi Company and the management           invoices, created false bank statements and
                                agent for the Sea Breeze Apartments, was       bank confirmations, wrote nonsufficient
                                sentenced to 4 years incarceration. Southard   funds checks on various bank accounts,
                                was ordered to make restitution to Tomas       and submitted false financial statements.
                                Tomanek, owner of Sea Breeze Apartments,       According to the allegations, Moorehead
                                and Mark Garibaldi of the Garibaldi            also stole funds from the charity for his
                                Company in the amount of $1.5 million. This    personal use. The indictment alleges that
                                investigation found that Southard              the total thefts amounted to $995,000. To
                                embezzled more than $1 million from a          carry out his scheme, the indictment alleged


                        HUD’s Multifamily Housing Programs                                                             112
that Moorehead transferred or ordered his        ranging from welfare fraud to drug
controllers to transfer funds from one           violations, and attempted to locate four sex
property to another to cover shortages in        offenders who were believed to be living
various property accounts. Moorehead             on the premises. The sweep was
then used a nonexistent credit union to          conducted based on complaints from
make it appear funds were held and               residents and management alleging that
available in bank accounts when they had         illegal activity was occurring on the
been stolen or misappropriated.                  property. Administrative actions to
Moorehead also wrote checks to WMA and           terminate tenants based on these arrests
to himself by forging the name of the other      will be initiated.
signatory on the Marion Stamps Memorial
Charity Fund bank account. Moorehead             Grand Larceny
was alleged to have stolen approximately
$400,000 from this charity.                           Michael Caridi, Joseph Rotonde, and
                                                 Orry Osinga of New York, NY, were
     On June 15, 2005, a civil complaint         arrested on 59 counts of falsifying business




                                                                                                  Multifamily Housing Programs
was filed in the Northern District of Illinois   records to HUD and one count of second
against Moorehead and WMA for the same           degree grand larceny. All three defendants
fraudulent activities mentioned above. The       were indicted in August but the Rockland
complaint alleges Moorehead and WMA              County District Attorney’s Office requested
used project assets or income from the           that the indictments remain sealed until
projects he managed for personal use and         they were arrested. All three defendants
that they were liable for $3,128,550.            have been arraigned on the previous
                                                 charges. Caridi and Rotonde are both
Multifamily Task Force Operations                officers in a construction company called
                                                 SRC Industries Incorporated. Osinga is a
     A multiagency task force conducted a        subcontractor who did some work on the
warrant/fraud sweep at North Oak                 job site. SRC obtained a contract from HUD
Crossing Apartments of Kansas City, MO,          to build a residential property for disabled
a multifamily property. This effort resulted     adults for a nonprofit agency called
in the arrest of 21 individuals on charges       Jawanio. The contract between SRC and
ranging from drug violations to felony           HUD stated that SRC would pay Davis
assaults. The sweep was conducted based          Bacon wages to all the workers on the job
on complaints from residents and                 site. It came to the attention of HUD OIG
management alleging that illegal activity        that SRC was allegedly paying the workers
was occurring on the property.                   on the job site $10-$18 per hour and then
Administrative action to terminate tenants       sending false payrolls to HUD stating that
based on these arrests will be initiated.        the workers were earning Davis Bacon
Information received during the sweep will       wages, which were approximately $36 per
be used to investigate fraudulent activity.      hour. These alleged false payrolls
                                                 submitted to HUD resulted in the workers
    The Kansas City, MO, joint task force        on the job site being underpaid by
conducted a warrant sweep at Englewood           approximately $800,000. The money for
Apartments. This multiagency task force          the workers was paid to SRC by HUD and
arrested 22 individuals, based on charges        subsequently is the loss amount in this case.




HUD’s Multifamily Housing Programs                                                               113
       Chapter 5




 HUD’s Community Planning
and Development Programs
                                                   T    he Office of Community                         Chart 5.2: Community Planning and Development
Community Planning & Development Programs
                                                        Planning and Development                                      Housing Dollars
                                              (CPD) seeks to develop viable communities
                                              by promoting integrated approaches that                     $30,000,000

                                              provide decent housing, suitable living                     $25,000,000
                                                                                                          $20,000,000
                                              environments, and expanded economic
                                                                                                          $15,000,000
                                              opportunities for low- and moderate-
                                                                                                          $10,000,000
                                              income persons. The primary means
                                                                                                           $5,000,000
                                              toward this end is the development of
                                                                                                                   0
                                              partnerships among all levels of                                          Questioned Costs   Funds Put to Better Use
                                              government and the private sector.


                                              Audits                                                  Community Development Block
                                                                                                      Grant Program
                                                  During this reporting period, the Office
                                              of Inspector General (OIG) issued eight                      In New York, NY, HUD OIG
                                              external audit reports in the CPD program               performed its fifth audit of the Lower
                                              area. These reports disclosed nearly $8                 Manhattan Development Corporation’s
                                              million in questioned costs and more than               (LMDC) administration of the CDBG
                                              $21 million in recommendations that funds               Disaster Recovery Assistance funds, which
                                              be put to better use.                                   were provided to the State of New York as
                                                                                                      a result of the September 11, 2001, terrorist
                                                  OIG audited Community Development                   attacks on the World Trade Center in New
                                              Block Grant (CDBG) programs, Home                       York City. The objectives of the current
                                              Investment Partnership (HOME)                           review were to determine whether LMDC
                                              programs, and Special Purpose Grant                     (1) disbursed Disaster Recovery Assistance
                                              programs.                                               funds in accordance with HUD-approved
                                                                                                      action plans, (2) expended Disaster
                                            Chart 5.1: Community Planning and Development             Recovery Assistance funds for eligible
                                                   Housing Program Reports Issued                     planning and administrative expenses in
                                                                                                      accordance with applicable laws and
                                                                                                      regulations, (3) maintained a financial
                                                                                                      management system that adequately
                                                                                                      safeguarded the funds, and (4) developed
                                                                                                      and implemented procedures to recover
                                                                                                      funds owed to the Residential Grant
                                                                                                      Program.
                                                      7 External Reports
                                                                                                          LMDC generally disbursed Disaster
                                                                                                      Recovery Assistance funds in accordance
                                                                                                      with the HUD-approved action plans.


                                              The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                              this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                              reports with management decisions reached during this semiannual period. Because there is a time lag
                                              between report issuance and management decisions, the two totals will not agree.



                                    HUD’s Community Planning and Development Programs                                                                        116
                                                                                                     Community Planning & Development Programs
LMDC also expended Disaster Recovery                financial management system did not
Assistance funds for eligible planning and          properly identify the application of more
administrative expenses in accordance               than $1 million in administrative fees
with applicable laws and regulations and            charged, allowed the use of more than
maintained a financial management                   $463,000 for ineligible expenditures, did not
system that adequately safeguarded the              account for all program income, and
funds. However, LMDC disbursed more                 maintained a high balance in its CDBG
than $2 million for items either not                fund account. In addition, the Corporation
included in the budget of the subrecipient          did not maintain adequate records to
agreement for the Hudson River Park                 demonstrate that activities met at least one
Improvements Program or for costs                   of the three CDBG national objectives.
incurred before the time of performance             Therefore, the related expenditures of four
specified in the agreement. Additionally,           loans totaling more than $631,000 are
LMDC developed and implemented                      considered unsupported pending an
collection procedures to recover funds              eligibility determination by HUD.
owed to the Residential Grant Program.
However, its collection efforts were not                OIG recommended that HUD require
always fully documented, and there is a             the Municipality of San Juan to repay $1.48
need to consider additional actions to              million in interest earned from the CDBG
recover amounts owed.                               revolving fund and repay more than
                                                    $463,000 in ineligible expenditures. HUD
     OIG recommended that HUD require               should also require the Municipality to
LMDC to reimburse the more than $2                  provide all supporting documentation and
million inappropriately disbursed and to            determine the appropriateness and
maintain complete documentation of its              eligibility of $1.64 million in CDBG
efforts to collect amounts owed to the              disbursements. OIG also recommended that
Residential Grant Program. OIG also                 HUD require the Municipality to develop
recommended that additional actions to              and implement an internal control plan to
collect amounts owed to the Residential             ensure the independent capital fund has a
Grant Program be considered. (Audit                 financial management system that
Report: 2005 NY 1008)                               complies with HUD requirements and that
                                                    funds are used in a timely manner. (Audit
     HUD OIG audited the Corporación                Report: 2005-AT-1013)
para el Fomento Económico de la Ciudad
Capital, a nonprofit subgrantee for the             Home Investment Partnership
Municipality of San Juan, PR. The review
was initiated in response to a request from         Grant Fund Program
HUD’s San Juan Office of Community
Planning and Development, which was                      HUD OIG conducted a limited review
not satisfied with the Corporation’s overall        of the Maricopa HOME Consortium, City
performance in administering its                    of Mesa, AZ’s use of $570,000 in Home
independent capital fund.                           Ownership Made Easy (HOME) grant
                                                    funds to assist in the rehabilitation of 35
    Contrary to HUD requirements, the               single-family scattered site public housing
Corporation retained more than $1.48                units, located within the jurisdiction of the
million in interest earned from its CDBG            City and County of Maricopa. The objective
revolving fund account. The Corporation’s           was to determine whether the use of HOME


HUD’s Community Planning and Development Programs                                                   117
                                            funds to rehabilitate these public housing          that were reviewed spent approximately
Community Planning & Development Programs
                                            units was an eligible HOME activity.                $79,000 of their HOME funds on ineligible
                                                                                                expenses/activities. In addition, the
                                                This Consortium/City grant activity             Commonwealth had accumulated more
                                            was not an eligible use of HOME funds as            than $6.9 million in administrative fees
                                            the units were, and remain, under an                from the program by obligating more funds
                                            annual contributions contract between               than it spent to administer its HOME
                                            HUD and the Housing Authority of                    program. These excess funds should
                                            Maricopa County and are receiving                   have been used to strengthen the
                                            operating subsidy (including capital grant          Commonwealth’s monitoring program
                                            funding). This is an ineligible activity,           and to fund additional eligible HOME
                                            according to the HOME regulations set out           projects. Doing so would have enabled the
                                            in 24 CFR [Code of Federal Regulations]             Commonwealth’s HOME program to
                                            92.214, which prohibits the use of HOME             better meet its main goal of providing
                                            funds to assist housing units receiving             affordable housing for low-income
                                            assistance under Section 9 of the 1937              households.
                                            Housing Act (public housing capital and
                                            operating funds).                                        In addition, the Commonwealth
                                                                                                improperly allocated its staff’s time for the
                                                OIG recommended that the                        administration of the HOME program.
                                            Consortium be required to reimburse the             Instead of maintaining accurate
                                            $570,000 in HOME funds to its local HOME            timesheets, the Commonwealth followed
                                            investment trust fund. (Audit Report:               an unwritten policy that required staff time
                                            2005-LA-1006).                                      to be split equally between the HOME and
                                                                                                CDBG programs. As a result, the
                                                 In response to a request from the              Commonwealth was unable to ensure
                                            former Assistant United States Attorney of          HOME funds are only being used to pay
                                            the Commonwealth of Pennsylvania, in                for the administration of the HOME
                                            Harrisburg, PA, HUD OIG audited                     program.
                                            the Pennsylvania Department of
                                            Community and Economic Development’s                     OIG recommended that HUD require
                                            (Commonwealth) administration of the                the Commonwealth to recover more than
                                            HOME Investment Partnerships Program.               $79,000 in ineligible fees from the localities
                                            The audit objectives were to determine              we reviewed. In addition, the
                                            whether the Commonwealth was 1)                     Commonwealth should use the more than
                                            adequately monitoring localities to ensure          $6.9 million in accumulated administrative
                                            HOME funds are expended on allowable                fees to improve its monitoring program and
                                            activities and 2) properly allocating its           recommit the funds to eligible HOME
                                            staff’s time for the administration of the          projects. OIG also recommended that HUD
                                            HOME program in accordance with                     require the Commonwealth to establish
                                            applicable HUD and other Federal                    proper time allocations that meet the
                                            regulations.                                        requirements of Office of Management and
                                                                                                Budget (OMB) Circular A-87. (Audit
                                                 The Commonwealth was not                       Report: 2005-PH-1013)
                                            adequately monitoring its localities to
                                            ensure HOME funds were expended on                      HUD OIG reviewed the City of New
                                            eligible activities. Three of the four localities   Orleans, New Orleans, LA’s matching


                                    HUD’s Community Planning and Development Programs                                                     118
                                                                                                      Community Planning & Development Programs
contribution to its HOME funds to                   percent or more in funds were disbursed.
determine whether the City documented               The objectives were to determine whether
and matched its disbursed HOME funds                the College used its Grant funds in
in accordance with HUD regulations.                 accordance with HUD’s requirements and
                                                    recorded HUD’s interest on the assisted
    Between fiscal years (FY) 2000 and              property.
2003, the City did not provide $3.6 million
in matching HOME funds as required by                    The College used the Grant funds in
HUD. In addition, the City failed to                accordance with HUD’s requirements. It
maintain a system that identified the type          used $1 million in Grant funds to pay for
and amount of each matching contribution.           architectural fees for the construction of
                                                    Bracy Hall, a science facility. However, the
     OIG recommended that HUD require               College did not place a covenant on the
the City to (1) submit matching                     property title for Bracy Hall, assuring
contributions in the amount of $3.6 million,        nondiscrimination based on race, color,
(2) update its policies to comply with HUD          national origin, or handicap. Further, HUD
and other Federal rules and regulations,            did not request the College to record HUD’s
and (3) provide documentation of its                interest on the property title for Bracy Hall.
matching contributions as it draws funds
until it has a plan that ensures compliance              OIG recommended that HUD require
with HUD requirements. Further, OIG                 the College to record a covenant on the title,
recommended that HUD review and                     assuring nondiscrimination based on race,
monitor the City’s plan to ensure the               color, national origin, or handicap, and
matching deficiency is corrected. (Audit            record a lien on the property title for Bracy
Report: 2005-FW-1008)                               Hall, showing HUD’s interest in the assisted
                                                    property. If the covenant and lien are not
Special Purpose Grant Program                       recorded, the College should reimburse
                                                    HUD $1 million in nonfederal funds for the
                                                    Grant funds used to pay for Bracy Hall’s
     Continued concerns over the capacity
                                                    architectural fees. (Audit Report: 2005-CH-
of nonprofit entities receiving funding from
                                                    1018)
HUD programs require that audits of such
activities be given priority. Of particular
                                                         HUD OIG audited the City of Carmel,
concern are Special Purpose Grants.
                                                    IN’s Economic Development Initiative –
During this period, OIG reviewed three
                                                    Special Purpose Grant. OIG initiated the
Special Purpose Grant activities and found
                                                    audit in conjunction with its internal review
instances in which HUD’s interest on the
                                                    of HUD’s oversight of these Grants. The
property was not properly recorded.
                                                    review is part of OIG’s FY 2005 annual
     HUD OIG audited Mount Union                    audit plan. OIG chose the City’s Grant
College’s Economic Development Initiative           based upon a statistical sample of Grants
– Special Purpose Grant in Alliance, OH.            for FY 2002 and 2003, in which 90 percent
OIG initiated the audit in conjunction with         or more in funds were disbursed. The
its internal review of HUD’s oversight of           objectives were to determine whether the
these Grants. OIG chose the College’s               City used its Grant funds in accordance
Grant based upon a statistical sample of            with HUD’s requirements and recorded
Grants for FY 2002 and 2003, in which 90            HUD’s interest on the assisted property.



HUD’s Community Planning and Development Programs                                                    119
                                                The City used the Grant funds in                The City used the Grant funds in
Community Planning & Development Programs
                                            accordance with HUD’s requirements. It          accordance with HUD’s requirements. It
                                            used $1 million in Grant funds to pay for       disbursed more than $134,000 in Grant
                                            the areawide subterranean detention             funds to the Indiana University Research
                                            system and reflecting pool design of            and Technology Corporation to pay for the
                                            Veterans Plaza and the Reflecting Pond.         construction of the Indiana University
                                            However, it did not place a covenant on         Emerging Technologies Center’s wet
                                            the property title for Veterans Plaza and       laboratory space. However, it did not place
                                            the    Reflecting      Pond,      assuring      a covenant on the property title for the
                                            nondiscrimination based on race, color,         Center, assuring nondiscrimination based
                                            national origin, or handicap. Further, HUD      on race, color, national origin, or handicap.
                                            did not request the City to record HUD’s
                                            interest on the property title for Veterans          OIG recommended that HUD require
                                            Plaza and the Reflecting Pond.                  the City to ensure the Corporation records
                                                                                            a covenant on the property title for the
                                                 OIG recommended that HUD require           Center, assuring nondiscrimination based
                                            the City to record a covenant on the title,     on race, color, national origin, or handicap.
                                            assuring nondiscrimination based on race,       If the covenant is not recorded, the City
                                            national origin, or handicap, and record a      should reimburse HUD $134,000 from
                                            lien on the property title for Veterans Plaza   nonfederal funds for the Grant funds used
                                            and the Reflecting Pond, showing HUD’s          to pay for the Center’s wet laboratory
                                            interest in the assisted property. If the       space. (Audit Report: 2005-CH-1021)
                                            covenant and lien are not recorded, the
                                            City should reimburse HUD $1 million from
                                            nonfederal funds for the Grant funds used
                                            to pay for the areawide subterranean
                                            detention system and reflecting pool design
                                            of Veterans Plaza and the Reflecting Pond.
                                            (Audit Report: 2005-CH-1019)

                                                 HUD OIG audited the City of
                                            Indianapolis, IN’s Economic Development
                                            Initiative – Special Purpose Grant. OIG
                                            initiated the audit in conjunction with its
                                            internal review of HUD’s oversight of these
                                            Grants. The review is part of OIG’s FY 2005
                                            annual audit plan. OIG chose the City’s
                                            Grant based upon a statistical sample of
                                            Grants for FY 2002 and 2003, in which 90
                                            percent or more in funds were disbursed.
                                            The objectives were to determine whether
                                            the City used its Grant funds in accordance
                                            with HUD’s requirements and recorded
                                            HUD’s interest on the assisted property.




                                    HUD’s Community Planning and Development Programs                                                120
                                                                                                          Community Planning & Development Programs
   Investigations                                        Investigations Involving Public
                                                         Officials
        During this reporting period, OIG
   opened 20 investigative cases and closed                   Defendants Lola Thrower, Malik
   34 cases in the CPD program area. Judicial            Blackmon, Lee Langston, and Reverend
   action taken on these cases during the                Lamar Wright of Little Rock, AR, were
   period included $42,179,216 in                        each indicted by a Federal grand jury in
   investigative recoveries, $42,775,121 in              the Eastern District of Arkansas relating
   funds put to better use, 47 indictments/              to five counts of theft of Federal
   informations, 20 convictions, pleas, and              property and four counts of aiding and
   pretrial diversions, 28 administrative                abetting. Lola Thrower was the Human
   actions, 1 civil action, 17 personnel actions,        Immunodeficiency Virus (HIV) Services
   and 47 arrests.                                       Program Administrator for the Arkansas
                                                         Department of Health (ADH), a grantee of
        Some of the investigations discussed in          HUD-funded Housing Opportunities for
   this report were conducted by OIG, while              Persons with AIDS (HOPWA) funds and
   others were conducted jointly with Federal,           HHS-funded Ryan White Title II Consortia
   State, and local law enforcement agencies.            funds. Thrower administered HOPWA
   The results of OIG’s more significant                 and Title II grant monies, which were to
   investigations are described below.                   be used for HIV/Acquired Immune
                                                         Deficiency Syndrome (AIDS) services
Chart 5.3: Community Planning and Development            within the State of Arkansas. Lee Langston
           Investigative Recoveries                      was the executive director of Positive
                           False Statements
                                                         Voices, a nonprofit corporation and
                 HUD
                Employee          1%                     subgrantee of Federal funds administered
     Public
   Corruption
                  0%             Contract Fraud          by Thrower. Malik Blackmon was the
      12%                             0%                 minority AIDS initiative coordinator for
     Theft of
                                                         Positive Voices and Thrower’s boyfriend
    Government                                           and later spouse. Reverend Lamar Wright
     Property                                            is a church pastor and the president and
       0%
                                  Conflict of Interest   chief executive officer of the nonprofit
                                         87%
Total: $42,179,216                                       corporation Save Our Children
                                                         Community Project and its subsidiary
Chart 5.4: Community Planning and Development            nonprofit corporation called People United
            Funds Put to Better Use                      for Change. Save Our Children and People
                                                         United for Change were subgrantees of
                Embezzlement    False
                                         HUD             Federal funds administered by Thrower.
                      3%     Statements
                                        Employee
                                 1%
            Contract Fraud                0%
 Conflict
                 1%                       Non-HUD             Lola Thrower allegedly used her
of Interest                               Employee       position with the State of Arkansas to direct
    0%                                       3%
                                                         Lee Langston and Reverend Lamar Wright
                                                         to steal Federal grant money from their
                                                         nonprofit corporations and give it to her.
                              Public Corruption
                                     92%
                                                         Thrower, Langston, and Wright also
Total: $42,775,121                                       allegedly fabricated invoices to conceal the



   HUD’s Community Planning and Development Programs                                                     121
                                            grant money stolen. Langston allegedly                    to hire supporting staff. Erma Kendrick
Community Planning & Development Programs
                                            stole Federal grant money from his                        and Edwina Jackson diverted the $70,230
                                            nonprofit corporation by writing checks to                in grant funds for a purpose other than the
                                            himself for work he did not perform. In                   intended use. The $70,230 was used to pay
                                            addition, Thrower and Blackmon                            for checks that were written by KCMHA
                                            established a nonprofit corporation called                as part of its participation as a payee in
                                            B’MON, Inc. They allegedly directed                       the Social Security Administration (SSA)
                                            Langston and Future Builders, another                     Payee Program. More than $36,000 of the
                                            nonprofit corporation and subgrantee of                   grant funds was paid to a storeowner who
                                            Federal funds administered by Lola                        had entered into an agreement with
                                            Thrower, to write checks payable to                       KCMHA to cash checks of KCMHA payee
                                            B’MON from Federal grant money to pay                     clients. Many of the checks cashed by the
                                            for supposed legitimate grant-related                     storeowner came back to him as
                                            expenses. However, Thrower and                            nonsufficient funds, and the $36,000 was
                                            Blackmon allegedly used the majority of the               paid to him to cover those checks.
                                            Federal grant money received to pay for
                                            personal expenses from the B’MON bank                          Gerald Phillips, former director of the
                                            account, including a $5,000 diamond                       Massachusetts Career Development
                                            engagement ring for Thrower. Thrower                      Institute (MCDI), a CDBG-funded State
                                            and Blackmon allegedly created phony                      organization was sentenced in U.S. District
                                            invoices and receipts to conceal the                      Court, Springfield, MA. Phillips was
                                            amounts stolen.                                           sentenced to serve 21 months incarceration
                                                                                                      and 3 years supervised release, to be served
                                                 Erma Kendrick of Fresno, CA, former                  concurrently. Phillips was also fined
                                            executive director of Kern County Mental                  $30,000, ordered to pay a $200 special
                                            Health Association (KCMHA), and Edwina                    assessment fee, and ordered to make
                                            Jackson, former assistant executive director              restitution of $2,526 to HUD. The
                                            of KCMHA, pled guilty in Federal District                 restitution represents the housing
                                            Court, the Eastern District of California, to             assistance payments (HAP) paid on behalf
                                            felony charges that they conspired to defraud             of an MCDI student by the Springfield
                                            HUD in connection with the Supportive                     Housing Authority for a Section 8 voucher
                                            Housing Program. KCMHA received                           that Phillips was instrumental in having
                                            $70,230 as part of the grant for the                      issued to the student.
                                            purchase of a handicap-accessible van and




                                            Copyright, 2005. The Republican - Springfield, MA. Reprinted with permission.


                                    HUD’s Community Planning and Development Programs                                                         122
                                                                                                          Community Planning & Development Programs
    Defendant Giuseppe Polimeni, former
administrator of the MCDI, a CDBG-
funded State organization, was sentenced
in U.S. District Court, Springfield, MA.
Polimeni was sentenced to serve 1 year and
1 day incarceration and 3 years supervised
release, to be served concurrently.
Poliminei was also fined $50,000 and
ordered to pay a special assessment fee of
$800.

    Defendant Jamie Dwyer, former
secretary for the MCDI, a CDBG-funded
State organization, was sentenced in U.S.
District Court, Springfield, MA. Dwyer
was sentenced to serve 6 months in a
community corrections facility and 6
months home confinement under electronic
monitoring, to be served concurrently.
Dwyer was also sentenced to 3 years
probation.
                                                    Copyright, 2005. The Republican - Springfield, MA.
     Luisa Cardaropoli, a former no-show            Reprinted with permission.
employee of the MCDI, was sentenced on
June 30 in U.S. District Court, Springfield,        fraud, wire fraud, obstruction of justice,
MA. Cardaropoli was sentenced to serve              making false statements, threatening a
15 months incarceration and 2 years                 witness, and aiding and abetting. The four,
supervised release, to be served                    who were charged and convicted, had been
concurrently and to commence within 4               employed by MCDI, which provided
weeks. Cardaropoli was also fined $4,000            educational and job-training programs for
and ordered to make restitution of $51,293          income-eligible individuals in the Springfield,
to the City of Springfield, MA.                     MA, area. The investigation concerned no-
                                                    show employees, including Polimeni’s son-
     A Federal jury in U.S. District Court in       in-law. During the course of the
Springfield, MA, had previously convicted           investigation, Gerald Phillips threatened,
Phillips, Dwyer, Cardaropoli, and Polimeni          intimidated, and corruptly persuaded a
on 11 counts, including one count of                witness to prevent the testimony of this
conspiracy to commit program fraud and one          witness to a Federal grand jury.
count of program fraud. Phillips was
convicted along with three former officials             In Flint, MI, Joseph Giacalone, president
of the MCDI. All four defendants in this case       of OK Industries and recipient of a HUD 108
were charged in a 19-count superseding              Economic Development loan, was charged
Federal indictment in Springfield, MA. This         and subsequently arrested by the Genesee
indictment was previously handed down by            County Prosecutors Office for larceny by
a Federal grand jury. The indictment                conversion of more than $20,000. Dana
included violations of conspiracy, program          Robin, the chief financial officer for OK



HUD’s Community Planning and Development Programs                                                        123
                                            Industries, was also charged and arrested for     resigned from his position as Mayor for the
Community Planning & Development Programs
                                            larceny by conversion of more than $20,000        City of Middletown. Defendant DeStefano
                                            for his role in using the 108 loan proceeds for   was found guilty of two counts of second
                                            his personal benefit.                             degree offering a false instrument for filing
                                                                                              in violation of New York State Penal Code
                                                 Giacalone applied for and received           § 175.30, a class A misdemeanor. Judge
                                            approximately $220,000 from the Flint Area        Stewart Rosenwasser found DeStefano
                                            Investment Fund (FAIF) and $870,000 from          guilty for his answer to the same question,
                                            the City of Flint through the 108 loan            2 years in a row, on city ethics forms that
                                            program. According to the FAIF contract,          all public officials must fill out. DeStefano
                                            Giacalone was to pay off the FAIF bridge loan     answered “no” about whether he had done
                                            when the 108 loan was funded, which he            more than $1,000 worth of business with
                                            failed to do.                                     anyone doing business with the City.

                                                 Giaclone’s 108 loan application                   Francis G. Keough, former director of
                                            purported the following three uses for the        the Friends of the Homeless, was arrested
                                            loan funds: 1) renovate and relocate to a         and brought before the Magistrate in the
                                            factory he owned in downtown Flint, MI, 2)        District of Springfield, MA, had his
                                            hire 100 additional employees that were           pretrial release revoked, and was ordered
                                            classified as low-income, and 3) purchase         incarcerated in the Franklin County House
                                            equipment to accommodate the additional           of Correction, Greenfield, MA, pending an
                                            employees.                                        additional motion hearing. This was as the
                                                                                              result of a motion filed by the U.S.
                                                 According to the charges, Giacalone did      Attorney’s Office, District of Springfield,
                                            not complete, nor did he start, any of the
                                            conditions specified and certified to in his
                                            application. In addition, Giacalone failed to
                                            make payments on the 108 loan. Giacalone
                                            and Robin purportedly diverted much of the
                                            funds to pay delinquent taxes on personal
                                            property, pay outstanding personal loans,
                                            and make cash transfers to nonbusiness
                                            accounts. Alexander Thomas, Flint’s
                                            community planning director at the time
                                            Giaclone applied for the 108 loan, was also
                                            arrested and charged with embezzlement by
                                            a public official for his role in the scheme.
                                            Thomas was alleged to have failed to monitor
                                            the disbursements and draws on the loan
                                            proceeds and failed to accurately verify that
                                            OK was in compliance.

                                                 In Orange County, NY, the Mayor of
                                            Middletown, defendant Joseph DeStefano,
                                            was sentenced to a year of conditional
                                            discharge and imposed a court surcharge,          Copyright, 2005. The Republican - Springfield, MA.
                                            a fine in the amount of $100. DeStefano           Reprinted with permission.



                                    HUD’s Community Planning and Development Programs                                                              124
                                                                                                     Community Planning & Development Programs
MA, requesting revocation of Keough’s               case was initiated based on a congressional
pretrial release based upon additional              complaint to OIG.
contacts by Keough with two additional
witnesses. After a superseding indictment,              Boris Yakowyna, a Rochester, NY,
the Magistrate held a revocation hearing,           rehabilitation specialist, pled guilty to one
at which time Keough’s unsecured bond               count of making false statements to HUD.
was raised from $50,000 to $100,000 and             Yakowyna admitted that he accepted
the court ordered that Keough’s wife also           kickbacks from contractors involved in
post a $100,000 bond binding real estate            rehabilitation projects with the City of
holdings. Keough was admonished by the              Rochester Rehabilitation Program. The City
Magistrate for contacting witnesses and             of Rochester Rehabilitation Program
warned that further tampering with the              receives $2 million per year in HUD CDBG
ongoing investigation would not be                  and HOME grant funds. In addition to
tolerated.                                          HUD funding, the City of Rochester has
                                                    received $12 million in funding from
    Keough was later arrested again and             numerous other sources to rehabilitate
brought before the Magistrate in the                housing, which will be sold to low-income
District of Springfield, MA. The Magistrate         families.
revoked his pretrial release and ordered
Keough incarcerated in the Franklin                      Jose Cipolla pleaded guilty to one
County House of Correction, Greenfield,             count of perjury. Cipolla admitted he lied
MA, until his trial. This was the result of         to a Federal grand jury in connection with
contacts by Keough of two additional                his involvement in giving kickbacks to City
witnesses after he had been warned by the           of Rochester, NY, rehabilitation specialists
Magistrate to stay away from witnesses.             for home rehabilitation contracts he was
                                                    awarded. Cipolla lied to the grand jury by
False Statements                                    denying he paid rehabilitation specialist
                                                    David Lippa. The City of Rochester
                                                    Rehabilitation Program receives $2 million
     Defendant Joyce Ashcraft of Cedar              per year in HUD CDBG and HOME grant
Rapids, IA, grant recipient, was sentenced          funds. In addition to HUD funding, the
in Federal Court in the Northern District           City of Rochester has received $12 million
of Iowa to 9 years imprisonment and was             in funding from numerous other sources
ordered to pay $134,311 in restitution.             to rehabilitate housing in the City of
Defendant Ashcraft previously pled guilty           Rochester, which will be sold to low-
to making false statements to HUD,                  income families. Lippa was scheduled for
identity theft, bank fraud, and Social              sentencing.
Security fraud. Defendant Ashcraft
stipulated that she submitted false
documents to Cedar Rapids Housing                   Conspiracy/Program Fraud/
Services to obtain a $24,660 housing                Extortion
rehabilitation grant. She also admitted to
using credit cards she obtained in other                A Federal jury in U.S. District Court,
individuals’ names, making and                      Springfield, MA, convicted Jamie Dwyer
transacting counterfeit checks, embezzling          of conspiracy to commit program fraud,
$10,000 from her husband’s individual               two counts of Federal program fraud,
retirement account (IRA), and falsely               conspiracy to obstruct justice by making a
obtaining State medical assistance. This

HUD’s Community Planning and Development Programs                                                   125
                                            false statement, and making a false            organization assisting lower income people
Community Planning & Development Programs
                                            statement to a Federal agent. The same         in the City of Bridgeport, which has
                                            jury convicted Luisa Cardaropoli on three      received approximately $488,000 through
                                            counts of fraud and one count of giving a      HUD’s Supportive Housing Program.
                                            false statement to a Federal agent. The four   Goldbolt and PTA have been suspended
                                            defendants, to include Dwyer and               from doing business with HUD.
                                            Cardarolpoli, in this case were charged in
                                            a 19-count superseding Federal indictment          A jury in the U.S. District Court for
                                            in Springfield, MA. This indictment had        the Eastern District of Wisconsin found
                                            previously been handed down by a Federal
                                                                                           Mhammad Aziz Abu Shawish guilty of
                                            grand jury. The indictment included
                                                                                           Federal program fraud, relative to
                                            violations of conspiracy, program fraud,
                                                                                           defrauding the City of Milwaukee’s CDBG
                                            wire fraud, obstruction of justice, making
                                                                                           program. Abu Shawish, the founder and
                                            false statements, threatening a witness, and
                                            aiding and abetting. The four charged and      then executive director of Arabian Fest
                                            convicted had been employed by MCDI,           Arab American Festival, Inc., a nonprofit
                                            which provided educational and job-            organization receiving HUD CDBG funds
                                            training programs for income-eligible          through the City of Milwaukee and the
                                            individuals in the Springfield, MA, area.      County of Milwaukee, WI, was originally
                                            The investigation concerned no-show            charged in October 2003.
                                            employees. During the course of the
                                            investigation, one defendant, Gerald               Abu Shawish was found guilty of
                                            Phillips, threatened, intimidated, and         submitting a study to block grant
                                            corruptly persuaded a witness to prevent       administrators, stating that it was prepared
                                            the testimony of this witness to a Federal     by Arabian Fest and funded by the City’s
                                            grand jury. This superseding indictment        Community Block Grant Administration,
                                            included additional information required       when the plan was not formulated by
                                            under the Blakely decision.                    Arabian Fest but was an identical copy of
                                                                                           another plan with minor cosmetic
                                                 Defendant Warren Godbolt of               changes, which had been completed by an
                                            Bridgeport, CT, executive director of          individual unrelated to Arabian Fest and
                                            Progressive Training Associates (PTA), pled    funded by another unrelated organization
                                            guilty to an information charging two          at a cost of $25,000. Abu Shawish also
                                            counts of theft of Federal funds and one       fraudulently submitted documentation to
                                            count of conspiracy. These charges stem        the City to support $30,000 in expenses
                                            from Warren Goldbolt’s admission to            associated with the study. The County
                                            paying approximately $5,000 in cash to a       awarded Arabian Fest $15,000 in CDBG
                                            public official in exchange for the awarding   funds to pay a portion of salary and fringe
                                            of a $100,000 State of Connecticut bond to     benefits of an executive director to operate
                                            PTA. Further, Warren Godbolt admitted          a business development program to
                                            to embezzling between $70,000 and              provide technical assistance to a minimum
                                            $120,000 from PTA bank accounts and            of three small business owners,
                                            utilizing this money for personal use,         “microenterprise owners,” in a specific
                                            including the purchase of an automobile        low- and moderate-income service area.
                                            and motorboat, vacations, and home             However, in support of the costs claimed,
                                            renovations. PTA is a nonprofit                he submitted a false document identifying


                                    HUD’s Community Planning and Development Programs                                              126
                                                                                                      Community Planning & Development Programs
three storeowners to whom he claimed to             Chattanooga, TN, with wire fraud. Auyer
have provided assistance and with two of            is president of Anthony Construction
whom he claimed to have scheduled                   Company, Inc. (ACCI). Auyer allegedly
followup meetings. Finally, he submitted            submitted fraudulent invoices pertaining to
multiple fraudulent claims for                      a $485,000 CBDG loan, administered by the
reimbursement to the County until January           Tennessee Department of Economic and
2003, although his contact with all three           Community Development. These invoices
businesses ended in the summer of 2002              were purported for the purchase of sawmill
and consisted of less than 50 minutes of            equipment and caused the Tennessee
                                                    Department of Economic and Community
time with all three businesses and no
                                                    Development to electronically transfer
additional work or technical assistance was
                                                    $408,920 to ACCI’s bank account. Auyer
done after the summer 2002, causing the
                                                    did not repay any of these funds when the
County to spend $15,000 of CDBG funds
                                                    note came due. Teresa Rikard Auyer, along
for less than 50 minutes of work.                   with McMinnville, TN, appraiser James
                                                    Passons, was also charged in the indictment.
     In San Juan, PR, in the U.S. District          Teresa Auyer and her husband Anthony
Court for Puerto Rico, defendant Jose A.            Auyer were both charged in two counts of
Acevedo-Martinez was sentenced to a term            wire fraud for the submission of fraudulent
of 2 years of imprisonment, 3 years under           invoices for the CDBG loan. Both Auyerses
supervised release, and a $600 special              and Passons were charged in multiple counts
assessment fee. On May 10, 2005,                    of mail fraud, bank fraud, conspiracy, and
Acevedo-Martinez pleaded guilty to six              money laundering, stemming from fraud
counts of a 10-count indictment before U.S.         involved in the purchase of the lumber mill,
District Court Judge Perez-Gimenez.                 which was secured by a U.S. Department of
Acevedo-Martinez had been previously                Agriculture (USDA) rural development loan.
charged with knowingly and corruptly                Defendant Auyer obtained a loan in the
soliciting, demanding, accepting, and               amount of $1.77 million from the Bank of
agreeing to accept something of value of            Tennessee to purchase the lumber mill based
$5,000 or more for monies and services              on false and inflated appraisals. Auyer failed
intended to be influenced or rewarded in            to repay this loan.
connection with a business transaction or
series of transactions of the Health and                Defendant Steven Young was
Medical Services Administration for Drug            sentenced in Federal Court to 3 years
Addicts (ASSMCA), an organization that              probation and 6 months home
received in a 1-year period benefits of more        confinement, assessed a $100 fee, and
than $10,000 under a Federal program.               ordered to pay restitution in the amount
Acevedo-Martinez unlawfully requested               of $5,000 to HUD. Steven Young pled
payments (kickbacks) in exchange for                guilty to one count of mail fraud.
granting the contractors contracts to               Defendant Young was charged in the
provide services for ASSMCA.                        Western District of New York by criminal
                                                    complaint with mail fraud and making a
Mail/Wire Fraud                                     false statement to HUD. Young, a
                                                    rehabilitation specialist for the City of
    The Eastern District of Tennessee               Rochester, NY, was responsible for writing
unsealed a 14-count indictment charging             specifications for the rehabilitation of
defendant Anthony C. Auyer of                       privately owned housing within the City


HUD’s Community Planning and Development Programs                                                    127
                                            of Rochester. The homeowners must first       Embezzlement/Theft of Government
Community Planning & Development Programs
                                            qualify for CPD HOME funds. These
                                            grants range between $10,000 and $30,000      Funds
                                            per project, and the homeowner may
                                            qualify for more than one type of grant.           Defendant Frank Zdankowski of
                                            Young was charged with receiving bribes       Mifflin County, PA, was sentenced in
                                            from various contractors during the years     Federal Court, Middle District of
                                            2002 through 2004. Young steered the          Pennsylvania, for receiving business loans
                                            contracts to the contractors by telling the   from USDA and the HUD CDBG program
                                            contractors the amount of the lowest bid.     to which he was not entitled. He received
                                            The contractor would then bid a lower         2 years probation and was ordered to
                                            amount than the lowest bid to win the bid.    repay the Federal Government $97,861,
                                            The contractor would pay Young between        which included the improperly received
                                            $300 and $500 in cash, depending on the       $35,000 CDBG loan. The investigation
                                            size of the contract. Young was also          disclosed that the defendant applied
                                            charged with submitting two final             concurrently for loans from both agencies
                                            inspections that verified that all            for stated purpose of starting an animal
                                            rehabilitation work had been completed on     breeding business, failed to start the
                                            two HUD-subsidized grants totaling            business, and defaulted on both loans
                                            $25,000. Young made false statements in       almost immediately.
                                            these final inspections when he signed them
                                            and certified that the rehabilitation had          Jarmena To of New York, NY, who
                                            been completed when it had not been           was indicted on charges of theft of
                                            completed.                                    government funds in connection with a
                                                                                          scheme to defraud HUD and the Lower
                                                                                          Manhattan Development Corp (LMDC) of
                                                                                          Federal grant money, was arrested on July
                                                                                          12, 2005. Jarmena To allegedly devised a
                                                                                          scheme to fraudulently obtain money from
                                                                                          a grant program established by the LMDC
                                                                                          to retain and attract residents to Lower
                                                                                          Manhattan. LMDC was created by the
                                                                                          State and City of New York after the
                                                                                          September 11, 2001, terrorist attacks to
                                                                                          coordinate the rebuilding and revitalization
                                                                                          of Lower Manhattan. LMDC is funded by
                                                                                          HUD and has received $2.7 billion from
                                                                                          HUD.




                                    HUD’s Community Planning and Development Programs                                             128
           Chapter 6




Other Significant HUD Audits and
  Investigations/OIG Hotline
Other Audits & Investigations/OIG Hotline
                                               Audits                                                    Office of Healthy Homes and
                                                                                                         Lead Hazard Controls
                                                    During this reporting period, the
                                               Office of Inspector General (OIG) issued                       HUD OIG is auditing the Office of
                                               four reports: three internal audits and one               Healthy Homes and Lead Hazard
                                               external audit, involving areas of U.S.                   Control’s (Office of Healthy Homes)
                                               Department of Housing and Urban                           process for awarding fiscal year 2004
                                               Development (HUD) operations that do not                  grants in response to congressional
                                               fall under major HUD programs reported                    inquiries and complaints alleging the Office
                                               in previous chapters. OIG’s more                          of Healthy Homes inappropriately
                                               significant audits are discussed below.                   awarded its fiscal year 2004 grants. The
                                                                                                         objective was to determine whether the
                                            Chart 6.1: Other Significant Audit Reports Issued            allegation had merit.

                                                                                                             The audit was still in progress at the
                                               1 External Report
                                                                                                         end of this reporting period. However, OIG
                                                                                                         issued an interim report that disclosed
                                                                                                         errors in the award process for all seven
                                                                                                         grant applications reviewed, causing
                                                                                                         applicants to either receive an award they
                                                                  3 Internal Reports                     were not entitled to or to lose an award
                                                                                                         (totaling more than $6.3 million) they
                                                                                                         should have received. In large part, these
                                                                                                         problems occurred because the
                                                Chart 6.2: Other Significant Audit Dollars               Department established a deadline of
                                                                                                         September 30, 2004, to process and award
                                                  $16,000
                                                                                                         the grants without having an effective
                                                  $14,000
                                                                                                         process in place. To meet this deadline, the
                                                  $12,000
                                                                                                         Office of Healthy Homes and its contractor
                                                  $10,000
                                                   $8,000
                                                                                                         did not always follow established
                                                   $6,000
                                                                                                         procedures in evaluating and scoring the
                                                   $4,000
                                                                                                         grant applications. Additionally, the Office
                                                   $2,000
                                                                                                         of Healthy Homes’ decision to restrict its
                                                       0
                                                                                                         search for a contractor under HUD’s
                                                            Questioned Costs   Funds Put to Better Use   accelerated contracting process to small
                                                                                                         business and 8(a) firms severely limited the
                                                                                                         pool of qualified contractors. The
                                                                                                         contractor selected to evaluate and rate the
                                                                                                         grant applications made a number of
                                                                                                         significant errors in processing the
                                                                                                         applications that compromised the
                                                                                                         integrity of the award process.

                                               The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                               this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                               reports with management decisions reached during this semiannual period. Because there is a time lag
                                               between report issuance and management decisions, the two totals will not agree.


                                    Other Significant HUD Audits and Investigations/OIG Hotline                                                         130
                                                                                                        Other Audits & Investigations/OIG Hotliine
    OIG questioned whether the                          completed through the end of calendar
remaining fiscal year 2004 grants were                  year 2004. The objective of the audit was
properly awarded and recommended that                   to assess the quality of the HUD process
the Department take immediate action to                 for certification and accreditation of its
ensure the 2005 grant award process was                 information systems. For criteria, OIG used
completed according to notice of funding                recommendations from special publications
availability requirements and HUD’s                     issued by the National Institute of
established grant processing procedures.                Standards and Technology (NIST) and
(Audit Report: 2005-PH-0002)                            requirements from Office of Management
                                                        and Budget and Federal Information
Security of Windows 2000 Server                         Processing Standards.

    HUD OIG completed a security                             The quality of the process for
assessment of HUD’s implementation of                   certification and accreditation of HUD’s
“Security of Windows 2000 Server.” The                  information systems in calendar year 2004
objective of the audit was to assess HUD’s              was poor and resulted in presentation of
configuration of the Windows 2000                       inadequate certification and accreditation
operating system for security and its                   packages to the authorizing official.
backup and recovery practices.                          Because the packages were incomplete and
                                                        did not contain the information necessary
     OIG concluded that HUD generally                   for the authorizing official to accredit
implemented the Microsoft Windows 2000                  HUD’s systems, no accreditations were
operating system configuration settings                 made in calendar year 2004.
properly. However, deficiencies in
configuration security and backup and                        OIG recommended that HUD appoint
recovery practices were identified. The                 senior officials within the program and
report presents detailed results of                     administrative offices as authorizing
our assessment and appropriate                          officials and direct them to complete
recommendations for corrective action that              certifications and accreditations for their
will improve HUD’s overall security                     systems in accordance with OMB
posture       through       recommended                 requirements and guidance for Federal
configurations. OIG has determined that                 agencies published by NIST. OIG also
the contents of this report would not be                recommended that HUD ensure that
appropriate for public disclosure; therefore,           policies and procedures for the certification
OIG limited its distribution to selected HUD            and accreditation process are developed,
officials. (Audit Report: 2005-DP-0005)                 approved, and implemented and that they
                                                        address roles and responsibilities assigned
                                                        during the process. (Audit Report: 2005-
Quality of the Process for                              DP-0007)
Certifications and Accreditations
of HUD Information Systems
     HUD OIG audited the quality of the
process for certifications and accreditations
of the HUD information systems that were



Other Significant HUD Audits and Investigations/OIG Hotline                                             131
Other Audits & Investigations/OIG Hotline
                                                                                                  HUD OIG and six other agency OIGs. for
                                             Investigations                                       the fraudulent use of government-issued
                                                                                                  IMPACT credit cards involving all seven
                                                 During this reporting period, OIG                agencies. Investigation in this matter
                                             opened seven investigation cases and                 began after a creditor contacted the HUD
                                             closed three cases involving areas of HUD            Hotline alleging misuse of a credit card
                                             operations that do not fall under specific           belonging to a former HUD OIG employee
                                             program categories. Judicial action taken            to purchase sizable amounts of copier
                                             on these cases during the period included            toner. The investigation disclosed that
                                             $118,347 in funds put to better use and four         McKeithan allegedly fraudulently obtained
                                             arrests.                                             and used credit card numbers from the
                                                                                                  various agencies and allegedly purchased
                                                 Some of the investigations discussed             or attempted to purchase at least $163,500
                                             in this report were conducted by OIG,                in goods and services with an actual loss
                                             while others were conducted jointly with             to date of $54,000.
                                             Federal, State, and local law enforcement
                                             agencies. The results of OIG’s more                  Accessory After the Fact
                                             significant investigations are described
                                             below.
                                                                                                       In Tampa, FL, Defendant Richard
                                                                                                  Doty appeared before the Honorable
                                                  During the week of April 4, 2005,
                                                                                                  Steven D. Merryday for the United States
                                             HUD OIG, in cooperation with the United
                                                                                                  District Court for the Middle District of
                                             States Marshals Service (USMS) and
                                                                                                  Florida, Tampa Division. Doty was
                                             various other Federal, state, county, and
                                                                                                  subsequently sentenced on count one of the
                                             local law enforcement agencies, conducted
                                                                                                  information charging him with accessory
                                             a nationwide fugitive apprehension
                                                                                                  after the fact and ordered to be committed
                                             operation. This apprehension operation
                                                                                                  to the custody of the Bureau of Prisons for
                                             coincided with National Crime Victims
                                                                                                  15 months, sentenced to supervised release
                                             Rights Week. Within the 93 U.S. Attorney
                                                                                                  for a term of 3 years, and ordered to pay
                                             districts, the USMS has 83 district fugitive
                                                                                                  restitution in the amount of $69,834 to
                                             task forces and five regional fugitive task
                                                                                                  HUD, $91,876 to Sterling Bank and Trust,
                                             forces. HUD OIG participated on 37 of
                                                                                                  and $44,290 to Republic Bank for a total
                                             these task forces. Nationwide, Operation
                                                                                                  of $206,000.
                                             Falcon resulted in 10,343 arrests, of which
                                             HUD OIG directly participated in the
                                             arrest of 359 subjects who resided in public         Systemic Implications Reports
                                             or subsidized housing.
                                                                                                       In the New York/New Jersey region,
                                             Fraudulent Use of Government-                        a deficiency was discovered when the
                                                                                                  Mortgage Review Board (MRB) notified
                                             Issued Impact Credit Cards                           OIG of a pending withdrawal of First
                                                                                                  Alternative Mortgage Corporation’s
                                                  In Baltimore, MD, Walter McKeithan,             (FAMC) HUD Federal Housing
                                             Jr., was arrested pursuant to a warrant              Administration (FHA) approval for 3 years.
                                             issued by a U.S. District Judge, District of         In its letter to the MRB on June 25, 2004,
                                             Maryland, based on an investigation by               with respect to 10 loans in which “FAMC



                                    Other Significant HUD Audits and Investigations/OIG Hotline                                           132
                                                                                                         Other Audits & Investigations/OIG Hotliine
signed false Lender Certifications,                     including furnaces. In response to concerns
indicating that the loans were originated               set forth in the SIR, the Department
by full time employees,” the Associate                  believed that it was prudent to notify all
General Counsel for Program Enforcement                 M&M contractors of the findings reported
stated “Board staff recommends civil                    in the SIR. HUD will also review the
penalties in the amount of $10,000 ($1,000              business practices followed by HUD’s
x 10 loans) because the alleged violation,              M&M contractors, related to access of
while important, is not sufficiently serious            properties, in order to determine whether
to warrant the maximum penalty per                      there are additional steps available that
loan.” The Assistant United States                      would result in a reduction of such
Attorney assigned to the criminal                       reported incidents.
prosecution of the FAMC took exception
to the Department’s characterization of the             Child Exploitation
offense as not being “sufficiently serious.”
In response to the concerns set forth in the
                                                            HUD OIG Special Investigations
Systemic Implications Reports (SIR), HUD
                                                        Division (SID), Washington, DC,
agreed to refrain from using any language
                                                        conducted a joint investigation with the
that depicts the criminal activity of
                                                        Commonwealth of Pennsylvania, Office of
mortgage fraud as not being serious.
                                                        Attorney General, Bureau of Criminal
                                                        Investigation (BCI), Child Sexual
     A deficiency was discovered when a
                                                        Exploitation Unit, to identify and expose a
single-family criminal investigation
                                                        HUD employee using his HUD computer
determined that the subject, John Null,
                                                        to send sexually explicit and pedophilic
gained unlawful access to HUD Real Estate
                                                        e-mails to an individual whom the HUD
Owned (REO) property in Baltimore, MD,
                                                        employee believed was the father of three
by using a REO property master key. Null
                                                        minor children, who would permit the
entered the subject REO property with the
                                                        employee to have sexual relations with the
intent to remove a government-owned
                                                        children. In fact, the HUD employee was
furnace from the basement. REO property
                                                        communicating with a BCI undercover
master keys were produced, issued, and
                                                        agent.
maintained by the original HUD
management and marketing (M&M)
                                                        In an arrangement devised by SID and BCI,
contractor, Michaelson, Connor, and Boul
                                                        HUD OIG and SID special agents caught
(MCB). According to MCB officials, copies
                                                        the HUD employee at his desk at the HUD
of such master keys were commonly given
                                                        Philadelphia Home Ownership Center
to any licensed realtor or subcontractor
                                                        while in the act of attempting to download
hired to perform work or services at the
                                                        a file the employee believed contained a
given REO property. Consequently, the
                                                        photograph of the children. SID obtained
holder of the master key was constructively
                                                        an admission from the HUD employee as
given access to all REO properties in the
                                                        to his involvement in the sending of sexually
multistate region. MCB does not maintain
                                                        explicit and pedophilic e-mails from
a record of who issued a master key.
                                                        his HUD computer and recovered
Additionally, there was no contractual
                                                        corroborating forensic evidence.
requirement for MCB property inspectors
to record the serial numbers on major
kitchen and other household appliances



Other Significant HUD Audits and Investigations/OIG Hotline                                             133
Other Audits & Investigations/OIG Hotline
                                                  The HUD employee subsequently
                                             resigned, after pleading guilty to violation
                                             of Title 18, Pennsylvania Consolidated
                                             Statutes, section 901/6318, criminal
                                             attempt/unlawful contact with minor, a
                                             felony. In February 2003, the defendant
                                             was sentenced to a term of imprisonment
                                             in the custody of the Pennsylvania
                                             Department of Corrections for a period of
                                             not less than 1 year and not to exceed 10
                                             years, to be followed by a term of probation
                                             of 10 years. The defendant was also
                                             required to register as a sex offender. Prior
                                             to imposition of sentence, the presiding
                                             judge described the e-mails sent by the
                                             defendant from his HUD computer as “the
                                             most disgusting thing I’ve heard a human
                                             being say they would do to children” and
                                             noting the e-mails “went from bad to worse
                                             to disgusting to monstrous.” The judge
                                             described the defendant as a “clear and
                                             present danger to the children of the
                                             Commonwealth of Pennsylvania.”

                                             Assault
                                                  Antonio Loura, a former Section 8
                                             landlord, was indicted by a grand jury in
                                             the District of Massachusetts, Boston, MA.
                                             Loura was indicted on one count of assault
                                             on a Federal officer. Loura was indicted
                                             after he allegedly threatened two HUD OIG
                                             special agents with a knife while the agents
                                             were interviewing Loura, who was
                                             suspected of living with his Section 8
                                             tenant.




                                    Other Significant HUD Audits and Investigations/OIG Hotline   134
                                                                                                        Other Audits & Investigations/OIG Hotliine
                                                        Investigation or to HUD program offices
OIG Hotline                                             for action and response. The following
                                                        illustration shows the distribution of
     The HUD OIG Hotline is operational                 Hotline case referrals by percentage.
5 days a week, Monday through Friday,
from 10:00 a.m. to 4:30 p.m. The Hotline                     Hotline closed 820 cases during this
is staffed by six full-time OIG employees,              reporting period. The closed Hotline cases
who take allegations of waste, fraud, abuse,            included 96 substantiated allegations. The
or mismanagement in HUD or HUD-                         substantiated allegations resulted in 18
funded programs from HUD employees,                     administrative sanctions against HUD
contractors, and the public and coordinate              employees for personnel violations or
reviews with internal audit and                         investors for improprieties involved in the
investigative units or with HUD program                 purchase of a home. The Department also
offices.                                                took 97 corrective actions that resulted in
                                                        $196,726 in recoveries of losses and
    During this reporting period, the                   $2,012,404 in HUD funding that could be
Hotline received and processed 10,229                   put to better use. The recoveries included
complaints—76 percent received by                       Section 8 tenants who must reimburse
telephone, 19 percent by mail, and 5                    housing authorities for assistance to which
percent by e-mail. Every allegation                     they were not entitled based on improper
received by the Hotline is logged into a                reporting of income or household
database and tracked.                                   composition. Some of the funds that could
                                                        be put to better use were the result of cases
     Of the complaints received, 1,385 were             in which homebuyers made false claims
related to the mission of the OIG and were              when purchasing homes insured by
addressed as Hotline cases. Hotline cases               Federal Housing Administration (FHA)
are referred to OIG’s Offices of Audit and              loans.


                            Chart 6.3: Hotline Cases Opened by Program


                                  Other HUD           Single-Family
                                    Offices              Housing
           OIG Audit &               7%                    9%                  Multifamily
           Investigation                                                        Housing
                9%                                                                12%




              Public and Indian
                  Housing
                     63%




Other Significant HUD Audits and Investigations/OIG Hotline                                             135
Other Audits & Investigations/OIG Hotline
                                                                  Chart 6.3: Hotline Dollar Impact from HUD Program Offices

                                                                                                                                 $1,497,392
                                                         1,600,000

                                                         1,400,000
                                                         1,200,000

                                                         1,000,000

                                                           800,000
                                                           600,000
                                                                                                            $383,790
                                                           400,000
                                                                           $159,168
                                                           200,000                    $131,222
                                                                                                  $12,054              $25,503
                                                                  0
                                                                           Single-Family          Multifamily          Public Housing

                                                                          Recoveries $196,726          Funds Put to Better Use $2,012,404




                                                        Chart 6.4: Substantiated Cases by Type of Complaint Received by Hotline


                                                                        Loan Irregularities
                                                                               4%                   Other
                                                 Owner/Occupant                                      3%
                                                   Violation
                                                      5%




                                                                                                                                        Rental Fraud
                                                                                                                                       & Improprieties
                                                                                                                                            88%




                                    Other Significant HUD Audits and Investigations/OIG Hotline                                                          136
  Chapter 7




Outreach Efforts
                             T     o       foster      cooperative,
                                       informative, and mutually
                       beneficial relationships with agencies and
                                                                       National Association of Housing and
                                                                       Redevelopment Officials (NAHRO) in San
                                                                       Francisco, CA. NAHRO members were
                       organizations whose intent is to assist the     provided an introductory presentation
                       accomplishment of the U.S. Department of        regarding the history, responsibilities, and
                       Housing and Urban Development’s (HUD)           basic mission of HUD OIG. The
                       mission, the Office of Inspector General        presentation then focused on HUD OIG’s
                       (OIG) participates in a number of special       Fugitive Felon and Rental Assistance
                       outreach efforts. These efforts, as described   initiatives, with emphasis on how the goal
                       below, are in addition to OIG’s regular         of each initiative is to assist housing
                       coordination with Federal, State, and           authorities in providing safe and affordable
                       local law enforcement agencies; other           housing for deserving members of our
                       OIGs; and various congressional                 society. ASACs Chan and Meeks provided
                       committees and subcommittees. During            presentations focusing on measures for
                       these outreach efforts, OIG not only            detecting and preventing fraud within
                       presents the results of its audit and           rental assistance programs. The entire
                       investigative work and discusses its goals      presentation became an open forum–
                       and objectives; it also provides information    question and answer session, which
                       about OIG’s role and function.                  resulted in constructive round-table
                                                                       discussions for accomplishing positive
                           Inspector General (IG) Kenneth M.           results with regard to HUD’s Housing
                       Donohue welcomed the attendees of the           Integrity Improvement Project (RHIIP) and
                       “Mid America Crime Free Multifamily             HUD OIG’s Fugitive Felon and Rental
                       Housing” Conference. Mid America                Assistance initiatives.
                       Crime Free, Inc., is an organization
                       developed to educate police officers and             SAC Peter Emerzian, ASAC Diane
                       apartment managers about each other’s           DeChellis, and Assistant Regional Inspector
                       responsibilities within assisted housing. IG    General for Audit (ARIGA) Mike Motulski
                       Donohue expressed his gratitude for the         gave a presentation to approximately 70
                       efforts and sacrifices of the participating     participants at the HUD Federal Housing
                       managers and law enforcement officers.          Administration (FHA) Update Seminar,
                       During his address, IG Donohue also             which took place at the HUD regional
                       recognized the contributions of the Kansas      office in Boston, MA. The participants
Outreach Efforts




                       City, MO, Police Department in supporting       included real estate agents, mortgage
                       nine Section 8 sweep operations in the          brokers, and closing agents from
                       Kansas City area. At the same conference,       companies throughout New England. SAC
                       Assistant Inspector General in Charge           Emerzian discussed OIG’s mission as well
                       (ASAC) Michael Powell and Special Agent         as the OIG priorities for 2005/2006, which
                       (SA) Karen Gleich provided training on          include the reduction of single-family
                       fraud in assisted housing.                      fraud. ASAC DeChellis identified various
                                                                       types of mortgage fraud that OIG has
                           Special Agent in Charge (SAC) John          encountered, to include the characteristics
                       McCarty, Criminal Investigative Division        of such fraud and the impact that the fraud
                       (CID); SAC James Beaudette, Region 9/10;        has on HUD and the community. ARIGA
                       and ASACs Lori Chan and Tony Meeks,             Motulski explained the role of the Office of
                       Region 9/10, provided a presentation to         Audit (OA) in the detection and prevention
                       approximately 200 members of the                of single-family mortgage fraud.


              Outreach Efforts                                                                                  138
                                                        of HUD OIG operations and later focused
                                                        on preventing and detecting fraud in the
                                                        Section 8 program. Recent investigations
                                                        that representatives from the HUD OIG
                                                        New England Region have successfully
                                                        completed and HUD OIG findings on
                                                        fraud, waste, and mismanagement were
                                                        discussed as well as how to contact the
                                                        HUD OIG Hotline.

                                                             ARIGA Ron Farrell, assisted by
                                                        Technical Oversight and Planning Division
SAC Peter Emerzian presenting at the HUD Federal        (TOP) Management Analyst Jennifer
Housing Administration Update Seminar.
                                                        Houghton, gave a presentation on HUD’s
                                                        Audit Resolution and Corrective Action
                                                        Tracking System (ARCATS) to Ohio HUD
                                                        managers in Perrysburg, OH, on August
                                                        24, 2005. Ms. Houghton and Mr. Farrell
                                                        provided information on conducting a
                                                        paperless audit resolution process in
                                                        ARCATS to the 30 HUD staff in
                                                        attendance. Ms. Houghton discussed
                                                        upcoming proposed revisions to ARCATS.

                                                             ARIGA Rose Capalungan and Senior
                                                        Auditor Kelly Anderson made a
ASAC Diane DeChellis identifying the various types of
fraud to 70 participants.
                                                        presentation regarding HUD OIG (who we
                                                        are and what we do) at the 2005
                                                        Supportive Housing Program Start-Up
                                                        Conference, held in HUD’s office in
      Regional Inspector General for                    Chicago, IL, on August 31, 2005. HUD’s
Audit (RIGA) Joan Hobbs and ARIGA                       Chicago Regional Office of Community
Clyde Granderson, attended the Regional                 Planning and Development hosted the
NAHRO Conference in San Francisco, CA,
and spoke about public housing-related
audit results. There were about 200 people
in attendance.
                                                        conference. More than 90 conference
                                                        attendees who have involvement in HUD’s
                                                        supportive housing program were present.    Outreach Efforts
                                                             ASAC Tony Meeks and SA Leonard
     ARIGA Mike Motulski and SAs                        de Vera attended a Garden Grove, CA,
Edward Redmond and Stephen Tufts                        Responsible Effective Apartment Team
addressed the annual conference of the                  meeting aimed at improving the quality of
Massachusetts NAHRO in Falmouth, MA.                    life and providing a sense of security to
The presentation, “Protecting Your Agency               community members in the city of Garden
from Fraud,” outlined HUD OIG’s role in                 Grove, CA.       In attendance were
auditing and investigating the operations               representatives from the Garden Grove
of federally aided local housing authorities.           Housing Authority, Garden Grove Police
The presentation began with an overview                 Department, Garden Grove Community


Outreach Efforts                                                                                    139
                       Services, and local apartment owners and        why auditing Section 8 is a HUD OIG
                       managers. ASAC Meeks and SA de Vera             priority, and a synopsis of the last 12
                       offered resources and assistance to city        months of Public and Indian Housing
                       representatives and conveyed the mission        program audits issued by the OA.
                       of HUD OIG, especially with regard to the
                       Rental Assistance initiative. After the              ARIGAs Tanya Voigt and Vince
                       meeting, officers and housing authority         Mussetter attended the California State
                       officials provided information to assist this   University, Northridge, job fair. Ms. Voigt
                       office in pursuing investigations with          and Mr. Mussetter spoke with many
                       regard to forms of rental assistance fraud,     students about possible career opportunities
                       to include various cases of unreported          in both auditing and investigations fields.
                       income and falsifications of total family       They gave out recruiting brochures and
                       composition.                                    collected resumes from more than 50
                                                                       interested students.
                           ARIGA Clyde Granderson and Senior
                       Auditor Helen Sparks spoke before the San            ASAC Lori J. Chan gave a
                       Joaquin Valley Escrow Association on the        presentation to the Hawaii Chapter of the
                       topic “Single Family Fraud.” There were         Institute of Appraisers in Honolulu, HI.
                       approximately 100 people in attendance.         ASAC Chan provided an overview of HUD
                                                                       OIG and mortgage fraud along with a case
                           HUD OIG Region 6 ASAC Michael               study. After the presentation, there was a
                       Wilson and Forensic Auditor Katherine           question and answer session. There
                       Howell gave a presentation on mortgage          were approximately 50 individuals in
                       fraud to the Dallas, TX, Chapter of the         attendance.
                       International Association of Financial
                       Crimes Investigators (IAFCI). IAFCI                 HUD OIG ASAC Brad Geary and a
                       sponsored the training given by HUD OIG         representative from the State of Illinois,
                       and the Department of Veterans Affairs          Department of Banks and Real Estate,
                       (VA) OIG. In addition to investigators from     provided a presentation to approximately
                       the banking community, personnel from           50 representatives from the Illinois
                       various Federal, State, and local law           Association of Mortgage Brokers in
                       enforcement agencies were in attendance.        Chicago, IL. The presenters provided
                       Mortgage fraud is a growing concern in the      updates on multiple real estate schemes
Outreach Efforts




                       Dallas-Fort Worth banking community.            and their agencies’ most recent
                                                                       enforcement efforts.
                            Region 6 ARIGA Theresa Carroll,
                       assisted by Senior Auditors Lynelle Kunst            As part of Region 5’s proactive efforts
                       and Danita Wade, spoke at the Finance           to reduce fraud in HUD’s assisted housing,
                       Focus Group for Housing Authorities             ASAC Ray Espinosa and ASAC Brad
                       Roundtable Discussion on June 9, 2005.          Geary provided a training session to 18
                       The Finance Focus Group, which is               different housing authorities as well as
                       comprised of finance officers of housing        employees from HUD’s Multifamily and
                       authorities, requested that OIG staff speak     Public Housing divisions in Chicago, IL.
                       at their meeting in Ft. Worth, TX. Ms.          More than 100 individuals attended the
                       Carroll’s presentation provided a brief         session, entitled “Fraud in Assisted
                       background on HUD OIG, a brief history          Housing,” which covered the Rental
                       of the Section 8 program, a description of      Housing Integrity Improvement Project


              Outreach Efforts                                                                                  140
(RHIIP) initiative, the latest tenant and      attendance at this session, which is part of
landlord schemes, OIG’s Felony Fugitive        Region 5’s bankruptcy initiative to not only
mission, OIG partners, “Red Flags,” and        address current frauds, but to educate and
some of the most current prosecutorial         train those individuals in the bankruptcy
initiatives within the Region.                 process as to how real estate fraud is
                                               integral to their work.
     ASAC Michael Powell addressed the
“Fair Housing/Predatory Lending                     During the week of July 29, 2005, in
Partnership” Consortium sponsored by the       Los Angeles, CA, ASAC Tony Meeks met
HUD Office of Fair Housing and Equal           with housing authority officials from the
Opportunity in Kansas City, MO. ASAC           cities of Anaheim, Garden Grove,
Powell discussed the roles of the OIG          Inglewood, Newbury Park, Oxnard, and
divisions, the types of cases the Office of    Santa Ana, CA, and discussed HUD OIG’s
Investigations (OI) handles, and ways to       Fugitive Felon and Rental Assistance
provide information regarding criminal         initiatives and how these initiatives
activity to the OI.                            coincide with HUD’s RHIIP. ASAC Meeks
                                               stressed the importance of a collaborative
     As part of Region 5’s proactive efforts   effort between housing authorities and
to reduce fraud in HUD’s assisted housing,     HUD OIG to achieve the common goal of
ASAC Ray Espinosa and ASAC Brad                identifying and removing violators of rental
Geary provided a training session to 50        assistance programs. ASAC Meeks further
different housing authorities as well as       emphasized that OIG is in full support of
representatives from the local police          the contributions, mission, and role housing
department and the resident Federal            authorities in administering HUD funds.
Bureau of Investigation (FBI) office           The housing authority officials agreed to
in Springfield, IL. More than 150              promptly provide information of indicators
individuals attended the session, entitled     of fraud within their respective tenant
“Combating Fraud in Assisted Housing,”         and/or landlord rolls.
which covered the RHIIP initiative, the
latest tenant and landlord schemes, OIG’s          Senior Forensic Auditor Loretta Burns
Felony Fugitive mission, OIG partners, “Red    and ASAC Phyllis Grissom made a
Flags,” and some of the most current           presentation to the Greater Ft. Worth
prosecutorial initiatives within the Region.   Association of Realtors, Ft. Worth, TX, on

      ASAC Brad Geary and ASAC Ray
Espinosa provided a fraud presentation to
Chapter 7 Trustees, Chapter 13 Trustees,
                                               July 18, 2005. The presentation was made
                                               to approximately 50 realtors from the Ft.
                                               Worth area regarding current mortgage
                                               fraud issues.
                                                                                              Outreach Efforts
and representatives from the United States
Trustees Office in Lake Delavan, WI. These          ASAC Lori J. Chan and SA James
individuals represented Region 11 for the      Carrieres gave a presentation for the
United States Trustee, which is comprised      Mortgage Bankers Association in San
of the entire state of Wisconsin and the       Francisco, CA, training entitled “Detecting
Northern District of Illinois. The session     and Preventing Mortgage Fraud.” The
focused on HUD FHA loan fraud and how          presentation provided an overview of HUD
it interacts/crosses over with bankruptcy      OIG and reviewed case studies of
fraud. More than 200 people were in            successful single-family fraud cases that



Outreach Efforts                                                                              141
                       were prosecuted in Arizona. There were         Ohio Housing Authorities Conference
                       approximately 65 individuals from across       (OHAC) on September 22, 2005. OHAC
                       the Nation in attendance.                      and the Columbus, OH, Office of Public
                                                                      Housing requested that OIG staff speak at
                            Region 6 ARIGA Theresa Carroll was        the Conference in Dublin, OH. The OA’s
                       the speaker at the Ft. Worth, TX, Chapter      presentation provided a brief background
                       of the Association of Government               on HUD OIG, a description of why
                       Accountants on September 27, 2005. The         auditing public housing authority nonprofit
                       event was attended by accountants and          development activities is a HUD OIG
                       auditors in the Fort Worth, TX, area. Ms.      priority, and a synopsis of the nonprofit
                       Carroll spoke about how HUD OIG has            development activities audits issued by the
                       revised its audit process to comply with the   OA.
                       Government Performance Results Act in
                       the area of public housing.                         Senior Auditor Kelly Anderson and
                                                                      Auditor Anthony Smith, Region 5,
                            ARIGAs Tanya Voigt and Vince              participated in Bradley University’s Fall Job
                       Mussetter, along with ASAC Tony Meeks          Fair in Peoria, IL, on September 22, 2005.
                       and ARIGA Tony Putzulu, gave a                 Ms. Anderson and Mr. Smith spoke with
                       presentation to HUD Los Angeles, CA,           students about OIG’s mission and the
                       field office staff about OIG in conjunction    benefits of pursuing a career in auditing
                       with a HUD cross-training effort. Ms. Voigt    and investigations. They accepted 10
                       and Mr. Mussetter provided extensive           resumes from students interested in
                       information on OIG’s mission,                  full-time employment with HUD OIG.
                       organization, and responsibilities. They
                       also talked about the audit planning,               ASAC Ruth Valdes and ARIGA Barry
                       reporting, and resolution processes. ASAC      Shulman presented a fraud awareness
                       Meeks and ARIGA Putzulu discussed the          seminar to participants in the State of
                       various types of cases pursued by their        Florida Small Cities Community
                       office and the importance of reporting         Development Block Grant (CDBG)
                       fraud, waste, and abuse to OIG.                Disaster Assistance Funds Program located
                                                                      in Northern Florida. These participants are
                           Region 7/8 RIGA Ron Hosking and            tasked with rebuilding communities
                       SAC Rebecca Kiser met with the HUD             affected by the four major hurricanes that
Outreach Efforts




                       Region 7 field office directors during their   hit Florida in the 2004 season. As a result
                       annual meeting in Kansas City, MO.             of the destruction caused by Hurricanes
                       RIGA Hosking and SAC Kiser gave the            Charley, Frances, Ivan, and Jeanne, the
                       directors an overview of OIG operations,       Florida Department of Community Affairs,
                       explaining how OIG identifies subjects to      which administers the Small Cities CDBG
                       audit and investigate, how OIG conducts        program, has received more than $100
                       reviews, what OIG does with the results,       million from HUD earmarked for disaster
                       and how OIG measures its work. They also       recovery assistance. ASAC Valdes
                       explained how HUD staff can help OIG do        discussed HUD OIG OI and OA and their
                       its work and reviewed the most recent          roles in preventing fraud, waste, and abuse
                       semiannual report.                             of HUD programs. ARIGA Shulman
                                                                      addressed the importance of maintaining
                           ARIGA Ronald Farrell, assisted by          adequate documentation for cost items for
                       Senior Auditor Paul Adler, spoke at the        possible future audits. The 2005 CDBG


              Outreach Efforts                                                                                  142
                                                   Lieutenant Kelley J. McCormick and
                                                   Sergeant Gary Eblan. The Youth Violence
                                                   Strike Force is responsible for addressing
                                                   the gang activity within the City of Boston.
                                                   This meeting was held to discuss gang
                                                   activity within HUD’s housing sites in the
                                                   City of Boston, MA. The meeting with
                                                   BPD detailed several local and national
                                                   gangs that are operating out of both public
                                                   and assisted housing in Boston, MA. It was
                                                   agreed that intelligence reports prepared
                                                   by BPD would be supplied to HUD OIG,
ASAC Ruth Valdes presenting at a fraud awareness   outlining the gang activity within HUD’s
seminar.
                                                   Boston housing sites for the last 6 months.

                                                       In Tyler, TX, HUD OIG Region 6
                                                   ASAC Michael Wilson and SA Stan Mercer
                                                   gave a presentation on mortgage fraud to
                                                   the East Texas Bankers Association.
                                                   Attendees were provided an overview of
                                                   OIG and were presented with case studies
                                                   on single-family investigations. ASAC
                                                   Wilson and SA Mercer detailed the
                                                   investigative methods and criminal
                                                   schemes common in single-family
                                                   investigations. Approximately 80
ARIGA Shulman addressing participants in the       mortgage bankers and law enforcement
seminar.                                           professionals were in attendance. Mortgage
                                                   fraud is a growing concern in East Texas.
Implementation Workshops, held in
Quincy, FL, and Lakeland, FL, were the                  As part of Region 5’s proactive efforts
first to involve HUD OIG participation for         to reduce fraud in HUD’s public and
the purpose of increasing awareness and            assisted housing, ASAC Ray Espinosa and
preventing possible misappropriating of
CDBG Disaster Recovery Assistance
funds. Approximately 100 CDBG
contractor participants and city, State, and
                                                   ASAC Brad Geary provided a training
                                                   session to 10 different housing authorities
                                                   in Mt. Vernon, IL. More than 50
                                                   individuals attended the session, entitled
                                                                                                  Outreach Efforts
county administrators representing                 “Combating Fraud in Assisted Housing,”
Northern and Central Florida attended              which covered the RHIIP initiative, the
the workshops on September 7-8 and                 latest tenant and landlord schemes, OIG’s
September 14-15.                                   Felony Fugitive mission, OIG partners, “Red
                                                   Flags,” and some of the most current
    ASAC Diane H. DeChellis and SA                 prosecutorial initiatives within the Region.
Jessica Piecuch of HUD OIG’s New                   This was the third training session in a
England Region met with staff from the             three-part public and assisted housing
Boston, MA, Police Department (BPD),               initiative to reach out to more than 90
Youth Violence Strike Force, to include            different housing authorities in the State


Outreach Efforts                                                                                  143
                       of Illinois. During the last 6 months, more     address HUD-related criminal issues that
                       than 300 individuals have been trained in       impact on the local agencies. His
                       these sessions. Those in attendance             presentation resulted in followup for
                       included housing authority executive            possible joint efforts by three different
                       directors and employees, HUD public             police agencies.
                       housing authority (PHA) staff, HUD
                       multifamily staff, local police officers, and        SA Jennifer Howell presented a
                       FBI agents.                                     workshop on “Mortgage Fraud” at the
                                                                       annual Emerging Trends in Fraud
                            ARIGAs Charlie Johnson and Tanya           Investigation and Prevention Conference
                       Voigt gave a presentation at the Pacific        in Columbus, OH. Approximately 65
                       Southwest Regional Council of NAHRO’s           police officers, investigators, auditors, and
                       Annual Spring Conference in Sacramento,         accountants from the public and private
                       CA. Mr. Johnson and Ms. Voigt presented         sectors were in attendance. SA Howell
                       an overview of how OIG is structured and        identified red flags common in mortgage
                       its audit and investigative responsibilities    fraud schemes while discussing the various
                       and spoke on the topic, “Problems               types of schemes that occur in HUD
                       Frequently Encountered at Public Housing        mortgage fraud investigations. The
                       Authorities.”                                   conference was presented by the
                                                                       Association of Certified Fraud Examiners
                           SA Scott Savedow conducted a single-        in conjunction with the Ohio State Auditor,
                       family fraud presentation to the South          Ohio State Attorney General, National
                       Florida Appraisal Institute in Boca Raton,      White Collar Crime Center, Ohio Society
                       FL. SA Savedow discussed the impact and         of Certified Public Accountants, Ohio
                       consequences of loan origination fraud          Investigators Association, and the Ohio
                       on HUD FHA to increase awareness                Office of Criminal Justice.
                       of common fraudulent schemes.
                       Approximately 100 appraisers representing           SA Eric Huhtala made a presentation
                       all areas of Florida attended the               to 60 attendees at the HUD Sacramento,
                       presentation.                                   CA, Multifamily Housing Industry Meeting
                                                                       in Sacramento, CA. The presentation
                            SA Daniel Harding of the Baltimore         consisted of a general overview of OIG’s
                       field office spoke to the Eastern Shore (MD)    mission and role in investigating and
Outreach Efforts




                       Investigator’s Conference in Suddlersville,     prosecuting fraud. Information was also
                       MD, which included attendees from               provided on detecting, preventing, and
                       almost 20 police departments/agencies.          reporting fraud. Also present during the
                       SA Harding discussed the OIG mission and        presentation were ASAC Lori Chan and
                       priorities, with particular emphasis on         SA Keith Fong.
                       mortgage, bankruptcy, and rental
                       assistance fraud. He highlighted pertinent          On August 23, 2005, in Los Angeles,
                       rules and criminal statutes pertaining to       CA, SA Neil McMullen and ASAC Tony
                       rental assistance fraud and OIG’s emphasis      Meeks met with the SAC and Supervisory
                       on removing HUD-assisted tenants who            SA of the California Department of Justice
                       engage in criminal activity or otherwise        (DOJ), Bureau of Investigations, Sex
                       violate pertinent leasehold requirements.       Offender Task Force (“Los Angeles County
                       He encouraged joint enforcement efforts to      290 Task Force”). This meeting focused on



              Outreach Efforts                                                                                   144
the importance of a collaborative effort       prosecuted in Arizona. There were
between the task force and HUD OIG to          approximately 40 individuals from the local
achieve the common goal of identifying,        HUD office in attendance.
tracking, and monitoring sex offenders in
Southern California. ASAC Meeks                     SA Nancy Valencic presented a
described HUD OIG’s Sex Offender               training session on “Section 8 Fraud
Registry Matching initiative and how this      Schemes and Remedies” to approximately
initiative strives to prevent such offenders   80 attendees at the Kentucky Housing
from illegally receiving and/or residing in    Association annual conference and training
government-subsidized housing. ASAC            seminar held in Belterra, IN. The training
Meeks further explained how OIG agents         session included case examples of tenant
are aggressively working with various local    and landlord fraud schemes, multifamily
housing authorities to develop a more          equity skimming, theft, and cases involving
efficient process and to identify those        housing authority employees. Topics of
already receiving HUD subsidies. The task      discussion also included Federal and State
force supervisors agreed to allow a HUD        statues currently being used by prosecutors,
OIG agent to be assigned as an “affiliated     thresholds for criminal prosecution, and
agency” ad hoc provisional member,             what is required to present a case for
which will allow the sharing of                prosecution. Attendees were provided
investigative intelligence information.        contact information for the Nashville HUD
                                               OIG office for future referrals.
     Acting ASAC Daniel Ellis and SA
Louis Mancini met with employees of the             SA Don Varner attended the 2 nd
Chester, PA, Housing Authority, including      Annual Georgia Real Estate Fraud
the executive director, counsel, and rental    Prevention and Awareness Conference in
assistance supervisors, to acquaint them       College Park, GA. The conference focused
with OIG’s role regarding tenant fraud and     on the recently signed Georgia Residential
discuss a potential initiative with the        Mortgage Loan Fraud Act and industry
Authority. ASAC Ellis and SA Mancini           best practices. The title of this year’s
provided an overview of OIG                    conference was “Honesty, Integrity &
responsibilities, mission, and goals with      Ethics, a Future without Fraud.” Keynote
regard to tenant fraud, which included a       speakers included U.S. Attorney for the
summary of OIG successes in obtaining          Northern District of Georgia David
both Federal and local prosecution of
egregious tenant fraud cases or in
“packaging” groups of cases for impact
and deterrent purposes. They also
                                               Nahmias and David McLaughlin, State of
                                               Georgia Assistant Attorney General.
                                               Topics included loan officer and appraisal
                                               practices, fraud schemes, prevention
                                                                                               Outreach Efforts
discussed procedures and protocols for         awareness for industry professionals,
identifying potential fraud cases and          prosecution, and statutes. The Mortgage
referring them to OIG for investigation.       Asset Research Institute presented
                                               statistical data to include the current most
     SA James Carrieres gave a presentation    challenged states for loan origination fraud,
to the Phoenix, AZ, HUD staff during an        which placed Georgia first on the scale,
all employees meeting. SA Carrieres            South Carolina second, Florida third, and
provided an overview of HUD OIG                North Carolina fifth. SA Varner provided
investigations and provided examples of        contact information for the Atlanta
successful fraud cases that were               Regional Office.


Outreach Efforts                                                                               145
                            SA Keith Williams and ASAC Timothy        Poor’s Corporation. Approximately 150-
                       A. Mowery presented a seminar on fraud         200 attended the session, which was
                       awareness and the various responsibilities     followed by a question and answer session.
                       of HUD OIG to the Florida Association of
                       Housing and Redevelopment Officials                SA Teresa Carson gave a presentation
                       (FAHRO) during FAHRO’s 2005 annual             to members of NAHRO at their annual
                       convention in Daytona, FL. FAHRO is            Spring Conference in Sacramento, CA, on
                       comprised of public housing officials,         the topic, “Preventing, Detecting, and
                       employees, and other individuals               Combating Fraud Through Education and
                       representing public housing entities and       Partnership.” PHA and industry officials
                       interests throughout the State of Florida.     located in Washington, Oregon, California,
                       Their respective funding is primarily HUD      Arizona, and Nevada attended the
                       subsidies administered through HUD’s           conference.
                       Offices of Public Housing in Jacksonville
                       and/or Miami. The seminar addressed the             Region 4 SAs Angela Stewart and
                       various initiatives in which HUD OIG is        Malinda Antonik provided training to
                       involved, including the Sexual Offender,       approximately 40 executive directors at the
                       Fugitive Felon, Section 8 Tenant, and          Alabama Public Housing Authority
                       Landlord Fraud initiatives. Attendees were     Directors Association Training Conference
                       provided a PowerPoint presentation             in Opelika, AL. Topics included housing
                       illustrating common fraud schemes, fraud       authority crimes such as embezzlement,
                       indicators, measures to help prevent fraud,    contractor fraud, and tenant and landlord
                       and an overview of HUD OIG’s
                                                                      fraud. Detailed training was provided on
                       responsibilities to the OIG mission and were
                                                                      identifying tenant fraud, referring matters
                       provided contact information for reporting
                                                                      to HUD OIG, and the types of information
                       fraudulent activity to HUD OIG, both
                                                                      and documentation needed by HUD OIG
                       locally and nationally. The seminar
                       concluded with a question and answer           in support of an investigation. Training
                       session, which revealed that a number of       was also conducted on enforcement of
                       attendees were interested in referring         HUD’s One Strike Policy and Public Law
                       fraudulent activity to HUD OIG.                104-193 regarding probation and parole
                                                                      violators. Examples of successful
                            SA Jim Siwek and SA Bob Wenzel            prosecutions, sample documents, and
Outreach Efforts




                       gave a presentation at the Mortgage            valuable case law were provided to those
                       Bankers Association Quality Assurance          in attendance.
                       Conference in Chicago, IL.            The
                       presentation was part of a forum                   From April 4 through April 7, 2005,
                       discussing quality assurance requirements,     the HUD OIG Newark, NJ, office along
                       recent developments, quality hot button        with Newark HUD officials participated in
                       issues, and trends in mortgage fraud. The      TopOff 3, an international antiterrorism
                       forum outlined issues and trends occurring     exercise designed to strengthen the
                       in the mortgage industry and the methods       Nation’s capacity to prevent, prepare for,
                       being used to help detect and deter            respond to, and recover from large-scale
                       mortgage fraud. The panel members              attacks involving weapons of mass
                       included individuals from Fannie May,          destruction. This exercise simulated the
                       Freddie Mac, HUD, and Standard and             release of pneumonic plague in New



              Outreach Efforts                                                                                146
Jersey, the explosion of a chemical bomb      authorities, first responders, the private
in New London, CT, and the explosion of       sector, and medical communities. This full-
a chemical bomb in the United Kingdom         scale exercise involved more than 12,000
by a foreign terrorist network.               participants in New Jersey alone.
Participation in this exercise included 275   Authorities in Washington, DC, and
Federal, State, and local government          Canada also participated in this exercise.




                                                                                            Outreach Efforts


Outreach Efforts                                                                            147
        Chapter 8




Review of Policy Directives
                                       R    eviewing        and
                                                   recommendations on
                                                                     making

                                 legislation, regulations, and policy issues is
                                                                                      The Department issued the rule as
                                                                                  originally written.

                                 a critical part of the Office of Inspector       Housing Opportunities for Persons
                                 General’s (OIG) responsibilities under the       with AIDS
                                 Inspector General Act. During this
                                 6-month reporting period, the OIG                     This rule is proposed for the Housing
                                 reviewed 117 policy notices. This                Opportunities for Persons with AIDS
                                 chapter highlights some of the OIG               (HOPWA) program to improve the
                                 recommendations on these notices as well         partnership with the recipient states, local
                                 as other policy directives.                      governments, and nonprofit organizations
                                                                                  that plan, develop, operate, and evaluate
                                 Proposed Rules                                   the housing assistance and related
                                                                                  supportive services programs in their areas.
                                                                                  These changes are intended to ensure that
                                 FR-4712-01 Disposition of                        recipients undertake activities that meet the
                                 HUD-Acquired Single-Family                       current requirement for an ongoing
                                 Property-Good Neighbor Next Door                 assessment of the housing assistance and
                                                                                  supportive services required by program
                                      The U.S. Department of Housing and          participants. The rule should clarify how
                                 Urban Development (HUD) issued a                 an individual housing service plan would
Review of Policy Directives




                                 proposed rule to expand the eligibility of       be developed to guide the assistance
                                 the Officer Next Door (OND) and Teacher          provided to beneficiaries in relation to the
                                 Next Door (TND) programs to full time            program’s performance goals.
                                 law enforcement officers including tribal
                                 officers, firefighters, and emergency rescue          OIG commented because the proposed
                                 workers under a “Good Neighbor Next              rule change does not address the following
                                 Door” title. The program typically gives a       requirements that the Inspector General
                                 50 percent price reduction as an incentive       believes are important areas: 1) capacity
                                 to these potential buyers of HUD single-         of the grantee and 2) audits of the grantee’s
                                 family properties located in urban               financial management systems. The Code
                                 revitalization areas.                            of Federal Regulations requires that the
                                                                                  grantee ensure any project sponsor selected
                                     OIG commented that the proposed              to carry out an activity shall have the
                                 changes to the OND/TND program                   capacity and capability to effectively
                                 appear to remain vulnerable to abuse and         administer the activity. The Code further
                                 may not achieve the stated purpose of            requires that the financial management
                                 reducing neighborhood crime rates and            system used by State or local governments
                                 urban blight. A sufficient inventory of          that are grantees provide for audits.
                                 properties in the targeted areas nationwide
                                 is not available to effect timely and                The proposed rule has not been
                                 measurable neighborhood change, and,             published as of the end of this semiannual
                                 consequently, expanding eligibility to other     reporting period.
                                 special occupations does not appear
                                 warranted or workable.




                        Review of Policy Directives                                                                         150
Use of Capital and Operating Funds             measures to preclude housing agencies
for Financing Activities                       from constructing new units to replace
                                               units converted from the low-income
                                               program to the Section 8 voucher program
Conversion of Developments from                and building units that cost more to operate
Public Stock: Methodology for                  under the low-income program. OIG did
Comparing Costs of Public Housing              not concur with the draft rule because
                                               HUD did not establish the necessary
and Tenant-Based Assistance                    preventive control measures.

Public Housing Capital Fund                         For the Use of Capital and Operating
                                               Funds for Financing Activities rule, the
    The following information about the        Office of Management and Budget (OMB)
above three subject draft rules was            determined this rule as a “significant
included in the March 31, 2005,                regulatory action” and required an
Semiannual Report to Congress, and HUD         economic analysis. The proposed bond rule
has not reached a final decision. Therefore,   contained the OMB-required analysis of
OIG is repeating the issues in this report.    proposed need; however, it did not contain
                                               the examination of alternative approaches
     For the three subject draft rules, the    and an evaluation of the benefits, costs,
Office of Public and Indian Housing (PIH)      quantitative factors, and qualitative




                                                                                              Review of Policy Directives
has not conducted a risk assessment. The       measures of the proposed action and the
Appropriations Act mandates that a risk        main alternative approaches. In addition
assessment be conducted on each program.       to the previously mentioned factors, OIG
The Department policy and handbooks            cannot concur with this proposed rule
provide the method for meeting the             because it cannot conduct an appropriate
statutory requirement relating to a risk       analysis of the proposed rule without the
assessment and provide that a risk             required economic information.
assessment must be completed before
issuing a rule. Until the risk assessment is        HUD is considering OIG’s noncurring
completed or the PIH office obtains a          comments and is completing risk
waiver of the policy from the Chief            assessments for the Capital Fund and
Financial Officer, OIG cannot concur with      Operating Funds draft rules. HUD has
the proposed rules.                            completed a risk assessment for the draft
                                               rule on conversion of developments.
     The Housing Act of 1937 as amended
allows housing agencies to develop units       Revision to the Public Housing
using capital funds but limits the             Operating Fund Program (Final
development of new units to the number
of units in the housing agency inventory
                                               Rule)
at October 1, 1999. OIG did not concur
with the proposed rules because HUD has            The proposed final rule amends the
not established a control method to ensure     regulations of the Public Housing Operating
the housing agencies do not build more         Fund program to provide a new formula
units than entitled under the statute.         for distributing operating subsidies to
Further, regarding the conversion rule, the    public housing agencies and to establish
Department did not establish control           requirements for housing agencies to


Review of Policy Directives                                                                   151
                                 convert to asset management. Annually,         certification, HUD is authorized to require
                                 about $3 billion in operating subsidies is     an independent auditor to substantiate
                                 disbursed through the formula. OMB             each certification submitted by the agency
                                 identified the draft rule as being             and withhold assistance to pay for the
                                 economically significant.                      review. The statutory requirement extends
                                                                                beyond the single audit compliance
                                      OIG provided the following comments       supplement scope and will generate a
                                 to the PIH office concerning the proposed      separate procurement for an attestation
                                 rule.                                          engagement. The draft rule does not
                                                                                provide the organizational element
                                                                                accountable for procuring this attestation
                                      Executive Order 12898 requires HUD
                                                                                engagement, the indicators identifying the
                                 to identify and address human health and
                                                                                need for the attestation engagement, and
                                 environmental effects of its policies,
                                                                                the requirement for withholding funds.
                                 programs, and activities on minority
                                 populations and low-income populations.             Further, the United States Housing Act
                                 Additionally, it requires HUD to collect,      of 1937 as amended states that the formula
                                 maintain, and analyze information              should provide an incentive to encourage
                                 assessing environmental and human health       housing authorities to facilitate increases
                                 risks borne by populations identified by       in earned income by families in occupancy
                                 race, national origin, or income. This is      and the incentive may be used only to
Review of Policy Directives




                                 important to ensure that nonassisted low-      benefit low-income housing or residents of
                                 income families are not adversely affected     the agency. The draft rule does not provide
                                 by the placement of assisted families.         for control measures to ensure the benefits
                                                                                accruing to the agency are used for low-
                                      The Department issued the                 income housing or for residents of the
                                 “Regulatory Impact Analysis of Revisions       agency.
                                 to the Operating Fund Program,” subject
                                 to OMB Circular A-4. It specified the              The PIH office is currently revising the
                                 proposed need for the formula as required      draft final rule.
                                 by the circular. However, its discussion on
                                 the different alternative approaches to the
                                 proposed rule did not comply with the
                                                                                Proposed Notices
                                 circular regarding the enforcement
                                 methods, different degrees of stringency,      Using HOME Tenant-Based Assistance
                                 different requirements for different           to Mitigate Displacement
                                 geographic regions, performance
                                 standards, market versus direct controls,           The HUD draft notice describes how
                                 and informational measures rather than         participating jurisdictions can use Home
                                 regulations. Also, its cost-benefit analysis   Ownership Made Easy (HOME) funds to
                                 did not comply with the circular regarding     mitigate the displacement of low-income
                                 baseline comparisons, cost savings, final      tenants who are losing their monthly
                                 outcomes, and quality of life issues.          Housing Choice Voucher rental subsidy
                                                                                because the local housing authority must
                                     The United States Housing Act of 1937      terminate housing assistance payments
                                 as amended states that to ensure the           contracts with the tenants’ landlords due
                                 accuracy of any housing agency                 to insufficient subsidy funds.

                        Review of Policy Directives                                                                      152
    OIG did not concur with the proposed       law or executive policy. Therefore, HUD
notice for the following reasons:              publishes notices of proposed rule making
                                               in the Federal Register and gives interested
     The HOME Investment Partnership           persons an opportunity to participate in
Act states funds may not be used to provide    the rule making through submission of
tenant-based rental assistance or extend or    written data and arguments. Rules are
renew tenant-based assistance under            defined as all or part of any HUD
Section 8 of the United States Housing Act     statement of general or particular
of 1937. In OIG’s opinion, the draft notice    applicability and future effect designed to
is effectively extending the vouchers and      (1) implement, interpret, or prescribe law
is contrary to the provision on prohibiting    or policy or (2) describe HUD’s
funding for the Section 8 program in the       organization or its procedure or practice
statute.                                       requirements. Rule making is defined as
                                               the process for considering and formulating
     The Appropriation Acts for both fiscal    the issuance, modification, or repeal of a
years 2004 and 2005 state that no part of      rule.
the appropriation shall be available for any
program, project, or activity in excess of         The Department is considering our
amounts set forth in the budget estimates      comments. The proposed notice has not
submitted to Congress. HUD estimated in        been published.
the budget to Congress that HOME tenant-




                                                                                               Review of Policy Directives
based assistance funds would assist 13,335     Establishment of Amnesty Program at
families. The notice does not provide a        Public Housing Agencies Resulting
control measure for limiting tenant-based
assistance to 13,335 families and obtaining
                                               from Inspections of Family Income
compliance with the Appropriation Acts.
                                                   The following information was
     Executive Order 12898 requires HUD        included in the March 31, 2005,
to identify and address human health and       Semiannual Report to Congress, and HUD
environmental effects of its policies,         had not reached a final decision. Therefore,
programs, and activities on minority           OIG is repeating the issue in this report.
populations and low-income populations
and to collect, maintain, and analyze               The draft Notice PIH 2004 provides
information assessing environmental and        requirements to housing agencies that plan
human health risks borne by populations        to offer tenants amnesty as a result of the
identified by race, national origin, or        Upfront Income Verification System
income. The draft notice does not specify      detecting a difference between the tenants’
the reporting methodology to obtain            claim of income and the income reported
compliance with this executive order.          by their employers or agencies providing
                                               income assistance. The Department
    HUD regulations state that it is the       initiated the Upfront Income Verification
policy of the Department to provide for        System to reduce subsidy errors resulting
public participation in rule making with       from tenants underreporting or not
respect to all HUD programs and                reporting their income.
functions, including matters that relate to
grants, even though such matters would             OIG did not concur with this draft
not otherwise be subject to rule making by     notice because it inappropriately


Review of Policy Directives                                                                   153
                                 empowers housing agencies to decide who        compliance by major direct endorsement
                                 will be prosecuted. The U.S. Code states       lenders as part of its audit focus on FHA
                                 that the Attorney General of the United        single-family lending practices beginning
                                 States is responsible for deciding who will    in 2004. OIG found that lenders certified
                                 be prosecuted for a Federal offense. In the    full compliance and eligibility for FHA
                                 Tenth Amendment to the United States           insurance when some loans were not
                                 Constitution, the determination on who         eligible because the borrowers were in
                                 will be prosecuted under state law is          arrears on their mortgage payments. OIG
                                 reserved to state authorities.                 recommended that HUD take appropriate
                                                                                remedies to reduce noncompliance,
                                      OIG has investigated numerous cases       including loan indemnifications
                                 involving tenants who falsely reported their   and Program Fraud Civil Remedies
                                 incomes. These investigations resulted in      Act recoveries. Noncompliance was
                                 successful prosecutions or other remedial      particularly problematic during the high
                                 actions. OIG has pending investigations        refinance loan volumes of 2003-2004. It
                                 involving tenants who have defrauded PIH       remains a control concern because most
                                 housing assistance programs. The draft         ineligible late-endorsed loans are early
                                 notice threatens to jeopardize current         defaults and represent higher risks of
                                 investigations and to undermine the            foreclosure and claims against the
                                 fairness of past convictions.                  insurance fund.
Review of Policy Directives




                                     The PIH office has not issued the draft       The Department is evaluating our
                                 notice and is reconsidering its provisions.    nonconcurrence.


                                 Mortgagee Letters                              Streamline (K) Limited Repair
                                                                                Program
                                 Late Request for Endorsement                       HUD issued a mortgagee letter to
                                 Procedures/Certification Eliminated,           reduce documentation and control
                                 Proposed Mortgagee Letter                      requirements over 203(k) Rehabilitation
                                                                                Mortgage loans, an acknowledged high risk
                                      HUD drafted a mortgagee letter to         to the FHA insurance program. The
                                 remove the certification requirement from      Streamline (K) allows special treatment of
                                 the Federal Housing Administration’s           purchased properties that qualify for
                                 (FHA) late endorsement procedures. HUD         eligible repairs between $5,000 and
                                 believes the certification requirement does    $15,000. Under the standard 203(k)
                                 not materially contribute to reducing          mortgage, lenders and borrowers rely
                                 insurance risk.                                primarily on consultants to ensure
                                                                                contractor work quality and timely
                                     OIG nonconcurred because the               completion. However, the Streamline (K)
                                 certification is a critical document in        requires that borrowers develop a work
                                 supporting and enforcing departmental          plan, estimate costs, identify the vendor or
                                 remedies for noncompliance, and,               contractor, and inspect the work.
                                 therefore, OIG disagrees with its proposed
                                 elimination. HUD OIG has done                      OIG commented that relaxing controls
                                 significant testing of “late endorsement”      could expose first-time purchasers with no


                        Review of Policy Directives                                                                      154
or limited experience in home                       At the end of the March 2005
improvement projects to unreliable             semiannual reporting period, HUD was
contractors     and     unsatisfactory         reviewing OIG’s nonconcurring comments
workmanship. OIG also questioned as            on a mortgagee letter to allow premium
excessive a proposed $500 supplemental         pricing of FHA-insured mortgages to fund
loan origination fee to be paid by the         the homebuyer’s required 3 percent cash
borrower.                                      investment or downpayment. OIG
                                               commented that the proposed mortgagee
    The Department issued the letter as        letter placed no obligation on the lender to
originally drafted, except it reduced the      use the funds from premium pricing for the
amount of the supplemental loan                borrower’s benefit. OIG’s mortgagee audits
origination fee.                               disclosed that instead of helping FHA
                                               homebuyers pay closing costs, lenders used
Premium Pricing on FHA-Insured                 the monies from premium priced mortgages
Mortgages                                      to compensate loan officers and generate
                                               higher profits.
    The following information was
                                                   The Department obtained additional
included in the March 31, 2005,
                                               data on premium priced mortgages and is
Semiannual Report to Congress, and HUD
                                               reviewing the data to evaluate the risk of a
had not reached a final decision. Therefore,
                                               policy change.
OIG is repeating the issue in this report.




                                                                                              Review of Policy Directives


Review of Policy Directives                                                                   155
   Chapter 9




Audit Resolution
                            I     n the audit resolution process,
                                      Office of Inspector General
                       (OIG) and U.S. Department of Housing and
                                                                      technology systems to more effectively
                                                                      support FHA’s business and budget
                                                                      processes and improve FHA’s management
                       Urban Development (HUD) management             review of the credit reform estimation
                       agree upon the needed actions and              process. While there has been progress,
                       timeframes for resolving audit                 material weaknesses continue with respect
                       recommendations. Through this process,         to the need to (1) complete improvements
                       OIG hopes to achieve measurable                to financial systems and (2) improve
                       improvements in HUD programs and               oversight and monitoring of subsidy
                       operations. The overall responsibility for     calculations and intermediaries’ program
                       assuring that the agreed-upon changes are      performance. Corrective action plans to
                       implemented rests with HUD managers.           resolve these issues have continued to
                       This chapter describes significant pending     change, with final action targeted by the
                       issues on which resolution action has been     end of calendar year 2006.
                       delayed. It also contains a status report on
                       HUD’s implementation of the Federal            Audits of FHA ’s FY 1991 through
                       Financial Management Improvement Act           2004 Financial Statements
                       of 1996 (FFMIA). In addition to this chapter
                       on audit resolution, see appendix 2, table
                       A, “Audit Reports Issued before Start of            First issued March 27, 1992. FHA has
                       Period with No Management Decision as          prepared financial statements for 14 years
                       of September 30, 2005,” and table B,           under the Chief Financial Officers Act,
                       “Significant Audit Reports Described in        beginning with FY 1991. The audit of
                       Previous Semiannual Reports in Which           FHA’s FY 2004 financial statements
                       Final Action Had Not Been Completed as         discussed FHA’s need to improve its review
                       of September 30, 2005.”                        of the credit reform estimation process as
                                                                      a material weakness. The finding revealed
                                                                      that FHA management did not adequately
                       Delayed Actions                                review the underlying data supporting the
                                                                      assumptions in the estimation cash flow or
                                                                      functionality models. This resulted in
                       Audits of HUD ’s FY 1991 through               material errors in the FHA mark-to-market
Audit Resolution




                       2004 Financial Statements                      loan loss reserve and the liability for loan
                                                                      guarantee subsidy re-estimates. The audit
                            First issued June 30 1992. HUD has        continues to recognize that FHA needs to
                       been preparing consolidated financial          (1) improve its information technology
                       statements under the requirements of the       (primarily accounting and financial
                       Chief Financial Officers Act for 14 years      management systems) to more effectively
                       beginning with fiscal year (FY) 1991.          support FHA’s business and budget
                       Various internal control weaknesses have       processes and (2) continue to improve early
                       been reported in these audits. As a result     warning and loss prevention for single-
                       of the FY 2004 financial audit process, OIG    family insured mortgages through more
                       reported HUD’s need to comply with             emphasis on monitoring lender
                       Federal Financial Management System            underwriting and more effective use of loan
                       requirements, including the need to            portfolio risk assessment tools. A weakness
                       enhance        the   Federal      Housing      reported since the FY 1992 financial
                       Administration’s (FHA) information             statement audit relates to the need for FHA


              Audit Resolution                                                                                 158
to more effectively manage controls over       30, 2005, HUD had not initiated actions to
its information systems’ general and           (1) pursue recovery of $2,688,000 from the
application level security controls. FHA’s     owner, representing the difference between
latest action plan continues to report         the $3,663,000 the owner owed to HUD
progress toward resolving these remaining      and the $975,000 in proceeds from the
long-standing issues, with final actions       foreclosure sale; (2) pursue all applicable
targeted over the next 3 years.                administrative sanctions against the
                                               owner, including consideration of
The Family Living Adult Care Center,           debarment, limited denial of participation,
Biddeford and Saco, ME                         or suspension; (3) pursue recovery of
                                               $786,000 from the owner, representing
                                               double the $393,000 in questionable cash
     Issued November 4, 2003. OIG’s review     distributions, as stipulated in 12 U.S.C. Sec.
disclosed that the Family Living project had   1715z-4a; and (4) obtain from the owner
suffered serious financial problems,           justification supporting the more than
including a default on the HUD-insured         $62,000 in cash distributions (unsupported
mortgage, and had ceased being a               costs) to unidentified recipients or pursue
profitable entity. These problems were         recovery of more than $124,000,
caused by questionable cash distributions      representing double this amount as
(withdrawals) from the project’s bank          stipulated in 12 U.S.C. Sec. 1715z-4a.
accounts by the owner. OIG considers these     (Report No. 2004-BO-1002)
distributions, totaling more than $455,000,
to be “equity skimming” and to be in
violation of applicable Federal statutes and   Federal Financial Management
HUD regulations. From June 2000 to
February 2002, the owner diverted project      Improvement Act of 1996
funds to other businesses he owned and
for personal expenses.
                                                    FFMIA requires that HUD
    In February 2002, the State of Maine       implement a remediation plan that will
took control of Family Living due to the       bring financial systems into compliance
project’s poor financial condition and to      with Federal Financial Management




                                                                                                Audit Resolution
ensure the safety and continued care of the    System requirements within 3 years or
project’s residents. In November 2002,         obtain Office of Management and Budget
pursuant to a decision by HUD to foreclose     (OMB) concurrence if more time is needed.
on the property, the tenants were moved        FFMIA requires OIG to report in its
from the facility, and the project             semiannual reports to the Congress
discontinued operations. As of April 2003,     instances and reasons when an agency has
the owner owed HUD $3,663,000 in               not met the intermediate target dates
mortgage principal, interest, and              established in its mediation plan required
miscellaneous charges.                         by FFMIA. In April 1998, HUD determined
                                               that 38 of its systems were not in
     Due to pending court action, HUD had      substantial compliance with FFMIA. At
not completed actions to ensure that it        the end of 2005, the Department
addressed      the     audit      report’s     continued to report that 3 of its 44
recommendations. The court action was          financial management systems were not in
settled August 19, 2005. As of September       substantial compliance with FFMIA. These



Audit Resolution                                                                                159
                       three systems are Facilities Integrated       2003. This fiscal year, the Office of
                       Resources Management System (FIRMS),          Housing’s     management reported that
                       Loan Accounting System (LAS), and             improvements have been made and the
                       Housing Multifamily Insurance System          system is now substantially compliant with
                       (MFIS). HUD reported FIRMS as                 FFMIA, pending a limited review by the
                       noncompliant in its 2005 self-assessment.     Office of the Assistant Chief Financial
                       HUD is in the process of replacing LAS with   Officer for Financial Management. This
                       a commercial off-the-shelf software           limited review will be completed in
                       package in the first quarter of 2006. MFIS    October 2005.
                       was determined to be noncompliant in
Audit Resolution




              Audit Resolution                                                                              160
    Appendix 1




Audit Reports Issued
                          Internal Reports
                          9 Audit Reports
                          Chief Financial Officer (2 Reports)
                          2005-DP-0005             Security of Windows 2000 Server, 04/21/2005.
                          2005-DP-0006             Review of HUD’s Information Systems Certification and
                                                   Accreditation Process, 08/22/2005.
                          Housing (4 Reports)
                          2005-DE-0001             HUD’s Controls over Federal Housing Administration Claims
                                                   Payments, 05/12/2005. Better Use: $30,521,629.
                          2005-DP-0006             Active Partners Performance System, 07/12/2005. Better Use:
                                                   $5,780,720.
                          2005-LA-0001             Single Family Preforeclosure Sale Program, 09/13/2005. Questioned:
                                                   $744,468; Unsupported: $588,428; Better Use: $6,808,606.
                          2005-NY-0001             Title 1 Loan Debt Collection, Asset Recovery Division, Financial
                                                   Operations Center, 05/18/2005.
                          Public and Indian Housing (3 Reports)
                          2005-BO-0001             Office of Public and Indian Housing, Region 1, Boston, MA, 05/12/
                                                   2005. Better Use: $408,508.
                          2005-BO-0002             Public Housing Mortgages and Security Interest Program, 09/30/
                                                   2005. Better Use: $4,912,932.
                          2005-SE-0001             Design and Implementation of the Public Housing/Section 8 Moving
                                                   to Work Demonstration Program, 04/12/2005.
Audit Reports Issued




                          Audit-Related Memorandums*
                          Lead Hazard Controls (1 Report)
                          2005-PH-0002             Interim Memorandum Report on the Office of Healthy Homes and
                                                   Lead Hazard Control’s Issuance of Its Fiscal Year 2004 Grants,
                                                   Washington, DC, 05/16/2005.




                          * The memorandum format is used to communicate the results of reviews not performed in accordance
                          with generally accepted government auditing standards, to close out assignments with no findings and
                          recommendations, to respond to requests for information, to report on the results of a survey, to report
                          results, or to report the results of civil actions or settlements.



                 Audit Reports Issued                                                                                                162
External Reports
72 Audit Reports
Community Planning and Development (8 Reports)
2005-AT-1013           Corporacion para el Fomento Economico de la Ciudad Capital, San
                       Juan, PR, 09/15/2005. Questioned: $3,588,348; Unsupported:
                       $1,642,996; Better Use: $4,099,501.
2005-CH-1018           Mount Union College Economic Development Initiative Special
                       Purpose Grant (B-02-SP-OH-0555), Alliance, OH, 09/28/2005. Better
                       Use: $1,000,000.
2005-CH-1019           City of Carmel, IN, Economic Development Initiative Special
                       Purpose Grant (B-02-SP-IN-0220), 09/28/2005. Better Use:
                       $1,000,000.
2005-CH-1021           City of Indianapolis, IN, Economic Development Initiative Special
                       Purpose Grant (B-03-SP-IN-0240), 09/30/2005. Better Use:
                       $134,123.
2005-FW-1008           City of New Orleans, LA, Did Not Contribute Approximately $3.6
                       Million in HOME Funds, 04/08/2005. Questioned: $3,591,209;
                       Unsupported: $3,591,209.
2005-LA-1006           Maricopa HOME Consortium/City of Mesa, AZ, HOME Program,
                       07/28/2005. Questioned: $570,000.
2005-NY-1008           Lower Manhattan Development Corporation, Community
                       Development Block Grant Program, Disaster Assistance Fund,
                       New York, NY, 09/27/2005. Better Use: $8,469,385.




                                                                                           Audit Reports Issued
2005-PH-1013           Review of the Commonwealth of Pennsylvania’s HOME
                       Investment Partnership Program, Harrisburg, PA, 07/29/2005.
                       Questioned: $79,070; Better Use: $6,930,916.
Housing (35 Reports)
2005-AT-1014           National City Mortgage Company, Miamisburg, OH, 09/15/2005.
                       Questioned: $326,132; Unsupported: $159,690; Better Use:
                       $153,674.
2005-BO-1007           Fairfield Financial Mortgage Group, Inc., Danbury, CT, 09/26/
                       2005. Better Use: $1,204,981.
2005-BO-1008           Suburban Mortgage Associates, Inc., Providence, RI, 09/30/2005.
                       Questioned: $229,673; Better Use: $26,256,580.
2005-CH-1009           Union Federal Bank of Indianapolis, Supervised Direct
                       Endorsement Lender, Fort Wayne, IN, 04/07/2005. Questioned:
                       $209,528; Unsupported: $209,528; Better Use: $965,777.
2005-CH-1012           Savannah Trace Apartments, Multifamily Equity Skimming,
                       Kalamazoo, MI, 08/04/2005. Questioned: $8,665; Unsupported:
                       $1,045.




Audit Reports Issued                                                                       163
                          2005-CH-1013   Ivan Woods Senior Apartments, Multifamily Equity Skimming,
                                         Lansing, MI, 08/05/2005. Questioned: $13,279; Unsupported:
                                         $3,089.
                          2005-CH-1015   National City Mortgage Company, Nonsupervised Lender,
                                         Miamisburg, OH, 08/23/2005. Questioned: $5,500,905;
                                         Unsupported: $3,194,948; Better Use: $63,543,360.
                          2005-CH-1016   Petersen Health Center, Multifamily Equity Skimming,
                                         Rhinelander, WI, 09/16/2005. Questioned: $728,801.
                          2005-DE-1003   Citywide Home Loans, Salt Lake City, UT, 05/04/2005.
                          2005-DE-1004   Aspen Home Loans, American Fork, UT, 05/06/2005. Better Use:
                                         $130,230.
                          2005-FW-1009   Allied Home Mortgage Capital Corporation, Houston, TX,
                                         05/24/2005.
                          2005-FW-1010   Broad Street Mortgage Company, Subsidiary of Fieldstone
                                         Mortgage Company, San Antonio, TX, 05/26/2005. Better Use:
                                         $2,324,196.
                          2005-FW-1011   Harry Mortgage Company, Oklahoma City, OK, 06/01/2005.
                                         Better Use: $138,061.
                          2005-FW-1013   First Mortgage Company, Oklahoma City, OK, 08/03/2005.
                                         Questioned: $37,086; Better Use: $62,879.
                          2005-FW-1014   Realty Mortgage Corporation, Flowood, MS, 09/12/2005.
                                         Questioned: $1,277.
                          2005-FW-1015   MortgageIT Incorporated, New York, NY, 09/15/2005.
                                         Questioned: $1,407.
Audit Reports Issued




                          2005-FW-1016   Aegis Wholesale Corporation, Houston, TX, 09/16/2005.
                                         Questioned: $581; Better Use: $58,088.
                          2005-FW-1017   Allied Home Mortgage Corporation, Houston, TX, 09/22/2005.
                                         Questioned: $1,919; Better Use: $123,028.
                          2005-FW-1019   Wells Fargo, Des Moines, IA, 09/28/2005. Questioned: $75,793;
                                         Better Use: $383,469.
                          2005-KC-1005   Mortgage Express Incorporated, La Vista, NE, 04/21/2005.
                          2005-KC-1006   Corinthian Mortgage Corporation, Mission, KS, 05/13/2005.
                                         Questioned: $191,639; Unsupported: $191,049; Better Use:
                                         $297,269.
                          2005-KC-1007   Union Planters Bank, Memphis, TN, 07/07/2005. Questioned:
                                         $641; Better Use: $74,333.
                          2005-KC-1009   Washington Mutual Bank, Seattle, WA, 09/30/2005. Questioned:
                                         $87,639; Better Use: $224,901.
                          2005-LA-1003   First Source Financial USA, Henderson, NV, 05/12/2005.
                                         Questioned: $159,663; Better Use: $389,000.
                          2005-LA-1007   KB Home Mortgage Company, Las Vegas, NV, 08/12/2005.
                                         Questioned: $79,260; Better Use: $537,578.


                 Audit Reports Issued                                                                    164
2005-LA-1010           First Magnus Financial Corporation, Las Vegas, NV, 09/23/2005.
                       Questioned: $204,826; Better Use: $127,893.
2005-LA-1011           KB Home Mortgage, Phoenix, AZ, 09/26/2005. Questioned:
                       $446,999; Unsupported: $291,974; Better Use: $781,082.
2005-NY-1007           Security Atlantic Mortgage Company, Inc., Edison, NJ,
                       09/16/2005. Questioned: $242,848; Unsupported: $6,874; Better
                       Use: $3,048,552.
2005-NY-1009           Golden First Mortgage Corporation, Nonsupervised Direct
                       Endorsement Lender, Great Neck, NY, 09/28/2005. Questioned:
                       $259,154; Better Use: $1,118,717.
2005-PH-1010           Rudolphy/Mercy-Douglass Home for the Blind, Philadelphia, PA,
                       04/13/2005. Better Use: $37,658.
2005-PH-1011           America House, Incorporated, and Its Subsidiaries, Marshall, VA,
                       06/01/2005.
2005-PH-1015           Gateway Funding Diversified, Lender Review, Cherry Hill, NJ,
                       08/11/2005. Better Use: $690,241.
2005-SE-1006           Washington Mutual Bank, Seattle, WA, 07/05/2005. Questioned:
                       $1,091,214; Unsupported: $907,612; Better Use: $18,695,820.
2005-SE-1007           City Bank, Puyallup, WA, 09/16/2005. Questioned: $349,059;
                       Unsupported: $323,004; Better Use: $1,068,997.
2005-SE-1008           Idaho Housing and Finance Association, Boise, ID, 09/16/2005.
                       Questioned: $15,747,156; Better Use: $1,339,881.
Public and Indian Housing (29 Reports)
2005-AT-1009           The Housing Authority of Fulton County, Atlanta, GA,




                                                                                          Audit Reports Issued
                       04/21/2005. Questioned: $2,100,552; Unsupported: $2,100,552;
                       Better Use: $640,221.
2005-AT-1010           The Chattanooga, TN, Housing Authority, 06/09/2005.
                       Questioned: $9,201; Better Use: $4,835,024.
2005-AT-1011           The Housing Authority of High Point, NC, 06/27/2005. Better
                       Use: $524,337.
2005-AT-1012           The Town of Crossville, TN, Housing Authority, 07/06/2005.
                       Questioned: $547,800; Better Use: $36,000.
2005-AT-1015           The Municipality of San Juan, PR, Housing Authority, Section 8
                       Housing Choice Voucher Program, 09/29/2005. Questioned:
                       $544,566; Unsupported: $121,638; Better Use: $559,165.
2005-BO-1003           Milford, CT, Housing Authority, Audit of Selected Programs,
                       04/25/2005. Questioned: $407,168; Unsupported: $3,735; Better
                       Use: $1,118,628.
2005-BO-1004           Bridgeport, CT, Housing Authority, Housing Choice Voucher and
                       Low-Income Public Housing Program Deficiencies, 07/29/2005.
                       Questioned: $2,330,692; Unsupported: $1,101,060; Better Use:
                       $1,465,688.


Audit Reports Issued                                                                      165
                          2005-BO-1005   Fall River, MA, Housing Authority, 08/31/2005. Questioned:
                                         $3,530,080.
                          2005-BO-1006   The Hartford, CT, Housing Authority, 09/06/2005. Questioned:
                                         $3,702,403.
                          2005-CH-1010   Kankakee County, IL, Housing Authority, Low-Rent Housing
                                         Program, 04/08/2005. Questioned: $129,772; Better Use: $75,396.
                          2005-CH-1011   Stark Metropolitan Housing Authority, Nonprofit Development
                                         Activities, Canton, OH, 05/31/2005. Questioned: $696,592;
                                         Unsupported: $528,402; Better Use: $261,182.
                          2005-CH-1014   Kankakee County, IL, Housing Authority, Low-Rent Unit
                                         Conditions, 08/05/2005. Questioned: $129,141; Better Use:
                                         $254,735.
                          2005-CH-1017   Flint, MI, Housing Commission, Section 8 Housing Program,
                                         09/23/2005. Questioned: $136,467; Better Use: $701,71.
                          2005-CH-1020   Housing Authority of the City of Gary, IN, Section 8 Housing
                                         Program, 09/29/2005. Questioned: $1,861,053; Unsupported:
                                         $814,274; Better Use: $8,318,795.
                          2005-DE-1005   The Housing Authority of the County of Salt Lake, UT,
                                         09/16/2005. Better Use: $375,000.
                          2005-FW-1012   The Housing Authority of the City of Houston, TX, 07/20/2005.
                                         Questioned: $1,960; Better Use: $1,102,162.
                          2005-FW-1018   The Housing Authority of the City of Houston, TX, Section 8
                                         Housing Choice Voucher Tenants and Units, 09/27/2005.
                                         Questioned: $7,448,762; Unsupported: $7,448,762; Better Use:
Audit Reports Issued




                                         $7,939,494.
                          2005-KC-1004   The Kansas City, KS, Housing Authority, 04/18/2005.
                          2005-KC-1008   St. Louis, MO, Housing Authority, 07/28/2005. Questioned:
                                         $24,750; Better Use: $173,618.
                          2005-LA-1004   Housing Authority of the County of Marin, San Rafael, CA,
                                         05/20/2005. Questioned: $318,139.
                          2005-LA-1005   Housing Authority of the City of Inglewood, CA, 07/11/2005.
                                         Questioned: $1,836,282; Unsupported: $1,836,282.
                          2005-LA-1008   Housing Authority of the City of Inglewood, CA, Portability,
                                         08/26/2005. Better Use: $1,991,283.
                          2005-LA-1009   Housing Authority of the City of Inglewood, CA, Housing Quality
                                         Standards, 09/07/2005. Questioned: $295,686; Unsupported:
                                         $261,411.
                          2005-NY-1005   The Housing Authority of the City of Newark, NJ, Bond Financing
                                         Activities and Section 8 Housing Choice Voucher Administrative
                                         Fee Reserves, 05/26/2005. Questioned: $6,524,886; Better Use:
                                          $729,423.




                 Audit Reports Issued                                                                   166
2005-NY-1006             Syracuse, NY, Housing Authority, Section 8 Housing Choice
                         Voucher Program, 08/10/2005.
2005-PH-1009             Richmond, VA, Redevelopment and Housing Authority,
                         04/08/2005. Questioned: $7,552,981; Better Use: $60,956.
2005-PH-1012             The Lycoming County Housing Authority, Williamsport, PA,
                         06/06/2005. Better Use: $2,888,300.
2005-PH-1014             McKeesport, PA, Housing Authority, Section 8 and Public
                         Housing Programs, 07/29/2005.
2005-SE-1005             Housing Authority of the City of Tacoma, WA, 05/24/2005.
                         Questioned: $33,012.


Audit-Related Memorandums*
General Counsel (1 Report)
2005-CH-1803             Actions under Program Fraud Civil Remedies Act, Charles
                         Gahan, Former Loan Officer of AIM Financial, Inc., Caledonia,
                         MI, 09/15/2005. Questioned: $15,000.
Housing (2 Reports)
2005-AT-1801             Residential Lending Corporation, Direct Endorsement Mortgagee,
                         Duluth, GA, 06/30/2005.
2005-AT-1804             American Financial Network, Direct Endorsement Lender, Boca
                         Raton, FL, 09/29/2005.
Public and Indian Housing (2 Reports)




                                                                                                           Audit Reports Issued
2005-AT-1802             Housing Authority of Winston-Salem, NC, 08/23/2005.
2005-AT-1803             Montgomery, AL, Housing Authority, Section 8 Housing Choice
                         Voucher Program, 09/07/2005. Questioned: $3,920.




* The memorandum format is used to communicate the results of reviews not performed in accordance
with generally accepted government auditing standards, to close out assignments with no findings and
recommendations, to respond to requests for information, to report on the results of a survey, to report
results, or to report the results of civil actions or settlements.



Audit Reports Issued                                                                                       167
Appendix 2




  Tables
                                                 Table A
                           Audit Reports Issued Prior to Start of Period with No
                              Management Decision as of September 30, 2005
                      * Significant Audit Reports Described in Previous Semiannual Reports

              Report Number & Title            Reason for Lack of                      Issue Date/Target
                                               Management Decision                     for Management
                                                                                       Decision
              * 2005-CH-1004           At the end of the semiannual period,                   12/22/2004
              Lakewood Care Center,    management decisions had not been                      10/31/2005
              Multifamily Equity       reached on two of four reported
              Skimming,                recommendations. The Inspector General
              Milwaukee, WI            referred the issue to the Deputy Secretary in
                                       June 2005 because agreement could not be
                                       reached with the Office of Housing. The
                                       Deputy Secretary subsequently asked the
                                       Office of Housing to meet with the Inspector
                                       General’s staff to further attempt to reach
                                       agreement. The Office of Housing’s
                                       proposed timetable to accomplish the
                                       regulatory changes to Section 232 projects
                                       was unacceptable. Strengthening the
                                       regulatory agreement has been a matter of
                                       concern to Congress. The Office of
                                       Housing’s proposed 21-month timetable
                                       did not show priority to the matter and was
                                       contrary to the OIG recommended
                                       completion date of September 30, 2006.
                                       Additionally, the Office of General Counsel
                                       informed OIG that 12 months is the average
                                       length of time needed to get a final rule
                                       published. After further consideration, on
                                       October 7, 2005, the Office of Housing
                                       agreed to initiate notice and comment
                                       rulemaking and publish a final rule with a
                                       target date of December 31, 2006.

              * 2005-CH-1005           At the end of the semiannual period,                   01/12/2005
              Wood Hills Assisted      management decisions had not been                      10/31/2005
              Living Facility,         reached on two of five reported
              Multifamily Equity       recommendations. The Inspector General
              Skimming,                referred the issue to the Deputy Secretary in
              Kalamazoo, MI            June 2005 because agreement could not be
                                       reached with the Office of Housing. The
                                       Deputy Secretary subsequently asked the
                                       Office of Housing to meet with the Inspector
                                       General’s staff to further attempt to reach
Tables




                                       agreement. The Office of Housing’s
                                       proposed timetable to accomplish the
                                       regulatory changes to Section 232 projects




     Tables                                                                                            170
 Report Number & Title           Reason for Lack of                   Issue Date/Target
                                 Management Decision                  for Management
                                                                      Decision

                         was unacceptable. Strengthening the
                         regulatory agreement has been a matter of
                         concern to Congress. The Office of Housing’s
                         proposed 21-month timetable did not show
                         priority to the matter and was contrary to the
                         OIG recommended completion date of
                         September 30, 2006. Additionally, the Office
                         of General Counsel informed the OIG that 12
                         months is the average length of time needed to
                         get a final rule published. After further
                         consideration, on October 7, 2005, the Office of
                         Housing agreed to initiate notice and comment
                         rulemaking and publish a final rule with a
                         target date of December 31, 2006.




                                                                                          Tables


Tables                                                                                    171
                                              Table B
         Significant Audit Reports Described in Previous Semiannual Reports in Which Final
                      Action Had Not Been Completed as of September 30, 2005
      Report                  Report Title              Issue      Decision      Final
      Number                                            Date       Date          Action

      1997-CH-1010     Major Mortgage Corporation,    09/17/1997 01/06/1998 Note 2
      2000-FO-0002     Federal Housing Administration, 02/29/2000 08/09/2000 12/31/2005
                       Audit of FY 1999 Financial
                       Statements
      2000-KC-0002     Housing Subsidy Payments       09/29/2000 02/21/2001 12/31/2006
      2001-FO-0002     Federal Housing Administration, 03/01/2001 07/24/2001 12/21/2006
                       Audit of Fiscal Year 2000
                       Financial Statements
      2001-FO-0003     Audit of HUD Fiscal Year 2000 03/01/2001 07/18/2001 12/31/2006
                       Financial Statements
      2001-CH-1007     Detroit, MI, Housing        05/16/2001 09/13/2001 06/30/2011
                       Commission, Hope VI Program
      2001-AT-0001     Nationwide Audit Results on   06/29/2001 01/29/2002 02/15/2006
                       the Officer/Teacher Next Door
                       Program
      2002-SF-0001     Nonprofit Participation, HUD   11/05/2001 08/30/2002 10/15/2006
                       Single Family Program
      2002-FO-0002     Federal Housing Administration, 02/22/2002 05/30/2002 12/31/2006
                       Audit of FY 2001 and 2000
                       Financial Statements
      2002-FO-0003     HUD, Audit of Fiscal Years     02/27/2002 08/16/2002 Note 1
                       2001 and 2000 Financial
                       Statements
      2002-PH-1001     Williamsport, PA, Community    03/19/2002 08/27/2002 11/15/2005
                       Development Block Grant and
                       Home Investment Partnership
                       Programs
      2002-BO-1003     Newport, RI, Resident          04/30/2002 09/16/2002 01/15/2008
                       Council, Inc.
      2002-AT-1002     City of Tupelo, MS, Housing    07/03/2002 10/31/2002 04/30/2010
                       Authority Housing Programs
Tables




                       Operations




     Tables                                                                               172
 Report                Report Title                Issue      Decision      Final
 Number                                            Date       Date          Action

 2002-KC-0002   Nationwide Survey of HUD’s       07/31/2002 11/22/2002 06/30/2006
                Office of Housing Section 232
                Nursing Home Program
 2002-FW-1002   Houma, LA, Housing Authority,09/18/2002       01/16/2003 04/15/2006
                Low Rent Housing Program,
                Cash & Procurement Controls
 2002-NY-1005   The Legal Aid Society,           09/23/2002 03/31/2003 Note 1
                New York, NY, Outreach and
                Training Assistance Grant and
                Public Entity Grant
 2002-FW-1003   New Mexico Public Interest       09/30/2002 03/31/2003 Note 1
                Education Fund, Albuquerque,
                NM, Outreach and Training
                Assistance Grant and Public
                Entity Grant
 2002-PH-1003   Delaware Housing Coalition,      09/30/2002   03/31/2003 Note 1
                Outreach and Training
                Assistance and Intermediary
                Training Assistance Grant,
                Dover, DE
 2002-PH-1004   Tenants’ Action Group of       09/30/2002     03/31/2003 Note 1
                Philadelphia, PA, Outreach and
                Training Assistance Grant
 2002-PH-1006   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003 Note 1
                Baltimore, MD, Outreach and
                Training Assistance Grant
                Number FFOT0020MD
 2002-PH-1007   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003 Note 1
                Baltimore, MD, Outreach and
                Training Assistance Grant
                Number FFOT98012MD
 2002-SF-1006   Legal Aid Society of Honolulu,   09/30/2002   03/31/2003 Note 1
                HI, Outreach and Training
                Assistance Grant
 2003-SE-1001   Community Alliance of Tenants 10/31/2002       03/31/2003 Note 1
                Outreach and Training
                Assistance and Intermediary
                                                                                     Tables

                Training Assistance Grants,
                Portland, OR




Tables                                                                               173
      Report                Report Title                 Issue     Decision      Final
      Number                                             Date      Date          Action

      2003-SE-1002   Tenants Union, Seattle, WA,   12/02/2002 03/31/2003      Note 1
                     Outreach and Training Assistance
                     Grant and Intermediary Training
                     Assistance Grant
      2003-FO-0002   Federal Housing Administration 01/21/2003 05/22/2003     12/31/2006
                     Audit of Fiscal Year 2002 and
                     2001 Financial Statements
      2003-FO-0004   Audit of HUD’s Financial         01/31/2003 05/22/2003   10/31/2005
                     Statements Fiscal Years 2002
                     and 2001
      2003-FW-1001 Housing Authority of the City 02/21/2003 06/20/2003        04/15/2006
                   of Morgan City, LA, Low-Rent
                   Program
      2003-KC-1803   Richmond Terrace Retirement 03/24/2003 06/19/2003 10/01/2005
                     Center, Richmond Heights, MO
      2003-NY-1003   Empire State Development      03/25/2003 07/16/2003 12/31/2005
                     Corporation, New York, NY,
                     CDBG Disaster Assistance Funds
      2003-CH-1014 Coshocton, OH, Metropolitan        03/28/2003 07/28/2003 04/30/2047
                   Housing Authority, Public
                   Housing Program
      2003-DE-0001   HUD Office of Multifamily        03/31/2003 03/31/2003 Note 1
                     Housing Assistance
                     Restructuring’s Oversight of
                     the Sec 514 Program Activities
      2003-CH-0001 HUD’s Oversight of                 05/07/2003 09/11/2003 Note 2
                   Empowerment Zone Program
      2003-BO-1003   City Of Bridgeport, CT, Home 05/16/2003 09/16/2003 10/31/2005
                     Investment Partnership Program
      2003-CH-1017 Housing Continuum, Inc.,           06/13/2003 10/10/2003 Note 2
                   Homebuyers Assistance
                   Program, Geneva, IL
      2003-KC-0001   Survey of HUD’s                  06/24/2003 07/10/2003 Note 2
                     Administration of Section 3
                     of the HUD Act of 1968
Tables




      2003-AO-0002 HUD Training Academy                07/15/2003 10/24/2003 Note 2
      2003-CH-1018   Chicago, IL, Housing           07/18/2003 01/14/2004      12/31/2005
                     Authority, Outsourced Property
                     Management Contracts Review


     Tables                                                                               174
 Report                 Report Title            Issue        Decision      Final
 Number                                         Date         Date          Action

 2003-NY-1005   Empire State Development       09/30/2003 01/28/2004     03/31/2007
                Corporation, New York, NY,
                CDBG Disaster Assistance Funds
 2004-KC-1001   East Meyer Community          11/24/2003 03/29/2004      11/30/2005
                Association, Use of HUD Grant
                Funds, Kansas City, MO
 2004-CH-1001   Kankakee, IL, County Housing 11/26/2003    03/24/2004    12/31/2005
                Authority, Section 8 Housing
                Program
 2004-CH-1002   Waukesha County CDBG and 11/26/2003        04/29/2004    Note 2
                HOME Investment Partnership
                Programs, Waukesha, WI
 2004-PH-0001   Procedures for Filing Uniform 11/26/2003   04/14/2004    04/15/2007
                Commercial Code Continuation
                Statements
 2004-DP-0001   Fiscal Year 2003 Review of   12/01/2003    05/28/2004    03/31/2006
                Information Systems Controls
                in Support of the Financial
                Statements Audit
 2004-BO-1004   Danbury, CT, Housing        12/05/2003     04/05/2004    12/01/2008
                Authority, Capital Fund
                Program
 2004-FO-0003   HUD Audit of Fiscal Year    12/19/2003     07/20/2004    11/30/2005
                2003 and 2002 Financial
                Financial Statements
 2004-AT-0001   Public Housing Authority    01/13/2004     05/20/2004    05/13/2006
                Development Activities
 2004-AT-1001   Housing Authority of        01/15/2004     05/14/2004    12/31/2006
                the City of Cuthbert, GA,
                Administration of Housing
                Development Activities
 2004-AO-0001   Award and Administration of 02/06/2004 06/30/2004         Note 2
                Lead-Based Paint Hazard
                Reduction Grants
 2004-DP-1002   Application Control Review of 02/25/2004   07/14/2004    10/15/2006
                the Tenant Rental Assistance
                                                                                      Tables

                Certification System
 2004-FW-1002   Jester Trails Apartment,     02/26/2004     05/18/2004    Note 2
                Multifamily Project,
                Houston, TX

Tables                                                                              175
      Report                 Report Title             Issue       Decision     Final
      Number                                          Date        Date         Action

      2004-FW-1003   City of New Orleans, LA,      03/15/2004     09/07/2004 04/15/2006
                     Section 108 Loan Program,
                     Jazzland Theme Park
      2004-NY-1001 Empire State Development       03/25/2004      06/30/2004   Note 2
                   Corporation, CDBG Disaster
                   Assistance Funds, New York, NY
      2004-AT-1006 Puerto Rico Public Housing      04/22/2004     07/12/2004 07/31/2006
                   Administration, San Juan, PR
      2004-SE-1004   Seattle, WA, Housing Authority, 05/21/2004   09/20/2004 12/31/2005
                     Moving to Work Demonstration
                     Program
      2004-PH-1007 City of McKeesport, PA,    05/28/2004          09/24/2004 03/31/2009
                   CommunityDevelopment Block
                   Grant Program
      2004-FW-0001 Management Controls over     06/18/2004        10/14/2004 10/27/2005
                   Grantee and Subgrantee
                   Capacity, Community Planning
                   and Development, Washington, DC
      2004-DE-1003 Housing Authority of the City  06/22/2004      10/20/2004 10/31/2005
                   of Greeley, CO, and Weld County
                   Housing Authority Tenant Selection
                   and Continued Occupancy Activities
      2004-PH-1009 First Funding, Incorporated,    06/29/2004     10/25/2004 10/31/2005
                   Nonsupervised Loan
                   Correspondent, Largo, MD
      2004-LA-1005 Guild Mortgage Company DBA, 07/09/2004         11/06/2004 12/31/2005
                   Residential Mortgage Bankers,
                   San Diego, CA
      2004-AT-0002 Effectiveness of the            07/12/2004     12/13/2004 12/31/2005
                   Departmental Enforcement
                   Center
      2004-KC-1003 Wells Fargo Home Mortgage,      07/16/2004     03/25/2005 01/31/2006
                   Nonsupervised Direct
                   Endorsement Lender,
                   Des Moines, IA
      2004-AT-1011 Opelika, AL, Housing Authority, 07/23/2004     07/23/2004 10/31/2005
Tables




                   Public Housing Programs




     Tables                                                                             176
 Report                 Report Title             Issue      Decision    Final
 Number                                          Date       Date        Action

 2004-KC-1004 Gershman Investment             07/28/2004   11/12/2004 11/30/2005
              Corporation, Nonsupervised
              Direct Endorsement Lender,
              Clayton, MO
 2004-AT-1012 Housing Authority of the City   08/02/2004   11/29/2004 12/31/2020
              of Durham, NC
 2004-PH-1010 Lambeth Apartments, Section    08/04/2004    10/02/2004 06/30/2006
              236/Section 8, Multifamily
              Housing Review, Pittsburgh, PA
 2004-CH-1803 Somerset Point Nursing Home,    08/09/2004   08/09/2004 06/29/2006
              Multifamily Equity Skimming,
              Shaker Heights, OH
 2004-KC-1005 The City’s Housing Program   08/11/2004      08/17/2004 10/31/2005
              and the Role of the Housing
              Economic Development Finance
              Agency, Kansas City, MO
 2004-AT-1013 Housing Authority of the City   08/19/2004   12/15/2004 02/28/2006
              of Lakeland, FL
 2004-SE-1006   Apreva, Inc., Nonsupervised   08/19/2004   01/11/2005 10/31/2006
                Mortgagee, Bellevue, WA
 2004-CH-1008 Cornerstone Mortgage Group,     09/10/2004   01/05/2005 01/31/2006
              Limited Nonsupervised Loan
              Correspondent, Inverness, IL
 2004-PH-1012 Mortgage America Bankers, LLC, 09/10/2004    01/06/2005 09/30/2006
              Nonsupervised Loan
              Correspondent, Kensington, MD
 2004-FW-1008 United Properties Management, 09/14/2004     01/13/2005 11/30/2005
              Inc., Multifamily Management
              Agent, Little Rock, AR
 2004-NY-1004 Lower Manhattan Development 09/15/2004       01/12/2005 12/31/2005
              Corporation, Community
              Development Block Grant Disaster
              Assistance Funds, New York, NY
 2004-FW-1009 Mays Property Management, Inc., 09/17/2004   02/23/2005 10/14/2005
              Multifamily Management Agent,
              Little Rock, AR
                                                                                   Tables

 2004-LA-1007 Housing Authority of Maricopa   09/22/2004   01/14/2005 01/20/2006
              County, Phoenix, AZ




Tables                                                                           177
      Report                 Report Title              Issue       Decision     Final
      Number                                           Date        Date         Action

      2004-CH-1009 Decatur Mortgage Company,       09/23/2004      02/24/2005 12/09/2005
                   LLC, Nonsupervised Loan
                   Correspondent, Indianapolis, IN
      2004-LA-1008 United States Veterans Initiative, 09/27/2004   03/31/2005 01/04/2006
                   Inc., Inglewood, CA
      2004-NY-1005 Jersey City, NJ, Housing         09/27/2004     12/17/2004 12/12/2005
                   Authority, Section 8 Contract
                   Administrator
      2004-DE-1004 New Freedom Mortgage              09/29/2004    01/28/2005 06/30/2006
                   Corporation, Single Family Direct
                   Endorsement Mortgagee, Salt Lake
                   City, UT
      2004-FW-1010 Housing Authority of the City of 09/29/2004     12/17/2004 10/31/2005
                   Houston, TX, Housing Choice
                   Voucher Subsidy Standards
      2005-KC-1001 Karim Enterprises, DBA Prime     10/04/2004     12/22/2004 06/30/2006
                   Mortgage, St. Charles, MO
      2005-BO-1001 Waterbury, CT, Housing           10/31/2004     02/09/2005 10/31/2005
                   Authority, Selected Programs
      2005-PH-1001 The Lehigh County Housing        10/15/2004     12/22/2004 11/30/2005
                   Authority, Emmaus, PA
      2005-DP-0001 Fiscal Year 2004 Review of      10/19/2004      02/16/2005 03/31/2006
                   Information Systems Controls in
                   Support of the Financial
                   Statements Audit
      2005-SE-1001   Tulalip Tribes Housing         10/21/2004     02/02/2005 10/21/2005
                     Authority, Marysville, WA
      2005-AT-1001 The Housing Authority of the     11/01/2004     03/10/2005 12/31/2005
                   City of Carrollton, GA
      2005-FW-1801 Highland Meadows Apartments, 11/02/2004         02/24/2005 02/28/2006
                   Dallas, TX
      2005-LA-1801 The Carmichael, CA,              11/04/2004     01/27/2005 10/31/2005
                   Rehabilitation Center
      2005-FW-1001 City of New Orleans, LA, Section 11/05/2004     03/02/2005 04/15/2006
                   108 Program, Louisiana ArtWorks
Tables




      2005-AT-1002 The Housing Authority of the     11/15/2004     12/15/2004 11/15/2005
                   City of Charleston, SC




     Tables                                                                              178
 Report                  Report Title            Issue       Decision    Final
 Number                                          Date        Date        Action

 2005-FO-0002 Federal Housing Administration’s 11/15/2004   11/15/2004 12/31/2006
              Financial Statements for Fiscal
              Years 2003 and 2004
 2005-FO-0003 Additional Details to Supplement 11/15/2004   03/15/2005 12/31/2005
              Our Report on HUD’s Fiscal Year
              2004 Financial Statements
 2005-LA-1001 Housing Authority of the County 11/18/2004    05/06/2005 06/30/2008
              of San Joaquin, Stockton, CA
 2005-AT-1004 Housing Authority of the City   11/19/2004    03/15/2005 03/15/2015
              of Durham, NC
 2005-FW-1002 Domicile Property Management, 11/19/2004      01/18/2005 01/18/2006
              Inc., Multifamily Management
              Agent, San Antonio, TX
 2005-CH-1003 Royal Oak Township Housing      11/29/2004    03/29/2005 03/29/2006
              Commission, Public Housing
              Program, Ferndale, MI
 2005-PH-1002 The Huntington, WV, Housing     12/02/2004    03/30/2005 04/30/2006
              Authority
 2005-PH-1003 The Town of Clifton, VA, Single 12/21/2004    04/19/2005 04/17/2006
              Family Property Disposition
              Discount Sales Program
 2005-PH-1004 Corrective Action Verification  12/21/2004    04/20/2005 04/30/2007
              Review of the Housing Authority
              of Baltimore, MD, Section 8
              Certificate and Voucher Programs,
              Audit Report No. 2001-PH-1003
 2005-CH-1004 Lakewood Care Center,           12/22/2004    01/26/2005   Note 3
              Multifamily Equity Skimming,
              Milwaukee, WI
 2005-CH-1801 RVA Properties Inc.,            12/22/2004    12/26/2004 06/30/2006
              Multifamily Equity Skimming,
              Farmington Hills, MI
 2005-LA-1804 Canoga Care Center, Canoga      01/03/2005    09/26/2005 12/30/2005
              Park, CA
 2005-CH-1005 Wood Hills Assisted Living      01/12/2005    02/16/2005   Note 3
                                                                                  Tables

              Facility, Multifamily Equity
              Skimming, Kalamazoo, MI




Tables                                                                            179
      Report                 Report Title               Issue      Decision    Final
      Number                                            Date       Date        Action

      2005-LA-1805 Housing Authority of the City of 01/21/2005    04/05/2005 12/31/2005
                   Los Angeles, CA
      2005-NY-1802 Arlington Arms, Jersey City, NJ   01/21/2005   04/11/2005 11/04/2005
      2005-KC-1003 Leader Mortgage Company,          01/25/2005   04/08/2005 03/31/2006
                   Lenexa, KS
      2005-AT-1005 Pan American Financial            01/27/2005   05/17/2005 05/31/2006
                   Corporation, Nonsupervised
                   Direct Endorsement Lender,
                   Guaynabo, PR
      2005-FW-1004 American Property Financial,   01/28/2005      05/27/2005 05/31/2006
                   Nonsupervised Loan
                   Correspondent, San Antonio, TX
      2005-SE-1003   Oregon Housing and            02/09/2005     05/27/2005 05/01/2006
                     Community Services, Salem, OR
      2005-PH-1006 Mortgagee Review of the           02/16/2005   06/28/2005 07/31/2006
                   Peoples National Bank Branch
                   Office, Towson, MD
      2005-AT-1006 The Jefferson County Housing      02/24/2005   05/31/2005 04/23/2006
                   Authority, Birmingham, AL
      2005-FW-1005 New Orleans, LA, African-         02/25/2005   05/12/2005 04/15/2006
                   American Museum
      2005-DE-1002 Boulder County, CO, Housing       03/09/2005   06/29/2005 12/31/2010
                   Authority
      2005-PH-1007 Lehigh County Housing             03/09/2005   05/02/2005 04/30/2006
                   Authority, Emmaus, PA
      2005-LA-1002 Housing Authority of Maricopa     03/14/2005   07/11/2005 08/31/2007
                   County, Mixed Finance
                   Development Activities,
                   Phoenix, AZ
      2005-AT-1007 Interstate Financial Mortgage     03/15/2005   08/04/2005 07/31/2006
                   Group Corporation, Non-
                   supervised Direct Endorsement
                   Lender, Miami, FL
      2005-NY-1003 Lower Manhattan                  03/23/2005    07/19/2005   Note 2
                   Development Corporation,
                   Community Development Block
Tables




                   Grant Disaster Assistance Funds,
                   New York, NY




     Tables                                                                             180
 Report                  Report Title             Issue        Decision        Final
 Number                                           Date         Date            Action

2005-PH-1008 The Housing Authority of the   03/24/2005        07/13/2005 12/31/2006
             City of Pittsburgh, PA, Moving
             to Work Demonstration Program
2005-SE-1004    Wells Fargo Bank, NA, Fife, WA, 03/24/2005    08/22/2005 05/31/2006
                Branch, Supervised Mortgagee,
                Loan Underwriting
2005-AT-1008 Trust America Mortgage, Inc., 03/25/2005         07/25/2005 04/30/2006
             Nonsupervised Direct Endorsement
             Lender, Cape Coral, FL
2005-FW-1006 Housing Authority of the City of 03/25/2005      05/25/2005 02/28/2006
             Houston’s Contractor, Section 8
             Housing Assistance Payments,
             Houston, TX
2005-CH-1007 RBC Mortgage Company,            03/29/2005      05/25/2005 02/28/2006
             Nonsupervised Mortgagee,
             Houston, TX
2005-PH-1001 Criteria Governing Local         03/29/2005      07/27/2005 02/28/2006
             Government Participation in
             HUD’s Single Family Property
             Disposition Discount Sales Program



AUDITS EXCLUDED:                                NOTES:
27 audits under repayment plans                1 Management did not meet the
                                                 target date. Target date is over 1
                                                 year old.
30 audits under formal judicial review,        2 Management did not meet the
investigation, or legislative solution           target date. Target date is under
                                                 1 year old.
                                               3 No Management decision.                Tables


Tables                                                                                  181
                                                   Table C
                            Inspector General Issued Report with Questioned and
                                Unsupported Costs as of September 30, 2005
                                                          (Thousands)
      Reports                                        Number of               Questioned                 Unsupported
                                                     Audit Reports           Costs                      Costs

      A1       For which no management                      22                  28,204                      19,184
               decision had been made by the
               commencement of the reporting
               period
      A2       For which litigation, legislation,           16                  20,700                      8,794
               or investigation was pending at
               the commencement of the
               reporting period
      A3       For which additional costs were              -                   601                         190
               added to reports in beginning
               inventory
      A4       For which costs were added to                2                   260                         0
               noncost reports
      B1       Which were issued during the                 55                  75,235                      25,328
               reporting period
      B2       Which were reopened during the               0                   0                           0
               reporting period

                       Subtotals (A + B)                    95                  125,000                     53,496

      C        For which a management                       44 1                53,463                      28,491
               decision was made during the
               reporting period
               (1) Dollar value of disallowed costs
                     Due HUD                                25 2                15,101                      10,143
                     Due program participants               25                  37,676                      17,933
               (2) Dollar value of costs not                93                  686                         415
                   disallowed
      D        For which management decision                10                  18,568                      8,135
               had been made not to determine
               costs until completion of litigation,
               legislation, or investigation
      E        For which no management                      41                  52,969                      16,870
               decision had been made by                    <88>4               <52,560>4                   <16,867> 4
               the end of the reporting period

      1
          26 audit reports also contain recommendations with funds to be put to better use.
Tables




      2
          7 audit reports also contain recommendations with funds due program participants.
      3
          8 audit reports also contain recommendations with funds agreed to by management.
      4
          The figures in brackets represent data at the recommendation level as compared to the report level. See
           Explanations of Tables C and D.



     Tables                                                                                                              182
                                          Table D
            Inspector General Issued Report with Recommendations That Funds Be
                        Put to Better Use as of September 30, 2005
                                                     (Thousands)
 Reports                                                                Number of                  Dollar Value
                                                                        Audit Reports

 A1       For which no management decision had been                            20                              198,412
          made by the commencement of the reporting
          period
 A2       For which litigation, legislation, or investigation                  7                                17,438
          was pending at the commencement of the
          reporting period
 A3       For which additional costs were added to reports                     -                                  838
          in beginning inventory
 A4       For which costs were added to noncost reports                        1                                 4,200
 B1       Which were issued during the reporting period                        57                              227,894
 B2       Which were reopened during the reporting period                      0                                     0

                                        Subtotals (A + B)                      85                              448,782

 C        For which a management decision was made                             39 1                            249,185
          during the reporting period
          (1) Dollar value of recommendations that were
               agreed to by management
                    Due HUD                                                    22 2                             98,506
                    Due program participants                                   18                              147,705
          (2) Dollar value of recommendations that were                        93                                2,974
                not agreed to by management
 D        For which management decision had been made                          5                                15,102
          not to determine costs until completion of
          litigation, legislation, or investigation
 E        For which no management decision had been                            41                          184,495
          made by the end of the reporting period                              <45>4                     <182,223>4

 1
     26 audit reports also contain recommendations with questioned costs.
 2
     2 audit reports also contain recommendations with funds due program participants.
 3
     8 audit reports also contain recommendations with funds agreed to by management.
 4
     The figures in brackets represent data at the recommendation level as compared to the report level. See
     Explanations of Tables C and D.
                                                                                                                     Tables


Tables                                                                                                              183
              Explanations of Tables C and D
                  The Inspector General Act Amendments of 1988 require Inspectors General and
              agency heads to report cost data on management decisions and final actions on audit
              reports. The current method of reporting at the “report” level rather than at the individual
              audit “recommendation” level results in misleading reporting of cost data. Under the
              Act, an audit “report” does not have a management decision or final action until all
              questioned cost items or other recommendations have a management decision or final
              action. Under these circumstances, the use of the “report” based rather than the
              “recommendation” based method of reporting distorts the actual agency efforts to resolve
              and complete action on audit recommendations. For example, certain cost items or
              recommendations could have a management decision and repayment (final action) in a
              short period of time. Other cost items or nonmonetary recommendation issues in the
              same audit report may be more complex, requiring a longer period of time for
              management’s decision or final action. Although management may have taken timely
              action on all but one of many recommendations in an audit report, the current “all or
              nothing” reporting format does not recognize their efforts.

                  The closing inventory for items with no management decision on tables C and D
              (line E) reflects figures at the report level as well as the recommendation level.
Tables




     Tables                                                                                            184
HUD OIG Operations Telephone Listing
Office of Audit
Headquarters Office of Audit, Washington, DC   202-708-0364

Region 1, Boston, MA                           617-994-8380
       Hartford, CT                            860-240-4800

Region 2, New York, NY                         212-264-4174
      Albany, NY                               518-464-4200
      Buffalo, NY                              716-551-5755
      Newark, NJ                               973-622-7900

Region 3, Philadelphia, PA                     215-656-3401
      Baltimore, MD                            410-962-2520
      Pittsburgh, PA                           412-644-6372
      Richmond, VA                             804-771-2100

Region 4, Atlanta, GA                          404-331-3369
      Birmingham, AL                           205-731-2630




                                                              Operations Telephone Listing
      Miami, FL                                305-536-5387
      Greensboro, NC                           336-547-4001
      Jacksonville, FL                         904-232-1226
      Knoxville, TN                            865-545-4369
      San Juan, PR                             787-765-5202

Region 5, Chicago, IL                          312-353-6236
      Columbus, OH                             614-469-5737
      Detroit, MI                              313-226-6190

Region 6, Fort Worth, TX                       817-978-9309
      Houston, TX                              713-718-3199
      New Orleans, LA                          504-589-7267
      Oklahoma City, OK                        405-609-8606
      San Antonio, TX                          210-475-6895

Region 7, Kansas City, KS                      913-551-5870
      St. Louis, MO                            314-539-6339
      Denver, CO                               303-672-5452

Region 8, Los Angeles, CA                      213-894-8016
      Phoenix, AZ                              602-379-7250
      San Francisco, CA                        415-489-6400

Region 9, Seattle, WA                          206-220-5360


Tables                                                        185
                                Office of Investigation
                                Headquarters Office of Investigation, Washington, DC   202-708-0390

                                Region 1, Boston, MA                                   617-994-8450
                                      Manchester, NH                                   603-666-7988
                                      Meriden, CT                                      203-639-2810

                                Region 2, New York, NY                                 212-264-8062
                                      Buffalo, NY                                      716-551-5755
                                      Newark, NJ                                       973-622-7900

                                Region 3, Philadelphia, PA                             215-656-3410
                                      Baltimore, MD                                    410-962-4502
                                      Pittsburgh, PA                                   412-644-6598
                                      Richmond, VA                                     804-771-2100

                                Region 4, Atlanta, GA                                  404-331-3359
                                      Miami, FL                                        305-536-3087
                                      Greensboro, NC                                   336-547-4000
                                      Jacksonville, FL                                 904-232-1226
                                      Memphis, TN                                      901-544-0644
Operations Telephone Listing




                                      Nashville, TN                                    615-736-7000
                                      San Juan, PR                                     787-766-5868
                                      Tampa, FL                                        813-228-2026

                                Region 5, Chicago, IL                                  312-353-4196
                                      Cleveland, OH                                    216-522-4421
                                      Columbus, OH                                     614-469-6677
                                      Detroit, MI                                      313-226-6280
                                      Indianapolis, IN                                 317-226-5427
                                      Minneapolis-St. Paul, MN                         612-370-3106

                                Region 6, Arlington, TX                                817-652-6980
                                      Houston, TX                                      713-718-3197
                                      Little Rock, AR                                  501-324-5409
                                      New Orleans, LA                                  504-589-6847
                                      Oklahoma City, OK                                405-609-8601
                                      San Antonio, TX                                  210-475-6894

                                Region 7, Kansas City, KS                              913-551-5866
                                      St. Louis, MO                                    314-539-6559
                                      Denver, CO                                       303-672-5350
                                      Billings, MT                                     406-247-4080
                                      Salt Lake City, UT                               801-524-6090




                        HUD OIG Operations Telephone Listing                                     186
Region 9, Los Angeles, CA              213-894-0219
      San Francisco, CA                415-489-6683
      Phoenix, AZ                      602-379-7255
      Sacramento, CA                   916-498-5220
      Las Vegas, NV                    702-366-2144
      Seattle, WA                      206-220-5380




                                                      Operations Telephone Listing


HUD OIG Operations Telephone Listing                  187
 Report fraud, waste, and mismanagement
   in HUD programs and operations by:


Calling the OIG Hotline:     1-800-347-3735

Faxing the OIG Hotline:      202-708-4829

Sending written information to:
    Department of Housing and Urban Development
    Inspector General Hotline (GFI)
    451 7th Street, SW
    Washington, DC 20410

Emailing the OIG Hotline: hotline@hudoig.gov

Internet:
http://www.hud.gov/complaints/fraud_waste.cfm




       All information is confidential,
      and you may remain anonymous.
Semiannual Report to Congress
  Semiannual Report to Congress
  April 1, 2005 through September 30, 2005

  www.hud.gov/offices/oig




  No. 54    HUD-2005-15-OIG




  Office of Inspector General
